APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
August Term, 2018
Argued: March 8, 2019

Decided: November 7, 2019

Docket Nos. 17-1993-cv; 17-2107-cv; 17-2111-cv
_______________
THE STATE OF NEW YORK, THE CITY OF NEW YORK,
Plaintiffs-Appellees - Cross-Appellants,
– v. –
UNITED PARCEL SERVICE, INC.,
Defendant-Appellant - Cross-Appellee.
_______________
B e f o r e:
JACOBS and LYNCH, Circuit Judges, and
VILARDO, District Judge.*

_______________

*

Judge Lawrence J. Vilardo, of the United States District
Court for the Western District of New York, sitting by designation.

2a
In this civil action, filed in the United States District Court for the Southern District of New York (Forrest, J.), the State and City of New York charged UPS
with violating the Contraband Cigarette Trafficking
Act, 18 U.S.C. 2341 et seq., the Prevent All Cigarette
Trafficking Act, 15 U.S.C. 375 et seq., and New York
Public Health Law 1399-ll, as well as breaching its
settlement agreement (the “Assurance of Discontinuance”) with the New York State Attorney General. After a bench trial, the district court found that UPS had
violated its obligations under the Assurance of Discontinuance in a number of respects and also knowingly
transported contraband cigarettes from its shippercustomers on Native American reservations to consumers throughout the State and City in violation of
several statutes. The district court ordered UPS to
pay $9.4 million in unpaid cigarette taxes and $237.6
million in total penalties to the plaintiffs. UPS appeals from that judgment, arguing that the district
court erred in both its liability and damages rulings.
The State and City cross-appeal from aspects of the
damages rulings. We AFFIRM the district court’s liability rulings, MODIFY the damage and penalty
awards, and AFFIRM the judgment as modified.
Judge Jacobs concurs in part and dissents in part
in a separate opinion.
_____________

3a
STEVEN WU, Deputy Solicitor General, State of New
York, (Eric T. Schneiderman, Attorney General, State of New York, Barbara D. Underwood, Solicitor General, State of New York,
Eric Del Pozo, Assistant Solicitor General of
Counsel, State of New York, on the brief) for
Plaintiff-Appellee - Cross-Appellant State of
New York.
RICHARD DEARING, Chief, Appeals Division, Corporation Counsel, City of New York, (Zachary W.
Carter, Corporation Counsel, City of New York,
Claude S. Platton, Deputy Chief, Appeals Division, Corporation Counsel City of New York,
Jeremy W. Schneider, Senior Counsel, Appeals
Division of Counsel, Corporation Counsel, City
of New York, on the brief) for Plaintiff-Appellee
- Cross-Appellant City of New York.
MARK A. PERRY, Gibson, Dunn & Crutcher LLP, Washington, D.C., (Christopher J. Baum, Aidan Taft
Grano, Gibson, Dunn & Crutcher LLP, Washington, D.C., Caitlin J. Halligan, Gibson, Dunn
& Crutcher LLP, New York, NY, Deanne E.
Maynard, Morrison & Foerster, LLP, Washington, D.C., Paul T. Friedman, Morrison & Foerster, LLP, San Francisco, CA, on the brief) for
Defendant-Appellant - Cross-Appellee.
Barry S. Schaevitz, Beth G. Oliva, Oksana G. Wright,
Fox Rothschild LLP, New York, NY, for Amicus
Curiae Cigar Association of America, Inc.
Richard Pianka, ATA Litigation Center, Arlington,
VA, for Amicus Curiae American Trucking Associations, Inc.

4a
Kimo S. Peluso, Heather Yu Han, Sher Tremonte
LLP, New York, NY, for Amici Curiae Campaign for Tobacco-Free Kids, American Cancer
Society Cancer Action Network, American
Lung Association, New York State American
Academy of Pediatrics, Chapters 2 & 3, Public
Health Law Center at the Mitchell Hamline
School of Law, and Truth Initiative Foundation.
Nora Flum, Deputy Attorney General, California, Xavier Becerra, Attorney General, California, Karen Leaf, Senior Assistant Attorney General,
California, Samuel P. Siegel, Associate Deputy
Solicitor General, California, George Jepsen,
Attorney General of Connecticut, Russell A. Suzuki, Acting Attorney General of Hawai’i, Lisa
Madigan, Attorney General of Illinois, Curtis T.
Hill, Jr., Attorney General of Indiana, Thomas
J. Miller, Attorney General of Iowa, Brian E.
Frosh, Attorney General of Maryland, Maura
Healey, Attorney General of Massachusetts,
Bill Schuette, Attorney General of Michigan,
Gurbir S. Grewal, Attorney General of New
Jersey, Ellen F. Rosenblum, Attorney General
of Oregon, Josh Shapiro, Attorney General of
Pennsylvania, Alan Wilson, Attorney General
of South Carolina, Sean D. Reyes, Attorney
General of Utah, Thomas J. Donovan, Jr., Attorney General of Vermont, Mark R. Herring,
Attorney General of Virginia, Robert W. Ferguson, Attorney General of Washington, Peter K.
Michael, Attorney General of Wyoming, Karl A.
Racine, Attorney General of the District of Co-

5a
lumbia, Wanda Vázquez Garced, Attorney General of Puerto Rico, for Amici Curiae California,
Connecticut, Hawai’i, Illinois, Indiana, Iowa,
Maryland, Massachusetts, Michigan, New Jersey, Oregon, Pennsylvania, South Carolina,
Utah, Vermont, Virginia, Washington, Wyoming, the District of Columbia, and Puerto
Rico.
Leslie Rutledge, Arkansas Attorney General, Nicholas Bronni, Deputy Solicitor General, Arkansas, Jeff Landry, Attorney General of Louisiana, Elizabeth B. Murrill, Solicitor General, Arkansas, Patricia H. Wilton, Deputy Solicitor
General, Arkansas, for Amici Curiae Louisiana,
Arkansas, and Kentucky.
Jeffrey S. Bucholtz, King & Spalding LLP, Washington, D.C., Merritt E. McAlister, Val Leppert,
King & Spalding LLP, Atlanta, GA, Warren
Postman, U.S. Chamber Litigation Center,
Inc., Washington, D.C., for Amicus Curiae
Chamber of Commerce of the United States of
America.
Cory L. Andrews, Richard A. Samp, Washington Legal Foundation, Washington, D.C., for Amicus
Curiae Washington Legal Foundation.
_____________

6a
GERARD E. LYNCH, Circuit Judge:
In this civil action, filed in the United States District Court for the Southern District of New York
(Katherine B. Forrest, Judge), the State and City of
New York (collectively “plaintiffs”) charged UPS with
violating the Contraband Cigarette Trafficking Act
(“CCTA”), 18 U.S.C. 2341 et seq., the Prevent All Cigarette Trafficking Act (“PACT Act”), 15 U.S.C. 375 et
seq., and New York Public Health Law (“PHL”) 1399ll, as well as with breaching its settlement agreement
(the “Assurance of Discontinuance” or “AOD”) with
the New York State Attorney General (“NYAG”). After a bench trial, the district court found that UPS had
violated its obligations under the Assurance of Discontinuance in a number of respects, and knowingly
transported contraband cigarettes from its shippercustomers on Native American reservations to consumers throughout the State and City in violation of
several statutes. The district court ordered UPS to
pay $9.4 million in unpaid taxes and $237.6 million in
total penalties to the plaintiffs. UPS appeals from
that judgment, arguing that the district court erred in
both its liability and damages rulings; the plaintiffs
cross-appeal from aspects of the damages rulings. For
the reasons explained below we AFFIRM the district
court’s liability rulings, MODIFY the damage and
penalty awards, and AFFIRM the judgment as modified.

7a
TABLE OF CONTENTS
BACKGROUND ..................................................... 9a
I. Factual Background ................................... 9a
A. The State’s and City’s Cigarette
Taxation Regime ................................... 9a
B. Tax Evasion in the State and City ..... 11a
C. The NYAG’s First Investigation of
UPS ..................................................... 14a
D. The NYAG’s Second Investigation
of UPS ................................................. 16a
II. The Federal Regulatory Regime .............. 17a
A. The
Contraband
Cigarette
Trafficking Act .................................... 18a
B. The
Prevent
All
Cigarette
Trafficking Act .................................... 18a
III. Procedural History ................................... 21a
A. The Complaint Against UPS .............. 21a
B. Pre-Trial Motion Practice................... 23a
C. UPS’s Rule 26 Motion......................... 30a
D. The District Court’s Liability
Opinion................................................ 34a
E. The District Court’s Damages and
Penalties Opinion ............................... 42a
DISCUSSION ....................................................... 45a
I. Standard of Review .................................. 45a
II. The Liability Theories .............................. 46a

8a

A. UPS Did Not Honor the AOD and
is Therefore Subject to Liability
Under the PACT Act and PHL
§ 1399-ll............................................... 46a
B. UPS is Liable for Violations of the
AOD’s Audit Requirement. ................ 62a
C. UPS Violated the CCTA by
Knowingly Transporting More
Than
10,000
Unstamped
Cigarettes............................................ 68a
III. The Damages and Penalties Awards ....... 72a
A. The District Court Did Not Abuse
Its Discretion in Allowing the
Plaintiffs
to
Present
Their
Damages Case Nor Did It Clearly
Err in Making Factual Findings
Based on Record Evidence. ................ 73a
1.

The District Court Reasonably
Refused to Strike the Plaintiffs’
Entire Damages and Penalties
Case. .............................................. 73a

2.

The District Court’s Factual
Findings on Damages and
Penalties Were Supported by the
Evidence. ....................................... 76a
(i) Package Quantity ................... 77a
(ii) Package Contents ................... 79a

3.

The District Court Did Not Err
By Ordering the Parties to

9a
Submit Post-Trial Calculations
of Damages and Penalties............. 82a
B. The District Court Erred in
Awarding the Plaintiffs Only Half
of the Unpaid Taxes on Cigarettes
UPS Unlawfully Shipped. .................. 85a
C. The District Court Abused Its
Discretion in Awarding PerViolation Penalties Under Both
the PACT Act and PHL § 1399-ll. ...... 90a
CONCLUSION ..................................................... 99a
BACKGROUND
I.

Factual Background
A. The State’s and City’s Cigarette Taxation
Regime

The deleterious effects of cigarette smoking and
the associated public health costs are enormous. Tobacco use kills almost 30,000 people per year in New
York, exceeding the number of deaths caused by alcohol, motor vehicle accidents, firearms, and toxic
agents combined. Tobacco-related health care costs
New Yorkers $10.4 billion annually. Thus, like the
federal government, New York State (the “State”) and
New York City (the “City”) impose excise taxes on cigarettes in order to discourage cigarette smoking and
defray some of the health care costs it causes. Those
public policy goals, obviously, can be achieved only insofar as the taxes are actually paid.
The State first instituted an excise tax on cigarettes in 1939. N.Y. Tax Law § 471 (1939). The law

10a
requires a tax to be imposed on “all cigarettes possessed in the state by any person for sale” except when
the “state is without power to impose such tax.” Id.
The law presumes that all cigarettes possessed for
sale or use are taxable, unless an exemption applies.
See id.; 20 N.Y.C.R.R. § 76.1(a)(1).
Taxable cigarettes must bear a stamp evidencing
payment of the tax. N.Y. Tax Law § 471; N.Y.C. Admin. Code § 11–1302(g). New York’s Department of
Taxation and Finance (“DTF”) “precollects” the tax
from a limited number of state-licensed stamping
agents, who buy and affix tax stamps to each pack of
cigarettes, and incorporate the value of the tax into
the sale price of the cigarettes, thereby passing the tax
along to each subsequent purchaser in the distribution chain and, ultimately, to the consumer. See Tax
Law § 471(2); 20 N.Y.C.R.R. §§ 74.2–74.3; N.Y.C. Admin. Code § 11–1302(g)–(h); see also Oneida Nation of
N.Y. v. Cuomo, 645 F.3d 154, 158 (2d Cir. 2011) (discussing licensed stamping agents’ pivotal role in state
taxation scheme). Given this regulatory regime, it is
immediately apparent that the tax has not been paid
on cigarettes not bearing stamps (“unstamped cigarettes”).
Both the State’s and City’s excise taxes on cigarettes increased significantly in the 2000s. At nearly
all times relevant to this appeal, the State’s excise tax
was $4.35 per pack of cigarettes,1 see Tax Law

1

The tax was increased to $4.35 from $2.75 on July 1, 2010.
See N.Y. Tax Law § 471; 2010 Sess. Laws News of N.Y. Ch. 134
(A. 11515).

11a
§ 471(1); 20 N.Y.C.R.R. § 74.1(a)(2), and the City’s excise tax was $1.50 per pack, see N.Y.C. Admin. Code
§ 11–1302.2 The combination of State, City, and Federal cigarette taxes meant that by July 2010, the taxes
on a pack of cigarettes were $6.86 in New York City
and $5.36 in the rest of the State.
B. Tax Evasion in the State and City
The cigarette tax has always posed thorny issues
for the sale of cigarettes on Native American reservations. Federal law prohibits New York from imposing
taxes on the sale of cigarettes to tribal members on
their own reservation for personal use. See Moe v.
Confederated Salish & Kootenai Tribes of Flathead
Reservation, 425 U.S. 463, 475–81 (1976). New York
is permitted, however, to tax the sale of cigarettes
from reservation sellers to non-tribal members. See
Dep’t of Taxation & Fin. of N.Y. v. Milhelm Attea &
Bros., Inc., 512 U.S. 61, 64 (1994). In 2010, § 471(1)
was amended to state explicitly that “sales to qualified
Indians for their own use and consumption on their
nations’ or tribes’ qualified reservation” are exempt
from the State’s taxation scheme. However, it also
made explicit that the tax should be collected on “all
cigarettes sold on an Indian reservation to non-members of the Indian nation or tribe and to non-Indians.”
N.Y. Tax Law § 471(1).

2
Accordingly, for each carton of cigarettes (which typically
contains 10 packs of cigarettes), the State excise tax rate is
$43.50 per carton, and the City excise tax rate is $15.00 per carton.

12a
The sale of both taxable and tax-free cigarettes on
reservations has complicated the State’s ability to enforce the tax law and collect the taxes due.3 See
Oneida Nation, 645 F.3d at 158. Reservation sellers’
refusal to participate in the tax stamping system for
the collection of cigarette taxes has amplified the
problem. See id. at 159–161.
In the 1980s, New York State’s DTF determined
that the volume of untaxed cigarettes that reservation
retailers sold “would, if consumed exclusively by taximmune Indians, correspond to a consumption rate 20
times higher than that of the average New York resident.” Milhem Attea, 512 U.S. at 64–65. In other
words, either Native Americans were smoking an extraordinary number of cigarettes, or a substantial
number of non-Native American New Yorkers were
purchasing their cigarettes from reservation retailers
without paying the relevant taxes. See Oneida Nation, 645 F.3d at 158–59. DTF estimated that it was
losing approximately $65 million a year in tax evasion, in substantial part due to non-tribal members
purchasing unstamped cigarettes from reservation
sellers. Id. at 159. A more recent study concluded
that 60% of the cigarettes consumed in New York were

3
New York State’s DTF entered a public “forbearance” policy,
which was in effect from at least the mid-1990’s until February
2010, pursuant to which it did not enforce tax regulations governing on-reservation sales of cigarettes to non-Native Americans.

13a
subject to tax evasion, resulting in an estimated loss
of tax revenue exceeding $2 billion annually.4
In 2000, in response to this alarming level of sales
of unstamped cigarettes, New York’s Legislature enacted PHL § 1399-ll which effectively requires that all
cigarette sales in New York be made face-to-face. The
law was specifically targeted to combat the “shipment
of cigarettes sold via the internet or by telephone or
mail order to residents of this state.” Act of June 14,
2000, § 1, 2000 N.Y. Laws 2905, 2905. It imposes liability on both sellers of cigarettes and common carriers for shipping cigarettes in violation of the statute.
Specifically, the statute makes it illegal for cigarette sellers to ship cigarettes to any person in New
York—regardless of whether the excise taxes have
been paid—with exceptions for certain statutorily authorized recipients (specifically, licensed resellers or
government agents). See PHL § 1399-ll(1). The statute also makes it illegal for a common carrier “to
knowingly transport cigarettes to any person” in New
York who is not “reasonably believed by such carrier”
to be a statutorily authorized recipient. Id. at § 1399ll(2). “[I]f cigarettes are transported to a home or residence,” the law “presume[s]” the carrier’s knowledge
that the delivery was unauthorized. Id. Violation of
these provisions results in a civil penalty, imposed on
the shipper or carrier, of $5,000 for each violation or
$100 per pack of cigarettes shipped. Id. at § 1399-

4

RTI Int’l, 2014 Independent Evaluation Report of the New
York
Tobacco
Control
Program
25
(2014),
https://www.health.ny.gov/prevention/tobacco—control/docs/2014
independent—evaluation—report.pdf.

—

14a
ll(5). Both the NYAG and corporation counsel for political subdivisions of the state are authorized to bring
an action against a violator to recover civil penalties.
Id. at § 1399-ll(6).
C. The NYAG’s First Investigation of UPS
Faced with widespread resistence to the collection
of cigarette taxes by reservation cigarette sellers, the
State turned its attention to the common carriers who
delivered cigarettes for those sellers. In 2004, the
NYAG began investigating cigarette deliveries made
by UPS to residential customers, in violation of PHL
§ 1399-ll. The investigation concluded that UPS regularly delivered unstamped cigarettes to residential
customers in New York and that such deliveries originated principally from reservation sellers. Many of
those sellers advertised their cigarettes as “tax-free”
and accepted orders over the Internet or by telephone.
After some negotiation, the NYAG and UPS
agreed that in exchange for the NYAG’s refraining
from bringing a civil suit against UPS for its alleged
violations of PHL § 1399-ll, UPS would enter into a
settlement agreement in the form of an Assurance of
Discontinuance. The AOD was executed in October
2005 and became effective approximately one month
later. In the AOD, UPS agreed, inter alia, to comply
with PHL § 1399-ll and to adhere to its own internal
“Cigarette Policy,” which also prohibits the shipment
of cigarettes to consumers. The AOD also required
UPS to adhere to a detailed set of policies and procedures in furtherance of its compliance with PHL
§ 1399-ll. UPS agreed to do, among other things, the
following:

15a


Take measures to ensure that UPS’s drivers,
pre-loaders and other employees are “actively
looking” for “indications” that a package might
contain cigarettes and “alerting UPS management of such packages and attempting to intercept such packages,” S. App’x at 506 ¶ 35;



Develop and maintain a database of cigarette
shippers, compiled from those sellers identified by the NYAG, UPS’s own database (using
such words as “cigarette,” “smoke,” and “tobacco”), UPS’s knowledge of known cigarette
retailers, and Internet searches of cigarette
websites, S. App’x at 499–500 ¶¶ 21–22;



Terminate relationships with shippers that
unlawfully attempt to use UPS to ship cigarettes to unauthorized recipients and report
those shippers to the NYAG, S. App’x at 502
¶¶ 26–27;



Instruct drivers not to deliver packages containing cigarettes to unauthorized recipients,
S. App’x at 505–06 ¶¶ 34, 36;



Promulgate and publicize to customers selling
cigarettes a policy prohibiting cigarette shipments to unauthorized recipients, S. App’x at
500 ¶ 23; and



“[A]udit shippers where there is a reasonable
basis to believe that such shippers may be tendering Cigarettes for delivery to Individual
Consumers, in order to determine whether the
shippers are in fact doing so,” S. App’x at 501
¶ 24.

16a
The AOD also contains a penalty provision subjecting UPS to “a stipulated penalty of $1,000 for each
and every violation of [the AOD] . . . provided, however, that no penalty shall be imposed if (a) the violation involves the shipment of Cigarettes to an Individual Consumer outside the State of New York, or
(b) the violation involves the shipment of Cigarettes
to an Individual Consumer within the State of New
York, but UPS establishes to the reasonable satisfaction of the [NYAG] that UPS did not know and had no
reason to know that the shipment was a Prohibited
Shipment.” S. App’x at 508 ¶ 42. The AOD also explicitly states that the “rights and remedies in [the
AOD] are cumulative and in addition to any other
statutory or other rights that the [NYAG] may have
at law or equity, including but not limited to any
rights and remedies under PHL § 1399-ll.” S. App’x at
511 ¶ 51.
UPS also represented, through the AOD, that it
had informed approximately 400 shippers that had accounts with UPS that it would no longer accept packages containing cigarettes for delivery to unauthorized recipients in New York, that it had conducted an
unannounced audit of ten shippers, and that it had
begun providing formal training to its delivery drivers
regarding PHL § 1399-ll. S. App’x at 496 ¶¶ 11–13.
D. The NYAG’s Second Investigation of UPS
In 2011, after agents of the DTF seized packages
containing cigarettes from a UPS facility near Potsdam, New York, the NYAG conducted a second investigation into UPS’s shipment of unstamped cigarettes
from Native American reservations to individual consumers. As a result of that investigation, the NYAG

17a
notified UPS that it had breached the AOD with respect to packages it had delivered for shippers located
on reservations near Potsdam (the “Potsdam Shippers”). After a dialogue between the NYAG and UPS,
the NYAG eventually demanded that UPS pay a penalty for its violations of the AOD. UPS refused the
NYAG’s demand for penalties, but it did provide the
State with certain delivery information regarding the
Potsdam Shippers.
Approximately two years later, the New York City
Department of Finance (“City Finance”) served a subpoena on UPS seeking delivery records for a number
of other shippers located on reservations. City Finance also conducted a number of controlled buys of
unstamped cigarettes after the First Deputy Sheriff of
City Finance received an email from a store called
“Seneca Cigars” advertising untaxed cigarettes
shipped via UPS. The controlled buys were successful: City Finance received packages containing unstamped cigarettes which had been shipped via UPS.
Between the time UPS received the subpoena from
City Finance in July 2013 and February 2015 (when
this lawsuit was commenced) the parties engaged in a
number of communications, during which time the
plaintiffs provided UPS with, inter alia, a draft complaint. After negotiation between the parties broke
down, the plaintiffs filed this lawsuit.
II. The Federal Regulatory Regime
Unlawful cigarette sales have also attracted the
attention of the United States Congress. Two federal
laws, relevant here, regulate the sale and shipment of
cigarettes.

18a
A. The Contraband Cigarette Trafficking
Act
In 1978, Congress enacted the Contraband Cigarette Trafficking Act, which established criminal and
civil penalties for trafficking in untaxed cigarettes.
See 18 U.S.C. § 2341 et seq. The CCTA makes it illegal
“for any person knowingly to ship, transport, receive,
possess, sell, distribute, or purchase contraband cigarettes.” Id. at § 2342(a). The CCTA defines “contraband cigarettes” as “a quantity in excess of 10,000 cigarettes, which bear no evidence of the payment of applicable State or local cigarette taxes in the State or
locality where such cigarettes are found.” Id. at
§ 2341(2).5
The CCTA is enforceable by states, through their
attorneys general, as well as local governments,
through their chief law enforcement officers. See id.
at § 2346(b)(1). Such enforcers may seek “civil penalties, money damages, and injunctive or other equitable relief . . . in addition to any other remedies under
Federal, State, local, or other law.”
Id. at
§ 2346(b)(2)–(3).
B. The Prevent All Cigarette Trafficking Act
In 2010, Congress enacted the Prevent All Cigarette Trafficking Act, 15 U.S.C. 375 et seq., to: “require Internet and other remote sellers of cigarettes
and smokeless tobacco to comply with the same laws
that apply to law-abiding tobacco retailers; create

5

There are exceptions to this definition of “contraband cigarettes” that are not relevant here. See, e.g., 18 U.S.C. § 2341(2)
(requiring “contraband cigarettes” to also be in the possession of
non-exempt persons).

19a
strong disincentives to illegal smuggling of tobacco
products; provide government enforcement officials
with more effective enforcement tools to combat tobacco smuggling; make it more difficult for cigarette
and smokeless tobacco traffickers to engage in and
profit from their illegal activities; increase collections
of Federal, State, and local excise taxes on cigarettes
and smokeless tobacco; and prevent and reduce youth
access to inexpensive cigarettes and smokeless tobacco through illegal Internet or contraband sales.”
Pub. L. No. 111–154, §§ (1)(c)(1)–(6).
To achieve these ends, the PACT Act outright
bans the mailing of cigarettes through the United
States Postal Service (“USPS”).
See 18 U.S.C.
§ 1716E(a)(1). The PACT Act also requires cigarette
sellers who ship cigarettes to consumers to comply
with all applicable state and local tax requirements,
15 U.S.C. § 376a(a)(3); comply with strict registration,
reporting, and record-keeping duties, id. at
§§ 376a(a)(1)–(2), (c); and mark the outside of any
packages containing cigarettes with a conspicuous label indicating that the package contains cigarettes
and that federal law requires the payment of all applicable excise taxes, id. at § 376a(b). The PACT Act
also requires the U.S. Attorney General to create a
“Non-Compliant List” (“NCL”) of delivery sellers of
cigarettes, and to update and distribute that list on a
regular basis to USPS, state attorneys general, and
others. Id. at § 376a(e)(1).
As particularly relevant in this case, the PACT
Act also imposes restrictions on common carriers’
rights to transport cigarettes. The Act prohibits a
common carrier from delivering any package that does
not contain the required tobacco-disclosure label, if

20a
the carrier “knows or should know the package contains cigarettes.” Id. at § 376a(b)(2). The PACT Act
further prohibits common carriers from “knowingly
complet[ing] . . . a delivery of any package for any person whose name and address are on the [NCLs].” Id.
at § 376a(e)(2)(A).
Despite wide-sweeping regulations on the sale of
cigarettes, the PACT Act exempts certain common
carriers from its requirements. Pursuant to these exemptions, any requirements or restrictions placed directly on common carriers by the statute do not apply
to a common carrier that has entered into a qualifying
settlement agreement. UPS’s AOD, which is explicitly named in the statute, qualifies “if [it] is honored
throughout the United States to block illegal deliveries of cigarettes or smokeless tobacco to consumers.”
Id. at § 376a(e)(3)(B)(ii)(I). The statute specifically
enumerates two other qualifying settlement agreements with the NYAG, the Assurances of Discontinuance executed by DHL Holdings USA, Inc. (“DHL”),
and Federal Express Corporation (“FedEx”). See id.
Congress similarly afforded common carriers the
same exemption from enforcement of state statutory
bans on cigarette shipments to consumers, such as
PHL § 1399-ll, by providing that such state laws are
preempted as applied to common carriers that qualify
for PACT Act exemption. See id. at § 376a(e)(5)(C)(ii).
The PACT Act bars a state from enforcing such a delivery ban against a common carrier “without proof
that the common carrier is not exempt” from the
PACT Act. Id.
The PACT Act empowers states, through their attorneys general, and local governments, through their

21a
chief law enforcement officers, to bring suits against
violators. Id. at § 378(c)(1)(A). Common carriers who
violate the PACT Act are subject to a civil penalty of
“$2,500 in the case of a first violation, or $5,000 for
any violation within 1 year of a prior violation” id. at
§ 377(b)(1)(B), in addition to any criminal penalty and
“any other damages, equitable relief, or injunctive relief awarded by the court, including the payment of
any unpaid taxes to the appropriate Federal, State,
local, or tribal governments,” id. at § 377(b)(2).
III. Procedural History
A. The Complaint Against UPS
The State and City filed their first complaint
against UPS on February 18, 2015, and a first
amended complaint (“FAC”), on May 1, 2015. The
FAC alleged that despite entering the AOD, UPS continued to service numerous contraband cigarette enterprises operating out of smoke shops located on the
following Native American reservations within the
State: the Seneca Cattaraugus Reservation, the Seneca Allegany Reservation, the Tonawanda Reservation, and the St. Regis Mohawk Reservation. The
plaintiffs’ claims were directed specifically at UPS’s
conduct with regard to twenty-two entities (the “Relevant Shippers”), grouped as follows:


“Elliott Enterprise Group,” consisting of Elliott
Enterprise(s), Elliott Express (or “EExpress”),
and Bearclaw Unlimited/AFIA;



“Shipping Services Group,” consisting of Seneca Ojibwas Trading Post, Shipping Services,
and Morningstar Crafts & Gifts;



Indian Smokes;

22a


“Smokes & Spirits Group,” consisting of
Smokes & Spirits, Native Outlet, A.J.’s Cigar,
Sweet Seneca Smokes, and RJESS;



“Native Wholesale Supply Group,” consisting
of Native Wholesale Supply and Seneca Promotions;



“Arrowhawk Group,” consisting of Seneca Cigarettes/Cigars, Hillview Cigars, Two Pine Enterprises, and Arrowhawk Smoke Shop;



“Mohawk Spring Water Group” consisting of
Mohawk Spring Water and Action Race Parts;
and



Jacobs Manufacturing/Tobacco.

The plaintiffs alleged that UPS serviced the Relevant Shippers by delivering unstamped cigarettes
from their businesses to residences in the State and
City. The plaintiffs claimed that the records they had
obtained indicated that between January 2010 and
November 2014, UPS made over 78,000 deliveries to
residents throughout the State and City on behalf of
the Relevant Shippers. The complaint alleged that
UPS knew that these shipments contained unstamped cigarettes based on, inter alia, UPS’s prior
experience in connection with the NYAG’s investigation and the AOD; numerous court decisions regarding Native American reservation smoke shops’ noncompliance with the State’s cigarette tax regime;
widespread media reporting; UPS’s entering into tobacco delivery contracts with most or all of the reservation smoke shops for which UPS shipped and delivered cigarettes; UPS employees visiting, observing,
and picking up packages for reservation smoke shops;

23a
and UPS’s general practice of enmeshing itself deeply
in its customers’ businesses.
The FAC asserted fourteen causes of action seeking various forms of relief under the CCTA, the PACT
Act, PHL § 1399-ll, the AOD, and the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18
U.S.C. §§ 1961–68.6
B. Pre-Trial Motion Practice
On May 22, 2015, UPS filed a motion to dismiss
the FAC pursuant to Rule 12(b)(6). UPS raised several arguments in its motion, including that (1) all
claims must be dismissed for failure to plausibly allege that UPS delivered cigarettes or that UPS knew
that those deliveries contained cigarettes, (2) the
CCTA claims must be dismissed because the plaintiffs
did not allege that UPS engaged in any single transaction involving the shipment of more than 10,000 unstamped cigarettes, (3) the PACT Act claims must be
dismissed because UPS is exempt from suit based on
its AOD, and (4) the PHL § 1399-11 claims must be
dismissed because that statute is preempted by the
PACT Act.
The district court rejected several of UPS’s claims,
including UPS’s contention that the plaintiffs had not
adequately pled that UPS knowingly delivered unstamped cigarettes, and UPS’s argument that the
plaintiffs’ CCTA claims failed because the FAC did not
allege that UPS participated in any transaction in
which it shipped more than 10,000 unstamped cigarettes.
6

The district court awarded summary judgment to UPS on the
RICO claims. That ruling is not challenged on appeal.

24a
Lastly, the court addressed UPS’s contention that
the claims brought pursuant to the PACT Act and
PHL § 1399-ll were subject to dismissal because the
PACT Act exempts UPS from its requirements so long
as the AOD “is honored throughout the United States
to block illegal deliveries of cigarettes or smokeless tobacco to consumers.” 15 U.S.C. § 376a(e)(3)(B)(ii)(I).
In addressing whether the PACT Act and PHL § 1399ll claims against UPS should be dismissed, both parties’ briefing assumed that the “is honored” language
in the exemption provision refers to whether UPS has
complied with the terms of the AOD. UPS argued that
the plaintiffs had failed to adequately allege that UPS
was not entitled to the benefit of the exemption due to
violations of the AOD. On the other hand, the plaintiffs argued that by alleging that UPS had breached
the AOD by violating several of its provisions, they
had adequately alleged that UPS had not “honored
[the AOD] throughout the United States.”
On July 30, 2015, the district court held oral argument on the motion to dismiss; during that argument, the parties maintained the positions they had
taken in their briefs. Subsequently, on August 26,
2015, the court issued an order informing the parties
that it was considering a reading of the PACT Act’s
exemption provision that had not previously been advanced by either party. The court explained that, under its proposed alternative reading, the exemption
provision is a definitional provision that merely defines the types of settlement agreements that qualify
for exemption and does not purport to reach questions
of compliance or noncompliance with the obligations
assumed under any particular agreement. See New
York v. United Parcel Service, Inc., 179 F. Supp. 3d

25a
282, 291 (S.D.N.Y. 2016). Because the parties had not
addressed that statutory reading in their briefing or
at oral argument, the court invited the parties to submit supplemental briefing that did so.
The parties each filed supplemental briefs on September 9, 2015. UPS argued that the text and structure of the PACT Act compelled the interpretation
that the court was considering—that the exemption
provision was merely definitional. The plaintiffs’ supplemental brief continued to advocate for the reading
they had previously advanced—that UPS was entitled
to the exemption only if it had fully complied with the
requirements imposed on it by the AOD—and that the
allegations in their complaint were sufficient to vitiate the exemption.
On September 16, 2015, the district court issued a
decision dismissing the claims brought pursuant to
the PACT Act and PHL § 1399-ll, and denying UPS’s
motion as to the remaining claims. See New York v.
United Parcel Service, Inc., 131 F. Supp. 3d 132
(S.D.N.Y. 2015). The court’s dismissal of the PACT
Act and PHL § 1399-ll claims was premised on the interpretation of the exemption provision that the court
had advanced in its earlier order. The court understood the term “honored” in the exemption provision
to mean “recognized” and thus held that UPS would
be exempt from the PACT Act if the AOD had appropriate breadth such that all states in the country recognized the AOD. The court concluded that because
the FAC failed to allege that the AOD had not been
recognized by states nationwide, UPS’s exemption
from the PACT Act remained in place. Given that the
plaintiffs had failed to even allege that the AOD had
not been recognized nationwide, the court concluded

26a
that it “need not determine the precise procedure by
which a state must honor an agreement.” Id. at 142.
On October 21, 2015, the plaintiffs moved for
leave to file a second amended complaint (“SAC”),
seeking to add back the previously dismissed claims
brought under the PACT Act and PHL § 1399-ll. The
basis for the motion was that the plaintiffs had not
anticipated the court’s interpretation of the PACT
Act, and as a result had not previously had an opportunity to plead such claims in light of that interpretation. On November 23, 2015, the court granted the
plaintiffs’ motion and the plaintiffs filed the SAC on
November 30, 2015.
The SAC alleged that the AOD is not recognized
by all states in the nation. It noted several states that
have their own cigarette delivery ban statutes and do
not recognize the AOD. It also explained that under
the AOD, no state other than New York has any right
to enforce the AOD, nor any right to obtain a penalty
for an illegal cigarette delivery into that state. Further, the plaintiffs revived their compliance interpretation of the exemption provision, alleging that because UPS had not complied with the terms of the
AOD, the PACT Act’s exemption provision was inapplicable to the claims it had brought under the PACT
Act and PHL § 1399-ll.7
7

The plaintiffs later moved for leave to file a third amended
complaint (“TAC”), for the purpose of broadening their allegations of UPS’s misconduct. The plaintiffs claimed that discovery
had revealed that UPS had failed to conduct audits of customers
it had reason to believe were shipping cigarettes, failed to train
its workers to prevent cigarette trafficking, and failed to maintain internal databases of tobacco shippers, all of which violated

27a
On February 2, 2016, UPS moved for partial summary judgment on the PACT Act and PHL § 1399-ll
claims seeking to have them dismissed once again on
the ground that UPS is exempt from both statutes
since the AOD is recognized nationwide.
UPS
acknowledged that the plaintiffs had submitted declarations from assistant attorneys general in six states
who had asserted that they do not have the right to
enforce the AOD, and therefore would not utilize the
AOD to block deliveries of cigarettes to consumers.
However, UPS argued that the “states should be
deemed to ‘honor’ an agreement enumerated in the
Exemption Provision as long as the agreement is still
active nationwide.” UPS Memo of Law in Support of
its Motion for Partial Summary Judgment at 10, New
York v. UPS, 179 F. Supp. 3d 282 (S.D.N.Y. 2016) (No.
15 Civ. 1136 (KBF)), ECF No. 173. Put another way,
UPS explained, a state must honor an agreement if
“the parties to the agreement have not terminated the
agreement or otherwise rendered it inactive, and the
policies and practices memorialized in the agreement
are still maintained nationwide.” Id.
On the other hand, the plaintiffs contended that
the exemption provision did not exempt UPS when it
was enacted, but, instead, provided only for the possibility of future exemption upon all fifty states affirmatively assenting to the AOD, a condition that UPS
specific provisions of the AOD. The plaintiffs also claimed that
discovery had revealed that in addition to serving brick-and-mortar smoke shops on Indian reservations, UPS also handled accounts that had no physical retail location, but which UPS must
nevertheless have known were cigarette dealers. UPS consented
to the plaintiffs’ motion. The court granted leave and the plaintiffs filed the TAC on February 24, 2016.

28a
had never fulfilled. The plaintiffs argued that by
providing declarations of several state attorneys general and a representative of the National Association
of Attorneys General stating that they do not “formally acknowledge” or “accept” the AOD, they had established that the AOD is not honored nationwide,
and therefore UPS had lost its exemption from the
PACT Act.
The court issued its summary judgment decision
on April 19, 2016, at which time it took another look
at the exemption provision. United Parcel Service,
Inc., 179 F. Supp. 3d at 282. It explained that while
the phrase “‘is honored’ most plausibly means ‘is recognized,’” the passive language of the exemption provision is ambiguous as to whether it means “‘is honored [by states nationwide],’ or ‘is honored [by UPS
nationwide],’ or both.” Id. at 293 (alterations in original). Therefore, while the court had previously
granted in part UPS’s motion to dismiss concluding
that UPS is entitled to the exemption if the AOD was
“recognized” by all states in the nation, based on the
parties’ fuller arguments and the evidence that had
been developed, the court came to the conclusion that
“is honored” also requires that UPS itself give the
AOD nationwide breadth.
The court’s updated understanding was that the
exemption provision “does not require that a carrier’s
policies be 100% effective at preventing the shipment
of cigarettes to consumers,” but that “UPS may not retain the exemption simply by maintaining the requisite policies nationwide in name only.” Id. at 306 (emphasis in original). Thus, it concluded that “if [the]
plaintiffs could present evidence creating an inference

29a
that the effectiveness of UPS’s policies is so compromised that these policies are not in fact in place, that
would be sufficient to raise a genuine issue of fact for
trial.” Id.
After reviewing the factual materials submitted
by the parties, the court concluded that the plaintiffs’
evidence did “not support the inference that UPS’s
purported non-compliance [was] so severe that UPS
no longer ‘honor[ed]’ the AOD throughout the United
States as that term is used in [the exemption provision].” Id. But, since the court had changed its interpretation of the exemption provision, it allowed the
plaintiffs an opportunity to make an additional factual showing in an attempt to raise a genuine issue of
material fact. It explained that two types of evidence
would be relevant to a determination that UPS had
not honored the AOD: first, the plaintiffs could present evidence of a sufficiently large number of instances of shipments of contraband cigarettes to suggest that UPS had turned a blind eye toward such unlawful shipments; and second, the plaintiffs could present evidence showing that UPS policymakers had in
fact turned a blind eye to shipments of contraband cigarettes.
At a hearing held on June 7, 2016, the plaintiffs
made an oral presentation to the court that included
both types of relevant evidence. UPS responded with
its own presentation. By the end of the hearing the
court was convinced that there was a triable issue of
fact as to whether UPS had given nationwide effect to
the AOD. It noted that the plaintiffs had made a sufficient showing that UPS had, in large part, abandoned the AOD at least in New York.

30a
C. UPS’s Rule 26 Motion
While the parties were engaged in motion practice
over the PACT Act and PHL § 1399-ll claims, they
continued to have discovery disputes. On January 20,
2016, UPS submitted a letter motion to the court seeking to compel the plaintiffs to provide more complete
responses to certain interrogatories issued during discovery. On February 1, 2016, the court denied the motion as untimely, reasoning that UPS had failed to
raise any issue regarding plaintiffs’ interrogatory responses in either of the two discovery conferences held
by the court, nor had it spoken up in response to the
court’s April 3, 2015, scheduling order. At the second
conference, which took place on November 18, 2015,
the court expressly enumerated the outstanding discovery and other issues that remained to get the matter ready for trial, which did not include the issue UPS
raised in its letter motion. In denying the motion, the
court explained that “it was incumbent upon UPS to
raise any additional discovery issues that it had and
whether it sought to obtain further responses from
plaintiffs with respect to their interrogatory responses” at the second discovery conference, but that
instead, “UPS affirmatively stated that it was seeking
to move the case forward and noted that fact discovery
as to plaintiffs had expired on November 17, 2015.” S.
App’x at 30.
Nevertheless, the court recognized that UPS’s
concern about lacking information to prepare for trial
was important. It noted that given the particular parties in the case and the nature of the claims, UPS had
not had the opportunity to depose representatives of
the plaintiffs and ask about the factual bases for their
claims. The court therefore ordered the plaintiffs to

31a
provide UPS with information regarding the nature of
the plaintiffs’ expected proof for an exemplar shipper
group for which it expected to establish UPS’s liability. Specifically, the district court required the plaintiffs to provide UPS with the following information for
an exemplar shipper: exemplars of shipments alleged
to have contained cigarettes or the plaintiffs’ basis (if
circumstantial) as to what proof would be offered as to
this element, the facts and circumstances showing
UPS’s knowledge of the contents of shipments (or, if
circumstantial, a clear statement of circumstantial
facts), and a calculation of each plaintiff’s damages as
to the specific shipper.
The plaintiffs complied with that order in a disclosure dated March 3, 2016. This disclosure (the “Arrowhawk Letter”) provided detailed information for
the “Arrowhawk Group” of shippers. The Arrowhawk
Letter disclosed that the plaintiffs would use UPS’s
billing and delivery spreadsheets, produced by UPS
and identified by Bates number, to calculate how
many packages UPS shipped for the Arrowhawk
Group. Specifically, it listed six UPS account numbers associated with the Arrowhawk Group, and identified the specific UPS spreadsheets containing packages for those account numbers. It also explained that
it would prove that the shipments identified contained
cigarettes with, inter alia, testimony regarding the
nature of the Arrowhawk Enterprise as a cigarette
dealer and shipping invoices listing the contents of
packages shipped by UPS.
The Arrowhawk Letter also explained that the
plaintiffs would attempt to prove UPS’s knowledge of
the contents of packages shipped by the Arrowhawk
Group by presenting evidence of the following:

32a


“Pickup location was a warehouse next to a retail business named ‘Arrowhawk Smoke Shop’
that prominently displayed outdoor advertisements for cigarettes, and which had a visible
inventory that consisted almost exclusively of
large stacks of cigarette cartons;



UPS drivers purchased cigarettes and/or received cigarettes for free from employees of
the Arrowhawk Enterprise at both the smokeshop and the warehouse;



UPS drivers routinely observed the following
inside the warehouse:

•

–

Cases of cigarettes with visible printed
markings indicating their contents;

–

Cases of cigarettes cut in half and left open,
revealing clearly-marked cartons of cigarettes inside;

–

No inventory items other than these cases
and cartons of cigarettes;

–

Arrowhawk Enterprise employees visibly
opening cases and repackaging cigarette
cartons into other boxes for shipment by
UPS;

–

Custom-made boxes used for the UPS shipments, which were marked with ‘[x-y] carton’ indicating how many cigarette cartons
that size of box could hold;
UPS drivers returned packages to the warehouse that had been rejected by customers.
These packages contained cigarettes, and at
least some were partially open when returned;

33a
•

The totality of the circumstances, including
the volume of shipments, the location of the
pickups on an Indian reservation, and the
other shipping location descriptors, indicated
that the Arrowhawk Enterprise was a cigarette dealer, especially given the residential
addresses of the consignees and the pattern of
repeat shipments;

•

UPS has admitted that it knew that any cigarettes being shipped from Indian reservations
in New York would be untaxed contraband.”

J. App’x at 424.
Lastly, the Arrowhawk Letter set forth a chart indicating that the State and City would each seek damages and penalties for violations of the CCTA, RICO,
PACT Act, PHL § 1399-ll, and the AOD.8 The chart
indicated that the plaintiffs would seek to recover the
unpaid taxes on each carton of cigarettes UPS shipped
for the Arrowhawk Group under the CCTA and PACT
Act,9 per-violation penalties for each package and carton of cigarettes shipped under the PACT Act and
PHL § 1399-ll, respectively, and a $1,000 stipulated
penalty for each package that UPS had failed to audit
in accordance with the audit provision of the AOD. It
revealed that the plaintiffs sought more than $83 million in damages and penalties under the CCTA, PACT
8

The one exception was that the City was not seeking penalties under the AOD given that it was not a party to that agreement.
9

The Arrowhawk Letter explained that certain calculations
were contingent on issues that would be resolved later, such as
the weight of each package and the number of cigarette cartons
per package.

34a
Act, and PHL § 1399-ll, plus $8 million more under
the AOD, with respect to the Arrowhawk Group alone.
D. The District Court’s Liability Opinion
The case was tried to the bench on September 19–
29, 2016. The parties called thirty-eight witnesses
and submitted more than 1,000 documents into evidence. After receiving post-trial submissions and
hearing closing arguments, the district court issued a
219-page opinion constituting its findings of fact and
conclusions of law. See New York v. United Parcel Service, Inc., 253 F. Supp. 3d 583 (S.D.N.Y. 2017).
The trial evidence focused on twenty-two shippers
located on four Native American reservations in upstate New York. The court found that UPS knowingly
transported unstamped cigarettes for seventeen of the
shippers between 2010 and the date this lawsuit was
filed. The court also found that UPS failed to audit
those seventeen shippers plus three additional ones
(collectively the “Liability Shippers”), despite having
reasonable grounds to believe that each of them was
delivering cigarettes to unauthorized recipients, in violation of the AOD. In support of its findings, the
court recited “exemplar” facts in its decision that were
representative of the evidence introduced at trial.
The district court found UPS’s efforts to comply
with the AOD were “inadequate” and “fell woefully
short” between 2010, when the suit was filed, and
2013. Id. at 603.10 Despite UPS’s having had a “clear
10

The court found that in 2013, faced with the prospect of a
lawsuit, UPS increased its efforts to comply with the AOD.
UPS’s efforts in 2013 and 2014 were part of its “ramping up” process to get into compliance with the AOD, which was not

35a
awareness” when it signed the AOD that it had assumed a number of explicit obligations which required
affirmative efforts and vigilance to ensure compliance
with its terms, id., “UPS’s lack of commitment to true,
active AOD compliance pervaded its corporate culture,” id. at 604. Those in positions of responsibility
at UPS knew that, in many respects, “UPS was ‘flying
blind’ regarding whether Indian-reservation-based
customers were shipping cigarettes.” Id. The evidence showed UPS’s wholesale disregard of the AOD’s
terms and its brazen disregard for the spirit of the
agreement.
First, despite the AOD’s express mandate that
UPS train relevant personnel about its “Cigarette Policy” and various compliance measures, UPS delivered
“little actual training.” Id. at 607. The only training
that UPS provided to its personnel was a three-minute annual pre-work message on tobacco compliance.
Several employees did not recall the existence of the
training and others recalled its existence but not its
content. The court thus concluded that the little
training UPS did conduct was “inadequate to properly
train employees on UPS’s Tobacco Policy and was inadequate to train employees on AOD compliance
measures or on how to recognize signs that shippers
may have been tendering packages with cigarettes.”
Id. The testimony and evidence revealed to the court
that UPS’s training on tobacco issues was designed
merely to check the box, rather than to ensure that

achieved until the filing of the lawsuit on February 18, 2015.
Thus, while UPS had transformed itself in time to avoid the imposition of an injunction or independent monitor, it was too late
to avoid liability for its past conduct.

36a
employees would observe and report signs of cigarette
shipments.
Second, despite the AOD’s requirement that UPS
audit shippers whenever “there is a reasonable basis
to believe that such shipper may be tendering Cigarettes for delivery to Individual Consumers,” UPS implemented no formal audit policies for cigarette shippers and provided no audit training to its employees.
The court found that UPS’s audits were conducted far
too infrequently to comply with the AOD. The district
court reasoned that UPS knew that certain shippers
had names that included the word “tobacco,” “cigar,”
or “smokes,” indicating a certainty of tobacco shipments and a reasonable possibility of cigarette shipments; it knew that a number of others (without eponymous names) sold cigarettes, making shipments all
the more likely; it knew that certain reservation shippers refused to disclose what they were shipping; it
knew that others had opened multiple accounts or
that new accounts were opened at the same addresses
as ones recently terminated for cigarette shipments;
and, of course, all of this was against the backdrop
that those shippers were located on reservations that
had been associated with sales and shipments of unstamped cigarettes for years. Despite this knowledge,
the district court noted that UPS often failed to conduct audits until it was actually confronted with impermissible cigarette shipments in fortuitous ways,
such as when cigarettes fell “out of a broken box.” See
id. at 615.11

11

UPS pointed to 28 audits it conducted between 2011 and
2016, several of which were of the Relevant Shippers. But the

37a
Third, UPS failed to utilize information available
to it in various places that provided employees, at all
levels of its corporate structure, insight into the fact
that it was regularly shipping unstamped cigarettes.
For example, UPS received the NCLs created by the
United States Department of Justice pursuant to the
PACT Act, but inexplicably failed to use them to identify at-risk shippers; UPS ignored inquiries it received
from customers regarding lost or damaged packages
(so called “tracers”) which indicated that the customers were purchasing cigarettes from reservation
sellers; and UPS drivers and sales account personnel
who met with UPS’s customers saw signage on or near
the Liability Shippers’ storefronts advertising cigarette sales and indeed saw cigarettes on display racks
at the locations of the Liability Shippers.
Fourth, UPS took no action despite knowing that
certain of its customers were routinely shipping unstamped cigarettes. UPS account executives entered
details of meetings and communications with some of
the Liability Shippers into a UPS database, evidencing their knowledge that their customers were shipping cigarettes. Those same account executives were
responsible for obtaining a tobacco agreement (memorializing the seller’s notification of the prohibition
against cigarette deliveries to consumers) from each
of their customers who would be shipping tobacco but
frequently failed to do so in violation of the AOD’s express terms. UPS allowed its personnel to rely heavily

court noted that 26 of those audits were conducted between 2013
and 2016, at a time when UPS had already received a subpoena
and was aware of a likely impending lawsuit or had already been
sued.

38a
(and often exclusively) on what their shippers claimed
to be shipping even in the face of contrary evidence.
Fifth, the district court found that UPS viewed the
passage and implementation of the PACT Act as a
business opportunity. The court explained that “as
other couriers were required to terminate cigarette
shippers as a result of the PACT Act, UPS picked up
the business.” Id. at 618. It noted that the “evidence
supports an increase in shipments via UPS by the Relevant Shippers in the months immediately following
the effective date of the PACT Act.” Id. Account personnel and others at UPS knew that this surge was
due, at least in part, to capturing the business lost by
USPS. The court did “not buy” UPS’s contention that
it did not “put two and two together” to figure out that
the passage of the PACT Act is what led it to newfound business for customers located on Native American reservations. Id. at 605.
Given that UPS had violated “so many different
AOD obligations as to so many shippers,” the court
“easily” found, id. at 664, that UPS “persistent[ly]
fail[ed] to honor the AOD,” vitiating its PACT Act exemption, id. at 665.12 The court thus found UPS liable
for violations of the AOD, PACT Act, PHL, and the
CCTA. Specifically, the court found UPS liable for vi-

12

The court rejected UPS’s argument that because the plaintiffs had proven only violations of the AOD in New York, that it
could not be shown that the AOD was not honored “nationwide.”
The court held “it would be odd to find that an AOD was not honored in its home state (here, New York) due to flagrant and repeated violations, but that because the home-state Attorney General did not prove violations in other states, the AOD was nonetheless ‘honored’ nationally.” Id. at 664.

39a
olating the audit provision of the AOD, and it interpreted the audit provision to mean that UPS committed a new violation every time UPS shipped a package
on behalf of a Liability Shipper once it had a reasonable basis to believe such shipper was shipping cigarettes. It held UPS liable for violating the PACT Act
by knowingly delivering packages for five of the Liability Shippers that appeared on the NCLs. The court
also found that UPS was liable under PHL § 1399-ll
for knowingly delivering cigarettes, on behalf of seventeen of the Liability Shippers, to statutorily unauthorized recipients.
Lastly, the court found that UPS violated the
CCTA and explained that it would award the plaintiffs compensatory damages for lost tax revenues
equivalent to half of the amount of unpaid taxes on
the cigarettes that UPS shipped for the Liability Shippers. The court limited the compensatory damage
award to half of the state and local excise taxes that
went unpaid on UPS’s cigarette shipments on the reasoning that half of the purchasers would have managed to buy untaxed or lower-taxed cigarettes by some
other means, that is, that they would have been “diverted” away from reservation sellers and found other
ways to obtain untaxed cigarettes if UPS had complied with the law by declining those shipments.
The court then turned to “the complicated question of determining the appropriate penalties to be imposed for the violations of the AOD and the various
statutory schemes.” Id. at 695. Since the plaintiffs
sought per-violation penalties under the AOD, PACT
Act and PHL § 1399-ll, the court was required to make

40a
determinations about how many packages and cartons of cigarettes UPS actually shipped for each of the
Liability Shippers.
At trial, the plaintiffs had contended that the
number of packages UPS shipped for each of the Liability Shippers, which was necessary to calculate both
the AOD and PACT Act penalties, could be easily determined from UPS’s delivery spreadsheets: they
sorted the spreadsheets by the account numbers for
the Liability Shippers, removed duplications, and
added up the number of packages shipped.
UPS, for its part, argued that simply tallying the
packages for each Liability Shipper would capture certain categories of packages that should be excluded,
such as letter size envelopes, packages weighing less
than one pound (since a carton of cigarettes weighs
approximately one pound), and packages that UPS
shipped to the Liability Shipper rather than just ones
from the Liability Shippers. The court noted that because the spreadsheets are in Excel format and are
searchable, it would be straightforward to exclude
such categories from the package count.
The method by which the court calculated the
number of cigarette cartons UPS shipped for each Liability Shipper was slightly more complicated. At
trial, the plaintiffs understandably did not present direct evidence showing the exact number of cartons of
cigarettes contained in each of the packages that UPS
shipped for the Liability Shippers. That would have
been an impossible task. Rather, the plaintiffs presented sample evidence for each of the Liability Shippers, showing that the packages UPS shipped for such
shippers contained cigarettes. Using such evidence,

41a
the court itself calculated a reasonable approximation
as to the particular percentage of each Liability Shipper’s packages that contained cigarettes. For some of
the Liability Shippers that percentage was 100% and
for others it was as low as 27%. The court explained
that it would calculate the number of cartons of cigarettes that UPS shipped for each of the Liability Shippers by: taking the number of packages that UPS
shipped for each Liability Shipper, multiplying it by
the approximation of the percentage of packages for
each Liability Shipper that contained cigarettes, summing the weights of all such packages, and then dividing by one pound per carton of cigarettes.
Given the complexities in the per-violation penalty calculations, the court engaged the assistance of
the parties in actually completing the calculations, applying the relevant dates, definitions, and findings it
had provided. It ordered the parties to provide it with
certain information to help it assess the appropriate
quantum of penalties.13
13

UPS moved to strike the plaintiffs’ damages case because the
plaintiffs failed to provide it with a robust pretrial damage computation pursuant to Fed. R. Civ. P. 26 and failed to anticipate
evidentiary issues with the trial presentation of their damages
claim. The court found preclusion of the plaintiffs’ damages case
unwarranted for several reasons: (1) the Arrowhawk Letter complied with the court’s order and provided UPS with enough information regarding the nature of the plaintiffs’ proof, (2) the plaintiffs in fact used the type of evidence and testimony that they had
identified in the Arrowhawk Letter, (3) UPS had declined the
plaintiffs’ offer to provide it with a full damages and penalties
calculation for each shipper several weeks before trial, and (4)
UPS undoubtedly possessed the information to replicate the
same calculation in the Arrowhawk Letter for each shipper.

42a
E. The District Court’s Damages and Penalties Opinion
After the district court received the parties’ submissions, it issued an opinion and order on damages
and penalties. See New York v. United Parcel Service,
Inc., 15–cv–1136 (KBF), 2017 WL 2303525 (S.D.N.Y.
May 25, 2017). The court explained that the plaintiffs
had appropriately complied with the court’s order, but
that UPS had “refused to include a majority of the information requested by the Court,” providing package
counts with respect to only three of the Liability Shippers.14 Id. at *2. The court thus deemed UPS to have
waived arguments relating to the calculations submitted by the plaintiffs and the court calculated its determination of damages and penalties using the uncontested numbers of packages and cartons supplied by
the plaintiffs.

Importantly, the court noted that the damages and penalty
calculations were ultimately based on known data points: penalty ranges set forth in the AOD and statutory schemes at issue,
and compensatory damages based on the statutory tax rate imposed on a carton of cigarettes. The court rejected UPS’s argument that it was somehow prejudiced by the plaintiffs’ inadequate pre-trial disclosure, concluding that UPS’s complaints
“[rang] hollow” given that it had a detailed disclosure regarding
the Arrowhawk Group yet did not identify any rebuttal witnesses
or testimony. 253 F. Supp. 3d at 686. It viewed UPS as having
made deliberate tactical choices to position its preclusion argument.
14

The court explained that UPS’s submission “demonstrate[d]
a lack of cooperation and, frankly, odd abrasiveness” which was
“consistent with UPS’s lack of acceptance of responsibility for
their actions at issue in this case.” Id. at *2.

43a
The court believed that significant penalties were
appropriate and it explained the factors that it considered in assessing appropriate penalties. First, it cited
UPS’s level of culpability, including “[n]umerous separate acts by numerous UPS employees [that] allowed
vast quantities of unstamped cigarette shipments to
be delivered to unauthorized recipients in New York.”
Id. at *3. Second, it cited the harm to public health
caused by UPS’s conduct, noting, however, that it was
also the case that UPS, as the transporter rather than
manufacturer or seller of cigarettes, bears a lower
level of culpability for the impact on public health
than other entities. Third, the court explained that
UPS’s limited profits from the violations would suggest a relatively low penalty. Lastly, the court noted
that UPS could bear a hefty fine which would “capture
the attention of the highest executives in the company.” Id. at *4.
Finally, the court set out its damages and penalty
determination with respect to each statutory regime
and the AOD. With respect to the AOD, the court
awarded the State the $1,000 stipulated penalty for
every package that UPS shipped on behalf of a Liability Shipper, once it had a reasonable basis to believe
that such shipper was tendering cigarettes. The court
used the plaintiffs’ tally of the packages for each Liability Shipper (having applied the appropriate dates
from the liability opinion), to calculate penalties of
$80,468,000 due to the State under the AOD.
With respect to the PACT Act, the court calculated
the maximum per-violation penalties authorized by
the statute: $2,500 for the first violation and $5,000
per subsequent violation for every package UPS
shipped for the five Liability Shippers who were on

44a
the NCLs. Using the package counts provided by the
plaintiffs, the court concluded that imposing the maximum per-violation penalties would entitle the State
to $70,517,500 and the City to $86,182,500. Given the
“totality of the facts and circumstances” of the case,
however, the court awarded the plaintiffs only 50% of
the maximum available PACT Act penalties:
$35,258,750 to the State and $43,091,250 to the City.
Id. at *7.
With respect to PHL § 1399-ll, the court applied
the $5,000 per-violation penalty permitted by the statute to the number of cartons UPS had shipped for each
of the Liability Shippers. It calculated that the maximum penalty award under the statute was
$82,820,000 to the State and $74,690,000 to the City.
Again, however, considering the “totality of the facts
and circumstances” of the case, the court awarded the
plaintiffs 50% of the maximum available PHL § 1399ll penalties: $41,410,000 to the State and $37,345,000
to the City. Id. at *8.
Lastly, the district court awarded the plaintiffs
compensatory damages under the CCTA. The court
measured the compensatory damages “by plaintiffs’
lost tax revenue attributable to the number of
packs/cartons of cigarettes UPS knowingly shipped to
the Liability Shippers, using a 50% diversion rate.”
Id. at *9. Given the court’s findings on the number of
cartons of cigarettes UPS shipped for which no tax
was paid, it awarded compensatory damages for unpaid taxes of $8,679,729 to the State and $720,885 to
the City under the CCTA.15
15

The court also awarded the plaintiffs $1,000 each in nominal
penalties under the CCTA.

45a
The total award against UPS summed to
$246,975,614.
DISCUSSION
Both UPS and the plaintiffs appeal from the district court’s post-trial rulings. UPS urges us to overturn both the district court’s liability and damages
rulings. With respect to liability, UPS argues that the
district court erred in: (1) finding it non-exempt from
the PACT Act; (2) awarding the State penalties under
the AOD for violations of the audit obligation; and (3)
finding it liable for violations of the CCTA. With respect to damages, UPS argues that the district court
erred in: (1) awarding the plaintiffs damages and penalties based on the evidence presented, which it
claims should have been precluded; (2) awarding the
plaintiffs 50% rather than only 5.4% of the amount of
unpaid taxes on the cigarette cartons UPS transported in violation of the CCTA; and (3) imposing a
“gargantuan” penalty award upon it, Appellant’s Br.
at 41 & 77. The plaintiffs cross-appeal on the ground
that the district court erred in not awarding them the
full amount of unpaid taxes.
I.

Standard of Review

“In evaluating a challenge to a judgment entered
after a bench trial, we review the district court’s findings of fact for clear error and its legal conclusions de
novo.” Zalaski v. City of Hartford, 723 F.3d 382, 388
(2d Cir. 2013). Among the conclusions of law that we
review de novo are the court’s interpretations of the
statutes at issue and the AOD. See Olin Corp. v. Ins.
Co. of N. Am., 221 F.3d 307, 320 (2d Cir. 2000).

46a
We review the district court’s decision on whether
to preclude a party’s damages case and rulings on discovery sanctions for abuse of discretion. See Patterson
v. Balsamico, 440 F.3d 104, 120 (2d Cir. 2006); Funk
v. Belneftekhim, 861 F.3d 354, 365 (2d Cir. 2017). We
also review the district court’s assessment of damages
and penalties for abuse of discretion. See Advance
Pharmaceutical, Inc. v. United States, 391 F.3d 377,
398 (2d Cir. 2004).
II. The Liability Theories
We start with UPS’s several attacks on the district
court’s liability rulings: first, that it is exempt from
the PACT Act and PHL § 1399-ll because it “honored
[the AOD] throughout the United States;” second, that
the AOD’s penalty provision does not authorize penalties for violations of the audit obligation; and third,
that the plaintiffs failed to establish the threshold
quantity and scienter elements of the CCTA.
A. UPS Did Not Honor the AOD and is
Therefore Subject to Liability Under the
PACT Act and PHL § 1399-ll.
UPS contends that the district court erred by
holding it liable for violations of the PACT Act and
PHL § 1399-ll.16 It does not dispute that its conduct
would violate those statutes if they apply here—because UPS knowingly made deliveries for NCL shippers, in violation of the PACT Act, and because UPS
16

For the most part, in the interest of simplicity, we discuss the
question in terms of whether UPS is exempt from the provisions
of the PACT Act. Because the PACT Act preempts state laws
such as PHL § 1399-ll(2) only when the PACT Act exemption applies, UPS’s liability under both the PACT Act and PHL § 1399ll(2) turns on the applicability of the PACT Act exemption.

47a
knowingly shipped cigarettes to recipients not authorized to receive them, in violation of PHL § 1399-ll(2).
Rather, UPS asserts that it was error for the district
court to find it liable under those statutes because it
is exempt from the PACT Act, and PHL § 1399-ll is
therefore preempted.
The exemption provision of the PACT Act states
that UPS, FedEx, and DHL are exempt from the
PACT Act if their AODs are “honored throughout the
United States to block illegal deliveries of cigarettes.”
15 U.S.C. § 376a(e)(3)(B)(ii)(I). The district court interpreted that provision to mean that in order to avail
itself of the exemption, UPS was itself required to
honor the AOD throughout the United States. It concluded that UPS had not so honored the AOD, because
UPS had violated so many different AOD obligations
as to so many shippers, from the time the AOD became effective until the date the lawsuit was filed, and
because the widespread violations documented at trial
resulted from a general corporate culture of disregard
for the AOD and from the absence of UPS officials at
every level to take reasonable steps to ensure compliance. UPS argues that it was error for the district
court to take a compliance-based approach to determining whether the AOD was honored within the
meaning of the exemption provision.
In interpreting the exemption provision, we look
first to its plain language. See Nwozuzu v. Holder, 726
F.3d 323, 327 (2d Cir. 2013). The PACT Act provides
that the Act’s compliance obligations, as well as state
delivery bans such as PHL § 1399-ll, “shall not apply
to a common carrier that is subject to” one of various
agreements, including UPS’s AOD with the State. 15

48a
U.S.C. § 376a(e)(3)(A). However, that exemption applies only “if [the carrier’s agreement] is honored
throughout the United States to block illegal deliveries of cigarettes.” Id. at § 376a(e)(3)(B)(ii)(I). Thus, as
we have previously stated, UPS is exempt from the
PACT Act, and PHL § 1399-ll is preempted, to the extent that the AOD is “honored throughout the United
States to block illegal deliveries of cigarettes.”
The most natural reading of the plain language of
the exemption provision—and indeed, the reading initially adopted by both sides in litigating UPS’s original motion to dismiss the complaint—is that a party
“honors” an agreement by complying with it. The relevant dictionary definitions (that is, those that define
“honor” as it relates to contracts), expressly advise
that to “honor” a contract means to live up to its terms.
See MERRIAM WEBSTER’S COLLEGIATE DICTIONARY
(11th ed. 2008) (defining “honor” as “to live up to or
fulfill the terms of”); NEW OXFORD AMERICAN DICTIONARY (3d ed. 2015) (defining “honor” as “[f]ulfill (an obligation) or keep (an agreement)”).
That definition fully comports with ordinary usage. One does not “honor” a contract merely by agreeing to it in the first instance, or by acknowledging the
existence of a contractual duty. When one asks her
contractual counterparty whether, in light of some recent event, he still intends to “honor” their contract,
she is asking whether he intends to comply with his
obligations. When a customer asks a store clerk
whether she will “honor” the store’s return policy, he
is asking whether the store will comply with the terms
of its policy and process a refund for the returned
item. Similarly, contrary to the dissent’s suggestion,
Dissenting Op. at 6-7, a bank does not “honor” a check

49a
simply by verbally acknowledging the validity of the
obligation; a bank “honors” a check by actually paying
on it. See BLACK’S LAW DICTIONARY (11th ed. 2019)
(defining the verb “honor”: “[t]o accept or pay (a negotiable instrument) when presented.”). These definitions support the district court’s ultimate conclusion
that UPS could “honor” the AOD only insofar as it
“live[d] up to” or “fulfill[ed]” its obligations under the
agreement.
The context makes clear, moreover, that it is UPS
itself that must “honor” the AOD to obtain its exemption. Although the use of the passive voice does not
represent exemplary drafting, no other meaning
makes sense. The meaning suggested early in the litigation by the district court, that it is the 49 states
other than New York that must “honor” the AOD by
somehow “recognizing” the agreement is particularly
far-fetched, and indeed UPS conspicuously fails to advance that interpretation on appeal. That omission is
unsurprising. The district court itself abandoned this
proposed meaning, and both the evidentiary submission by the plaintiffs below and the amicus submission
on behalf of 18 states, the District of Columbia, and
Puerto Rico in this Court make clear that the AOD
was not adopted nationwide by state attorneys general or other law enforcement officials. Nor is there
any evidence in the record that any State ever announced its intention to accept UPS’s promises to New
York in the AOD as a substitute for any obligation
UPS would otherwise have under the PACT Act or
state law.
UPS and New York, as the only parties to the
AOD, are the only parties capable of “honoring” it.
Reading the exemption provision as a whole makes

50a
clear that, as between those parties, it is UPS that
must do the “honoring.” The party who must “honor”
the AOD must do so “throughout the United States to
block illegal deliveries of cigarettes.” That could be a
directive only to UPS. It would make no sense to require New York to “honor [the AOD] throughout the
United States to block illegal deliveries of cigarettes.”
The PACT Act was not a demand that New York become the cigarette-tax enforcer for the entire United
States. And indeed, the AOD itself makes clear that
New York could not fulfill such a role, since the AOD
does not permit the NYAG to seek penalties for acts
occurring outside of New York. See S. App’x at 508
¶ 42. Finally, since it is UPS that will benefit from
the exemption, it is logical to look to its actions to determine whether the exemption will apply, and conversely would be unfair to deprive UPS of the exemption because New York had somehow failed to “honor”
the agreement.
Thus, the most reasonable interpretation of the
exemption provision is that UPS’s exemption remained in place to the extent that UPS itself “lived up
to” or “fulfilled” its obligations under the AOD. We
agree with the district court that UPS’s wholesale
noncompliance with the AOD means that it did not
“honor” the AOD and therefore forfeited its exemption.
UPS makes no effort to argue that the district
court’s extensive factual findings on how little it did
to fulfill its obligations under the AOD, which are set
forth above in great detail, are clearly erroneous. Rather it attempts to deflect those findings by proposing
alternative explanations of the exemption provision.
First, it tells us that “honored throughout the United

51a
States” means that the agreement must have nationwide operation, and “[b]ecause it is undisputed that
UPS’s AOD has applied nationwide since its inception, the PACT Act exempts UPS from its reach and
preempts the PHL.” Appellant’s Br. at 28–29 (internal
citations omitted). Then it says it “is exempt from the
PACT Act if [its] obligations under the AOD are accepted as valid throughout the United States, even
though UPS contracted only with New York.” Appellant’s Br. at 31 (emphasis omitted).
Mimicking the exemption provision itself, UPS
avoids using active verbs and proper nouns in explaining the exemption provision. It says that it is exempt
because the AOD has “nationwide operation,” Appellant’s Br. at 37, but fails to acknowledge that for the
AOD to have actually “operat[ed]” nationwide UPS
would have needed to take measures to implement the
policies laid out in the AOD. Given the court’s extensive factual findings, we know that UPS did not in fact
do so.
UPS’s alternative formulation is equally vague. It
says that it is exempt if its obligations under the AOD
are “accepted as valid,” Appellant’s Br. at 31, but it
does not specify who—UPS or the 50 States and the
District of Columbia—must do the “accept[ing].” In
any event, UPS never clarifies what it would mean for
UPS or the States to have accepted the AOD as valid,
or point to any actual events reflecting such acceptance. The PACT Act does not require that UPS
make any formal commitment to Congress, the Attorney General of the United States (who is vested with
the authority to enforce the PACT Act), or States other
than New York. Nothing in the PACT Act requires
UPS to acknowledge the AOD’s enforceability outside

52a
of New York, or suggests that a mere announcement
on the part of UPS that it would adopt a companywide policy consistent with the AOD would qualify for
the exemption. Moreover, the record contains no documents or testimony evidencing a legally binding
commitment on the part of UPS to comply with the
terms of the AOD within even a single State other
than New York. And, again, the court’s findings foreclose a conclusion that UPS, through its conduct, accepted the AOD’s obligations as valid, since UPS extensively breached them.
Nor does the legislative history support any implication that Congress entered a grand bargain with
UPS that would trade an exemption from the PACT
Act for a commitment on the part of UPS to comply
with the AOD nationwide, coupled with some implied
congressional grant of authority to the States to enforce that commitment as third-party beneficiaries of
the deal. Rather, the House Report tells us that the
exemption was included because “[a]t the May 1, 2008
hearing on the bill, the Crime, Terrorism, and Homeland Security Subcommittee received testimony that
[the AODs with UPS, FedEx, and DHL] were effective
at stopping the illegal shipment of cigarettes to consumers.” H.R. Rep. No. 110–836, at 24 (2008). Thus,
Congress agreed to exempt UPS from the PACT Act
because UPS represented that the measures it was
taking to stop illegal cigarette trafficking were effective, not in exchange for a promise to open itself up to
AOD liability, enforced by the States, nationwide—let
alone for an unenforceable verbal representation that
ultimately proved unreliable. Nor is it clear that the

53a
States would regard themselves as “beneficiaries” of
any such deal.17
Further, nothing in the AOD itself purports to
bind UPS to obligations outside of New York. The
AOD expressly disclaims any right of New York to
seek penalties for violations outside of New York
State. S. App’x at 508 (“UPS shall pay to the State of
New York a stipulated penalty of $1,000 for each and
every violation . . . provided, however, that no penalty
shall be imposed if (a) the violation involves the shipment of Cigarettes to an Individual Consumer outside
the State of New York . . .”) (emphasis added). Indeed,
the AOD expressly states that it grants rights and
privileges only to the parties to the agreement. Id. at
511 (“This Assurance of Discontinuance shall not
grant any rights or privileges to any persons or entity
who is not a party to this Assurance of Discontinuance
. . . .”).
Thus, UPS’s argument boils down to a simple
proposition: that the mere existence of the AOD, and
UPS’s adoption of a cigarette policy, shield it from
17

UPS’s argument that Congress sub silentio granted every
state attorney general the authority to sue UPS under a contract
to which neither Congress nor the States are parties comes as a
surprise to at least 18 states, the District of Columbia, and
Puerto Rico. See Amicus Brief of California Amici at 14 (“But
New York is the only State that has an agreement of this kind
with UPS, and it is the only State that can file suit should UPS
breach it.”). And indeed, under our dissenting colleague’s view,
not only would other states be permitted to sue UPS under a contract they played no role in negotiating, but they would in fact be
required to sue only under that contract and not the PACT Act
once UPS has claimed in litigation that the AOD should apply
nationally. See Dissenting Op. at 11.

54a
other liability regardless of whether UPS takes any
steps to comply with them.18 But that is not a reasonable reading of the statute, nor could it be what Congress intended.

18

The dissent correctly points out that, under our interpretation, the same impermissible conduct by UPS gives rise to potential liability under three sources: the AOD, the PACT Act, and
the PHL. Dissenting Op. at 10. However, we disagree with the
dissent’s suggestion that our acceptance of multiple sources of
liability is inconsistent with our determination infra that the cumulative penalties imposed by the district court were excessive.
Id. As detailed in III.C, infra, the damages imposed on UPS were
excessive on the facts of this case; our interpretation of the PACT
Act is not undermined by the possibility that a common carrier
could face liability from multiple sources, particularly where the
relevant statutes and the AOD take different, albeit related, approaches to addressing the problem of cigarette trafficking. See,
e.g., 15 U.S.C. § 376a(e)(2)(A) (prohibiting common carriers from
delivering packages to persons whose names appear on the
NCLs); PHL § 1399-ll(2) (prohibiting common carriers from
transporting any cigarettes unless the recipient falls into one of
three statutory exceptions); S. App’x 499-500 ¶¶ 21-22 (requiring
UPS to develop and maintain an internal database of cigarette
shippers). Whether and to what degree those penalties should
be cumulated is a judgment to be made in the damage or penalty
phase of litigation, and not by allowing a wrongdoer to elect
which set of remedies it would prefer be imposed once it is sued.
There are many legal contexts in which multiple overlapping
sources of liability exist but a single punishment or measure of
damages is appropriate. For example, defendants may be convicted on multiple related charges without consecutive sentences
being appropriate. See Whalen v. United States, 445 U.S. 684,
692 (1980); see also 18 U.S.C. § 3584(b). In the civil context,
plaintiffs may successfully pursue theories of negligence and
breach of fiduciary duty but may not recover multiple damage
awards for the same losses. See Conway v. Icahn & Co., Inc., 16
F.3d 504, 511 (2d Cir. 1994). So here.

55a
As a textual matter, such a reading renders much
of the language in the exemption provision superfluous. The exemption in question applies if (1) a common carrier is “subject to” an AOD with New York, 15
U.S.C. § 376a(e)(3)(A)(I); and (2) the AOD “is honored
throughout the United States to block illegal deliveries to consumers,” id. at § 376a(e)(3)(B)(ii)(I). If Congress had intended the exemption to turn solely on the
AOD’s mere existence, then it would have included
just the first requirement, and exempted UPS from
the PACT Act if it is merely “subject to” the AOD.
UPS’s interpretation effectively treats the “honored”
requirement as surplusage. See Dunn v. CFTC, 519
U.S. 465, 472 (1997) (noting doctrine that statutes
should not be construed to render their provisions
mere surplusage); Mary Jo C. v. New York State and
Local Retirement Sys., 707 F.3d 144, 156 (2d Cir.
2013) (“One of the most basic interpretive canons is
that a statute should be construed so that effect is
given to all of its provisions, so that no part will be
inoperative or superfluous, void or insignificant.”) (internal quotations and alterations omitted).
Treating the AOD’s mere existence as an exemption from the PACT Act’s compliance obligations
would also thwart the statute’s goal of blocking cigarette trafficking nationwide. See PACT Act, Pub. L.
111–154, § 1(c)(4), 124 Stat. 1087, 1088. Since New
York is the only state with the power to enforce the
AOD, and lacks the power to seek penalties for violations in other states, UPS’s interpretation would enable it to deliver unlimited untaxed cigarettes in 49 of
the 50 States without a remedy under the AOD, the
PACT Act, or those States’ own laws. Congress could
not have intended its narrowly drawn exemption to

56a
give common carriers like UPS free rein to engage in
the very wrongdoing that the statute was meant to
prohibit.
The legislative purpose to block cigarette shipments illegal under state law, moreover, is not merely
derived from extra-statutory legislative history. It is
written into the language of the exemption provision
itself as a modifier of the word “honor” that defines its
meaning. Rather than leaving us to guess what
“honor” means, Congress specified that the exemption
applies only if the AOD is “honored throughout the
United States to block illegal deliveries of cigarettes . .
. to consumers.” Id. at § 376a(e)(3)(B)(ii)(I) (emphasis
added). Merely giving lip service to nationwide coverage of the AOD does nothing “to block deliveries.” Deliveries are blocked only if UPS complies with the
AOD. By specifying that the exemption applies if the
AOD is honored in such a way as to “block illegal deliveries of cigarettes . . . to consumers,” Congress
clearly signaled that “honoring” the agreement involves compliance.
UPS’s remaining objections to the standard applied by the district court in assessing whether UPS
“honored” the AOD are meritless.
First, UPS asserts that application of the PACT
Act’s exemption cannot turn on whether it has in fact
complied with the AOD, because such an inquiry
would be “rudderless.” Appellant’s Br. at 37. It is true
that the PACT Act does not define specifically how
widespread and persistent violations would have to be
to justify a conclusion that UPS was not “honoring”
the AOD nationwide. That does not mean, however,
that the courts are left without standards to apply.

57a
The district court here applied a reasonable test, combining the extent of the violations and the evidence of
corporate failure to take reasonable steps to assure
compliance, to determine that the AOD was not “honored throughout the United States.” Had a few UPS
employees in one or even a few places corruptly or negligently failed to comply with the AOD, it would be
perfectly reasonable to say that UPS had not “dishonored” the agreement. But when UPS as a corporation
makes no serious effort to train or police its employees
anywhere in the United States, it has failed to honor
the AOD, particularly if that failure also results in
widespread, flagrant non-compliance on the very
home turf of the AOD: in New York. Whatever ambiguities might exist at the margins about whether the
AOD may be “honored” in the face of intermittent or
unintentional violations, UPS’s flagrant and undisputed disregard of the AOD makes that question an
easy one here. See, e.g., Holder v. Humanitarian Law
Project, 561 U.S. 1, 20 (2010) (reaffirming that a party
“who engages in some conduct that is clearly proscribed cannot complain of the vagueness of the law
as applied to the conduct of others”) (quotation marks
omitted).19
19

We accordingly reject our dissenting colleague’s concern that
UPS could be subjected to cascading penalties by a few violations
of the AOD in “Rabbit County,” or that the application of the
PACT Act exemption turns on the complete success of its interdiction efforts. Dissenting Op. at 9. The district court determined that UPS was not honoring the AOD throughout the
United States based on evidence of a virtually complete disregard of its obligations in New York, and a “lack of commitment
to true, active AOD compliance [that] pervaded its corporate culture.” 253 F. Supp. 3d at 604. Complete success at interdicting

58a
Second, UPS objects that the district court’s construction of the exemption provision violates due process because a common carrier will know only in retrospect whether it has engaged in “enough” misconduct to forfeit the exemption and would never be able
to invoke the exemption successfully at any stage
prior to trial. That UPS cannot know, without being
subject to litigation, whether it is exempt from the
PACT Act is not of grave concern. The PACT Act exemption was granted with the expectation that the
AOD would be an effective substitute for the PACT
Act requirements. New York (or any other plaintiff)
can claim that the exemption is rendered inapplicable
only in the context of litigation (as here) in which it
charges widespread violations of the AOD. Thus, the
issue of whether UPS is exempt from the PACT Act
will arise only during litigation brought when a state’s
attorney general believes that the AOD has been flagrantly or frequently violated and that the exemption
therefore does not apply but the PACT Act does. In
other words, the PACT Act issue does not set UPS up
for litigation from which it should be exempt.20

the shipment of untaxed cigarettes is not required; good faith,
reasonably effective effort to comply with the AOD is. The AOD
is not honored by a flagrant and pervasive disregard for its provisions.
20

For that reason, we do not share Judge Jacobs’s concern
about the fact that our interpretation would require the exemption to be sorted out in litigation. See Dissenting Op. at 9. The
availability of a defense is often dependent on facts that cannot
be known until they are determined through litigation. The
PACT Act exemption is an exemption from liability, not from litigation; the exemption does not purport to grant immunity from
being sued. And even a defense, such as qualified immunity, that

59a
Third, UPS argues that the district court erased
the words “throughout the United States” from the exemption provision because it made no findings regarding UPS’s purported non-compliance in any jurisdiction other than New York. UPS is correct that
“throughout the United States” clearly means in all
States, not just New York. But the PACT Act grants
an exemption when UPS affirmatively honors the obligations of the AOD throughout the country; it does
not revoke an otherwise applicable exception only
when UPS dishonors the AOD everywhere in the
United States. We are not persuaded that UPS honored the agreement “throughout the United States”
when it took no, or only hopelessly ineffective, steps to
comply with the AOD in New York, and the record evidence shows that at least some of the breaches were
national in scope, thus establishing widespread
breaches of the agreement. See, e.g., J. App’x 658 (lack
of formal audit policy); J. App’x 640-41 (cursory training of drivers); J. App’x 811, 1331 (shipment of cigarettes across nation).
Our dissenting colleague adopts an interpretation
that has never been advanced by UPS itself, or by any
other party or amicus curiae. Judge Jacobs would
have us find that UPS “honors” the AOD once it confirms in any litigation that it intends to be bound by
the AOD across the nation. Dissenting Op. at 8. Prior

is an immunity from litigation has to be litigated: public officers
are called to court to account for their conduct and the legal
standard for immunity in many cases cannot be applied until the
facts can be established, at summary judgment or even at trial.
Like UPS, public officials often cannot know whether they are
immune from litigation until the issue has been litigated.

60a
to such confirmation, the exemption would be available as a discretionary shield against claims brought by
any of the other 49 states, which UPS may choose to
invoke, or not, based on tactical considerations in the
litigation. Dissenting Op. at 7-8.
As demonstrated above, nothing in the statutory
language, the legislative history, or sound policy suggests that the exemption should apply based on a
mere verbal commitment by UPS to comply with the
AOD throughout the country; moreover, the record
shows that at no time between the enactment of the
PACT Act in 2010 through the filing of this lawsuit in
2015 did UPS make any such verbal commitment.
The dissent nevertheless embraces the theory that a
verbal commitment to the AOD suffices and, in an attempt to avoid the embarrassing fact that UPS never
even made a public commitment prior to this lawsuit,
asserts that UPS was not required to do so until confronted with litigation charging that it violated the
PACT Act. Under the dissent’s approach, in such an
enforcement action UPS could make its own tactical
decision to disclaim the national application of the
AOD and compel a plaintiff state to proceed under
state law, or to embrace national application and compel the state to proceed under the AOD, depending on
which regime’s liability and penalty provisions were
more favorable to it. The dissent apparently would
then allow UPS to change its position in subsequent
litigation brought by a different state, and pledge future compliance nationally with the AOD, in order to
invoke its PACT Act exemption if the AOD scheme
were tactically preferable to UPS in that litigation.
Only from that point on would the dissent apply the

61a
principles of judicial estoppel to require UPS to comply with the AOD in other states and exempt UPS
from litigation under either the PACT Act or any state
laws relating to cigarette trafficking. Such an approach would leave UPS free to disregard the AOD
throughout the United States, yet retain its exemption from the PACT Act and the state regulations it
preempts, until it is caught violating its obligations
under one or the other regime – and even at that
point, to elect which set of rules and remedies would
apply. We cannot think of any other regulatory regime that applies in such a manner or provides such
tactical advantages to an entity that violates its obligations under federal and state statutes as well as a
settlement agreement to which it had freely agreed.21
We do not believe that Congress intended such an
anomalous result.
We conclude that as a matter of law, the clear
meaning of the exemption is that UPS is exempt only
if it in fact substantially complies with the AOD
throughout the country. We also conclude that the
district court’s well-supported specific findings regarding UPS’s failure, at a nation-wide corporate
level, to take reasonable steps to assure compliance
21

The dissent’s construction is also inconsistent with its own
expressed concern that our interpretation leaves the availability
of the exemption unknowable until a case is litigated. Dissenting
Op. at 9. Under the dissent’s view, whether UPS intends to comply with the AOD is not determined until it is sued for violating
state law or the PACT Act, at which time UPS has an option as
to which regime (the AOD or the federal and state statutes)
should be applied to its past and future conduct. It seems to us
that the burden of any uncertainty in this regard should fall on
the wrongdoer, and not on the States that would not know in advance what rules govern UPS’s behavior within their borders.

62a
anywhere, and its widespread, well-documented violations of its obligations in New York, amply support its
broader factual conclusion that UPS did not honor the
AOD “throughout the United States,” as it was required to do to be exempt from the PACT Act. Accordingly, we affirm the district court’s liability determination with respect to the PACT Act and PHL § 1399ll.
B. UPS is Liable for Violations of the AOD’s
Audit Requirement.
The district court found that UPS violated its audit obligation under the AOD and imposed the AOD’s
$1,000 per-violation penalty for each package that
UPS shipped on behalf of the Liability Shippers after
it had a “reasonable basis to believe” that such Liability Shipper was “tendering Cigarettes for delivery to
Individual Consumers.” United Parcel Service, Inc.,
2017 WL 2303525 at *5. That finding resulted in penalties of roughly $80.5 million due to the State, for
80,468 packages.
On appeal, UPS argues that (1) the AOD’s stipulated penalty provision does not apply to audit violations at all; and (2) even if it does, it authorizes a maximum penalty of only $1,000 for each Liability Shipper, or $20,000 in total. We disagree with UPS’s first
argument and therefore affirm the district court’s
findings of liability for violating its audit obligation
under the AOD. We agree with UPS’s second argument, however, and therefore reduce the penalty imposed by the district court.
Because the AOD is a settlement agreement, its
provisions are interpreted under general contract
principles. See MBIA Inc. v. Fed. Ins. Co., 652 F.3d

63a
152, 170–71 (2d Cir. 2011). We enforce the AOD according to the plain meaning of its terms. Id. at 171.
Paragraph 24 of the AOD, titled “Audits,” states
that:
UPS shall audit shippers where there is a reasonable basis to believe that such shippers
may be tendering Cigarettes for delivery to Individual Consumers, in order to determine
whether the shippers are in fact doing so.
S. App’x at 501. Paragraph 42 of the AOD, coming under the heading “Enforcement, Penalties and Costs,”
provides that:
UPS shall pay to the State of New York a stipulated penalty of $1,000 for each and every violation of this Assurance of Discontinuance
occurring after the Effective Date; provided,
however, that no penalty shall be imposed if
(a) the violation involves the shipment of Cigarettes to an Individual Consumer outside the
State of New York, or (b) the violation involves
the shipment of Cigarettes to an Individual
Consumer within the State of New York, but
UPS establishes to the reasonable satisfaction
of the Attorney General that UPS did not
know and had no reason to know that the
shipment was a Prohibited Shipment.
S. App’x at 508.
By its plain language, the penalty provision extends to violations of the AOD’s audit requirement. It
straightforwardly provides for penalties for all violations of the AOD. The term “violation” means “[a]n
infraction or breach of the law” or “the contravention

64a
of a right or duty.” BLACK’S LAW DICTIONARY (11th ed.
2019). The provision’s sweeping reference to “each
and every violation” plainly envisions penalties for violations of every type of obligation imposed on UPS by
the AOD, including violations of UPS’s auditing duty.
Neither of the two exemptions from the penalty provision apply to auditing violations.
UPS argues that the necessary inference from the
two exemptions to the penalty provision is that the
provision was meant to apply only to UPS’s knowing
shipment of cigarettes within New York State. But
the scope of the exemptions to a provision do not necessarily define the scope of that provision itself. To
the contrary, the existence and scope of the exemptions here support the opposite conclusion. The drafters of the AOD plainly knew how to exempt certain
violations and did so. Those exemptions, however, are
limited to certain types of violations involving shipments of cigarettes. That no exemption is provided for
any category of violations of the audit requirement or
of any of the other record-keeping or other obligations
agreed to by UPS confirms that “each and every violation” of the audit duty, without exception, is subject to
penalties. See Quadrant Structured Prods. Co., Ltd.
v. Vertin, 23 N.Y.3d 549, 560 (2014) (omission of language from contractual provision leads to “inescapable conclusion” that “parties intended the omission”).22
22

UPS also points to other parts of the AOD to support its definition of “violation.” For example, it notes that the definition of
“Alleged Past Violations”—the obverse of future “violations”—is
UPS’s delivery of “packages containing cigarettes to persons who
were not authorized to receive them pursuant to PHL § 1399-ll
in violation of PHL § 1399-ll(2).” Appellant’s Br. at 50. But the

65a
Further, it is entirely consistent with the context
in which the AOD was negotiated that UPS would face
penalties for violations of the AOD’s various procedural and prophylactic requirements. In consideration for the cessation of the State’s investigation into
definition of “Alleged Past Violations” cannot be relevant to the
definition of a violation of the AOD. A past violation could only
be a violation of PHL § 1399-ll, because past violations, by definition, must have occurred before the AOD came into existence.
The AOD created additional obligations with which UPS was required to comply, and imposed penalties for violations of those
obligations, not simply for violations of pre-existing statutory duties.
UPS also notes that the AOD defines “Potential Violations”
only as shipments. But that is a non-sequitur. The AOD does
not treat “Potential Violations” as a defined term. The term “Potential Violations” appears in the AOD only as part of a section
titled “Response to Notice of Potential Violation.” That section
describes the measures UPS should take in response to a notice
from the NYAG to UPS that one of its customers is shipping cigarettes to individual consumers. See S. App’x at 507 ¶ 39. Any
reference to a “violation” in that section thus clearly refers to a
customer’s violation, which can only be a “violation of UPS’s Cigarette Policy.” UPS, by contrast, can commit many other kinds of
violations of the AOD, because the AOD imposes obligations on
UPS beyond simply complying with PHL § 1399-ll or its own Cigarette Policy.
Indeed, the “Definitions” provision of the AOD specifically
defines “Prohibited Shipment” as “any package containing Cigarettes tendered to UPS where the shipment, delivery, or packaging of such Cigarettes would violate Public Health Law § 1399ll.” S. App’x at 498. If the AOD were intended, as UPS claims,
to define violations only as the knowing shipment of cigarettes,
then the penalty provision could have been written to say that
“UPS shall pay to the State of New York a stipulated penalty of
$1,000 for each and every Prohibited Shipment it makes” instead
of using the much more general phrase “each and every violation.”

66a
UPS’s alleged past unlawful cigarette shipments,
UPS agreed to take on certain new contractual obligations. The AOD is an attempt to establish a comprehensive and interdependent set of obligations that collectively reduce the likelihood that UPS will ship
packages containing cigarettes. To read the term “violation” as limited to the knowing shipment of cigarettes would mean that UPS could fail to comply with
any of the host of other obligations without consequence. Insulating UPS from liability for violations of
any of these provisions would thwart the AOD’s purpose.23
Once we accept that the penalty provision covers
violations of UPS’s audit duty, the question becomes
just how much liability UPS incurs for its failure to

23
UPS claims that because the AOD is a contract with the
State, the State’s remedy for a breach was to seek actual damages in a breach of contract action. But the contract itself specifies the penalties that UPS agreed to pay for “each and every violation.” UPS argues that applying the penalty provision to audit
violations would be “unconscionable” because it then would mandate penalties for “minor” or “ministerial” breaches of the AOD.
Appellant’s Br. at 53. But contrary to what UPS claims, the district court did not hold that the State could recover a stipulated
penalty of $1,000 for any breach of any obligation in the AOD,
whatever the gravity of the breach or UPS’s scienter, and neither
do we. Auditing is a core compliance mechanism of the AOD, the
breach of which imperils other aspects of the overall compliance
scheme. A failure to audit suspected cigarette shippers deprives
UPS of valuable knowledge of what its customers are actually
shipping, which in turn stymies UPS’s duty to suspend or terminate the accounts of known cigarette shippers, and ultimately its
ability to enforce the ban on cigarette deliveries to consumers.
Whether there exists a category of de minimis violations of the
AOD for which a court may reject a demand for a stipulated penalty is a question not posed by this case.

67a
audit the Liability Shippers. The district court translated liability for failure to audit into a penalty for
each package of cigarettes that was shipped after UPS
should have audited but did not—in effect treating
each unaudited package as a separate violation of the
audit requirement. UPS argues that this was error
because, at most, UPS breached the audit provision
once per shipper.
We agree with UPS that the audit provision applies to shippers, not shipments. By its plain terms,
the audit provision is shipper-oriented. It requires
UPS to “audit shippers where there is a reasonable basis to believe that such shippers may be tendering Cigarettes for delivery to Individual Consumers, in order
to determine whether the shippers are in fact doing
so.” S. App’x at 501 ¶ 24 (emphasis added).
If UPS had a reasonable basis to believe that Shipper X was shipping cigarettes on January 1, then UPS
should have audited Shipper X on January 1. That
UPS’s obligation to audit Shipper X remained in effect
on January 2, when UPS continued to ship unaudited
packages of cigarettes for Shipper X, does not mean
UPS committed a second violation. The violation is
single and continuous until UPS purges the obligation
by actually conducting an audit.
At any rate, the plaintiffs do not argue, and the
district court did not find, that UPS committed a separate audit violation on every day or every week or
every month that UPS failed to audit, once it had a
reasonable basis to believe that a particular shipper
was sending cigarettes to individual consumers. Rather, they argue, and the district court concluded, that
every package shipped by a seller who should have

68a
been audited constitutes a separate violation of the
audit requirement. But that is simply not what the
AOD provides. While knowingly delivering cigarettes
to an individual consumer may violate a different provision of the AOD, see S. App’x at 498–99 ¶ 17, the audit provision itself requires an audit. It does not provide (as the parties could have provided if they so intended) that every shipment by a shipper who should
have been audited but was not constitutes a violation
of the AOD.
Thus, a failure to audit a shipper results in only
one penalty—a penalty for failing to audit that shipper.24 The district court found, and UPS does not contest, that UPS failed to audit all 20 Liability Shippers.
Therefore, the penalty for violations of UPS’s audit obligations under the AOD should have been $20,000.
We therefore vacate the district court’s $80.5 million
penalty award and modify this judgment to impose a
penalty of $20,000 under the AOD.
C. UPS Violated the CCTA by Knowingly
Transporting More Than 10,000 Unstamped Cigarettes.
The district court held that UPS was liable under
the CCTA for knowingly transporting “contraband
cigarettes,” see 18 U.S.C. § 2342(a), which are defined
as “a quantity in excess of 10,000 cigarettes, which
24

The plaintiffs protest that a $1,000 penalty per shipper, rather than per shipment, would render the AOD’s audit requirement toothless. But the low penalties here result merely from
the plaintiffs’ concession that they were seeking penalties under
the AOD for violations only of the audit requirement. The plaintiffs chose to forego their right to seek penalties for UPS’s violations of other provisions of the AOD.

69a
bear no evidence of the payment of applicable State or
local cigarette taxes,” id. at § 2341(2). Specifically, the
district court found that for certain cigarette manufacturers, UPS routinely delivered cigarettes in lots of
10,000 or more, and that for others of the Liability
Shippers, the number of unstamped cigarettes UPS
transported far exceeded 10,000 in total.
UPS argues that the district court committed legal error in assessing UPS’s liability under the CCTA.
First, UPS contends that the district court erred in aggregating separate shipments to meet the CCTA’s
quantity requirement for certain of the Liability Shippers. It claims that the CCTA’s use of “a quantity” —
singular—”in excess of 10,000 cigarettes” criminalizes
only a single act of transporting 10,000 cigarettes. Appellant’s Br. at 63 (emphasis in original). Second,
UPS contends that it cannot be held liable under this
reading of the CCTA because there was no proof that
it knew that any one delivery exceeded 10,000 unstamped cigarettes.
We reject UPS’s interpretation of the statute. The
plain text of the CCTA’s definition of “contraband cigarettes” imposes no per-transaction requirement, and
the use of the indefinite article “a” in the phrase “a
quantity” does not necessarily signify a singular shipment. Referring to “a quantity” of something does not,
in common parlance, preclude aggregation.25 It makes

25

The district courts within this Circuit have all been of the
view that aggregation is permissible under the CCTA. See, e.g.,
City of New York v. FedEx Ground Package System, Inc., 91 F.
Supp. 3d 512, 520 (S.D.N.Y. 2015) (“Defendant’s interpretation
of Section 2341(2) conflicts with the plain, unambiguous text of

70a
perfect sense to say that a shipper who makes more
than ten 1,000-cigarette deliveries has delivered “a
quantity” of more than 10,000 cigarettes, just as a
child receives “a quantity” of presents for her birthday
comprising what she receives from each individual
guest at her birthday party, through the mail, or during personal visits from other well-wishers before or
after the day of the party.26
the CCTA which imposes no ‘in a single transaction requirement.’”) (internal quotation marks omitted); City of New York v.
LaserShip, Inc., 33 F. Supp. 3d 303, 313 (S.D.N.Y. 2014) (“The
text of the CCTA is unambiguous. It provides that ‘a quantity in
excess of 10,000 cigarettes’ constitutes contraband. It says nothing to suggest that the relevant quantity must be found in a single transaction.”) (internal citations omitted); City of New York
v. Gordon, 1 F. Supp. 3d 94, 103 (S.D.N.Y. 2013) (same); City of
New York v. Golden Feather Smoke Shop, Inc., No. 08–CV–3966
(CBA), 2009 WL 2612345, at *35 (E.D.N.Y. Aug. 25, 2009) (“In
any event, the Court rejects the view that defendants can sell
unlimited quantities of unstamped cigarettes so long as they
avoid making any single sale in excess of 49 cartons. Nothing in
the CCTA provides that for cigarettes to be considered contraband they must be sold in a single transaction.”).
26

We are mindful that the aggregation principle creates certain puzzles or anomalies. If a person subject to the CCTA ships
one package of 5,000 unstamped cigarettes, she has not violated
the CCTA because the 5,000 unstamped cigarettes are not “contraband cigarettes.” But if she later ships another package with
5,001 unstamped cigarettes, that package contains contraband
cigarettes and the cigarettes in the earlier package retroactively
become contraband cigarettes.
There is also a line-drawing problem. To the extent aggregation is permissible in principle, there will be extreme cases where
shipments of unstamped cigarettes are spread out in time and
space such that it does not make sense to categorize them as “a
quantity.” But wherever the line should be drawn in time and
space, this case does not present a close call. UPS maintained

71a
As the district court explained in FedEx, “[t]his
view is supported by the fact that other CCTA provisions do contain an explicit per-transaction requirement, and therefore it should be presumed that Congress acted intentionally and purposefully in excluding such a requirement from [the definition of contraband cigarettes].” 91 F. Supp. 3d at 520 (emphasis in
original). For example, the CCTA makes it unlawful
“for any person knowingly to make any false statement or representation with respect to the information required by this chapter to be kept in the records of any person who ships, sells, or distributes any
quantity of cigarettes in excess of 10,000 in a single
transaction.” 18 U.S.C. § 2342(b) (emphasis added);
see also id. at § 2343(a) (record-keeping requirements
for any single transaction of over 10,000 cigarettes);
id. at § 2343(b) (reporting requirements for persons
processing more than 10,000 cigarettes in a month).
That Congress included single-transaction or specific
time-frame qualifiers in other CCTA provisions but
not in 18 U.S.C. § 2341(2) further supports our conclusion that aggregation is permissible for the purposes
of meeting the definition of “contraband cigarettes.”
See Russell v. United States, 464 U.S. 16, 23 (1983)
(presuming Congress acted intentionally in omitting
term included in other provisions of statute).

accounts for shippers setting themselves up in business for the
purpose of selling significantly more than 10,000 unstamped cigarettes, who then did indeed ship far more than 10,000 unstamped cigarettes on a regular and consistent basis over an extended but compact period of time. Those shippers, and consequently UPS as their aider and abetter, cannot avoid liability by
claiming that they organized all (or most) of their shipments to
contain 10,000 or fewer unstamped cigarettes.

72a
Since we hold that the CCTA delivery prohibition
contains no single-transaction requirement, UPS’s argument that it did not have knowledge that any particular shipment contained a quantity in excess of
10,000 unstamped cigarettes is beside the point. UPS
does not contend it had no knowledge that the Liability Shippers shipped more than 10,000 unstamped
cigarettes in the aggregate.
We therefore affirm the district court’s determination that UPS violated the CCTA by knowingly shipping contraband cigarettes for the Liability Shippers.
III. The Damages and Penalties Awards
UPS argues that even if we sustain one or more of
the liability theories, we should reverse the damages
and penalties awards. First, it argues that the district
court erred in denying its motion to preclude the
plaintiffs’ damages evidence because the plaintiffs
failed to provide UPS with a robust pre-trial damages
computation pursuant to Fed. R. Civ. P. 26, and erred
in awarding damages and penalties because the plaintiffs failed to prove any damages at trial. Second, it
argues that the district court adopted a diversion rate
in its compensatory damages calculation that was not
supported by the evidence. Third, it argues that the
penalty award imposed by the district court is grossly
disproportionate to the loss suffered by the plaintiffs
and the gains received by UPS for the conduct at issue.
In contrast, the plaintiffs cross-appeal, arguing
that the district court should have awarded them the
full amount of unpaid State and City taxes on cigarettes shipped by UPS under the PACT Act or CCTA

73a
without applying any diversion rate. We address each
of these arguments in turn.
A. The District Court Did Not Abuse Its Discretion in Allowing the Plaintiffs to Present Their Damages Case Nor Did It
Clearly Err in Making Factual Findings
Based on Record Evidence.
UPS raises several challenges with respect to the
way the plaintiffs presented their damages and penalties case from discovery through their post-trial submission, as well as to how the district court held the
plaintiffs to their burden of proof. UPS complains
that: (1) before trial the plaintiffs failed to inform
them of the amount or the process by which they
would calculate their damages and penalties claims,
in violation of Rule 26; (2) during trial the plaintiffs
did not adequately prove their damages and penalties
claims; and (3) it was error for the district court to order the plaintiffs to submit additional information
post-trial to calculate the quantum of damages and
penalties. For the reasons explained below, we are
unpersuaded that the district court abused its discretion in allowing the plaintiffs to present their damages case, in making factual findings based on the
trial record, or in ordering the parties to submit calculations post-trial.
1. The District Court Reasonably Refused
to Strike the Plaintiffs’ Entire Damages
and Penalties Case.
UPS appeals from the district court’s denial of its
Rule 26 motion, which it renewed post-trial, complaining that the court should have precluded the plaintiffs’
damages evidence entirely. We disagree with UPS

74a
and conclude that the district court did not abuse its
“broad latitude” in managing discovery, or in failing
to impose discovery sanctions on the plaintiffs. See
EM Ltd. v. Republic of Argentina, 695 F.3d 201, 207
(2d Cir. 2012); Argo Marine Sys., Inc. v. Camar Corp.,
755 F.2d 1006, 1015 (2d Cir. 1985).
Rule 26 requires a plaintiff to disclose “a computation of each category of damages claimed,” and to
provide an opportunity for the defendant to review the
evidence used to calculate damages. Fed. R. Civ. P.
26(a)(1)(A)(iii). Rule 37(c)(1) provides that a failure to
comply with Rule 26(a)’s disclosure obligations results
in preclusion of the evidence “unless the failure was
substantially justified or harmless.” Fed. R. Civ. P.
37(c)(1).
The district court denied UPS’s pretrial motion to
bar monetary relief, viewing “the overall record as sufficiently placing UPS on notice as to the damage[s]
theory.” J. App’x at 443. In adhering to that ruling
after trial, the district court reaffirmed that UPS had
“adequate pre-trial notice to counter plaintiffs’ damages claim.” United Parcel Service, Inc., 253 F. Supp.
3d at 687. In essence, this was a ruling that any Rule
26 violation that may have occurred was “harmless.”
See Fed. R. Civ. P. 37(c)(1).
On appeal, UPS contends that it was substantially prejudiced by the plaintiffs’ limited Rule 26(a)
disclosure because “[t]he number of packages, and the
derivative number of packages containing unstamped
cigarette cartons, transported by UPS constituted the
determinative measure of both compensatory damages and penalties” and “[t]hus, disclosure of the

75a
methodology and evidence supporting those calculations was critical to UPS’s defense.” Appellant’s Br. at
76. But that is the very same argument that the district court rejected after holding (1) that the plaintiffs
provided this exact information for the Arrowhawk
Group, (2) that because UPS “knew the [other] shippers, it could easily locate the same types of documents for each, and it knew plaintiffs’ general methodology,” and (3) that “the calculations were ultimately based on known data points: penalty ranges
generally set forth in the AOD and statutory schemes
at issue, and compensatory damages based on the
statutory tax rate imposed on each carton of cigarettes.” United Parcel Service, Inc., 253 F. Supp. 3d at
686–88.
By the time of trial, UPS knew that the plaintiffs
would rely on UPS’s spreadsheets to prove that UPS
delivered packages for shippers on the federal NCLs
in violation of the PACT Act, and that they would pursue per-package penalties for those violations. Similarly, UPS knew that the plaintiffs would be seeking
AOD penalties “for each package that UPS failed to
audit in accordance with Paragraph 24 of the AOD.”
J. App’x at 425. And UPS knew that, based on package counts and proof of contents, the plaintiffs would
be seeking per-package penalties under PHL § 1399ll and unpaid taxes under the CCTA and PACT Act.
In sum, the plaintiffs disclosed their damages theory from the beginning; made clear to UPS throughout
the discovery period that UPS’s own internal spreadsheets would be key documents used to prove total

76a
damages;27 notified UPS that plaintiffs would rely on
direct and circumstantial evidence to prove package
contents; and provided a computation of damages for
an exemplar shipper group. In contrast to a situation
in which damages data are reasonably known only to
the plaintiff—e.g., loss of future profits or physical injuries—here the damages related to UPS’s own historical shipping activities, as derived from UPS’s own internal records. We agree with the district court that
UPS was well-positioned to respond to claims about
what it had shipped and with what frequency.
Whether or not we would have required the plaintiffs to provide more than only an exemplar of the full
amount of their damages and penalties had we been
in the district court’s position is of no moment; management of the discovery process is confided to the
sound discretion of the district court. Here, the judge
who oversaw the discovery process and trial acted well
within her discretion in concluding that UPS did not
“suffer[] any real prejudice” from the lack of a more
robust disclosure. United Parcel Service, Inc., 253 F.
Supp. 3d at 687. Therefore, it was not error for the
district court to allow the plaintiffs to present evidence of damages and penalties at trial.
2. The District Court’s Factual Findings
on Damages and Penalties Were Supported by the Evidence.
In order to prove damages and liability for penalties in this case, the plaintiffs were required to prove
27

Plaintiffs questioned a UPS witness “extensively” (UPS’s
word) on the spreadsheets, and UPS heard from plaintiffs’ own
Rule 30(b)(6) witness that damages would be computed based on
those documents. J. App’x at 198.

77a
how many packages of cigarettes UPS shipped. To do
this, the plaintiffs provided the court with UPS’s own
spreadsheets reflecting how many packages UPS
shipped for each Liability Shipper, as well as direct
and circumstantial evidence showing what percentage
of the packages UPS shipped for each Liability Shipper contained cigarettes. The district court held that
the spreadsheets, which UPS itself had generated and
produced during discovery, were sufficient to prove
the quantity of packages underlying the damage and
penalty calculations for all claims. The district court
also made reasonable inferences about package contents from various pieces of both direct and circumstantial evidence put forth by the plaintiffs.
On appeal, UPS contends that the plaintiffs’ proof
of damages and penalties at trial was insufficient.
The thrust of UPS’s argument is that the plaintiffs
never presented a witness—fact or expert—to testify
about their damages and penalties calculations.
(i) Package Quantity
UPS’s complaint regarding the plaintiffs’ use of
UPS’s own spreadsheets to calculate the number of
packages it shipped for each of the Liability Shippers
rings hollow. The spreadsheets, produced in Excel format, contain fields showing the unique shipper number, the date a package was picked up, the state and
zip code of delivery, and the actual or billed weight of
every package. They were generated by UPS “specifically for this litigation” in response to plaintiffs’ request for information about UPS’s delivery services
for cigarette dealers. J. App’x at 199. Along with the
spreadsheets, UPS produced a data dictionary defining the terms in the spreadsheet column headings.

78a
Prior to trial, the court overruled UPS’s foundational objection to the spreadsheets’ admission because UPS had stipulated to their authenticity. The
court explained that UPS made only a foundational
objection and did not object to the spreadsheets as irrelevant or hearsay. Consequently, the plaintiffs
could offer the spreadsheets without the need for a
sponsoring witness. At trial, the spreadsheets and
data dictionaries were admitted into evidence without
accompanying testimony. UPS chose not to submit a
witness to explain what it understood the spreadsheets to mean or not to mean.
At trial, and now, UPS challenges whether the
spreadsheets are a reliable indicator of the overall
number of packages shipped. But UPS produced
these spreadsheets in the first instance in response to
plaintiffs’ requests for information about shipment
counts. Assuming that UPS faithfully complied with
its production obligations, it cannot now assert that
its own documents did not in fact answer the questions to which UPS represented they were responsive.
The data contained in UPS’s spreadsheets themselves, in conjunction with the UPS data dictionaries,
provided a reasonable basis upon which to tabulate
the number of packages shipped and determine when
they were shipped.28 Once evidence has been admitted as relevant and authentic, a factfinder has broad
28

UPS also contends that the district court erred in accepting
the plaintiffs’ method for tabulating the package and carton
counts. The plaintiffs sorted the spreadsheets by account number (i.e., shipper), eliminated duplicates, and added up the packages shipped. UPS made certain objections to this methodology
which the court addressed. The court agreed with UPS that

79a
latitude to determine the weight the evidence deserves. Any lack of supporting testimony describing
business records already established as authentic “is
relevant only as to the weight to be accorded such records.” Stein Hall & Co. v. S.S. Concordia Viking, 494
F.2d 287, 292 (2d Cir. 1974). Moreover, a factfinder’s
damages calculation need only have a “reasonable basis.” Sir Speedy, Inc. v. L & P Graphics, Inc., 957 F.2d
1033, 1038 (2d Cir. 1992).
That the parties’ counsel made conflicting arguments about what the spreadsheets proved, and that
the district court resolved those disputes as trier of
fact, is entirely unremarkable. Choosing among “competing inferences that can be drawn from the evidence” is the factfinder’s province. United States v.
Morrison, 153 F.3d 34, 49 (2d Cir. 1998). “[W]e defer
to the fact finder’s determination of the weight of the
evidence and the credibility of the witnesses and to
the fact finder’s choice of the competing inferences
that can be drawn from the evidence.” United States
v. LaSpina, 299 F.3d 165, 180 (2d Cir. 2002) (internal
quotations and alterations omitted). UPS has not
come close to establishing that the district court’s
findings were clearly erroneous.
(ii) Package Contents
With respect to package contents for six of the Liability Shippers, the plaintiffs submitted direct evidence of contents, consisting of order forms, shipping

packages weighing less than one pound were unlikely to contain
cigarettes and thus should be excluded from the tabulation and
that packages being delivered to a cigarette shipper, rather than
delivered by a shipper, should also be excluded.

80a
invoices describing package contents, driver summaries, packing slips, and daily report printouts, as well
as direct testimony and admissions in a federal plea
agreement. For the remaining eleven cigarette shippers, plaintiffs provided circumstantial evidence of
package contents. The district court found that there
was ample evidence as to each Liability Shipper to (1)
support the fact that packages contained cigarettes
and (2) reasonably approximate the percentage of
each Liability Shipper’s packages that contained cigarettes.
UPS complains that the plaintiffs offered shifting
and inconsistent theories to prove package contents
and that the plaintiffs did not prove the number of cigarette cartons UPS shipped with mathematical precision. As an initial matter, UPS was well aware that
the plaintiffs intended to rely on both circumstantial
and direct proof of the contents of what UPS calls the
“plain brown boxes” it transported. See Appellant’s
Br. at 1 & 46. Plaintiffs’ interrogatory responses,
served nearly a year before trial, previewed that they
would use circumstantial evidence such as tracer inquiries, the results of UPS’s eventual audits, and shippers’ placement on the NCL to prove the contents of
packages UPS shipped for the Liability Shippers.
Again before trial, in the Arrowhawk Letter, the
plaintiffs identified the types of circumstantial evidence that they would rely on at trial to prove the contents of packages UPS shipped for the Liability Shippers. At trial, the plaintiffs presented, and the district
court relied on, circumstantial evidence of package
contents such as reports from UPS drivers, tracer inquiries, results of UPS’s belated audits, controlled
buys of cigarettes by City investigators, the presence

81a
of certain shippers on the federal NCL, and the shippers’ overall product lines. In its liability opinion, the
district court examined the evidence with respect to
each Liability Shipper and then made an assessment,
on a shipper-by-shipper basis, as to what percentage
of each Liability Shipper’s packages contained cigarettes. UPS challenges the approach in concept, rather than lodging a specific challenge to any of the district court’s factual determinations.
As an initial matter, there was nothing impermissible about the plaintiffs’ reliance on circumstantial
evidence to prove their case. See United States v.
Casamento, 887 F.2d 1141, 1156 (2d Cir. 1989) (“Circumstantial evidence . . . is of no lesser probative
value than direct evidence.”). Indeed, such proof may
have been the only proof available here given that,
like other wrongdoers, cigarette traffickers do not
commonly create or retain records of their criminal activities or testify without asserting their right to selfincrimination.
Moreover, UPS had every opportunity to challenge—and did challenge—the circumstantial evidence that the plaintiffs proffered. UPS argued to the
district court at length that the evidence did not show
either that the packages it shipped contained cigarettes or that UPS knew that the businesses were
shipping cigarettes.
To the extent that the district court could not pin
down the precise number of cigarette cartons each Liability Shipper shipped, the responsibility lies at
UPS’s own door. See Raishevich v. Foster, 247 F.3d
337, 343 (2d Cir. 2001) (“If the plaintiff’s inability to
prove an exact amount of damages arises from actions

82a
of the defendant, a factfinder has some latitude to
make a just and reasonable estimate of damages
based on relevant data.”) (internal quotation marks
omitted); Sir Speedy, Inc., 957 F.2d at 1038 (explaining that a claimant “need not prove the amount of loss
with mathematical precision”). UPS had a contractual audit obligation, as well as other legal obligations, not to ship stamped or unstamped cigarettes to
individual consumers. UPS cannot accept contraband
cigarettes for shipment, look the other way, and then
demand exacting proof of what was inside the packages that it controlled. See Story Parchment Co. v.
Paterson Parchment Paper Co., 282 U.S. 555, 565
(1931) (when uncertainty in proving damages is
caused by the defendant’s own wrongful act, “justice
and sound public policy alike require that he should
bear the risk of the uncertainty thus produced”); Whitney v. Citibank, N.A., 782 F.2d 1106, 1118 (2d Cir.
1986) (“When a difficulty faced in calculating damages
is attributable to the defendant’s misconduct, some
uncertainty may be tolerated.”).
We therefore conclude that the plaintiffs’ evidence
was sufficient to establish liability and damages and
the district court’s approach to making factual determinations based on the record evidence was entirely
reasonable.
3. The District Court Did Not Err By Ordering the Parties to Submit Post-Trial
Calculations of Damages and Penalties.
In its liability opinion, the district court ordered
the parties to provide the court with a calculation of
the quantity of packages and cartons UPS shipped for
each Liability Shipper. The liability opinion directed

83a
the parties to apply the relevant dates, definitions,
and findings provided by the court to the data provided in the spreadsheets so that the court could assess the precise “quantum” of damages and penalties
to be awarded. Per the court’s order, the plaintiffs
submitted a detailed calculation of the packages and
cartons UPS shipped for each Liability Shipper, including the specific exhibits admitted during trial that
the plaintiffs used to identify the package and carton
figures. On the other hand, UPS, in defiance of the
court’s order, submitted a calculation for only three of
the Liability Shippers. Because UPS failed to comply
with the court’s order, the court “calculate[d] its determination of damages and penalties using the uncontested numbers of Packages and Cartons supplied
by plaintiffs where appropriate.” United Parcel Service, Inc., 2017 WL 2303525 at *2.
UPS claims that by ordering the parties to submit
post-trial calculations, the district court reopened the
record, “stepped into the role of expert witness and
created a previously undisclosed, untested, and unsupported methodology on which to base damages and
penalties.” Appellant’s Br. at 87. Despite UPS’s hyperbolic protestations, this course of action was a reasonable method of ensuring that both sides had an opportunity to apply the court’s factual findings to the
evidence in the record.29
29

See United States v. Global Distributors, Inc., 498 F.3d 613,
620 (7th Cir. 2007) (“Although the district court gave Global an
opportunity to file a memorandum on damages, and Global
availed itself of that option, Global did not ‘challenge[] the arguments in the government’s damages memorandum.’ Instead, it
continued to present excuses for its underlying behavior. The

84a
UPS’s claim that the district court reopened the
record sua sponte after trial is incorrect. The record
was never reopened; the court simply directed the parties to apply the court’s definitions and findings to the
already admitted evidence to assist the court in calculating the “quantum” of relief. The information contained in both parties’ post-trial submissions derived
from evidence that had already been admitted into the
record and which UPS had ample opportunity to challenge or explain. As is not unusual in a bench trial,
the court requested supplementary argument from
the parties, not additional evidence.
We also agree with the district court that, contrary to UPS’s argument, the type of analysis conducted in the post-trial submissions did not require
expert testimony. UPS emphasizes that the spreadsheets were large and unwieldy. But the parties, with
the help of Excel, were easily capable of conducting
the simple arithmetic calculations that the district
court ordered.30

district court thus took as undisputed the facts in the government’s memorandum and drew inferences from those facts.”) (alteration in original).
30

It is true that the district court ordered the parties to remove
duplicate entries and packages weighing under one pound, which
required some human manipulation in the Excel program. But
that the district court accepted UPS’s arguments as to why certain packages in the spreadsheets should not be counted does not
mean that the plaintiffs were unable to perform the calculation
without an expert. Had the district court not given UPS the
chance to submit its own calculation or to verify the plaintiffs’
calculations, we would be more concerned about potential error.
But UPS had every opportunity to refute the calculations proffered by the plaintiffs.

85a
UPS also complains that by ordering it to conduct
and submit a calculation of the packages containing
cigarettes—information that would be used to punish
UPS financially—the district court violated the principle of party presentation and shifted the burden of
proof. The court’s order did not shift the burden of
proof onto UPS. The evidence and theories of damages and penalties had been put forth by the plaintiffs. All the court ordered UPS to do was to submit,
if it so chose, its contentions regarding the numbers of
packages and cartons as they were defined in the liability opinion. By that time, the plaintiffs had already
met their burden of proof on damages. What remained was to plug in the damage and penalty calculations based on information in the record.
B. The District Court Erred in Awarding the
Plaintiffs Only Half of the Unpaid Taxes
on Cigarettes UPS Unlawfully Shipped.
The district court awarded the plaintiffs a total of
$9.4 million in damages for unpaid cigarette taxes.31
The court recognized that both the PACT Act and
CCTA authorized it to award the plaintiffs damages
for the taxes that went unpaid on the cigarettes that
UPS illegally transported under those statutes. After
calculating the amount of unpaid taxes due under
both statutes, the district court concluded that it
would award damages for unpaid taxes under the

31

The district court also awarded $1,000 in nominal penalties
under the CCTA. That award is not challenged on appeal.

86a
CCTA, which summed to a larger amount than the
damages for unpaid taxes under the PACT Act.32
However, because the district court thought of the
plaintiffs’ “lost tax revenues [as] a type of compensatory damage[],” see United Parcel Service, Inc., 253 F.
Supp. 3d at 687, it applied tort principles of causation
to limit the plaintiffs’ recovery of unpaid taxes by the
amount of “tax diversion,” or the extent to which purchasers of unstamped cigarettes would have purchased New York-taxed cigarettes if the former were
not available through UPS. The court awarded the
plaintiffs only 50% of the state and local excise taxes
that went unpaid on UPS’s cigarette shipments, reasoning that half of the purchasers of unstamped cigarettes transported by UPS would have managed to
buy untaxed or lower-taxed cigarettes by some other
means if UPS had complied with the law by declining
those shipments.
On appeal, UPS argues that the district court
erred in applying a diversion rate of 50%, instead of
accepting the testimony of its expert, who opined that
94.6% of consumers whose unstamped cigarettes were
delivered by UPS would still have evaded State and
City taxes in a “but-for world” where the unstamped
cigarettes shipped by UPS were unavailable. The
plaintiffs cross-appeal on this point, claiming that it
was error for the district court to apply any diversion
rate at all to the plaintiffs’ damages for unpaid taxes.

32

The damages for compensatory damages were higher under
the CCTA than under the PACT Act because UPS shipped more
cartons of cigarettes in violation of the CCTA than it did in violation of the PACT Act (since only five of the Liability Shippers
were on the NCLs).

87a
Determining the correct measure of relief under
the CCTA and PACT Act is a question of statutory interpretation, which we review de novo. See Gortat v.
Capala Bros., Inc., 795 F.3d 292, 295 (2d Cir. 2015).
A straightforward reading of both the CCTA and the
PACT Act leads us to conclude that the proper measure of damages under either statute is simply the
amount of unpaid taxes on the unlawful transactions
UPS knowingly facilitated. The district court erred in
importing tort principles of causation into that calculation.
The CCTA allows a state or locality in a civil action to obtain “appropriate relief for violations,” including but not limited to “money damages” and “injunctive or other equitable relief,” 18 U.S.C.
§ 2346(b)(2), which easily encompasses “unpaid
taxes.” The PACT Act allows a state or locality to recoup “damages, equitable relief, or injunctive relief . .
. including the payment of any unpaid taxes to the appropriate Federal, State, local or tribal governments.”
15 U.S.C. § 377(b)(2) (emphasis added).33

33

The statutory basis for holding UPS liable for unpaid taxes
distinguishes this case from Hemi Group, LLC v. City of New
York, N.Y., 559 U.S. 1 (2010), on which the dissent relies. In
Hemi Group, the Supreme Court cautioned against allowing the
recovery of unpaid taxes from defendants who, like UPS, were
never responsible for paying those taxes in the first place. There,
the City sought to recover unpaid taxes under RICO, which provides a cause of action for “[a]ny person injured in his business
or property by reason of a violation of section 1962.” 18 U.S.C.
1964(c). The City asserted that it suffered injury in the form of
lost tax revenue—its “business or property” in RICO terms—”by
reason of” the Hemi Group’s fraud, that is, its failure to submit
customer information to New York State. Hemi Group, 559 U.S.

88a
Of course, the State and City have to prove the existence of such “unpaid taxes.” But nothing in the language of either the PACT Act or the CCTA suggests
that “unpaid taxes” should be construed to mean the
taxes that would have been collected not on the untaxed cigarette sales that actually occurred, but on the
hypothetical transactions that would have occurred in
some counterfactual universe. “Unpaid taxes” more
naturally means the taxes that should have been
charged on the actual transactions that occurred, but
that were not paid.34

at 7. The Court concluded that the City could not sustain its
cause of action because the connection between the Hemi Group’s
failure to comply with its Jenkins Act reporting requirements
(the predicate RICO offense) and the City’s lost tax revenue was
too attenuated. The case did not involve the concept of “diversion.” Here, in contrast, the statutes at issue were enacted for
the precise purpose of preventing sellers of cigarettes from evading the collection and payment of taxes, and explicitly or implicitly provided for the recovery of unpaid taxes as a form of relief
for violations by common carriers. We have no quarrel with
Judge Jacobs’s assertion that the “Supreme Court’s teaching [in
Hemi Group] transcends the [RICO] context.” Dissenting Op. at
16. But the Court’s caution about permitting damages in the
form of unpaid taxes against parties that are not themselves responsible for paying them surely cannot apply where Congress
has authorized such relief.
34

Surely no one would dispute that proposition if the defendant
here were the actual seller-shipper of the cigarettes. Take the
example of a Manhattan jeweler who pretends to ship jewelry to
an out-of-state address to evade sales taxes. We would undoubtedly reject an argument that the jeweler should not be liable for
the unpaid sales taxes on the theory that, if the taxes had been
charged, the customer would have cancelled the purchase and
bought the jewelry in New Jersey instead, obviating any harm to
the City or State from the jeweler’s failure to collect and transmit

89a
Rather than engaging in the required statutory
analysis, the district court accepted a faulty analogy
to tort principles. But the language of private tort actions is relevant here only to the extent that it accords
with the texts and purposes of the CCTA and PACT
Act. Those statutes, which Congress intended to
meaningfully deter common carriers such as UPS
from transporting untaxed cigarettes, and which are
aimed squarely at evasion of state and local cigarette
taxes, cannot fairly be understood to incorporate
UPS’s diversion theory. We have previously explained that “in an enforcement action, civil or criminal, there is no requirement that the government
prove injury, because the purpose of such actions is
deterrence, not compensation.” SEC v. Apuzzo, 689
F.3d 204, 212 (2d Cir. 2012) (rejecting defendant’s invocation of “proximate cause” tort principle in SEC enforcement action). And in any event, tort principles
typically do not permit a defendant to avoid paying
damages by arguing that another tortfeasor’s (or even
innocent party’s) actions would have been sufficient to
produce the claimed harm absent the defendant’s tortious conduct. See Basko v. Sterling Drug, Inc., 416
F.2d 417, 429 (2d Cir. 1969).

the proper sales tax. UPS in effect argues that it should not be
held liable for the unpaid taxes it helped the shippers evade because it is only an aider and abetter, rather than the principal
offender. But those who aid and abet or conspire in wrongful
conduct are generally jointly and severally liable for the harm
caused by that conduct, regardless of the degree of their participation or culpability in the overall scheme. See, e.g., Lumbard v.
Maglia, Inc., 621 F. Supp. 1529, 1536 (S.D.N.Y. 1985) (citing W.
Prosser, Handbook of the Law and Torts 292–93 (4th ed. 1971)).

90a
The failure of UPS’s argument is further demonstrated by the inherently speculative nature of the inquiry that it persuaded the district court to undertake. UPS faults the district court’s 50% diversion
rate as unsupported by any reliable methodology. We
concur. At the same time, we also concur with the district court’s well-founded rejection of UPS’s expert
witness’s theory that 94.6% of cigarette purchasers
would have either quit smoking altogether, found
other methods of obtaining bootlegged untaxed cigarettes, or traveled to other states to buy cigarettes if
deprived of access to home delivery of cigarettes from
reservation sellers. No doubt some, or even many,
purchasers would have found other means of feeding
their addictions while avoiding taxes. But the extent
of such evasion is inherently unknowable, and a rule
that requires a district court to engage in such a speculative enterprise is as impractical as it is unmoored
to the statutory concept of “unpaid taxes.”
Thus, we hold that the district court erred in applying a 50% “diversion rate” to limit the plaintiffs’
damages for unpaid taxes. The plaintiffs are entitled
to the full amount of the unpaid taxes on cigarettes
transported by UPS in violation of the CCTA, totaling
$17,356,458 for the State and $1,441,770 for the City.
C. The District Court Abused Its Discretion
in Awarding Per-Violation Penalties Under Both the PACT Act and PHL § 1399-ll.
The final issue we must consider is whether the
district court abused its discretion in imposing cumulative penalties on UPS under the PACT Act, PHL
§ 1399-ll and the AOD. At the outset, we note that we
have already concluded that the penalties under the

91a
AOD must be reduced from $80.5 million to $20,000.
See supra II.B.35 That reduction obviates some of our
concern with the district court’s assessment of what
were in effect treble penalties. But we are still presented with the question of whether the total penalty
award that remains—approximately $78 million under the PACT Act and another $78 million under PHL
§ 1399-ll—is excessive. We hold that it is.
In general, civil penalties are designed to punish
culpable individuals, deter future violations, and prevent the conduct’s recurrence. District courts have
discretion in fashioning appropriate relief in civil enforcement actions to achieve these goals. See Friends
of the Earth, Inc., v. Laidlaw Environmental Servs.
(TOC), Inc., 528 U.S. 167, 192 (2000). A district court
may exceed its discretion, however, when its decision—though not necessarily the product of legal error
or a clearly erroneous factual finding—cannot be located within the range of permissible decisions.
Slupinski v. First Unum Life Ins. Co., 554 F.3d 38, 47
(2d Cir. 2009). In determining the amount of civil penalties, district courts are typically guided by a number
of factors, including the good or bad faith of the defendants, the injury to the public, and the defendant’s
ability to pay. See Advance Pharmaceutical, Inc., 391
F.3d at 399.36
35

We have also raised the compensatory award for unpaid
taxes to $18.8 million. See supra III.B.
36

In awarding statutory civil penalties, district courts are also
constrained, at the outer bounds, by the Eighth Amendment’s
Excessive Fines Clause. See United States v. Bajakajian, 524
U.S. 321, 328 (1998). A civil penalty violates the Excessive Fines
Clause if it is “grossly disproportional to the gravity of the defendant’s offense.” Id. at 337.

92a
Our assessment of the civil penalties in this case
begins with the statutes under which they were imposed. The PACT Act allows the district court to impose per-violation – that is, per-package – penalties on
a common carrier for shipping packages for sellers
identified on the NCLs. The PACT Act caps the penalty for a common carrier’s first violation at $2,500 but
increases the limit to $5,000 for any subsequent violations that take place within one year of a previous violation. 15 U.S.C. § 377(b)(1)(B). PHL § 1399-ll authorizes the district court to impose per-violation –
that is, per-carton – penalties on a common carrier for
each carton of cigarettes that the common carrier
ships, capping the penalty for each violation at $5,000.
See PHL § 1399-ll(5). The district court awarded the
plaintiffs approximately half of the per-violation penalties authorized under both statutes, imposing on
UPS, in effect, a $2,500 penalty for each violation of
the PACT Act and another $2,500 penalty for each violation of PHL § 1399-ll. The district court’s assessment of penalties was permissible under the statutory
schemes because both the PACT Act and PHL § 1399ll are silent regarding the maximum penalties that
may be imposed against a defendant.
However, it is worth noting here that Congress
rarely exercises its authority to establish maximumauthorized civil penalties. Rather, when Congress
adopts legislation authorizing the award of civil penalties, it generally leaves to the courts the job of fleshing out federal common-law rules governing the maximum aggregate size of penalties and punitive damages awards. Thus, the fact that the district court’s
penalty award is technically permissible under the
statutory regimes at play does not necessarily mean

93a
that it is a reasonable penalty in all circumstances.
Penalties cascading on a defendant from several different statutory regimes must be applied with great
care when they result from one underlying set of bad
actions.
The double counting of PACT Act and PHL
§ 1399-ll penalties here falls within the category of
unreasonable penalties. UPS was punished under
both the PACT Act and PHL § 1399-ll for what was
largely the same underlying conduct. Specifically, because all of the NCL shippers, for which UPS faced
PACT Act penalties, were also Liability Shippers for
which UPS faced PHL § 1399-ll penalties, UPS faced
double per-violation penalties at a rate of $2,500 for
many of the same shipments.37 That led the district
court to impose penalties of $156 million under the
PACT Act and PHL § 1399-ll for what was, in essence,
one set of impermissible conduct.

37

The five shippers on the NCLs—Elliot Enterprises, Elliot Express/EExpress, Bearclaw Unlimited/AFIA, Indian Smokes, and
Smokes and Spirits, for which UPS faced PACT Act penalties—
were all also Liability Shippers for which UPS faced penalties.
Indeed, the district court used the fact that certain shippers were
on the NCLs to deem them Liability Shippers for purposes of
PHL § 1399-ll liability. See United Parcel Service, Inc., 253 F.
Supp. 3d at 629 (“While the fact that [Elliot Enterprises] was located on an Indian reservation was alone insufficient to support
a reasonable basis to believe it was shipping cigarettes, when
that fact was combined with its presence on the November 2010
NCL and its presence in the Tobacco Watchdog Group letter, the
question was not close.”). Approximately 54% of the PHL § 1399ll penalty award to the State was attributable to NCL shippers,
and approximately 80% of the PHL § 1399-ll penalty award to
the City was attributable to NCL shippers. See J. App’x at 507–
18.

94a
That double counting, among other factors, leads
us to conclude that the penalties that the district court
imposed on UPS are too high. We recognize that both
New York and Congress take cigarette trafficking seriously, which is why several laws address the conduct
for which UPS is being held liable. UPS holds a key
position in the distribution chain and can have a
meaningful impact in putting an end to the sale of unstamped cigarettes from reservation sellers to consumers throughout New York. But the $240 million
penalty originally imposed by the district court, and
even the $160 million penalty that remains in the
wake of our correction to the district court’s erroneous
calculation of penalties under the AOD, is far too large
a pill to swallow for the conduct at issue here. In so
concluding, we revisit some of the factors that the district court considered in the first instance.
The district court was correct that UPS bears a
high degree of culpability for the shipment of unstamped cigarettes, having flouted its obligations under the PACT Act and PHL § 1399-ll, as well as the
AOD to which it assented in order to settle an earlier
investigation. The court concluded that “[n]umerous
separate acts by numerous UPS employees allowed
vast quantities of unstamped cigarette shipments to
be delivered to unauthorized recipients in New York.”
United Parcel Service, Inc., 253 F. Supp. 3d at 690
(emphasis added). But, at the same time, UPS is not
the primary wrongdoer here:
the proscriptions
against UPS shipping cigarettes are intended to prevent the actual cigarette sellers from evading taxes.
It is worth considering that UPS itself “had no obligation to collect, remit, or pay” the taxes that were
evaded. Hemi Group, 559 U.S. at 17.

95a
We also consider the public harm caused by UPS’s
conduct. The district court concluded that the State
and Congress have deemed the transport of cigarettes
a public health issue, but that UPS, as the transporter, bears a lower level of culpability than other entities, such as the manufacturer or seller of cigarettes,
for the public health issues caused by smoking. We
agree with the district court that the effect of cigarette
smoking on public health is substantial, but that the
gravity of UPS’s conduct is partially mitigated by the
attenuated causal relationship between its conduct
and the public health consequences of smoking.
Another aspect of the public harm is, of course, the
plaintiffs’ lost tax revenue on the cigarettes whose untaxed sale UPS facilitated. But the harm to the public
fisc here totaled, at most, $18.8 million. The aggregate penalty imposed by the district court amounted
to approximately 13 times that financial loss, and
even the penalties remaining after the correction of
the AOD penalty amount to more than eight times the
maximum tax lost. The penalty amount even more
dramatically dwarfs any profits UPS made on the illegal cigarette shipments. See United Parcel Service,
253 F. Supp. 3d at 690; J. App’x at 1953–54 (estimating profits on all shipments for Liability Shippers
from 2010 through 2014 at $475,000).
The analogous penalty under the federal Sentencing Guidelines for sentences for trafficking cigarettes
under the CCTA sheds some light on these ratios. See
U.S.S.G. § 2E4.1; cf. Bajakajian, 524 U.S. at 338 (considering the maximum possible sentence under the
Sentencing Guidelines for comparable conduct). The
Guidelines are particularly relevant here because

96a
they make clear that tax evasion is the principal conduct at which these statutes are directed, see U.S.S.G.
§ 2E4.1, and are designed to avoid hyper-technical,
per-violation penalty calculations where the conduct
at issue “involv[es] substantially the same harm.”
U.S.S.G. § 3D1.2. The operative Guidelines permit
the court to set a fine at up to four times the amount
of pecuniary loss caused.38 See U.S.S.G. §§ 2E4.1,
2T4.1, 8C2.4(d), 8C2.6. Thus, under our reading of the
Sentencing Guidelines, the $18.8 million in unpaid
taxes lost by the State and City would permit a sentencing court to impose a fine up to $75.2 million, a
far smaller financial penalty for a criminal violation
than the district court imposed for a civil offense.39

38

We do not suggest that the Sentencing Guidelines applicable
to criminal CCTA violations set an outer limit on the penalties
that can be imposed under a different, civil, statutory regime.
We merely use the Guidelines as a useful cross-check on the reasonableness of the district court’s cumulative penalty amount.
39

Section 2E4.1, titled “Trafficking in Contraband Cigarettes
and Smokeless Tobacco,” provides that the base offense level for
unlawful conduct relating to contraband cigarettes and smokeless tobacco is the greater of 9 or the offense level from the tax
table in § 2T4.1 corresponding to the amount of the tax evaded.
The tax table at § 2T4.1 indicates that the offense level is 26 for
a tax loss of $18.8 million. Since the offense level from the tax
table is greater than 9, we use 26 as the offense level. Section
8C2.4 instructs that, when sentencing organizations, the base
fine is the greater of the amount from the offense level fine table
at § 8C2.4(d) or “the pecuniary loss from the offense caused by
the organization, to the extent the loss was caused intentionally,
knowingly, or recklessly.” § 8C2.4(a). Here, the latter of those
amounts, $18.8 million of pecuniary loss, is the greater one, so
that becomes the base fine. That base fine of $18.8 million would
be multiplied by four, however, assuming a culpability score of

97a
Lastly, we note that the deterrent value of civil
penalties here is lessened to some extent by the fact
that UPS began increasing its efforts to comply with
the AOD in the fall of 2013, and was “achieving actual
compliance as of the date this lawsuit was filed on
February 18, 2015.” United Parcel Service, Inc., 253 F.
Supp. 3d at 617. Given such compliance, the district
court’s reasoning that “only a hefty fine will have the
impact on such a large entity to capture the attention
of the highest executives in the company,” id. at 691,
was flawed. UPS’s efforts to pursue more aggressive
compliance with the AOD as early as 2013 indicate
that an award in the hundreds of millions of dollars is
not needed to accomplish specific deterrence.40
Thus, we conclude that the district court’s duplicative $78 million penalty awards under the PACT
Act and PHL § 1399-ll cannot be located within the
realm of permissible decisions. One $78 million penalty appears sufficient to accomplish the goals of the
10 or more. See § 8C2.5 (culpability score of at least 10 for organization with 5,000 or more employees if the court also finds
“tolerance of the offense by substantial authority personnel was
pervasive throughout the organization”); § 8C2.6 (indicating a
minimum multiplier of 2 and a maximum multiplier of 4 for a
culpability score of 10 or more). Thus, if UPS were facing criminal charges in federal court, the maximum fine the district court
could have imposed would be $75.2 million. See § 8C2.7.
40

It is also worth noting that the deterrent effect on other similarly situated carriers is limited. Only two other major carriers
had AODs comparable to that entered by UPS. One, DHL, closed
its domestic shipping business in 2008. See J. App’x at 779; 1995.
The other, FedEx, faced a similar lawsuit but reached a settlement during the pendency of this appeal. See Order for Dismissal and Retention of Jurisdiction, City of New York v. FedEx
Ground Package Sys., Inc., No. 1:13–cv–09173–ER (S.D.N.Y.
Jan. 15, 2019), ECF No. 631.

98a
PACT Act and PHL § 1399-ll, without nearing the
boundaries of excessiveness.
Although we would typically vacate and remand a
case when concluding that the district court abused its
discretion in imposing a certain penalty or punishment, that need not be done in every situation, and
the circumstances of this case counsel against remanding for further proceedings in this already extended litigation. First, the district court judge who
ably handled this case below has retired from the
bench and it would be burdensome and inefficient for
a new judge to review the record and arrive at a new
penalty calculation at this late stage. See United
States v. Ganci, 47 F.3d 72, 74 (2d Cir. 1995) (refusing
to remand sentence where it would be an “inefficient
use of judicial resources” despite remand being the
normal procedure under the circumstances). Moreover, the district court has already calculated the appropriate amount of damages under each statutory regime and we find no error in either calculation. We
have carefully considered the record ourselves and
conclude that $78 million is an appropriate penalty.
See Brown v. Maxwell, 929 F.3d 41, 48 (2d Cir. 2019)
(concluding, after reviewing summary judgment materials in connection with appeal, that appellate court
could order unsealing documents without requiring a
remand).
The district court in the first instance could have
awarded penalties under either statutory regime. In
vacating one of the $78 million awards, we choose to
sustain the award under PHL § 1399-ll and vacate the
award under the PACT Act. We do so because PHL
§ 1399-ll addresses the conduct that both Congress

99a
and the State seek to stop: the shipment of unstamped cigarettes to consumers. The PHL § 1399-ll
award reflects a steep price of $2,500 per carton of cigarettes that UPS actually shipped. It also incorporates penalties for violations with respect to each of
the Liability Shippers, including those on the NCLs.
Therefore, we vacate the $78.4 million penalty
award under the PACT Act and affirm the $78.8 million penalty award under PHL § 1399-ll.
CONCLUSION
For the reasons stated above, we: AFFIRM the
judgment of liability and attendant $78.8 million penalties under PHL § 1399-ll; AFFIRM the judgment of
liability but VACATE the imposition of $78.4 million
in penalties under the PACT Act; AFFIRM the judgment of liability but MODIFY the award of damages
under the CCTA to $17.4 million to the State and $1.4
million to the City; and AFFIRM the judgment of liability but MODIFY the award of penalties under the
AOD to $20,000 to the State. The judgment of the district court, as so modified, is AFFIRMED.
* * *

100a
DENNIS JACOBS, Circuit Judge, concurring in part and
dissenting in part:
The majority opinion admirably recounts the history of this case and the dizzying contractual and statutory provisions that govern. I recount only what is
necessary to understand my positions in dissent.
To collect revenue and reduce public health costs,
New York State and the City of New York impose
taxes on cigarettes, amounting (currently) to $43.50
per carton--doing well while doing good. Of course,
those taxes are only effective insofar as they are actually collected, and both New York State and the federal government have passed statutes intended to
curb tax evasion, including by the imposition of damages and penalties on common carriers that deliver
cigarettes, of which UPS is one. The regulation of
UPS is enforced, variously, by four potential sources
of liability.
I
Enacted in 2000, New York’s Public Health Law
§ 1399-ll makes it “unlawful for any common or contract carrier to knowingly transport cigarettes to any
person in this state reasonably believed by such carrier” to be unauthorized to receive untaxed cigarettes.
§ 1399-ll(2). Delivery to a home or residence creates
a presumption of unauthorized delivery. Id. The PHL
authorizes penalties “not to exceed the greater of
(a) five thousand dollars for each . . . violation; or
(b) one hundred dollars for each pack of cigarettes
shipped, caused to be shipped or transported in violation of [the PHL].” Id. § 1399-ll(5).
In 2004, the New York State Attorney General investigated UPS’s compliance with PHL § 1399-ll, and

101a
found regular instances of violation. To settle the resulting dispute, in October 2005, UPS entered into an
Assurance of Discontinuance (the “AOD”) with New
York. Broadly, the AOD forbids UPS from knowingly
shipping untaxed cigarettes to consumers in New
York State, and specifies certain compliance measures
to be taken by UPS, including, for example, auditing
suspect shippers and maintaining a list of shippers
who have been caught selling untaxed cigarettes. The
stipulated penalty is “$1,000 for each and every violation.” S. App’x at 508.
Five years later, the Prevent All Cigarette Trafficking Act (the “PACT Act”), 15 U.S.C. § 375 et seq.,
banned the mailing of cigarettes through the United
States Postal Service, and placed further restrictions
and reporting requirements on common carriers.
Among other prohibitions, common carriers are forbidden from accepting any packages from shippers on
a “Non-Compliant List” that is maintained by the U.S.
Attorney General. 15 U.S.C. § 376a(e)(1). The PACT
Act authorizes penalties “in an amount not to exceed .
. . $2,500 in the case of a first violation, or $5,000 for
any violation within 1 year of a prior violation.” 15
U.S.C. § 377. Critical here, the PACT Act has an exemption from its penalties--and preempts any damages or penalties available under state laws--if “the
Assurance of Discontinuance [AOD] entered into by
the Attorney General of New York and United Parcel
Service, Inc. . . . is honored throughout the United
States to block illegal deliveries of cigarettes or
smokeless tobacco to consumers.”
15 U.S.C.
§ 376a(e)(3)(B)(ii)(I).
The shipment of cigarettes is regulated by yet another statute. The Contraband Cigarette Trafficking

102a
Act (the “CCTA”), enacted in 1978, makes it illegal “for
any person knowingly to ship, transport, receive, possess, sell, distribute, or purchase contraband cigarettes,” 18 U.S.C. § 2342(a), and defines “contraband
cigarettes” as “a quantity in excess of 10,000 cigarettes, which bear no evidence of the payment of applicable State or local cigarette taxes in the State or
locality where such cigarettes are found.”
Id.
§ 2342(2). The CCTA provides that “[w]hoever knowingly violates [the CCTA] shall be fined,” but gives no
guidance as to amount. Id. § 2344.
In this case, filed in February 2015, New York
State and the City of New York (together, the “plaintiffs”) allege that, from 2010 to 2015, UPS violated the
PHL, the AOD, the PACT Act, and the CCTA by knowingly shipping untaxed cigarettes to consumers in
New York. The district court found after a bench trial
that UPS had violated each of the statutes, and
awarded the following damages and penalties:
•

$78.4 million in penalties for accepting packages from shippers on the Non-Compliant
List, in violation of the PACT Act;

•

$78.8 million in penalties for the knowing
shipment of untaxed cigarettes, in violation of
the PHL;

•

$9.4 million in damages for the recovery of unpaid taxes on cigarettes shipped in violation of
the CCTA;

•

$1,000 in nominal penalties for violating the
CCTA;

•

$80.5 million in penalties for violating the auditing provision of the AOD.

103a
The total combined award was a colossal $246.9 million.
II
I concur in part with the majority opinion, because
I agree with the majority’s navigation of many of these
difficult issues. Specifically, I agree that:
•

the district court properly concluded that the
AOD authorizes penalties for auditing violations;

•

the district court erred in concluding that the
AOD authorized per-package penalties for auditing violations, amounting to an $80 million
award, and that the proper award is $20,000;

•

the district court did not abuse its discretion
in denying UPS’s motion for Rule 26 sanctions;

•

the district court did not clearly err in finding
the package quantity and contents for the purposes of calculating damages and penalties;
and

•

the district court did not err by ordering the
parties to submit post-trial damages calculations.

These conclusions by the majority are sound and wellreasoned.
I part company with the majority on two issues,
and to that extent I respectfully dissent. First, I believe that UPS is exempted from the PACT Act, and
that the PHL is preempted, because UPS has “honored” the AOD nationwide (within the meaning of the
statute) by subjecting itself (implicitly and explicitly)

104a
to the AOD nationwide, and I therefore conclude that
the district court erred in awarding damages and penalties under the PACT Act and the PHL. Second, I
believe that the CCTA’s definition of “contraband cigarettes” does not permit aggregation of packages with
fewer cigarettes to arrive at “a quantity in excess of
10,000 cigarettes”; and I further conclude that the district court erred in awarding damages under the
CCTA without sufficient evidence to support the
award.
The PACT Act and the PHL
It is a close question whether UPS is exempted
from the PACT Act and the PHL is preempted. The
wording of the statute offers little help. Nevertheless,
the majority’s proposed solution raises so many knotty
problems that it cannot be right.
As the majority opinion explains, UPS is exempted from the PACT Act, and the PHL is
preempted, if the AOD is “honored throughout the
United States to block illegal deliveries of cigarettes
or smokeless tobacco to consumers.” 15 U.S.C.
§ 376a(e)(3)(B)(ii)(I) (PACT Act exemption); 15 U.S.C.
§ 376a(e)(5)(C)(ii) (preemption of state laws). According to the majority opinion, UPS would “honor” its undertaking only by exercising sufficient care to prevent
illicit trafficking. In my view, UPS “honors” the AOD
so long as it subjects itself to the terms of the AOD
throughout the nation.1 See Black’s Law Dictionary

1

The majority cites the phrase “to block illegal deliveries of
cigarettes or smokeless tobacco to consumers” as evidence that
the “honored” clause was intended to involve a compliance in-

105a
(defining “to honor” as to accept an obligation as valid,
such as when a bank honors a check). Thus one does
not dishonor a contract by subjecting oneself to its
terms of liquidated damages.
This interpretation of the statute achieves
straightforward application of a nebulous term, as follows. If a state or locality other than New York sues
UPS under the PACT Act, UPS is not obliged to invoke
the exemption; but if it does, the plaintiff cannot obtain remedies under the PACT Act, and is limited to
the somewhat lesser remedies under the AOD. The
condition is that UPS can invoke the exemption only
if it “honors” the AOD in any enforcement suits
brought by any State or locality. It does so by forgoing
certain potent defenses that would otherwise defeat
such a claim: that states other than New York lack
privity with UPS; that other states did not agree to be
bound by the AOD; that the wording of the AOD references cigarette distribution in New York only; and
that the AOD grants no “rights or privileges to any”
non-party. In that way, the New York-centric terms
of the AOD do not defeat or complicate the exemption
term of the PACT Act, which post-dated the AOD by
five years. Nor can UPS back out of its obligation to
honor the ACID nationwide: UPS’s invocation of the
PACT Act exemption in any single forum would operate to estop its invocation of defenses against the AOD
in any other forum. And the undertaking expressly
made in this case--to honor the AOD nationwide--has
quiry. But “to” clauses are more commonly understood as statements of statutory purpose, not directives. See Allison Engine
Co. v. Sanders, 553 U.S. 662, 668 (2008) (concluding that “to get
a false or fraudulent claim paid by the government” is a purpose
clause, not a condition).

106a
similar estoppel effect. Pace the majority’s misconception that UPS would thus have a case-by-case power
of election in every state.
Thus UPS honors the AOD nationwide by subjecting itself to the AOD’s penalty provision. And at this
point having already done so in New York, it has no
other option but to honor it nationwide. Up until that
point, UPS was subjected to either (i) the ACID or
(ii) the PACT Act and local state laws--but not all
three. This is a common-sense result that seems contemplated by the exemption in the PACT Act. The
manifest design of the PACT Act is to allow and ensure the imposition of one penalty or another, not to
stack penalty upon penalty based on whether the company devoted a sufficient (though undefined) level of
care and attention to weeding out untaxed-cigarette
parcels from the millions of parcels it delivers every
day.
The majority’s interpretation is that to “honor”
means to conduct sufficient oversight to the interdiction of cigarette traffic, and to devote sufficient resources to that effort. That interpretation is unworkable for several reasons. First, if the applicability of
the exemption were to turn on success of its interdiction measures, no one (courts, common carriers,
states, or municipalities) could know whether the exemption is applicable until vexed questions were
sorted out in litigation. The exemption would then become ineffective, because UPS could not rely on it:
UPS could only know after trial whether it had sufficiently “honored” the AOD to qualify. And if UPS is
found to be out of compliance with the AOD (say, in
Rabbit County), triplicative penalties pile up under
two statutes and a contract, all of which regulate the

107a
same conduct. This is untenable; worse, it is unconvincing.
The statute provides no standard for deciding
whether UPS honored the AOD in the way posited by
the majority. Would a single breach of a reporting requirement caused by management indifference (or
other priorities) render the exemption inapplicable?
Given the millions of packages delivered each day,
would a hundred failures of compliance a month render the exemption inapplicable? What if the common
carrier materially breaches the AOD in one state, but
complies in the other forty-nine? How likely is it that
Congress intended the applicability of the exemption
to turn on such baffling questions, or that Congress
intended hundreds of millions of dollars of penalties
to be rendered based on open issues? With no statutory guidance (or useful help from the parties), the district court created its own standard.2
The majority’s preferred approach is internally inconsistent. If, as the majority sees it, Congress intended UPS to lose its exemption if it breached the
AOD, one must infer that Congress also intended the
assessment of penalties from three sources for the
same conduct in the event of noncompliance. But, as
the majority concludes, that result cannot be sustained: for that very reason, the majority has sharply
reduced the judgment of $247 million. To avoid stacking of penalties under the PHL, the AOD, and the
2

The district court concluded that the exemption is unavailable if “the effectiveness of UPS’s policies [is] so compromised that
these policies are not in fact in place.” S. App’x at 144. This invention is nowhere in the statute; it is subjective and vague; and
it would require a trial to decide what contract and what statutes
govern the case.

108a
PACT Act, the majority simply chooses one statute’s
penalties to apply (the PHL), and writes off the penalties under the PACT Act and the AOD.
The majority alludes to a problem of “announcement”--how will other States know whether UPS has
agreed to subject itself to the AOD nationwide, so that
those States can therefore look to penalties under the
AOD? But UPS has made that very announcement
here. When UPS invoked the exemption in the PACT
Act in this case, and advocated for preemption of the
PHL, it became bound by the AOD nationwide by virtue of judicial estoppel. Thus, if Idaho now sues, UPS
will be bound by its representation in this lawsuit that
the AOD is effective nationwide and therefore will lose
the ability to interpose defenses to claims under the
AOD; and Idaho will seek penalties under the AOD
because it will be unable to seek penalties elsewhere.
Problem solved.
As to penalties under the AOD, the district court
awarded $80 million for auditing violations (reduced
by the majority opinion to $20,000) and imposed no
penalties for the knowing shipment of untaxed cigarettes. The only penalties awarded by the majority for
that unlawful conduct fall under the PACT Act and
the PHL, which (in my view) are subject to UPS’s exemption and to federal preemption, respectively. The
plaintiffs argue that, if (as I think) the penalty awards
under the PACT Act and PHL cannot be sustained,
substitute penalties must be levied under the AOD for
the knowing shipments of untaxed cigarettes. UPS
argues waiver, because the plaintiffs did not seek
those penalties under the AOD at trial. See S. App’x
at 385 (“Plaintiffs are not seeking penalties [for knowing shipments]--they seek penalties only for violations

109a
of the audit obligation in ¶ 24 [of the AOD].”). The
plaintiffs explain, however, that they were willing to
forgo collection under the AOD only because it would
result in a duplicative award, and that it did not waive
its right to seek those penalties if they were not duplicative.
The waiver, if there was one, should be overlooked. UPS does not challenge the district court’s
findings that it knowingly shipped some untaxed cigarettes; and UPS admits that it should be bound by
either the AOD or the PHL/PACT Act. Accordingly, I
would vacate the awards under the PACT Act and the
PHL, and remand with instructions to consider
whether penalties are appropriate under the AOD for
the knowing shipment of untaxed cigarettes. Based
on the district court’s findings of the number of untaxed cartons of cigarettes knowingly shipped by UPS,
the penalties would amount to about $30 million--a
quite considerable penalty for failure to monitor a minute fraction of the parcels shipped by UPS.
The CCTA
I dissent from the majority’s award of damages
under the CCTA because: (1) the district court erred
in concluding that the CCTA permits aggregation of
small shipments to reach the 10,000-cigarette threshold in the definition of “contraband cigarettes”, and
(2) the district court erred in awarding any damages
under the CCTA because there was insufficient evidence to sustain the award.
The CCTA outlaws the knowing shipment of “contraband cigarettes,” 18 U.S.C. § 2342(a), defined as “a
quantity in excess of 10,000 cigarettes, which bear no
evidence of the payment of applicable State or local

110a
cigarette taxes.” 18 U.S.C. § 2341(2). The district
court ruled (and the majority agrees) that the CCTA
permits aggregation of smaller quantities to meet the
10,000-cigarette threshold. That is a misreading. “A
quantity,” a singular noun, is read naturally to reference a single shipment of more than 10,000 cigarettes,
which amounts to 50 cartons. This interpretation fits
the express purpose of the statute, to address “the serious problem of organized crime and other large scale
operations of interstate cigarette bootlegging.” S. Rep.
No. 95-962, at *3 (1978).
If aggregation is permitted (as my colleagues conclude), courts will be left to resolve difficult questions,
starting with time period. The plaintiffs argue that
aggregation should be permitted over the entire fouryear period of the statute of limitations. Such aggregation would impose a penalty for shipping about one
carton a month. This quick calculation tells us something about what Congress likely intended. Surely,
organized crime has something better to do.
As to the calculation of damages under the CCTA,
the majority concludes that the plaintiffs are entitled
to recover the taxes they would have collected for each
and every carton of untaxed cigarettes shipped by
UPS. I disagree.
The issue is resolved by general principles of damages. In order to recover compensatory money damages, the plaintiffs must demonstrate that their loss
of tax revenue was caused by the defendant’s actions.
See Anderson Grp., LLC v. City of Saratoga Springs,
805 F.3d 34, 52 (2d Cir. 2015) (“Compensatory damages are designed to place the plaintiff in a position
substantially equivalent to the one that he or she

111a
would have enjoyed had no tort been committed.”); see
also Cooper Indus., Inc. v. Leatherman Tool Grp., Inc.,
532 U.S. 424, 432 (2001) (“[Compensatory damages
are] intended to redress the concrete loss that the
plaintiff has suffered by reason of the defendant’s
wrongful conduct.”).
Unlike the sellers of the cigarettes, who are directly responsible for remitting the taxes to the state,
UPS never had an obligation to pay the cigarette
taxes. The damages theory relies on UPS’s role as a
conduit--incidental to its useful and legitimate business. No damages were caused by UPS failing to pay
the tax (it never owed any); any damage was caused
by UPS transporting cigarettes for sellers who did owe
the taxes but failed to pay.
The intuitive point--that UPS was never responsible for paying the taxes on the cigarettes--is critical in
light of the Supreme Court’s decision in Hemi Group,
LLC v. City of New York, N.Y., 559 U.S. 1 (2010). The
City of New York sued an online cigarette seller in
New Mexico that shipped untaxed cigarettes to consumers in New York City. Because it was an out-ofstate seller, defendant Hemi Group was under no obligation to charge, collect, or remit the City’s tax on
those sales. The City argued under RICO that Hemi
was liable nevertheless because it failed to comply
with a federal statute that required it to report customer information to the state. The Court concluded
that the alleged acts of racketeering (violations of the
federal reporting requirement) were attenuated from
the alleged damages (unpaid City taxes), and therefore could not justify RICO recovery for the unpaid
taxes. What matters for us is the Court’s observation
in dismissing the City’s claims:

112a
It bears remembering what this case is about.
It is about the RICO liability of a company for
lost taxes it had no obligation to collect, remit,
or pay, which harmed a party to whom it owed
no duty. It is about imposing such liability to
substitute for or complement a governing
body’s uncertain ability or desire to collect
taxes directly from those who owe them.
Id. at 17. We are thus cautioned against allowing the
collection of unpaid taxes from defendants who, like
UPS, were never responsible for paying them in the
first place. True, Hemi was a RICO case; but the Supreme Court’s teaching transcends the context.3 The
plaintiffs here are entitled to recover no more than the
cigarette taxes that would have been collected in the
absence of UPS’s illegal conduct. That depends (as the
district court ruled) on the “diversion rate,” i.e. the
percentage of smokers who would have purchased taxstamped cigarettes if UPS complied with the law.
As UPS contends, the plaintiffs failed to sustain
their burden of proving damages because they failed
to offer any evidence of a diversion rate.
The district court’s finding--that the diversion
rate is 50 percent—comes from mid-air. The only testimony at trial on the proper diversion rate came from
3

The majority deems Hemi inapplicable to this context because the Hemi principle “surely cannot apply where Congress
has authorized such relief.” Majority Op. at 101 n.33. But Congress did not: the majority’s preceding sentence asserts no more
than that Congress did so “implicitly.” In any event, the PACT
Act does not apply for the reasons I set out above, and, as to the
CCTA, the majority posits the payment of “unpaid taxes” only as
it may be “encompasse[d]” in “money damages.” Majority Op. at
100.

113a
UPS’s expert, Dr. Nevo; he opined that 5.4 percent
was appropriate. The district court rejected Dr.
Nevo’s testimony (on a questionable basis), and then
simply made up another rate:
On balance, the Court cannot arrive at a precise number of cigarette cartons consumers
would have purchased, but 50% is a reasonable number based on the totality of facts. The
Court therefore finds plaintiffs are entitled to
compensatory damages in the amount of 50%
of Cartons . . . shipped by the Liability Shippers.
S. App’x at 442. In its entirety, that is the district
court’s analysis of the diversion rate. There is no citation to precedent or the record. And the plaintiffs
offered no evidence at trial to support a 50 percent
rate.
The plaintiffs argue that the 50 percent diversion
rate is supported (more or less) by Dr. Nevo’s opinion
that 56 percent of all cigarette sales in New York
State are taxed sales. But the district court did not
predicate its 50 percent finding on Dr. Nevo’s 56 percent estimate.
In any event, Dr. Nevo’s testimony-- that 56 percent of New York smokers buy
taxed cigarettes--does not mean that smokers who buy
untaxed cigarettes shipped by UPS would buy taxed
cigarettes in the same proportion as all other New
Yorkers if their smokes could not be shipped by UPS.
The premise is untenable, given that many of those
consumers are financially marginal, are likely to be
price sensitive, and are unlikely to have an extra
$3,000 a year for a carton-per-week habit.

114a
Therefore, because the plaintiffs did not offer sufficient evidence to support its damages calculation, I
would reverse the damages award under the CCTA.
*****
In sum, I vote to: vacate the penalty awards imposed under the PACT Act and the PHL; vacate the
award of damages under the CCTA; reduce to $20,000
the penalty for auditing violations under the AOD;
and remand to the district court with directions to calculate the reasonable penalties under the AOD for the
knowing shipment of untaxed cigarettes.

115a
APPENDIX B

UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT
OF NEW YORK
X
THE STATE OF NEW
:
YORK and THE CITY OF :
NEW YORK,
:
:
Plaintiffs,
:
:
:
-v:
UNITED PARCEL SER- :
VICE, INC.,
:
:
Defendant.
:

15-cv-1136 (KBF)
CORRECTED
OPINION & ORDER1

X
KATHERINE B. FORREST, District Judge:

1

This Corrected Opinion & Order replaces the Opinion & Order issued by the Court on March 24, 2017 (ECF No. 526.) This
Corrected Opinion & Order corrects certain limited issues identified by the parties as well as certain limited issues identified
by the Court. By separate order at ECF No. 533, the Court has
provided a comparison (or “blackline”) showing all of the changes
made that are now reflected in this Corrected Opinion & Order.

116a
Table of Contents
I.

INTRODUCTION ........................................ 121a

II. PROCEDURAL HISTORY .......................... 124a
A. Pre-Trial Proceedings............................. 124a
B. The Trial ................................................. 130a
III. FINDINGS OF FACT .................................. 131a
A. Public Health Issues Associated with
Cigarettes .............................................. 131a
B. Plaintiffs’ Investigations of UPS ........... 133a
C. UPS’s Business ....................................... 135a
D. UPS’s Business and Specific Conduct ... 141a
1.

UPS’s Tobacco Policy ........................ 141a

2.

UPS’s Training Efforts ..................... 144a

3.

The Role of Account Executives ....... 147a

4.

The Role of UPS Drivers .................. 150a

5.

UPS’s Interactions with Shippers .... 152a

6.

UPS’s Information Systems and
Information Sharing ......................... 154a

E. UPS’s
Asserted
Reliance
on
Governmental Action/Inaction ............. 155a
1.

Governmental Action ....................... 156a

2.

Governmental Inaction .................... 158a

F. UPS’s Audits ........................................... 160a
IV. CURRENT
STATUS
OF
UPS’S
COMPLIANCE EFFORTS .......................... 164a

117a
V. BACKGROUND CONCERNING THE
TAXATION OF CIGARETTES AND
LITTLE CIGARS ......................................... 167a
VI. THE PACT ACT........................................... 169a
VII. CONSUMPTION
OF
TOBACCO
PRODUCTS ................................................. 170a
A. Cigarettes ............................................... 170a
B. Little Cigars ........................................... 172a
VIII. CERTAIN COMMON EVIDENCE ........... 175a
A. The Fink Accounts ................................. 175a
B. The Non-Compliant Lists....................... 177a
C. The
“Tobacco
Watchdog
Group”
Letter ..................................................... 180a
D. Inquiries Regarding Lost or Damaged
Packages ................................................ 182a
1.

Smokes & Spirits .............................. 183a

2.

RJESS ............................................... 184a

3.

Sweet Seneca Smokes ...................... 184a

4.

Elliott Enterprises/EExpress ........... 184a

5.

Bearclaw Unlimited.......................... 185a

6.

Shipping Services ............................. 185a

7.

Native Wholesale Supply ................. 185a

8.

Seneca Promotions ........................... 185a

9.

Native Gifts....................................... 186a

10. Jacobs Manufacturing/Tobacco ........ 186a

118a
E. The
Cigarettes
Shipped
Were
Unstamped ............................................ 186a
IX. SHIPPERS AT ISSUE ................................. 187a
A. Overview of the Shippers and the
Court’s Findings .................................... 187a
B. Liability Shippers ................................... 192a
1.

Elliott Enterprises ............................ 192a

2.

EExpress ........................................... 198a

3.

Bearclaw/AFIA ................................. 202a

4.

Shipping
Services/Seneca
Ojibwas/Morningstar Crafts &
Gifts ................................................... 206a

5.

Indian Smokes .................................. 211a

6.

Smokes & Spirits .............................. 214a

7.

Arrowhawk/Seneca
Cigars/Hillview Cigars/Two Pine
Enterprises ....................................... 219a

8.

Mohawk Spring Water ..................... 226a

9.

Jacobs Tobacco Group ...................... 230a

10. Action Race Parts ............................. 231a
11. Native Wholesale Supply ................. 233a
12. Seneca Promotions ........................... 235a
C. Shippers as to Which There Is Only
AOD Liability ........................................ 237a
1.

Native Outlet .................................... 237a

2.

A.J.’s Cigars ...................................... 240a

3.

RJESS ............................................... 242a

119a
D. Shipper as to Which There Is No
Liability ................................................. 244a
1.

Sweet Seneca Smokes ...................... 244a

X. CONCLUSIONS OF LAW .......................... 247a
A. The AOD ................................................. 248a
1.

Background Described in the AOD .. 249a

2.

The Terms of the AOD ..................... 251a

B. Interpretation of the AOD ..................... 258a
C. Violations of the AOD ............................ 259a
D. Violations of the Audit Obligation
Under the AOD ..................................... 264a
1.

Proof
to
the
Reasonable
Satisfaction of the State Attorney
General.............................................. 265a

2.

Implied Covenant of Good Faith
and Fair Dealing ............................... 267a

E. Whether the AOD Was “Honored”......... 270a
XI. KNOWLEDGE ............................................. 275a
A. Knowledge .............................................. 276a
B. Imputation of Knowledge ....................... 281a
C. Presumptions
of
Knowledge
for
Common Carriers .................................. 285a
D. Imputation of Knowledge ....................... 287a
XII. LIMITATIONS PERIOD ............................ 287a
XIII. THE PACT ACT ........................................ 289a
XIV . PHL 1399-LL ............................................. 294a

120a
XV. THE CCTA ................................................... 297a
XVI. PREEMPTION .......................................... 303a
XVII. UPS’S REMAINING DEFENSES ........... 307a
A. Unclean Hands/In Pari Delicto .............. 307a
B. Waiver ..................................................... 309a
C. Public Authority and Estoppel .............. 310a
XVIII. DAMAGES .............................................. 314a
A. UPS’s Pre-Trial Damage Disclosure...... 315a
B. Legal Principles Regarding Damages ... 321a
1.

Compensatory Damages ................... 321a

2.

Penalties ........................................... 324a

C. Constitutional/Conscionability Issues
with Penalties ....................................... 330a
D. The Penalty Provisions at Issue Here ... 337a
E. Calculation of Penalties ......................... 338a
1.

Defining a Package ........................... 339a

2.

Package Contents ............................. 341a

3.

Reasonable Approximation of
Contents ............................................ 342a

4.

Defining a Carton ............................. 343a

5.

The AOD ........................................... 344a

6.

The PACT Act and PHL § 1399-ll .... 345a

7.

The CCTA ......................................... 347a

XXI.INJUNCTIVE RELIEF .............................. 348a
XXII. CONCLUSION ......................................... 350a

121a
I.

INTRODUCTION

Issues surrounding the appropriate taxation and
collection scheme for cigarettes sold on Indian reservations in the State of New York have presented persistent and complex challenges. Cigarettes sold on
reservations to tribal members for personal use are
exempt from tax; those sold to non-tribal members are
not. The tracking and collection of appropriate taxes
has proceeded in fits and starts—including a lengthy
period of forbearance by the State of New York from
enforcing existing tax laws on reservations, which
continued until June 2011.
This lawsuit concerns a non-tribal member,
United Parcel Service, Inc. (“UPS”), which allegedly
transported, inter alia, cigarettes from and between
New York State Indian reservations for a number of
shippers (“Relevant Shippers”). Plaintiffs, the State
of New York and the City of New York (collectively,
“plaintiffs,” and, respectively, the “State” and/or the
“City”), assert that in transporting unstamped (and
therefore untaxed) cigarettes,2 UPS has violated an
Assurance of Discontinuance (“AOD”) it signed with
the State in 2005, as well as New York Executive Law
(“N.Y. Exec. Law”) § 63(12); New York Public Health
Law (“PHL”) § 1399-ll;3 the Prevent All Cigarette
2

Throughout this Opinion & Order, unless otherwise specified
or clear from context, the word “cigarettes” refers to unstamped
cigarettes for which no taxes were paid. The Court makes a number of factual findings below supporting the use of the term in
this manner.
3

Plaintiffs’ PHL § 1399-ll and N.Y. Exec. Law § 63(12) claims
entirely overlap: According to plaintiffs, violations of the former
led to a violation of the latter.

122a
Trafficking Act (“PACT Act”), 15 U.S.C. §§ 375-78; the
Contraband Cigarettes Trafficking Act (“CCTA”), 18
U.S.C. §§ 2341-46; and the Racketeer Influenced and
Corrupt Organizations Act (“RICO”), 18 U.S.C.
§§ 1961-68.4
UPS has denied plaintiffs’ assertions from the
commencement of this action, and it vigorously defended itself through trial. While UPS pursued a
number of defenses discussed in more detail below, a
few are worth additional focus at the outset. First and
foremost, UPS has disputed that it ever violated its
obligations under the AOD or knowingly transported
unstamped cigarettes from or between Indian reservations to unauthorized recipients.
Second, UPS argues that even if it had violated
the statutes or the AOD, plaintiffs have failed to carry
their burden with regard to establishing damages.5
UPS’s primary legal arguments in support of this contention are that plaintiffs failed to adequately disclose
their damages computation prior to trial and then
made a separate error at trial by attempting to introduce the details of their damages claim through a
demonstrative when it should have been presented by
an expert. According to UPS, these legal issues provide two independent bases for the Court to preclude
plaintiffs’ damages claim altogether. UPS has also
made factual arguments in furtherance of preclusion.
4

By Opinion & Order dated August 9, 2016, this Court dismissed plaintiffs’ RICO claims. (ECF No. 322, New York v.
United Parcel Serv., Inc., No. 15-cv-1136, 2016 WL 4203547
(S.D.N.Y. Aug. 9, 2016).)
5

Plaintiffs seek both compensatory damages (relating to lost
tax revenue) and penalties. For ease of reference, the Court refers to these together as “damages.”

123a
UPS argues that plaintiffs improperly and without
sufficient factual support seek damages for every
package transported by UPS after a certain point in
time. UPS also asserts that, in all events, neither
UPS nor plaintiffs can possibly know the contents of
any particular package, rendering assessment of damages on a per-package basis impossible.
Upon careful review and consideration of the entire trial record, the Court finds that UPS violated its
obligations under the AOD in a number of respects
and, in addition, knowingly6 transported cigarettes
from and between Indian reservations for all but one
of the shippers (the “Liability Shippers”).7 For this
reason and others detailed below, UPS’s arguments
against any liability fail. The more complicated issue,
however, relates to damages. Plaintiffs left their damages case open to severe attack; such exposure could
and should have been avoided. However, the Court
finds that plaintiffs are entitled to compensatory damages as well as monetary penalties in amounts yet to
be determined, but not injunctive relief or the appointment of a monitor.

6

Throughout this Opinion & Order, when the Court refers to
UPS’s “knowledge” it is incorporating its legal conclusions on this
topic set forth at length below, and is including direct knowledge,
knowledge based on willful blindness and/or conscious avoidance, and knowledge acquired by way of imputation.
7

The Liability Shippers comprise all but one of the Relevant
Shippers. That is, plaintiffs’ claims relate to all of the Relevant
Shippers, but the Court has concluded that UPS has liability for
at least one or more claims only as to the Liability Shippers.

124a
II. PROCEDURAL HISTORY
A. Pre-Trial Proceedings
The State and City initiated this action by filing a
complaint against UPS on February 18, 2015. (ECF
No. 1.) They filed an amended complaint (“Amended
Complaint”) on May 1, 2015, a second amended complaint (“Second Amended Complaint”) on November
30, 2015, and a third amended complaint (“Third
Amended Complaint”) on February 24, 2016. (ECF
Nos. 14, 86, 189.) The Second Amended Complaint
contains fourteen causes of action seeking various
forms of relief under the AOD,8 N.Y. Exec. Law
§ 63(12),9 PHL § 1399-ll;10 the PACT Act;11 the
CCTA;12 and RICO.13
The parties agreed that the affirmative defenses
asserted by UPS in its answer to the Amended Complaint, (ECF No. 110), were deemed asserted as to the
Second Amended Complaint. On December 4, 2015,
plaintiffs moved to strike UPS’s Fifth through Seventeenth Affirmative Defenses. (ECF No. 89.) In an
Opinion & Order dated February 8, 2016, the Court
granted the motion in part and denied it in part. (ECF
8

Thirteenth claim for relief.

9

Eleventh claim for relief.

10

Twelfth claim for relief.

11

Seventh through tenth claims for relief.

12

First and second claims for relief.

13

Third through sixth claims for relief. Plaintiffs’ fourteenth
claim is labeled as a claim for “injunctive relief and appointment
of a monitor.” However, the alleged legal basis for this claim relief derives from the aforementioned causes of action. Thus, the
claim is not a liability claim but rather a request for relief.

125a
No. 177, New York v. United Parcel Serv., Inc., 160 F.
Supp. 3d 629 (S.D.N.Y. 2016).) UPS moved for reconsideration with regard to the portion of the decision
that struck its Seventh Affirmative Defense. (ECF
No. 187.)
There has been significant motion practice regarding UPS’s Seventh Affirmative Defense. (See, e.g.,
ECF Nos. 91, 111, 122, 188, 198, 201, 287, 345, 384.)
Although the Court granted UPS’s motion for reconsideration, (ECF No. 258),14 and vacated certain portions of its prior decision, the Court ultimately
granted plaintiffs’ renewed motion for summary judgment on the Seventh Affirmative Defense. (ECF No.
406.) The Court refers the reader to the Court’s prior
decisions for its full analysis. (ECF Nos. 177, 258,
406.)
In summary, UPS’s Seventh Affirmative Defense
asserts that plaintiffs’ claims are barred, at least in
part, by orders issued by various courts between 2008
and 2011 pertaining to enforcement and/or implementation of N.Y. Tax Law §§ 471 and 471-e.15 In its briefing, UPS has asserted that this defense encompasses
its argument that the State’s policy of “forbearance,”
14
Procedurally, “granting” a motion for reconsideration does
not necessarily mean the movant’s position has been vindicated.
It means, instead, that there is a sufficient “basis to reconsider”
the correctness of the Court’s prior decision. See Salveson v. JP
Morgan Chase & Co., 663 F. App’x 71, 78, 2016 WL 6078616, at
*2 (2d Cir. 2016); see also Shrader v. CSX Transp., Inc., 70 F.3d
255, 257 (2d Cir. 1995).
15

N.Y. Tax Law §§ 471 et seq. sets forth the New York taxation
and stamping requirements for cigarettes as well as the New
York enforcement scheme.

126a
regarding enforcement of New York’s cigarette taxation scheme on Indian reservations to June 2011, bars
any recovery for a significant portion of the relevant
time period. According to UPS, New York’s forbearance policy rendered § 471 not “in effect”—and therefore unenforceable—during the period of forbearance.
In addition, UPS has argued that under constitutional
principles and § 471, the State and City were without
power to tax cigarettes UPS delivered to Indian reservations;16 such shipments constitute a significant portion of those at issue. This Court disagreed. It determined, in part, that § 471 has been “in effect” continuously since its inception, even during the period of
forbearance. The Court found that the “forbearance
policy” was directed at Indian tribal members and not
at private actors such as UPS. Finally, the Court further held that neither constitutional principles nor
the forbearance policy directed at Indian reservations
immunized or excused UPS’s actions. (ECF No. 406,
New York v. United Parcel Serv., Inc., No. 15-cv-1136,
2016 WL 4747236 (S.D.N.Y. Sept. 10, 2016).)
The parties also engaged in significant motion
practice regarding whether the Court should strike
certain of UPS’s other defenses. In its Opinion & Order dated February 8, 2016, the Court struck UPS’s
Sixth, Eighth, Ninth, Tenth, Eleventh, and Sixteenth
Affirmative Defenses. (ECF No. 177, New York v.
United Parcel Serv., Inc., 160 F. Supp. 3d 629, 665
(S.D.N.Y. 2016).) UPS’s remaining defenses are:

16

As a factual matter, the evidence at trial supported deliveries
of cigarettes to non-reservation retailers or consumers for all but
one of the shippers as to which the Court had found liability (i.e.,
Jacobs Manufacturing/Tobacco).

127a


Second Defense: To the extent plaintiffs
have suffered any damages alleged in the
Third Amended Complaint, such damages
were not caused by UPS. (ECF No. 199 at
18.)



Third Defense: Plaintiffs’ claims are barred,
in whole or in part, by the applicable statutes of limitations. (Id.)



Fourth Defense: Plaintiffs lack standing to
assert the claims set forth in their Third
Amended Complaint. (Id.)



Twelfth Defense: The State’s claim for violation of the AOD is barred, in whole or in
part, by its breach or nonperformance with
respect to the AOD, including but not limited to any covenants implied therein, such
as the implied covenant of good faith and
fair dealing. (Id. at 22.)



Thirteenth Defense: The State’s own inactivity under the AOD, and with respect to
cigarette tax laws more generally, bars, estops, or otherwise precludes it from complaining of, or seeking relief based on, UPS’s
alleged performance and/or nonperformance
under the AOD, including, but not limited
to, under principles of laches, waiver, estoppel, and similar doctrines. (Id.)



Fourteenth Defense: UPS was excused from
performance under the AOD on grounds of
impracticability and frustration, including
such grounds created by the conduct of the

128a
State of New York or its agents, employees,
or representatives. (Id.)


Fifteenth Defense: Plaintiffs’ claims are
barred and/or preempted, in whole or in
part, by federal law pertaining to the transportation industry, including the Federal
Aviation Administration Authorization Act
of 1994, 49 U.S.C. §§ 14501, 41713, and any
other applicable provisions of Title 49 of the
United States Code, Title 49 of the Code of
Federal Regulations, and related provisions,
federal common law, or other federal law
pertaining to the industry or the duties of
common carriers. (Id.)



Seventeenth Defense: Plaintiffs’ claims, including their request for civil penalties, are
barred, in whole or in part, by the doctrines
of waiver, estoppel, laches, unclean hands,
in pari delicto, and/or other equitable doctrines, in that, among other things, plaintiffs had reason to know about unlawful cigarette sales by the shippers named in the
Third Amended Complaint, yet failed to
take appropriate steps as to them or their
customers, or to notify UPS. (Id.)



Eighteenth Defense: Plaintiffs’ claims are
barred, in whole or in part, under the doctrine of estoppel by entrapment. (Id. at 23.)



Nineteenth Defense: Plaintiffs’ claims are
barred, in whole or in part, under the public
authority defense. (Id.)

129a


Twentieth Defense: Plaintiffs’ claims are
barred, in whole or in part, by judicial estoppel or similar doctrines. (Id.)



Twenty-First Defense: Plaintiffs’ claims for
civil penalties are barred to the extent that
an award of such penalties does not comport
with principles of substantive and procedural due process under the U.S. Constitution and other federal and state law. (Id.)



Twenty-Second Defense:
The State is
barred from seeking penalties under the
AOD in circumstances where the State declined to pursue penalties after requiring
UPS to make a showing to the State’s “reasonable satisfaction” under ¶ 42(b) of the
AOD. (Id.)



Twenty-Third Defense: The PACT Act exempts UPS from liability under the PACT
Act or PHL § 1399-ll, either because UPS is
subject to the AOD, or because UPS had an
AOD and continues to administer and enforce policies and practices throughout the
United States that are at least as stringent
as the AOD. 15 U.S.C. § 376a(e)(3)(A)(i), (ii).
(Id.)



Twenty-Fourth Defense: The PACT Act exempts UPS from civil penalties under 15
U.S.C. § 377(b)(3)(B). (Id.)



Twenty-Fifth Defense: Plaintiffs’ claims
pursuant to the PACT Act are barred or limited by their own conduct, including their

130a
failure to comply with the PACT Act’s provisions requiring state and local governments
to provide the U.S. Attorney General with
certain information used to create the PACT
Act’s list of unregistered or noncompliant
delivery sellers. 15 U.S.C. § 376a(e)(1)(D),
(6)(A). (Id.)


Twenty-Sixth Defense: Plaintiffs’ claims
pursuant to the New York Public Health
Law are barred, in whole or in part, because
they lack standing to enforce PHL § 1399-ll
against UPS based on any alleged delivery
occurring before September 27, 2013. (Id. at
24.)

B. The Trial
This case was tried to the bench on September 19,
2016, through September 29, 2016. The parties called
thirty-eight witnesses in total—twenty-two live17 and
sixteen by way of deposition designation.18 The Court
also received into evidence more than 1,000 documents, amounting to thousands of pages.19 Following

17

Plaintiffs called many of defendant’s witnesses as hostile witnesses in their case.
18

The Court made a number of rulings on objections to deposition designations. (See ECF Nos. 407, 409.)
19

The Court made a number of evidentiary rulings regarding
documents that the parties sought to introduce. Those rulings
are contained primarily in the following orders: ECF Nos. 408,
422, 462, 463, 490, 502, and 511. Following trial, the parties
were ordered to meet and confer regarding a list of admitted documents. They filed their lists at ECF No. 461. (See also ECF No.
471.)

131a
post-trial submissions, the Court held closing arguments on November 2, 2016. The instant Opinion &
Order constitutes the Court’s findings of fact and conclusions of law.
In sum, and for the reasons set forth below, the
Court finds that plaintiffs are entitled to a liability determination with regard to all but one of the Relevant
Shippers.20 The Court further finds that compensatory damages and penalties are appropriate, but declines to award injunctive relief or to appoint an independent monitor. In accordance with the rulings below, the Court directs the parties to submit calculations of the number of “Packages” (a term the Court
defines below) and “Cartons” of cigarettes (also defined below) to enable this Court to make a final determination as to the quantum of compensatory damages and penalties.
III. FINDINGS OF FACT21
A. Public Health Issues Associated with Cigarettes
The facts concerning the public health issues associated with cigarette usage were largely uncontested. Plaintiffs called Dr. Sonia Angell, Deputy
Commissioner of the Division of Prevention and Primary Care, New York City Department of Health and
Mental Hygiene. (Affidavit of Sonia Angell (“Angell
20

As discussed below, the Court finds that plaintiffs have
proven liability as to each claim for a number of shippers, as to
only the AOD claim for certain others, and not at all for one.
21

The Court’s findings of fact are based on its assessment of
the preponderance of the credible evidence. See, e.g., Diesel
Props S.R.L. v. Greystone Bus. Credit II, LLC, 631 F.3d 42, 52
(2d Cir. 2011).

132a
Aff.”), PX 628; Trial Tr. 1353:24-1370:22 (Angell).) Dr.
Angell testified that tobacco use kills approximately
28,200 New Yorkers each year. (Angell Aff., PX 628
¶ 5.) This exceeds the number of deaths caused by alcohol, motor vehicle accidents, firearms, toxic agents,
and unsafe sexual behaviors combined. (Id.) Dr. Angell also testified that each year, tobacco-related
healthcare costs New Yorkers $10.4 billion. (Id. ¶ 7.)
The CCTA, PACT Act, and PHL § 1399-ll are each intended to address serious public health issues and
other costs associated with cigarettes. See, e.g., Prevent All Cigarette Trafficking Act of 2009, Pub. L. No.
111-154 § 1, 124 Stat. 1087, 1088 (2010) (“It is the purpose of this Act to[, inter alia,] . . . prevent and reduce
youth access to inexpensive cigarettes . . . through illegal Internet or contraband sales.”); H.R. Conf. Rep.
No. 95-1778 at 8 (1978) (stating that “the purpose of
[the CCTA is] to provide a timely solution to [the] organized crime problem” of trafficking in contraband
cigarettes); 2000 N.Y. Sess. Laws Ch. 262 (S. 8177) § 1
(McKinney) (“The legislature finds and declares that
the shipment of cigarettes sold via the internet or by
telephone or by mail order to residents of this state
poses a serious threat to public health, safety, and
welfare, to the funding of health care pursuant to the
health care reform act of 2000, and to the economy of
the state.”)
The State and City of New York also impose taxes
on the sale and use of tobacco products, such as cigarettes, to combat these harms and to protect public
health. The revenue generated by such taxes is, however, dwarfed by actual healthcare costs spent by New
Yorkers. (Angell Aff., PX 628 ¶ 28.)

133a
B. Plaintiffs’ Investigations of UPS
This lawsuit by the State and City followed prior
investigations into UPS’s transport of unstamped cigarettes; the first such investigation commenced in approximately 2003.22 As discussed further below, UPS
eventually resolved this investigation by entering into
a settlement agreement in the form of an AOD with
the State. The AOD was executed in October 2005
and became effective approximately one month later.
During the summer/fall of 2011, UPS and the
State (in particular, Dana Biberman, Chief of the Tobacco Compliance Bureau at the New York State Office of the Attorney General, who is also counsel in the
instant action) engaged in a series of communications
regarding a group of shippers referred to as the “Potsdam Shippers” (based on their common geographic location near Potsdam, New York). As relevant to plaintiffs’ claims herein, these shippers include Action
Race Parts, Jacobs Manufacturing (also referred to as
“Jacobs Tobacco”), and Mohawk Spring Water.
On June 24, 2011, Biberman wrote to counsel for
UPS concerning packages containing cigarettes that
had been seized at the UPS Potsdam facility on June

22

Plaintiffs separate the prior investigations into two groups:
one in 2003, and one beginning in 2011 and continuing to this
lawsuit. UPS breaks the investigations into three groups: one
in 2003, one in 2011, and one beginning in 2013 and continuing
to this lawsuit. Whether plaintiffs’ or UPS’s grouping are
deemed a correct characterization has implications for UPS’s argument (discussed below) that it had resolved the 2011 investigation “to the reasonable satisfaction of the Attorney General.”
This is relevant to arguments regarding ¶ 42 of the AOD. (AOD,
DX 23.)

134a
22, 2011. The letter requested that UPS pay a stipulated penalty of $1,000 for each and every violation of
the AOD, unless UPS established that it “did not
know and had no reason to know that the shipment
was a Prohibited Shipment.” (DX 89.)
On August 9, 2011, counsel for UPS met with
Biberman and others regarding the seized packages.
At that meeting, UPS told Biberman of a conversation
between one of its security department employees,
Jim Terranova, and a New York state trooper, Alfonse
Nitti, that occurred in April 2011. Terranova had told
Nitti that UPS was concerned that certain of the Potsdam Shippers were shipping cigarettes. Nitti informed Terranova that there was an ongoing investigation. Terranova asked whether UPS should continue to pick up packages from these shippers, and Officer Nitti responded affirmatively.
Following the August 9, 2011, meeting between
UPS and the State, UPS provided the State with delivery information with regard to the Potsdam Shippers through July or August 2011. (Trial Declaration
of Carl H. Loewenson, Jr. (“Loewenson Decl.”), DX 605
¶ 21; DX 125; DX 126.) The State Attorney General’s
office took no further action as to these shippers until
the events in connection with this lawsuit. The Potsdam Shippers were eventually included in the
amended complaint filed herein. As discussed below,
UPS points to these circumstances as evidence that,
pursuant to the AOD, it had “establish[ed] to the reasonable satisfaction of the Attorney General that UPS
did not know and had no reason to know the shipment[s] [were] Prohibited Shipment[s].” (AOD, DX 23
¶ 42). In addition, UPS uses these events to support
its laches, waiver, estoppel, estoppel-by-entrapment,

135a
and “public authority” defenses. As discussed below,
the Court disagrees with inferences and conclusions
UPS asserts based on these events.
Approximately two years later, on July 29, 2013,
the New York City Department of Finance (“City Finance”) served a subpoena on UPS seeking delivery
records for a number of shippers, including the Relevant Shippers.
(Affidavit of Maureen Kokeas
(“Kokeas Aff.”), ECF No. 389-8 ¶ 6.)23 Between the
time UPS received the subpoena in July 2013 and
February 18, 2015 (when this lawsuit was commenced), the parties engaged in a number of communications. Plaintiffs provided UPS with, inter alia, a
draft complaint. The parties were unable to resolve
their differences, and this lawsuit was filed on February 18, 2015.
C. UPS’s Business
The size and conduct of UPS’s business operations
are relevant to a number of issues in this case, including what constitute reasonable operating procedures,
the extent to which UPS can be expected to know the
contents of packages, the scope of employees’ job responsibilities, and whether UPS bears legal responsibility for acts and knowledge of certain employees.
The facts regarding UPS’s size and operations were
23

As part of its investigation, City Finance conducted a number
of controlled buys of untaxed cigarettes from two of the Relevant
Shippers, Seneca Cigars and Smokes & Spirits. (Kokeas Aff.,
ECF No. 389-8 ¶ 9; see also PXs 40, 43, 44, 45, 50.) The packages,
which had been shipped via UPS, arrived containing unstamped
cigarettes. (PX 40, 43, 44, 45, 50.) Maureen Kokeas, First Deputy
Sheriff of City Finance, targeted Seneca Cigars because she had
received an email from them advertising untaxed cigarettes
shipped via UPS. (PX 592.)

136a
largely uncontested. The legal conclusions drawn
from those facts were vigorously contested.
UPS is a global company with very substantial
U.S. operations. It is a massive employer, with over
350,000 employees in the United States alone. Its employees are responsible for establishing and maintaining account relationships and for the pickup, processing, and delivery of millions of packages each day.
To perform its operations, UPS uses over 1,800 separate physical facilities, 104,926 vehicles, and 237 aircraft. (Trial Declaration of Bradley J. Cook (“Cook
Decl.”), DX 600 ¶ 24.) The vast majority of shipments
UPS receives for transport (well over 90%) are processed on electronic shipping systems such as UPS
Worldship. (Id. ¶ 29.) The shipper itself inputs certain information—not including package contents—
and prints a bar-coded label that is affixed to the exterior of the package. (Id.) The package-level detail is
then electronically transmitted to UPS. (Id.)
At trial, the primary witness who described UPS’s
business operations was Bradley J. Cook, UPS’s Director of Dangerous Goods and Director of Package
Solutions. The Court found Cook generally credible
and found that, from the fall of 2013 onwards, Cook
dedicated himself to “righting the ship” with regards
to UPS’s compliance efforts. With that said, he is an
interested witness insofar as much of the conduct at
issue occurred in an area for which he had (and has)
significant oversight responsibilities. As Director of
Dangerous Goods, Cook had primary responsibility,
along with legal counsel, for overseeing issues relating
to UPS’s shipment of tobacco products and compliance
with the AOD.

137a
As described throughout this decision, UPS’s efforts to comply with the AOD were inadequate until
the commencement of this lawsuit; its efforts fell woefully short until the fall of 2013, after which it increased it proactive efforts. But it was not until this
lawsuit was filed that UPS’s efforts became adequate.
The persistent inadequacies are surprising in light of
UPS’s clear awareness when it signed the AOD that it
had assumed a number of explicit obligations. Indeed,
the AOD required affirmative efforts, including particular and, when appropriate, directed vigilance to
ensure compliance with its terms. The AOD precluded UPS from conducting “business as usual;” the
AOD precluded UPS from ignoring red flags, and it
precluded UPS from relying on self-serving statements by shippers in the face of red flags.
Throughout the relevant period, Cook was aware
of the AOD and its requirements. He also demonstrated in-depth knowledge of UPS’s business. He
knew, for instance, that customers located on or near
Indian reservations were at a higher risk of shipping
unstamped cigarettes (as others within UPS also
knew); he knew that UPS did not require customers
to declare the contents of their packages (as others
within UPS also knew); and he knew that short of a
package inadvertently breaking open or being subject
to an audit, UPS had no clear, routine method to determine a package’s contents (as others within UPS
also knew). Cook, and others in positions of responsibility at UPS, knew that in many respects, UPS was
“flying blind” regarding whether Indian-reservationbased customers were shipping cigarettes. But UPS
was in a special position: It had assumed particular
obligations under the AOD, and all that stood between

138a
UPS and penalties under the PACT Act and PHL
§ 1399-ll was honoring the AOD. The stakes were
high. Yet, UPS failed to do what was necessary to ensure sufficient compliance. Perfection was never required, but more should and could have been done.
That UPS could have done more is demonstrated by
the material improvements it has implemented in its
procedures since this lawsuit was filed. UPS has
now—too late to avoid liability, but in sufficient time
to avoid imposition of an injunction or independent
monitor—transformed itself from a willfully blind actor to one actively doing far more.
The Court finds that Cook was by no means incompetent or acting inconsistently with corporate expectations. By all accounts, UPS’s lack of commitment to true, active AOD compliance pervaded its corporate culture. As discussed below, when tools were
available to assist UPS (and Cook) in their efforts—
for example, lists of shippers deemed to be tendering
cigarettes in violation of, inter alia, the PACT Act
(and, thereby, likely a variety of other statutory
schemes) created and disseminated by the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (“ATF”)
(referred to as “non-compliant lists” or “NCLs”)—UPS
failed to distribute them broadly, including to the one
person who certainly should have had them, Cook.
Once Cook had the lists of non-compliant shippers in
the fall of 2013, he used them.
In addition, as a corporate entity, UPS had information available to it in various places that provided
certain employees insight into the contents of packages. For instance, UPS received inquiries regarding
lost or damaged packages (so called “tracers”) of cigarettes shipped by the very shippers at issue here. But

139a
this information remained largely compartmentalized. Contrary to UPS’s argument at trial, such compartmentalization does not explain, justify, support,
or excuse lack of knowledge of package contents by
those managing the Relevant Shippers’ accounts.
UPS had, after all, undertaken (and was separately
legally obligated) to do what it could to prevent
transport of cigarettes. UPS therefore bears responsibility for a serious failure of process and procedures.
UPS’s size is not an excuse to shift responsibility for
its business failings to taxpayers who ultimately cover
the investigative, healthcare, and other costs associated with unlawful transport (and, ultimately, use) of
cigarettes.
Moreover, UPS understood that all of the Relevant Shippers were located on or closely proximate to
an Indian reservation known previously to have one
or more smoke shops and/or cigarette shippers. The
UPS drivers and sales account personnel who met
with customers saw signage on or near shippers’ businesses indicating that cigarettes or tobacco were
among their wares. From time to time during in-person visits, UPS personnel saw cigarettes on display
racks; and UPS of course knew that even the names
of certain shippers contained the words “cigar(s)” or
“tobacco.” UPS knew that certain shippers were shipping hundreds of packages a day from residential addresses; it knew that certain shippers opened multiple
accounts, sometimes under different names. These
and other signs described below were nothing short of
blinking red lights—lights that flashed, “PROCEED
WITH EXTREME CAUTION!”—yet no particular instructions from Cook or others at a high level were di-

140a
rected at such accounts, nor were personnel given particular instructions as to how to proceed under such
circumstances. The Court finds that such facts support, in part, the existence of a “reasonable basis to
believe” a shipper may have been tendering cigarettes, thereby triggering an audit obligation under
the AOD. (See AOD, DX 23 ¶ 42.)
In March 2010 Congress passed the PACT Act,
which went into effect in late June 2010. UPS was
mentioned explicitly in the text of the statute as one
of the common carriers subject to an AOD. There is
no doubt that UPS was aware of this statute. UPS
knew that national attention was directed at preventing transport of cigarettes; it should have understood
that the NCLs generated as a result of this statutory
scheme contained information indisputably relevant—and, at the very least, that the NCLS were useful tools to ensure that its AOD was being “honored.”24
The NCLs were also useful tools to assist compliance
with the CCTA. And yet, inexplicably, UPS ignored
the NCLs, deeming them irrelevant. Until the fall of
2013, it never used them to identify at-risk shippers.
UPS’s position vis-à-vis the NCLs confused a required
usage with a rational and reasonable usage. Had UPS
actively created and used its own list equivalent to the
NCLs, its position that the NCLs were irrelevant
might be more compelling. Given UPS’s general lack
of proactive efforts to identify at-risk shippers, ignoring the relevance and utility of the NCLs made no
sense.

24

“Honored” is the PACT Act’s term to describe a prerequisite
for entitlement to an exemption.

141a
Finally, the evidence at trial showed a notable increase in UPS’s business and customer acquisitions
following the effective date of the PACT Act—when
the U.S. Postal Service (“USPS”) and other carriers
were prohibited from transporting unstamped cigarettes without serious penalty. Yet UPS argued at
trial that it did not “put two and two together,” and
that it did not associate this increased business with
any particular event. For a company with UPS’s sophistication, and its evident commercial interests,
this also makes no sense. Frankly, the Court does not
buy it. Nor, apparently, did at least one UPS employee who noted in an email that “UPS has gained a
lot of tobacco business from the USPS this year due to
PACT Act taking effect at the end of June[.]” (PX 198.)
In sum, UPS had a legal obligation to comply with
the AOD and the law, but it failed to take basic and
reasonable steps to do so. Its size alone meant that
proper procedures were all the more important—ad
hoc measures could not be trusted or relied upon to
ensure compliance in such a large organization.
D. UPS’s Business and Specific Conduct
The Court makes the following additional findings
regarding UPS’s business and specific conduct.
1. UPS’s Tobacco Policy
UPS is a commercial entity that has rules and a
price structure relating to its transportation services;
these are contained in, inter alia, UPS’s Tariff/Terms
and Conditions of Service (“Tariff”). At all relevant
times, UPS’s Tariff has been posted on its website.
(Cook Decl., DX 600 ¶ 33.) This document sets forth
restrictions on shipping with UPS, including a prohi-

142a
bition on the shipment of regulated goods. (Id.) Cigarettes are among such regulated goods. Prior to 2004,
UPS did not have a specific policy regarding shipment
of tobacco products. (Id. ¶ 34.) However, a guide then
available to customers (the “UPS Rate and Service
Guide”) did advise shippers that “[n]o service shall be
rendered by UPS in the transportation of any shipment that is prohibited by law or regulation of any
federal, state, provincial, or local government in the
origin or destination country.” (Id.)
In 2003, Cook led an effort to create a program to
address various states’ increasing concerns regarding
the sale and shipment of cigarettes to consumers. (Id.
¶ 35.) This effort included identifying likely shippers
of tobacco products and cigarettes. (Id. ¶ 36.) As part
of this effort, UPS examined its central customer database using search terms such as “cigarette,”
“smoke,” and “tobacco;” reached out to employees in
the field; and examined industry codes associated
with a shipper. (Id.) These efforts resulted in the identification of approximately 400 at-risk shippers. (Id.)25
Cook’s team then oversaw an effort to inform these
shippers of PHL § 1399-ll and advised them that UPS
would no longer accept packages containing cigarettes

25

Notably, this type of proactive effort was not repeated until
late in 2013. As discussed below, a number of the Relevant Shippers had “cigar” or “tobacco” in their name, or a “cigarette” reference on a website advertisement, exterior signage, or email address, yet UPS took no specific additional steps based on such
information (including audits) to determine if these customers
were shipping cigarettes. Audits and other actions (when they
occurred) generally followed UPS’s development of additional information.

143a
for delivery to unauthorized recipients in New York.
(Cook Decl., DX 600 ¶ 37.)
In January 2004, UPS introduced revisions to its
Tariff, including a new provision prohibiting shipments of tobacco in violation of state or federal law.
(Id. ¶ 39.) In January 2005, UPS updated its Tariff
again to include a requirement for a shipper to execute
a “Tobacco Agreement” if it sought to ship tobacco
products of any kind to consumers. (Id. ¶ 39.) Later
in 2005, UPS instituted a policy of prohibiting shipments of cigarettes to consumers anywhere in the
country. (Id. ¶ 40.)26 As previewed above, on October
21, 2005, UPS entered into the AOD with the State of
New York. (AOD, DX 23.) The City of New York is not
a party to the AOD. The AOD reflected UPS’s agreement not to ship cigarettes to any consumers and to
only ship such products to recipients that had appropriate state and federal licenses. (Id.; Cook Decl., DX
600 ¶ 41.) To comply with the AOD, UPS updated its
Tariff again, reflecting a new “Tobacco Policy.” (DX
35; AOD, DX 23, Ex. A, B.) The new Tobacco Policy
specifically prohibited shipments of cigarettes to consumers on a nationwide basis. (Cook Decl., DX 600
¶ 42.) UPS posted its policy on its website. (Id. ¶ 43.)
In addition, and to comply with the AOD, UPS created a database to track activity with its tobacco shippers. (Id. ¶ 63.) The database contains fields for shipper name, account number, and relevant activity; it

26

The AOD and statutory schemes separately prohibit shipments to consumers, unlicensed retailers, or commercial businesses.

144a
presently contains entries for 4,000 shippers from
forty-nine states.27 (Id. ¶ 63; DX 371.)
2. UPS’s Training Efforts
The AOD requires that UPS train relevant personnel about its “Cigarette Policy” and various compliance measures. (AOD, DX 23 ¶¶ 34-37.) Plaintiffs
assert that UPS has failed to fulfill this obligation.
The Court agrees. Paragraph 34 of the AOD contains
a very broad requirement:
UPS shall continue periodically to train its
drivers and pre-loaders and other relevant
UPS employees about UPS’s Cigarette Policy
and the compliance measures agreed to in this
Assurance of Discontinuance.
(Id. ¶ 34.) There was substantial evidence at trial that
until shortly before this lawsuit was filed, apart from
a once-yearly “Pre-Work Communication Message”
(“PCM”), little actual training in UPS’s “Cigarette Policy” or compliance measures required by the AOD, occurred. In addition, there was little more than a broad
overview of the Tobacco Policy provided to UPS employees. Several UPS witnesses testified to lacking
specific knowledge regarding the “compliance
measures agreed to in [the AOD].” (See, e.g., Trial Tr.

27

As part of its AOD compliance efforts, for a period of time
UPS was required to, and did, perform internet searches to identify potential cigarette shippers. (Cook Decl., DX 600 ¶ 65.)
These searches were intended to identify shippers who advertised shipment of cigarettes through UPS. As an AOD requirement, this obligation terminated in July 2010.

145a
665:24-666:25, 667:20-24 (McDowell); id. 1516:181519:4 (Terranova).)
This case has no doubt demonstrated to UPS that
its existing training was inadequate. Prior to receiving the subpoena from City Finance in July 2013,
UPS’s training consisted primarily of the above-mentioned annual PCMs.28 PCMs are a general method of
communication with UPS personnel. They are intended to provide personnel with specific information
on a variety of topics in a format of longer than three
minutes. While drivers and employees at UPS’s processing centers were provided with a PCM that discussed its Tobacco Policy once a year, historically
there was no procedure for an employee to “make up”
a PCM that he or she has missed (for instance, due to
absence on the day a PCM was shown or due to a start
date at UPS after the yearly PCM had been shown).
Several UPS witnesses testified to recalling the Tobacco Policy PCM, certain recalled the existence of the
PCM but not its content, and others did not recall the
PCM at all. Clearly, the Tobacco Policy PCM was itself inadequate to properly train employees on UPS’s
Tobacco Policy and was inadequate to train employees
28

In addition, UPS has information regarding its Tobacco Policy in its Tobacco Transportation Procedures Manual; it trains
its sales force in its Tariff and Service Guide (both of which contain restrictions on tobacco shipments), as well as on its Tobacco
Policy. (Cook Decl., DX 600 ¶¶ 55-58.) UPS also provides training regarding its Tobacco Policy to its customer-service staff. (Id.
¶¶ 59-62.) While Cook stated that UPS communicated every
change in its Tobacco Policy to sales staff, and that UPS’s “workforce is very well aware of [its] policy against the shipment of
cigarettes to consumers” and has been for years, (id. at ¶¶58-59),
these claims are belied by the testimony of UPS employees who
lacked knowledge of AOD compliance requirements.

146a
on AOD compliance measures or on how to recognize
signs that shippers may have been tendering packages with cigarettes.
Throughout the trial, UPS took the position that
requiring personnel to approach certain accounts with
questions or skepticism would be inappropriate. The
insinuation was that vigilance directed at accounts located on or proximate to Indian reservations was
some sort of inappropriate profiling. But this ignores
the known reality that particular legal issues applicable to reservations (and to Native Americans making
on-reservation purchases) did make reservations different. Moreover, the evidence revealed that UPS did
not know whether on-reservation shippers from
smoke shops were tribal members and, in fact, those
operating smoke shops were not always tribal members. (Trial Tr. 192:14-16 (Cook); id. 904:6-9 (Christ).)
In addition, Cook testified that UPS does not expect
its drivers to be “investigators;” rather, it expects
them to be alert for signs of cigarette shipments and
to notify supervisors if they have suspicions. (Cook
Decl., DX 600 ¶ 53.) In the context of the federal,
state, and local attention paid to the unlawful
transport of cigarettes, and UPS’s statutory and AOD
obligations, this was an incorrect perspective that unreasonably underestimated UPS’s affirmative obligations. While drivers need not be “investigators” in a
law-enforcement sense, they should have been proactive vis-à-vis high-risk accounts. As the AOD recites,
training should have been designed to ensure personnel were/are “actually looking for indications that a
package contains cigarettes . . . .” (AOD, DX 23 ¶ 35
(emphasis added).)

147a
Prior to the commencement of this lawsuit, UPS’s
training was not effective in preparing its employees
to identify cigarette shippers on Indian reservations
in New York or to ensure that its personnel were “actively looking” for indications that a package contained cigarettes. UPS’s training on tobacco issues
was designed to “check the box.”
UPS’s tobacco-related training has improved recently. For instance, PCMs on tobacco training are
now delivered in person, UPS has trained personnel
in data analytics, it has posted a “red flag” poster at
its service centers, and in 2016, UPS added devicebased training for its drivers via “DIADs,” which are
handheld devices that function as computers. Additional relevant facts are set forth below in the section
titled “Current Status of UPS Compliance Efforts.”
3. The Role of Account Executives
As relevant here, UPS’s customers are “shippers”
of packages. Sales and account management are handled by a UPS Account Executive (as well as other
support personnel). UPS assigns an Account Executive to every shipper/customer.29 UPS’s Account Executives are responsible for capturing and maintaining
29

Over the time period relevant to this lawsuit, the number of
customers for which an Account Executive had responsibility
varied significantly. For example, at one point in time, a UPS
Account Executive, Gerard Fink, was responsible for 150 to 200
customers; by 2010 he was given responsibility for several thousand more. (Trial Tr. 507:4-13 (Fink).) UPS has argued that the
number of accounts assigned to Fink illustrates why it is reasonable to believe that he did not know many of his accounts were
shipping cigarettes. The Court rejects this argument. First, for
the reasons discussed at length throughout this opinion, the

148a
accounts as well as addressing issues that might arise
with regard to those accounts. In order to effectively
market and support UPS’s transport services, Account Executives are expected to understand their
customers’ businesses. To gain such understanding,
Account Executives are expected to communicate with
their larger customers on a regular basis. Evidence at
trial supported that Account Executives regularly
communicated with the Relevant Shippers both in
person as well as by telephone or email. UPS expected
that its Account Executives would enter notes regarding communications with clients in databases maintained for that purpose. Such databases were accessible to and used by others who might have an interest
in a particular account or area. While the evidence
made clear that there was spotty compliance with this
expectation (and seemingly no enforcement mechanism), certain UPS Account Executives (most notably
Gerard Fink) nevertheless entered details of meetings
and communications with some of the Relevant Shippers into those databases. Various entries include evidence supporting liability, seriously impacting arguments that Fink’s or any other Account Executive’s actions were outside the scope of employment.
Account Executives were also responsible for obtaining a Tobacco Agreement from those customers

Court found Fink not credible when he denied knowing that certain of his largest clients were shipping cigarettes. In addition,
UPS assumed obligations under the AOD, and it had separate
statutory obligations not to ship cigarettes. UPS’s failure to
achieve adequate compliance is not excused by an organizational
structure that it now argues impeded compliance. To the extent
structural changes were necessary to ensure adequate compliance, it had a responsibility to make them.

149a
who were or would be shipping tobacco products.
Such agreements were supposed to be an important
part of UPS’s already thin compliance efforts. The Account Executive was to record the receipt of the Tobacco Agreement in UPS’s Tobacco Database. In theory, this was to assist in monitoring such an account.
As relevant here, there were numerous instances in
which the Account Executive either did not obtain a
Tobacco Agreement when appropriate, did not retain
a copy of an allegedly executed agreement, failed to
enter it into the Tobacco Database, or all three.
Account Executives would receive a variety of information relating to their accounts on a regular basis. For instance, they would receive periodic reports
that set forth the amount of revenue attributable to
particular customers. Multiple documents received
into evidence support that a number of the Relevant
Shippers on or near Indian reservations were among
the largest customers for Account Executives. (See,
e.g., PX 568; PX 102, row 9; PX 104.)30 Account Executives—including Fink and others at UPS responsible
30

Starting in 2010, each shipper is assigned a “patch-of-land”
Account Executive or an inside sales representative based on the
geographic territory in which the shipper is located. Patch-ofLand Account Executives are assigned to UPS Centers and become responsible for lower-volume accounts (those with under
$300,000 in annual revenue) located in the geographical areas
served by those UPS Centers. Patch-of-Land Account Executives
are typically assigned a large number of accounts because of the
relatively low volume of each individual account. Some of the accounts are also assigned to inside sales representatives. Inside
sales representatives operate out of centralized locations and
typically provide support to their customers by phone, and they
also provide support to the Patch-of-Land Account Executives.
(Cook Decl., DX 600 ¶ 32; Trial Declaration of Gerard Fink
(“Fink Decl.”), DX 602 ¶ 5.)

150a
for the Relevant Shippers—actively reported on account activity to others within the UPS organization.
Multiple documents and databases support generally
diffuse knowledge and access to information regarding the Relevant Shippers. Put otherwise, the Account Executives—including Fink—took or failed to
take actions within a UPS organizational structure
that was monitoring account activity.
4. The Role of UPS Drivers
Packages are typically picked up by UPS drivers
at a customer’s location or are dropped off by a customer at a designated facility. The packages are then
brought to a UPS Processing Center. (Cook Decl., DX
600 ¶ 25.)
In all but a handful of instances relating to the
Relevant Shippers, UPS drivers would pick up packages at the customer’s location. Some of the locations
were commercial storefronts (e.g., Arrowhawk Cigars,
Morningstar Crafts & Gifts) and others (e.g., EExpress, Bearclaw) were residential locations. In certain
instances, UPS drivers would pick up dozens or even
hundreds of packages a week from a residential address. For instance, during October 2012, EExpress
shipped approximately 2,500 packages with UPS. (PX
559.)
An issue that pervaded the trial was the extent to
which UPS, as a corporate entity, knew or should have
known of the contents of customer shipments. Typical
practice included drivers and Processing Center personnel working with packages; the account team performed sales and service roles that did not include
package handling but did include learning about a
customer’s business and monitoring his or her account

151a
activity. While drivers had limited opportunities (or
time) to learn the contents of particular packages,
there was ample evidence that they generally understood what a shipper was shipping and, from time to
time, had quite specific information about package
contents.
UPS policy requires customers to have packages
sealed and ready for pickup when the UPS driver arrives. With regard to the Relevant Shippers, this
practice appears to have been followed most of the
time. However, plaintiffs presented evidence that
there were occasions when customers were still packing and sealing boxes at the time the UPS driver arrived or when UPS personnel were on site, and that
UPS employees were therefore in a position to observe
the contents of the packages.31 (See, e.g., Jarvis Dep.
Tr. 55:22-56:6.) In addition, there were instances
where the type of goods a Relevant Shipper sold, including cigarettes, were prominently advertised on
signage and within the premises. (See, e.g., PX 574
(signage for Morningstar Crafts & Gifts); DX 490
(signage for Arrowhawk Smoke Shop).) Moreover,
31

UPS argued that the similarity between cigarette packaging
and little-cigar packaging rendered this view of the packages
meaningless. This is not a helpful argument for UPS. Under such
circumstances, ambiguity of product type suggests at least a possibility as high as 50% that cigarettes were in the box. In light of
UPS’s affirmative AOD and statutory obligations, such a possibility required UPS to take further steps. Put differently, even if
UPS thought a package might contain little cigars, it knew that
it might instead contain cigarettes. Given this information, and
given the statutory restrictions on transporting cigarettes and
the AOD requirements, UPS was obligated be “actively looking
for indications” as to whether the customer was shipping a lawful
versus an unlawful product. (AOD, DX 23 ¶ 35.)

152a
UPS personnel, including drivers, did from time to
time enter a Relevant Shipper’s premises, providing
the opportunity to observe cigarettes available for
purchase or in inventory. These facts should have, but
did not, cause UPS to alter its approach to and vigilance of a shipper; such facts formed pieces of the
foundation for a “reasonable basis to believe” that a
shipper may have been tendering cigarettes for delivery (the standard that triggered an audit obligation
under the AOD). (See AOD, DX 23 ¶ 24.)
5. UPS’s Interactions with Shippers
As discussed above, a customer using UPS’s
pickup and delivery services is referred to as a “shipper,” and shippers do not typically declare or provide
UPS with information regarding the contents of packages. (Cook Decl., DX 600 ¶ 29.) On most occasions,
the boxes in which a customer packs its goods are
plain, corrugated cardboard, and the exterior of the
boxes provides no indication as to whether the contents include cigarettes, cigars, spring water, coffee,
or something else.32 UPS’s terms and conditions reserve its right to inspect package contents. Given the
volume of packages processed daily, UPS tended to
conduct audits only in very rare circumstances when
there was a compelling reason to do so. The evidence
at trial supported audits generally being conducted on
those occasions when UPS had specific information regarding likely cigarette shipments. UPS did not, for
instance, routinely or, even once as a matter of course,
audit shippers known to ship tobacco products or
32

However, at least one shipper, Jacobs Manufacturing/Tobacco, regularly used boxes that had the words “cigarettes”
stamped on the outside. (Trial Tr. 1680:5-14 (Jacobs).)

153a
whose inventory was also known to include cigarettes.
Audits are discussed in further detail below.
As a matter of UPS policy, when a customer seeks
to ship certain regulated goods, including tobacco, he
or she is required to disclose that fact to UPS. In the
case of tobacco-related shipments (other than cigarettes), UPS policy requires that a customer execute a
Tobacco Agreement.33 This agreement is intended to
represent an acknowledgment by the shipper that he
or she understands UPS’s Tobacco Policy, including
its prohibition on shipping cigarettes.
Despite the statutes regulating transport of cigarettes, UPS’s obligations under the AOD, the passage
of the PACT Act that reduced courier options, the
profit motive of shippers, the conflicted position of
UPS’s own sales personnel (who had an interest in acquiring and maintaining business), and obvious signs
in conflict with customer statements, UPS allowed its
personnel to rely heavily (and often exclusively) on
what their shippers claimed to be shipping. UPS often
accepted the fact of a Tobacco Agreement with a customer, or a single conversation with a customer about
its business, as sufficient to confirm that a tobacco
shipper who advertised or displayed cigarettes was
not using UPS to ship them. As one would expect, cigarette shippers acting contrary to law and UPS policy
were rarely inclined to “confess” prohibited package
contents (though, as discussed below, there was at
33

At some point during their relationship with UPS (not always at the outset), several of the Relevant Shippers, including
Smokes & Spirits, Shipping Services, Morningstar Crafts &
Gifts, Indian Smokes, Seneca Cigars, A.J.’s Cigars, and Native
Outlets, had an executed Tobacco Agreements on file with UPS
at various points in time.

154a
least one instance in which the customer did so explicitly). And, given the volume incentive agreements
UPS offered, there was an economic motive to use
UPS. For a UPS customer shipping cigarettes during
this time, being “caught” was a risk worth taking because the penalty was sometimes nonexistent or was,
at most, termination. And sometimes termination
was not the end of UPS service. The record reveals
instances in which UPS personnel assisted in establishing a new, replacement account for a customer
whose account had been terminated for cigarette shipments. In many instances, as described below, there
were sufficient red flags to alert UPS to the need for
additional measures—including random audits.
6. UPS’s Information Systems and Information Sharing
As previewed above, one of UPS’s consistent
themes at trial was its claim that information known
to one part of UPS was not known to another, and that
it would be improper or at the very least unfair to attribute such compartmentalized knowledge to UPS
more broadly. The facts support such compartmentalization—but not the conclusion UPS draws from it.34
At the time of the events at issue, UPS did not
have a centralized information system that collected
and/or synthesized all of the information it might have
regarding packages sent by a particular shipper. To
the extent some part of UPS learned of the specific
contents of packages, it was typically when packages

34

Elsewhere in this Opinion & Order, the Court addresses how
compartmentalized information impacts UPS’s knowledge of
shipments of cigarettes or actions required pursuant to the AOD.

155a
broke open during processing, when UPS received inquiries (“tracers”) regarding lost or damaged packages, or through audits. There was no evidence that
UPS implemented or followed formal procedures to
share the “broken open” packages or tracer information with all members of the account team, with
Cook, or with legal counsel. In addition, there was no
ongoing, formal mechanism within UPS to routinely
review an at-risk shipper’s sales materials or websites
(some of which prominently indicated cigarette
sales).35 Nor was there any centralized practice of ensuring that email addresses with clues as to the likely
focus of sales efforts (for instance, the word “cigarettes” appearing in a customer’s email address) were
further investigated. Had such information been routinely reviewed and shared with the appropriate personnel, it is highly likely that UPS would have identified certain shippers of cigarettes.
E. UPS’s Asserted Reliance on Governmental
Action/Inaction
UPS has vigorously argued that it took certain actions (or failed to take certain actions) in reliance
upon interactions with law enforcement, and, in addition, that it relied on New York State’s forbearance
policy. UPS has urged that such facts regarding this
governmental action/inaction support its laches,
waiver, estoppel (including “estoppel by entrapment”),
and public-authority defenses. These defenses have
both factual and legal aspects. The Court deals with

35

As described above, the AOD obligated UPS to conduct certain internet searches for a limited time. That obligation expired
in 2010.

156a
the former here, and with the latter in its legal conclusions below.
1. Governmental Action
Some of the relevant facts regarding such interactions (such as the “Terranova/Nitti” communications)
are briefly described above in the section “Plaintiffs’
Investigations of UPS.” Throughout the pretrial process, UPS repeatedly referred to instructions to stand
down with regard to compliance measures due to an
“ongoing investigation.” As it turned out at trial, the
facts in this regard were far less robust than previewed and not at all compelling.
The evidence can be briefly summarized: In April
2011, UPS driver Donald Jarvis, who was associated
with UPS’s Potsdam Processing Center, learned and
believed that certain packages from the Potsdam
Shippers contained cigarettes. Jarvis informed a UPS
supervisor, Steve Talbot. Talbot contacted the UPS
security representative assigned to the Potsdam Center, Jim Terranova, to ask for guidance (Terranova
was not a high-ranking UPS employee). Terranova
had apparently had undisclosed (and irrelevant) other
dealings with members of the New York State Police,
including state trooper Alfonse Nitti. In April 2011,
Terranova contacted Nitti and told him there was a
suspicion that certain accounts on the Mohawk/St.
Regis reservation were shipping cigarettes. (Trial
Declaration of James Terranova (“Terranova Decl.”),
DX 612.) Terranova did not tell Nitti where shipments (including bulk shipments) were being delivered. (Terranova Decl., DX 612 ¶¶ 1-2, 7; Trial Tr.
1529:20-1530:24, 1532:20-25 (Terranova).) Nitti in-

157a
formed Terranova that there was an active investigation into those shippers. Terranova then posed the
question to Nitti as to whether UPS should continue
picking up packages from those shippers; Nitti responded that UPS should. Nitti was not a representative from the State Attorney General’s office; there
was no evidence that Nitti was made aware of the
AOD or knew about UPS’s legal obligations with regard to it or any other statutory scheme. Subsequently, Terranova and others conveyed Nitti’s comment down the chain to UPS drivers responsible for
the Potsdam Shipper accounts. For a period of two
months thereafter, UPS followed its own forbearance
practice. This ended when, on June 22, 2011, the New
York State Department of Taxation and Finance
(“DTF”) Chief Investigator, John Connolly, visited the
UPS Potsdam Center. (Trial Declaration of Steven
Talbot (“Talbot Decl.”), DX 606 ¶ 10; Terranova Decl.,
DX 612 ¶ 10.) Connolly seized packages tendered by
certain Potsdam Shippers. Connolly also informed
UPS that New York State’s forbearance policy vis-àvis Indian reservations had ended and that UPS
should not be shipping cigarettes “to their Native
American customers.” (DX 389; see also Ernst Dep.
Tr. 86:23-87:4.)36
These facts do not support UPS’s characterization
of this interaction as a formal instruction by law enforcement—upon which it could reasonably rely—to

36

UPS argues that this communication is evidence of its basis
for believing that shipments prior to this date were authorized.
As discussed below, there is, however, insufficient evidence to
support that UPS had ever taken actions, or failed to take actions, in reliance on the “forbearance policy.”

158a
stand down on AOD obligations or other statutory requirements. As is evident from the above, such a portrayal overinflates a rather limited, non-senior contact between one lower-level UPS employee and one
state trooper. Indeed, there was no independent evidence as to the basis for this trooper’s purported statements to Terranova or his authorization to convey any
instructions to UPS.37 There is insufficient evidence to
support Nitti’s authority to provide the official position of the New York State Police, let alone provide an
exemption from the AOD and statutory obligations.
But in all events, the facts do not support widespread reliance on these Terranova/Nitti communications. At most, the evidence supports unreasonable
reliance by a small handful of people within the Potsdam Center for a two-month period only, and by no
one at a high level. For instance, there is no evidence
that Cook was informed about this communication at
the time. In sum, the Court rejects any reasonable
reliance on the Terranova/Nitti communication.
2. Governmental Inaction
In addition, UPS has argued that prior to June 22,
2011, “UPS believed” that transporting shipments of
packages containing cigarettes originating with the
Potsdam Shippers (including Action Race Parts, Jacobs Manufacturing/Tobacco, and Mohawk Spring
37

In light of UPS’s affirmative obligations under the AOD and
federal and state statutes, UPS should have sought written or
other high-level confirmation, informed the State personnel responsible for the AOD, and sought legal advice. There is no evidence that this was done. The AOD can only be modified in a
writing signed by both parties, (AOD, DX 23 ¶ 54); the oral
Nitti/Terranova conversation could not effect a modification.

159a
Water) and destined for tobacco retailers on other Indian reservations, was authorized by the State’s forbearance policy or was otherwise lawful. The “otherwise lawful” portion of this position is the heart of
what has been referred to in this litigation as UPS’s
“§ 471” argument. Putting aside the Court’s legal determination regarding the viability of UPS’s Seventh
Defense (relating to, inter alia, the forbearance policy), there is a separate factual question as to whether,
before June 22, 2011, personnel within UPS in fact believed that it could lawfully transport shipments from
the Potsdam Shippers to reservation retailers or other
Indian reservations (that is, based on some misunderstanding that § 471 or other legal principles allowed
such transport), and acted in reliance on such a belief.
The Court determines that factual question against
UPS. There is simply insufficient credible evidence to
support UPS’s factual claim that this was a widely
held view in the organization.
As a result of the lack of sufficient factual support,
UPS’s arguments as to its reliance on governmental
authority or inaction fail. There is also no indication
that relevant personnel received legal advice that
they could rely on a New York State policy of forbearance as to Indian reservations applied to its actions as
a private, non-tribal entity. Nor is there sufficient evidence that UPS personnel had any other reasonable
basis for such an understanding. In addition, such a
position is in conflict with UPS’s overall story that it
consistently trained its personnel in its Tobacco Policy; no evidence suggests that its training was modified to allow for a distinction between shipments going
to reservation retailers (i.e., the shipments UPS argues were protected by constitutional principles) and

160a
all other recipients.38 For instance, there was no credible testimony that UPS drivers were instructed to allow certain shipments to reservation retailers but not
to residential consumers. UPS did present anecdotal
evidence that certain witnesses had heard or thought
such reservation-to-reservation retailer shipments
were allowed—but it was never clear where this came
from, and it is in conflict with other evidence.
Finally, of course, it is clear that the AOD did not
exempt shipments from or between reservations; that
is, there is no basis for “§ 471” or “forbearance policy”
arguments with respect to UPS’s obligations.
F. UPS’s Audits
UPS presented evidence that it conducted at least
twenty-eight audits between 2011 and 2016, several
of which were of certain Relevant Shippers.39 (See,
e.g., Cook Decl., DX 600 ¶ 18; DXs 161, 165, 194, 219,
221, 222, 244, 257, 263, 264, 265, 303, 311, & 363.)
The facts show that audits were conducted relatively
infrequently and were inadequate to comply with
UPS’s audit or other obligations under the AOD.

38
Indeed, UPS has argued that, to the contrary, an inability to
monitor addresses given the given the volume of shipments handled, it would be unreasonable to expect it to monitor addresses.
39

Plaintiffs initially commenced this case and sought discovery
with regard to fifty or so shippers. Over the course of the litigation, that number was reduced. At trial, UPS’s evidence with regard to its audits included all of the shippers who have ever been
at issue in the case. Thus, the “twenty-eight” audits that UPS
cites includes shippers who are not among the Relevant Shippers.

161a
As discussed below, ¶ 24 of the AOD requires that
UPS audit shipments where “there is a reasonable basis to believe that such shipper may be tendering cigarettes for delivery to Individual Consumers, in order
to determine whether the shipper is in fact doing so.”40
(AOD, DX 23 ¶ 24.) An audit obligation is therefore
triggered when there is a “reasonable basis to believe,”
and the audit serves a particular purpose: “to determine” whether a shipper may be tendering cigarettes.
The vast majority of audits to which UPS points
occurred in 2013 and 2016—that is, after UPS had already received a subpoena and was thus aware this
lawsuit was likely or that UPS had already been sued.
Of the twenty-eight audits, twenty-six fall into this

40

“Individual Consumer” is defined in the AOD as a person
“other than an Authorized Recipient.” (AOD, DX 23 ¶ 16(G).)
“Authorized Recipient” is, in turn, defined as “any person or entity to whom cigarettes may be lawfully transported pursuant to
federal law and the law of the state in which delivery is made.”
(Id. ¶ 16(A).) Apart from its legal argument regarding § 471 (that
all shipments “to” reservations were authorized), an argument
this Court rejected, New York v. United Parcel Serv., Inc., No.
15-cv-1135, 2016 WL 4747236 (S.D.N.Y. Sept. 10, 2016)), in the
face of plaintiffs’ extensive proof of lack authorization, UPS did
not attempt to demonstrate that any recipient was, in fact, an
“Authorized Recipient.” The Court finds as a matter of fact that
all addresses of shipments at issue were to unauthorized recipients or “Individual Consumers.” Thus, the fact that certain shippers (such as Jacobs Manufacturing/Tobacco) shipped exclusively to retailers on Indian reservations does not remove such
shipments from the classification of shipments to “Individual
Consumers.” This is important to the Court’s factual determination of when, inter alia, the audit obligation attached; such obligation being defined in terms of a reasonable basis to believe the
shipper may be tendering cigarettes to “Individual Consumers.”

162a
category. The remaining two audits took place on September 21, 2012.41 (See DXs 161, 165.) Cigarettes
were found during these audits and both accounts
were terminated.
UPS points to the audits it conducted as evidence
of compliance with the AOD and evidence that it acted
responsibly vis-à-vis likely cigarette shippers. The
Court disagrees. Cigarettes should not have had to
fall out of a broken box, more or less, for UPS to have
initiated an audit. As discussed in specific detail below, the Court finds that there was a reasonable basis
to believe that a number of the Relevant Shippers may
have been tendering cigarettes well before they were
audited.
Certain facts should have led to more frequent
and broader audits. As an initial matter, UPS had a
right to audit packages, it had the personnel to do so,
and it had an affirmative obligation under the AOD to
do so when facts supported a “reasonable basis to believe” that a shipper “may” be tendering cigarettes.
Certainty or even a high degree of likelihood was not
required to trigger this obligation. Facts “on the
ground” should have pushed UPS toward more proactive audits. For instance: It knew that certain shippers had names that included the words “tobacco,” “cigar,” or “smokes,” indicating a certainty of tobacco
shipments and a reasonable possibility of cigarette
shipments; it knew that a number of others (without
41

UPS lists Indian Smokes as an audited entity in the chart at
¶ 30(e) in its Proposed Findings of Fact and cites DX 161 for this
proposition. The Court notes, however, that DX 161 does not support an inference that Indian Smokes was audited, and Cook’s
declaration supports an inference that Indian Smokes was terminated without an audit. (Cook Decl., DX 600 ¶¶ 75, 82.)

163a
eponymous names) sold cigarettes, making shipments
all the more likely; it knew that certain shippers on
Indian reservations refused to disclose (allegedly)
what they were shipping; it knew that others had
opened multiple accounts or that a new account was
opened at the same address as one recently terminated for cigarette shipments; and, of course, all of
this was against the backdrop of such shippers being
located on Indian reservations that had for years been
associated with sales and shipments of unstamped
cigarettes. For instance, in an email sent June 23,
2011, a UPS security employee stated that New York
Indian reservation retailers have been “selling cigarette[s] without paying taxes . . . . This has been an
ongoing situation over the years throughout the state
with several different reservations doing the same
thing.” (PX 460.)
As discussed with regard to certain shippers below, the presence of some numbers of these (and other)
facts supported the existence of a reasonable basis to
believe that such shippers may have been tendering
packages containing cigarettes. UPS gave too much
weight to seemingly innocuous explanations given by
shippers for the goods they claimed to be tendering,
and it did so when many of the above facts were present. Such self-serving explanations were inherently
unreliable and did not eliminate the reasonable basis
to believe that a shipper “may” be tendering cigarettes.
Audits that were conducted did, however, serve an
additional purpose: They provided UPS, and now provide this Court, data regarding package contents as
well as a basis for estimating the percentage of a shipper’s packages that contained cigarettes. A corollary

164a
is that the failure to conduct audits despite an audit
obligation reduced the amount of information available regarding the contents of the Relevant Shippers’
packages. Had UPS conducted more audits (as it was
obligated to do under these facts), it would have
greater detail on the percentage of shipments containing cigarettes versus other goods. As discussed in the
legal conclusions below, UPS—not plaintiffs—therefore bears the responsibility for this lack of information.
IV. CURRENT STATUS OF UPS’S COMPLIANCE
EFFORTS
As discussed throughout this Opinion, there is no
doubt that UPS could have and should have done
more to identify shippers likely to be tendering cigarettes. However, there is strong evidence that UPS
has taken a number of steps in the past three years to
dramatically improve its compliance efforts.
After UPS received the subpoena from City Finance in late July 2013, UPS requested outside counsel to conduct an investigation (using available information) into 540 active shippers listed in UPS’s Tobacco Database. (Cook Decl., DX 600 ¶¶ 83-84.) That
investigation yielded a group of thirty shippers as to
whom additional investigative steps were taken. (Id.
¶ 84.) This list was then further reduced to six shippers, including three that are among the Relevant
Shippers in this case. (Id. ¶ 84.) Cook required audits
of each of these three shippers.42 (Id. ¶ 85.)

42

An audit of Native Outlet conducted on January 2, 2014, revealed only filtered cigars; additional audits were conducted of

165a
Commencing in the fall of 2013, UPS also began
to utilize the NCLs prepared and updated quarterly
by the ATF. (Id. ¶¶ 102-03.) In early 2014, UPS
added personnel to its compliance efforts, including
Derrick Niemi. Niemi testified live at trial and the
Court found him credible. His demeanor was sincere
and his answers were thoughtful and careful. Niemi
has made specific trips to visit UPS Processing Centers and reservations with shippers; Niemi has also
performed data analysis to identify other shippers
who pose a risk of non-compliance.
Cook has taken more immediate action to terminate shippers for which audits revealed cigarettes.
For instance, on January 8, 2014, UPS received the
results of an audit for Shipping Services; three of five
packages opened contained filtered cigars, and two
packages contained cigarettes. (Cook Decl., DX 600
¶ 93.) UPS terminated this account. In 2014, UPS
also investigated a shipper known as Cloud & Co. located in Salamanca, New York, and terminated this
shipper after the investigation revealed it had been
sued by the City for alleged shipment of cigarettes.
(Id. ¶ 138.)
On January 22, 2014, UPS received the results of
an audit of Smokes & Spirits, processed through its
Olean, New York Center. (Id. ¶ 97.) Out of fifteen
packages opened, nine contained cigarettes; the remainder contained chewing tobacco and filtered cigars. (Id.; see also DX 257.) Immediately upon receiving these results, UPS terminated this account. (Cook
Decl., DX 600 ¶ 98.)
this entity and no cigarettes were found. (Cook Decl., DX 600
¶¶ 87-88.)

166a
In September 2014, UPS changed its accountopening process to increase screening of tobacco shippers in New York State. (Id. ¶ 144.) Each account
opened on an Indian reservation is investigated to determine if it might be shipping tobacco products. (Id.)
Additionally, UPS monitors the volume of shipments
from reservation-based shippers on a weekly basis to
identify red flags in volume patterns. (Id. ¶ 145.)
(This is the use of “data analytics” to support UPS’s
compliance efforts).
In addition, on April 27, 2016, Cook traveled to
upstate New York and personally participated in audits of all packages shipped out of the Dunkirk, New
York, Processing Center (the Center that processes
Native Outlet, among others). Ten of the packages
opened were shipped by Native Outlet, and all contained little cigars.43 Cook also personally delivered
UPS’s Tobacco Policy PCM at the Dunkirk, Olean, and
Jamestown Centers; interviewed each center manager; participated in a “ride along” with each center
driver; conducted audits of the packages picked up by
each Center; and documented any packages of tobacco
picked up by each Center. (Cook Decl., DX 600 ¶ 143.)
Three other members of UPS’s Corporate Compliance
Group conducted similar audits in other centers in
New York serving reservations. (Id.)
The Court view UPS’s compliance efforts as increasing in rigor since the fall of 2013 and achieving
actual compliance as of the date this lawsuit was filed
on February 18, 2015. Prior to February 18, 2015, the
43

Cook’s testimony regarding the Native Outlet audits was corroborated by a number of photographs of the opened packages.
(See, e.g., DXs 194, 375, 421.)

167a
efforts were in what the Court views as a “ramping
up” process; throughout 2014, for instance, audits that
should have been conducted long before were still only
just being done. Determining the date when efforts
coalesced to a point of compliance is therefore not a
precise exercise. But the Court views the filing of the
lawsuit as marking a time when UPS had put its noncompliance largely behind it.44
V. BACKGROUND CONCERNING THE TAXATION OF CIGARETTES AND LITTLE CIGARS
New York imposes a tax on all cigarettes for sale
in the State, except where the State “is without power
to impose such tax.” N.Y. Tax Law § 471. Taxes are
paid by purchasing and affixing a tax stamp. See N.Y.
Comp. Codes R. & Regs. tit. 20, § 74.3(a)(1)(iii)
(“§ 74.3”). New York’s cigarette excise taxes increased
significantly in the 2000s. (Trial Declaration of Farrell Delman (“Delman Decl.”), DX 611 ¶ 17.) On
March 3, 2000, New York increased its cigarette tax
to $1.11 per pack from $0.56 per pack. (Id. ¶ 18.) On
April 3, 2002, the State increased the excise tax on
cigarettes again, this time to $1.50 per pack, where it
remained until June 3, 2008, at which time it was increased to $2.75 per pack. (Id. ¶ 19.) On July 1, 2010,
the State’s excise tax on cigarettes was raised to $4.35
per pack, where the tax remains today. (Id. ¶ 20 (citing N.Y. Tax Law § 471).) By 2015, New York’s cigarette excise tax was $2.72 more than the national average for state cigarette excise taxes. (Delman Decl.,
DX 611 ¶ 20.)
44

As discussed below, the Court views Seneca Promotions, a
current client, as presenting an ongoing compliance issue. But
this is the only one of which the Court is aware.

168a
For its part, New York City imposed an eightcents-per-pack tax on cigarettes until July 2002, at
which time the City’s excise tax was raised to $1.50
per pack, where it remains today. (Id. ¶ 21 (citing
N.Y.C. Admin. Code § 11-1302(e)).) Federal excise
taxes on cigarettes also increased significantly during
the 2000s, leading to a significant increase in the cost
of cigarettes for consumers. (Delman Decl., DX 611
¶ 14.) The federal excise tax on cigarettes increased
from $0.24 per pack to $0.34 per pack on January 1,
2000, and then to $0.39 per pack on January 1, 2002.
(Id. ¶ 15.) Following passage of the Children’s Health
Insurance Program Reauthorization Act (“CHIPRA”)
in 2009, the federal excise tax on cigarettes increased
from $0.39 to $1.01 per pack, where the tax remains
today. (Id. ¶ 16 (citing Pub. L. 111-3, ¶ 703(b)).)
These increases in State, City, and federal cigarette taxes meant that by July 2010, the combined
taxes on a pack of cigarettes were $6.86 in New York
City and were $5.36 in the rest of New York State.
The taxes in New York City were $5.23 more than the
taxes in a majority of locations across the United
States that have neither city nor county taxes. (Delman Decl., DX 611 ¶ 22.) Only cigarette consumers in
Chicago face a higher tax rate. (Id.)
Revenue generated by taxes imposed by the State
and City of New York are substantially less than the
amounts needed to cover tobacco-related healthcare
costs incurred by New Yorkers. (Angell Aff., PX 628
¶ 18.)

169a
VI. THE PACT ACT
The PACT Act was enacted on March 31, 2010,
and took effect on June 29, 2010. Pub. L. No. 111-154,
124 Stat. 1087 (2010). As pertinent here, for common
carriers other than those who had entered into an
AOD (and otherwise met the exemption requirements)—primarily the USPS and smaller carriers—
the PACT Act sets forth an extensive regulatory
scheme.
Plaintiffs pointed to various pieces of evidence
supporting UPS’s view that the passage and implementation of the PACT Act provided a business opportunity. That is, as other couriers were required to terminate cigarette shippers as a result of the PACT Act,
UPS picked up the business. This is borne out by the
facts. The evidence supports an increase in shipments
via UPS by the Relevant Shippers in the months immediately following the effective date of the PACT
Act. Account personnel and others within UPS understood that this surge was likely due, in part, to capturing business lost by the USPS.45 For instance, in an
email dated September 23, 2010, a UPS Senior Account Manager noted that “UPS has gained a lot of
tobacco business from the USPS this year due to the
PACT Act taking effect at the end of June.” (PX 198.)

45

It is certainly true that New York State and City cigarette
tax rates jumped considerably at nearly the same time as the
PACT Act’s enactment, leading to some increase in the demand
for little cigars. However, there is limited evidence that UPS associated its increase in business with a growth in this area of the
tobacco business versus another. Moreover, market data supports a finding of consistent dominance of cigarettes versus other
tobacco products throughout this period. (See PX 11.)

170a
VII. CONSUMPTION OF TOBACCO PRODUCTS
Cigarettes are one of a number of consumable tobacco products. Tobacco products are many and varied; they include “little cigars” and “big” or “regular”
cigars, flavored cigars and cigarettes, loose tobacco,
and chewing tobacco. The evidence at trial supported
UPS’s claim that all but one of the Relevant Shippers
(Jacobs Manufacturing/Tobacco) sold a variety of tobacco products and, in certain instances, other items
as well.46 For instance, there was both testimony and
documentary evidence of shipments of cigars as well
as cigarettes. (See, e.g., PX 72; PX 113; PX 211; Trial
Tr. 384:8-16 (Cook).)
A. Cigarettes
The characteristics of cigarettes are well known:
Filtered sticks of tobacco, about the length of a finger,
are rolled in paper and typically sold in small boxes.
Each box contains twenty cigarettes; each carton contains ten boxes. A carton of cigarettes, irrespective of
brand, weighs approximately one pound. It is well
known that cigarettes are highly addictive. The market for sales of cigarettes is far larger than those for
other tobacco products, including little cigars. (See
generally PX 11.)
The manner in which consumer demand correlates with price and brand is subject to debate. Testimony at trial supported strong brand loyalty, but testimony similarly supported price sensitivity for cigarette consumers and tobacco users generally. Among

46

For instance, Mohawk Spring Water also sold spring water;
a number of shippers also sold Native American craft items.

171a
the evidence received at trial were cartons of cigarettes marketed by the Relevant Shippers. The Court
was able to evaluate the size, shape, and weight of the
packaging as well as the packaging’s characteristics.
In addition, plaintiffs introduced evidence of the size
of boxes used to ship cigarette cartons. Boxes containing cigarette cartons had the capacity to hold anywhere from a pound of goods to more than twenty
pounds; this equates with a capacity of between one
and twenty cartons of cigarettes.47
Not all boxes were shipped at full capacity; that is,
a box with twenty pounds of capacity might have
fewer than twenty cartons of cigarettes inside (or a
box of some other capacity might not be full). UPS’s
databases included a field for “actual weight.” The
Court draws the fair inference from the fact of such
documents that this phrase reflected a package’s
measured weight. UPS’s shipment records indicate
that there was frequently a difference between a package’s “actual weight” and “billed weight.” Billed
weight was typically a number rounded up from actual weight. Based upon UPS records, rounding occurred when any increment of a package’s weight was
above a whole number. (See, e.g., PX 74; PX 75; PX
227.) For instance, a package weighing 19.1 pounds
in actual weight would be increased to twenty pounds
for billed weight. (Id.) Thus, any aggregation of
“billed” weight for a number of packages would inflate
their actual weight.
In addition, cigarettes were generally shipped in
boxes. There was some evidence at trial of shippers
47

Jacobs Manufacturing/Tobacco would ship multiple boxes on
a pallet. (See Jarvis Dep. Tr. 54:1-6.)

172a
sending letter-sized envelopes. (See, e.g., Trial Tr.
511:5-512:17 (Fink); id. 769:23-770:12 (Keith).) The
evidence that cigarettes were shipped in letter-sized
envelopes was extremely thin and not particularly
credible (apparently, from time to time, loose cigarettes might be sent in envelopes); the economics of
sending a handful of loose cigarettes via UPS makes
no sense. Indeed, it is hard to imagine that it would
have been cost effective to have sent loose cigarettes—
presumably in an amount of less than one box—in a
letter-sized package via UPS. The Court finds that no
appreciable volume of cigarettes was sent via lettersized packages and that packages of such size more
likely than not contained something other than cigarettes.
B. Little Cigars
Little cigars account for under 10% of the tobacco
market. (See PX 11.) They are rolls of tobacco,
wrapped in leaf tobacco with an integrated filter, that
resemble cigarettes in size, shape, and packaging.
(Delman Decl., DX 611 ¶ 24; see also Trial Tr.
1584:16-25 (Delman).) While UPS’s tobacco expert,
Delman, testified that little cigars are “total substitutes” for cigarettes, the evidence was in fact far more
equivocal. First, even Delman conceded that little cigars are made up of “lesser quality” tobacco. (Trial Tr.
1573:2-24 (Delman); id. 1568:12-1569:18 (Delman).)
Little cigars are made from reconstituted tobacco floor
sweepings. (Id. 1569:19-1570:12 (Delman).) Second,
based on her experience, Dr. Angell testified that little
cigars are in fact distinguishable from cigarettes.
(Trial Tr. 1369:2-7 (Angell).)

173a
Like cigarettes, little cigars may be sold twenty to
a pack and ten packs to a carton. (Delman Decl., DX
611 ¶ 25.) Also like cigarettes, little cigars may be
sold in cartons weighing approximately one pound.
All but one of the Relevant Shippers (Jacobs Manufacturing/Tobacco) sold little cigars and shipped them via
UPS. The boxes in which they were shipped were the
same as those used to ship cigarettes.
The exterior packaging of little-cigar packs and
cartons is similar in size, shape, and color to those of
cigarettes. Moreover, the brand names of the little cigars sold by the Relevant Shippers were often quite
similar to those of cigarettes—and the Court at least
found it very difficult to distinguish between packs of
little cigars and those of cigarettes without examining
the exterior of a carton with care.
At the relevant times, little cigars were considerably cheaper than taxed cigarettes. (Id. ¶ 35.) For instance, as of August 2016, the average base price of
little cigars was $12 per carton versus $33 per carton
for discount/non-premium cigarettes and $55 per carton for premium-brand cigarettes. (Id.) However, cartons of little cigars can be more expensive than cartons of Native brand cigarettes. (Trial Tr. 1564:131565:22 (Delman).)
The evidence supports significant growth in the
demand for little cigars throughout the 2000s, though
the demand for little cigars never came close to that
for cigarettes. (Delman Decl., DX 611 ¶¶ 40, 41; PX
11.) The increase in demand was due, in part, to the
higher cost of cigarettes compared to little cigars combined with a willingness by at least some consumers
to substitute one for the other. (Id. ¶¶ 40-42 (citing

174a
DX 43 at 11).) Tobacco users are price sensitive, and
higher taxes on tobacco products decrease the demand
for the affected products. (Angell Aff., PX 628 ¶ 10.)
The evidence fell far short of supporting a total substitution of little cigars for cigarettes.
UPS dedicated a considerable amount of time and
evidence at trial to the factual proposition that increases in cigarette taxes drove an increase in the demand for little cigars, and that this is all the more reason for the Court not to accept that packages shipped
by the Relevant Shippers were cigarettes. According
to UPS, the increased demand for little cigars increased the likelihood that such packages did not contain cigarettes at all. There is some force to this argument— but not to the extent UPS asserts.
Several studies confirm the link between increased taxes and the possibility of increased demand
for little cigars and other alternative tobacco products,
even as cigarette consumption has declined. In fact,
the decision by the Food and Drug Administration to
bring cigars under the regulation of the Family Smoking Prevention and Tobacco Control Act by its Center
for Tobacco Products on May 5, 2016,48 (DX 425), was
based on research showing that various demographic
groups continued to use cigars even when there was a
broader migration away from cigarettes, especially
during the period from 2010-2014. (Delman Decl., DX
611 ¶ 44.) Dr. Angell also testified that if little cigars

48

The decision was formally published in the Federal Register
of May 10, 2016: Deeming Tobacco Products To Be Subject to the
Federal Food Drug, and Cosmetic Act, 81 Fed. Reg. 28,974 (May
10, 2016).

175a
cost less than cigarettes, they are one product that cigarette consumers might turn to as an alternative.
(Trial Tr. 1363:1-4 (Angell); see also Trial Declaration
of Aviv Nevo (“Nevo Decl.”), DX 613 ¶¶ 76-84 (concluding that diversion to “non-cigarette products,” including little cigars, would be “substantial”).)
VIII.CERTAIN COMMON EVIDENCE
A. The Fink Accounts
As discussed in detail below, one UPS Account Executive—Gerard Fink—was assigned to a number of
the Relevant Shippers. He testified both live at trial
and by trial declaration. Because his testimony impacts a number of issues in the case, the Court provides an overview here.
During the period relevant to this suit, UPS first
employed Fink as a part-time loader, then promoted
him to External Technician, and then promoted him
to Account Executive in 2005, a position in which he
remains today. (Fink Decl., DX 602 ¶ 2.) Fink manages UPS’s “small customer accounts” (defined as accounts which generate package revenue of up to
$300,000 per year) in what is his designated “Patch of
Land;” he is also part of the Buffalo-area sales team.
Fink’s Patch of Land includes the UPS Centers in
Dunkirk, Jamestown, Olean, and Hornell, New York.
(Id. ¶ 9.) UPS’s Dunkirk and Olean Centers serve two
Seneca Nation reservations. (Id. ¶ 10.)
As discussed below, a number of Fink’s accounts
in fact shipped unstamped cigarettes through UPS.
These accounts included Elliott Enterprises, Elliott
Express (or EExpress), Bearclaw Unlimited/AFIA,
Shipping Services, Seneca Ojibwas, Morningstar
Crafts & Gifts, Indian Smokes, and Smokes & Spirits.

176a
Each of these shippers tended to ship in volume and
were, at some point in the relationship, among Fink’s
largest accounts.
Fink, like other Account Executives, is paid a salary and has the opportunity to earn a bonus; the bonus is based in part on sales. An Account Executive’s
bonus does not play a significant role in his or her
overall compensation. Nevertheless, it plays some
role. The evidence at trial supported a desire by Account Executives to grow, and not lose, business.
Emails exchanged between Fink and other UPS employees regarding certain Relevant Shipper accounts
demonstrated a shared interest in protecting the accounts. For example, after an audit of EExpress revealed only coffee being shipped, Fink sent an email
to Michael Zelasko, a UPS sales manager, stating that
the audit revealed only packages containing coffee,
and concluding with a “smiley face” emoticon. (PX
569.) Zelasko forwarded this email to Brian Weber of
UPS Customer Solutions, telling Weber, “The audit
for EExpress came back as coffee!! Dodged a bullet.”
(Id.) For instance, emails reflected Fink’s reporting
on account activity to supervisors, databases reflected
certain of his contacts, and sales data was widely
shared. Fink, in short, was not a rogue employee hiding his activities from others at UPS. While he may
not have informed others at UPS of everything he
knew or suspected, he was not hiding (and did not personally have the ability to hide) many obvious facts
(such as the name of a shipper, its location, its address, or its client contact; the inventory that drivers
saw; the smell emitted by certain packages; tracer inquiries; etc.). The Court concludes that with regard to
the Relevant Shippers, Fink was acting within the

177a
scope of his employment. Fink’s testimony along with
other evidence also convinced the Court that he was
not a lone wolf and that his conduct was known and
supported by certain other individuals within UPS.
The Court did not find Fink a generally credible
witness. He struck the Court as an intelligent man
who understood a great deal about UPS’s business
and about the accounts for which he was responsible.
He also appeared evasive and as attempting to find
the “right answer,” sometimes at the expense of the
truth. The Court does not credit testimony that he did
not know what a number of his largest accounts were
shipping; this finding is based on Fink’s demeanor as
well as the totality of facts regarding his knowledge
of, and interactions with, the accounts. Indeed, his
testimony convinced the Court that he generally understood that certain of his clients were shipping cigarettes and that there was a reasonable basis to believe that those accounts and others may have been
tendering cigarettes.
B. The Non-Compliant Lists
One important component of the PACT Act is the
creation of “non-compliant lists” or NCLs. Specifically, the PACT act directs the Attorney General to
compile and distribute a list of cigarette and smokeless tobacco delivery sellers that have not registered
with the Attorney General or “are otherwise not in
compliance with [the] Act.” 15 U.S.C. § 376a(e)(1)(A).
Inter alia, the PACT Act prohibits deliveries to any
person named on the NCLs, unless certain exceptions
are met. Id. § 376a(e)(2)(A).
After the PACT Act went into effect on June 29,
2010, entities that had shipped cigarettes through the

178a
USPS, and had a continued desire to ship cigarettes,
sought alternative arrangements. There was substantial evidence at trial that the timing of new UPS
customer acquisitions during 2010 was more likely
than not related to the effective date of the PACT Act.
(See, e.g., PX 198.) Evidence demonstrated that at
least certain of the new accounts were recognized as
“competitive conversions” from other carriers at the
time. (See, e.g., (PX 198.))
UPS has argued that the same time period also
correlates with an increase in the cigarette tax and an
increase in the demand for little cigars (and thus, that
new customers were simply responding to increased
mail order demand for little cigars.) That may be so,
but there is insufficient evidence to support this theory. While the evidence does support increased taxes
and consumer demand for little cigars, it does not support that the contents of the packages shipped by the
new customers were therefore little cigars, or reasonably believed to be such. Instead, the evidence supports a reasonable inference that many customer acquisitions (particularly in 2010), including competitive conversions, were the result of the passage of the
PACT Act, and thus a switch away from another carrier to UPS.
As discussed, the PACT Act required the periodic
creation of NCLs. The PACT Act’s mandate in this
regard was, of course, public knowledge. But in addition, commencing in November 2010, the ATF distributed the NCLs to UPS. Several of the Liability Shippers, or individuals associated with them, were on one
or more NCLs. For instance, Elliott Enterprises appeared on the first NCL distributed by the ATF in November 2010, (PX 514); Indian Smokes was added on

179a
May 6, 2011, (PX 524); and Smokes & Spirits was
added on February 15, 2012, (PX 514).
Plaintiffs argue that UPS’s receipt of the NCLs
put them on notice of cigarette shippers but that UPS
failed to take remedial action (such as conducting audits). According to plaintiffs, the NCLs also provide
evidence of UPS’s knowledge of shipper violations to
support plaintiffs’ claims.
For its part, UPS argues that because it was exempt from the PACT Act due to the AOD, the NCLs
were irrelevant to its business. This position is misguided. The NCLs were plainly relevant and should
have been used by UPS to identify cigarette shippers.
As discussed below in the Court’s legal conclusions,
UPS’s argument fails to fully grasp the conditional nature of the relevant PACT Act exemption, and that the
NCLs plainly provided relevant information to meet
the necessary conditions. UPS ignored the NCLs at
its peril. While the NCLs may not have obligated UPS
to take action with regard to certain shippers, UPS
had separate obligations with regard to those same
(and other) shippers under the AOD.49

49

A number of UPS’s defenses (including, for instance, unclean
hands, in pari delicto, and breach of the covenant of good faith
and fair dealing) are based in part on an assertion that the government kept information regarding non-compliant shippers
from UPS. However, the distribution of NCLs to UPS represented an instance in which a governmental entity (albeit a federal one) provided UPS with “what it knew” about non-compliant
shippers. UPS’s dismissal of the NCLs as irrelevant until the fall
of 2013 undermines its assertion that if only the State had given
it information, it would have taken action. Instead, UPS’s actions
with regard to the NCLs provide some evidence that had any

180a
UPS further argues that in any event, the NCLs
were sent to one part of UPS while the domestic client
accounts and courier service operations were performed out of another. Thus, UPS claims it was operationally unaware of the NCLs and that certain shippers were on the NCLs. While factually true, the conclusion that UPS draws from this—that it was justified in ignoring the NCLs—is unpersuasive. The
point remains that UPS received the NCLs.50 It should
have provided information it received regarding
known cigarette shippers to others within UPS.51 As
the Court has found, the NCLs were, as a factual matter, relevant information regarding the shipping practices of certain entities.
In sum, the Court finds that the NCLs did put
UPS on notice, and provided some knowledge, of shippers who tendered cigarettes.
C. The “Tobacco Watchdog Group” Letter
On November 10, 2010, an entity referring to itself as the “Tobacco Watchdog Group” sent a letter addressed to the “UPS Service Center Managers” in
State entity provided it with information, it would have ignored
that information—at least until the fall of 2013. Increased attention in the fall of 2013 was driven by the fact that as of late July
2013, UPS realized it was under new scrutiny from plaintiffs.
50

Cook testified that he personally did not receive an NCL until the third quarter of 2013 and that upon receipt he immediately used it to identify possibly non-compliant shippers. (Cook
Decl., DX 600 ¶¶ 100, 103.) UPS’s inside counsel had been receiving the NCLs prior to this time; counsel added Cook to the distribution list in August 2013. (Id. ¶ 103.)
51

Notably, this compartmentalization contrasts with evidence
of coordination between different parts of UPS to provide a seamless and integrated package-delivery service for its customers.

181a
which it identified a number of known or suspected
shippers of unstamped cigarettes. (DX 62.) Various
UPS employees received copies of this letter, including Gerard Fink, Steve Kinney, Scott Winkley, Rich
Kincade, and Tina Mahon. (Id.) The letter was
emailed to Fink by Winkley, the Business Manager for
the Jamestown and Olean Centers. (Id.) Winkley instructed Fink, “Please read.” (Id.) At trial, Fink testified that he recalled receiving the letter at or about
the time it was issued. (See Trial Tr. 601:14-17 (Fink);
see also Fink Decl., DX 602 ¶ 33.) Six entities were
identified in the letter—all of which were located in
Salamanca, New York. Among them were the following shippers: Smokes & Spirits at 270 Rochester
Street, Elliott Enterprises at 38 Main Street, and Native Express, also at 38 Main Street. (Id.) Smokes &
Spirits and Elliott Enterprises are both Relevant (and
Liability) Shippers.
Fink’s reply to Winkley’s email stated that he had
only “one account” on the list and was “certain” they
were only shipping cigars. The account to which Fink
was referring was Smokes & Spirits. In fact, Elliott
Enterprises, located at 38 Main Street in Salamanca,
was also one of Fink’s largest accounts at that time.
Fink did not state his basis for his “certain[ty],” and
there is no evidence that he was further probed by any
of the other letter recipients. In light of UPS’s affirmative obligations under the AOD and statutory
schemes, it should have done more in response to this
letter.
UPS argues that the Court should give no weight
to the letter because it was of unknown origin and veracity. The Court disagrees. The emails among UPS

182a
personnel discussing the contents of the letter establish that UPS recipients read the letter and discussed
it. It was properly viewed by UPS employees as relevant. The letter provided some notice of a possible issue; the Court agrees, however, that the letter did not
itself “prove” anything.
D. Inquiries Regarding Lost or Damaged Packages
Plaintiffs introduced evidence showing that at
various times UPS customers inquired about lost or
damaged packages. (PXs 72, 113, 190-91, 208, 211215, 403, 405-06, 468-70.) As described above, UPS
refers to these inquiries as “tracers.” Tracers captured various methods of inquiry, such as calls to a 1800 customer service line or an online report entered
into UPS’s system. Tracers typically include information regarding the reported contents of the package(s) at issue.52

52

Both plaintiffs and defendant have placed in evidence
spreadsheets of tracer data, (see, e.g., PX 191, PX 211, DX 499,
DX 500), and both have used the tracer documents for the truth
of customers’ statements of package contents. (See, e.g., Pl. Proposed Findings of Fact, ECF No. 491 ¶¶ 382, 383; Def. Proposed
Findings of Fact, ECF No. 492 ¶ 110.) However, no party has asserted a hearsay objection to the use of tracers for the truth of
the matter asserted, i.e., customers’ statements of packages’ contents, and both parties have relied on this use in their arguments. (See ECF No. 420 at 4 (“ . . . UPS has made no objection
as to admissibility other than citing Rule 602. It is not, for instance, arguing relevance or hearsay.”). Therefore, any objection
to the tracer documents on the basis of hearsay is waived. See
Fed. R. Evid. 103(a); United States v. Del Llano, 354 F.2d 844,
847 (2d Cir. 1965). In all events, even if not considered for the
truth, tracers nonetheless put UPS on notice of what a customer

183a
It is clear that until recently (as described above),
UPS did not use tracers as tools to identify cigarette
shippers. Nevertheless, tracers put UPS on notice
that some shippers were likely tendering cigarettes.53
The tracers also provided UPS notice regarding other
items being shipped by the Relevant Shippers (such
as tobacco, flyers, and other items).
1. Smokes & Spirits
Several tracers in 2011 (in April, September, October, and November) for Smokes & Spirits were for
packages containing “nectar filled cigars full flavor
100’s,” “1 of 3 box of 6 pouches of tabacco [sic],” “2 of 5
tobacco product,” and “1 of 10; 1 pack out of a carton
of 10 was crushed.” (PX 191, rows 260, 262-63.)
Tracers relating to packages shipped by Smokes
& Spirits in April, September, and December of 2012
indicated package contents as an unidentified good,
seven cartons of “Menthol Box 100s” (cigarettes), and
Timber Wolf Long (tobacco), respectively. (PX 190,
rows 293-95; see also PX 214, rows 293-95.)
claimed a package contained. See United States v. Dupree, 706
F.3d 131,136 (2d Cir. 2013) (“[A] statement offered to show its
effect on the listener is not hearsay.”). Such notice, along with
other circumstances described below, should have informed
UPS’s state of mind (and should have led to an audit).
53

Under the AOD, UPS was obligated to train its personnel in
its Tobacco Policy. (AOD, DX 23 ¶ 34.) Customer service personnel are reasonably included in the “relevant UPS employees” who
should have been so trained. Moreover, the AOD also broadly required “UPS” to comply with PHL § 1399-ll. The Court finds that
employment responsibilities of customer service personnel working with tracers should have included reporting packages containing cigarettes within UPS, to supervisors, to Cook, or to those
working with him or fulfilling similar roles.

184a
A tracer in September 2012 for a package shipped
by Smokes & Spirits contained the UPS remark in all
caps: “PROHIBITED ITEM SENT TO CONSUMER.”
(PX 72.) Additional inquiries relating to packages
shipped by Smokes & Spirits occurred on May 15,
2013; September 12, 2013; and October 17, 2013. (PX
113, rows 970-72.) Of these, two (the May and October
inquiries) were for non-cigarette tobacco products,
while the September inquiry was for cigarettes. (Id.)
2. RJESS
A tracer for RJESS in July 2013 was for “8 of 20
Cigars.” (PX 113, row 968.)
3. Sweet Seneca Smokes
A tracer for Sweet Seneca Smokes in November
2014 indicated package contents of “8 Nectar Filtered
Cigars Full Flavor 100’s.” (PX 211, row 627.)
4. Elliott Enterprises/EExpress
In 2011, tracers for Elliott Enterprises (in March,
April, May, and December) were for one empty box
and three packages of cigarettes. (PX 191, rows 26770; PX 470, row 2865.) Tracers in March, April, May,
and December of 2011 for packages shipped by Elliott
Enterprises were for an empty box, “cigarettes/pdmm,” “cartons of cigarettes,” and “cartons of
Kent ULL King Soft.” (PX 213, rows 267-70.)
A tracer in March 2012 for packages shipped by
Elliott Enterprises was for “5 of 5 Seneca Ultra Light
100” and “606 Seneca Light 120 Carton.” (PX 190, row
303.)
Tracers in April 2013 and June 2013 for EExpress
indicated the following package contents: “1 of 1 box

185a
of cigarettes;” “1 of 1 box of cigarettes;” “1 of 1 box of
cigarettes;” “1 of 1 box of cigarettes;” “4 of 4 Seneca
Menthol Light 100 Soft 4pks;” and “1 of 1 box of cigarettes.” (PX 405, rows 61-66.)
Tracers in December 2013, January 2014, and
May 2014 for packages shipped by EExpress were described as “1 quantity of cigarettes,” “10 of 10 Seneca
Ultra Light 100 soft” (cigarettes), and “4 carton cigarettes.” (PX 211, rows 588-90.)
5. Bearclaw Unlimited
A January 18, 2011 tracer for a package shipped
by Bearclaw Unlimited described the package contents as “Marlboro Cigarette Cartons.” (PX 191, row
204; PX 213, row 204.) Several months later, in August 2011, another tracer for Bearclaw related to a
package containing scented candles. (PX 191, row
250; PX 213, row 250.)
6. Shipping Services
Tracers on August 26, 2011, September 8, 2011,
September 15, 2011, and August 17, 2010, for Shipping Services indicated package contents of “3 Seneca
Lt cigars,” “4 Seneca FF box,” “6 Vendetta Full Flavor,” and “Cigars.” (PX 212, rows 354-57.)
7. Native Wholesale Supply
A tracer in March 2013 for Native Wholesale Supply indicated package contents as “Flyers.” (PX 405,
row 81.)
8. Seneca Promotions
Tracers in July 2014 for Seneca Promotions indicated one empty package and “1 Banner Rick
Youngblood Smoke Shop.” (PX 211, rows 624-25.)

186a
9. Native Gifts
A tracer in June 2013 for Native Gifts indicated
the package contained “8 cartons of cigarettes, Seneca
Ultralights.” (PX 211, row 622.)
10. Jacobs Manufacturing/Tobacco
Two tracers on February 22, 2011, for Jacobs
Manufacturing/Tobacco (rows 39, 40) indicated package contents of “Carton, Nation’s Best American Full,
100 Softpack/EA” and “Nations Best Full Flavor Cigarettes.” (PX 468, rows 39-40; PX 469, rows 39-40.)
E. The Cigarettes Shipped Were Unstamped
As the Court stated in footnote 1 above, it uses the
term “cigarette” throughout this Opinion as synonymous with “unstamped cigarette.” There is substantial evidence supporting the Court’s determination
that all cigarettes shipped by the Relevant Shippers
were unstamped. First, UPS drivers, Account Executives, and sales representative knew that cigarettes
sold on Indian reservations were virtually always sold
without tax stamps. (Bankoski Dep. Tr. 69:10-70:16;
Haseley Dep. Tr. 16:3-20; id. 16:25-17:21; Potter Dep.
Tr. 48:15-49:2; Sheridan Dep. Tr. 34:4-25, 35:17-21;
Wheaton Dep. Tr. 15:8-17; Trial Tr. 179:23-180:24
(Cook); Trial Tr. 434:9-436:10 (Niemi); Trial Tr.
1342:2-22 (Guarino); Trial Tr. 1392:15-1394:1
(Puleo).) Rosalie Jacobs and Robert Oliver both testified credibly that the cigarettes she shipped via UPS
did not bear stamps. (Trial Tr. 1661:15-17 (Jacobs);
Trial Tr. 1132:5-1134:20 (Oliver).) In addition, the
cigarettes seized at the Potsdam Center in June 2011
did not bear stamps. (Trial Tr. 1148:1-7 (Oliver).)
Philip Christ testified credibly that the cigarettes sold
by Arrowhawk did not bear tax stamps. (Trial Tr.

187a
912:20-23, 913:17-914:6 (Christ).) Smokes & Spirits
data regarding sale prices further support a lack of tax
stamps. (PX 54; PX 55.) Finally, cigarettes purchase
as part of controlled buys and introduced at trial were
unstamped. (PX 40; PX 43.)54
IX. SHIPPERS AT ISSUE
A. Overview of the Shippers and the Court’s
Findings
This case concerns UPS’s shipments on behalf of
a discrete group of shippers located on the following
Indian reservations within the State of New York: the
Seneca Cattaraugus Reservation, the Seneca Allegany Reservation, the Tonawanda Reservation, and
the Mohawk/St. Regis Reservation. UPS serviced accounts on these reservations from its Dunkirk, Olean,
Batavia, and Potsdam Centers, respectively.
Plaintiffs’ claims in this case are directed at UPS’s
conduct with regard to the following twenty-two entities (referred to as the “Relevant Shippers” or “Shippers”) (plaintiffs combine certain entities into
“groups”):55

54

The packages involved in the controlled buys were shipped
to addresses in New York City. (PX 40; PX 43.) Additionally, the
Court has reviewed the delivery spreadsheets and has determined that there are numerous instances where deliveries by the
Relevant Shippers were made to addresses with New York City
zip codes. (See, e.g., PX 191, line 204.)
55

As noted above, plaintiffs have separated certain companies
into “groups.” The Court only uses such designations in its factual findings in certain instances when the facts support an inference that the grouped entities are properly considered each
other’s alter egos. However, even in each such instance, the

188a


Elliott Enterprise(s), Elliott Express (or “EExpress”), Bearclaw Unlimited/AFIA (together,
the “Elliott Enterprise Group”);



Seneca Ojibwas Trading Post, Shipping Services, and Morningstar Crafts & Gifts (together, the “Shipping Services Group”);



Indian Smokes;



Smokes & Spirits, Native Outlet, A.J.’s Cigar,
Sweet Seneca Smokes, and RJESS (together,
the “Smokes & Spirits Group”);



Native Wholesale Supply and Seneca Promotions (together, the “Native Wholesale Supply
Group”);



Seneca Cigarettes/Cigars, Hillview Cigars,
Two Pine Enterprises, Arrowhawk Smoke
Shop (together, the “Arrowhawk Group”);



Mohawk Spring Water and Action Race Parts
(together, the “Mohawk Spring Water Group”);
and



Jacobs Manufacturing/Tobacco.

The parties submitted thousands of pages of exhibits with regard to the Relevant Shippers, and there
were several days of testimony. The Court’s findings
are based on its review of the totality of the evidence
and consideration of the parties’ various arguments
regarding the reasonable inferences the Court should
draw. The Court does not attempt to set forth each

Court has also made a separate liability determination for each
entity on a stand-alone basis.

189a
fact in the trial record supportive of its findings. Rather, it provides exemplar facts. As to each shipper as
to which the Court has found liability (“Liability Shipper”), the Court has made specific factual findings regarding: (1) the date not later than which there was
a reasonable basis to believe that such shipper may
have been tendering cigarettes to Individual Consumers, (2) (if applicable) the date not later than which
the shipper was in fact shipping cigarettes, and (3) (if
applicable) the date not later than which UPS knew
that it was shipping cigarettes.56 The answer to question (1) establishes the date of UPS’s initial liability
for an audit violation of the AOD. In each instance in
which the Court has found a violation of the audit obligation, the Court has further found that once such
an obligation attached, UPS remained under an audit
obligation each day thereafter until an audit occurred
or UPS terminated the account. The answer to questions (2) and (3) provide the predicate facts for findings of violations of ¶ 42 of the AOD as well as the
various statutory schemes.
The Court finds that plaintiffs have proven liability under the AOD and each statutory scheme at issue
with respect to the following shippers:
(1) Elliott Enterprise(s);
(2) Elliott Express/EExpress;
56

The questions of whether UPS “knew” packages included cigarettes and, if so, when, are mixed questions of law and fact. The
legal principles the Court applies to such determinations are set
forth in its Conclusions of Law below. When the Court uses the
term “knowledge” in its findings of fact, it is specifically incorporating and applying these legal principles and its conclusions
with regard thereto.

190a
(3) Bearclaw Unlimited/AFIA;
(4) Seneca Ojibwas Trading Post;
(5) Shipping Services;
(6) Morningstar Crafts & Gifts;
(7) Indian Smokes;
(8) Smokes & Spirits;
(9) Seneca Cigarettes/Cigars;
(10) Hillview Cigars;
(11) Two Pine Enterprises;
(12) Arrowhawk Smoke Shop;
(13) Mohawk Spring Water;
(14) Jacobs Manufacturing/Tobacco;
(15) Native Wholesale Supply;
(16) Seneca Promotions; and
(17) Action Race Parts.
The Court finds that plaintiffs have proven only violations of UPS’s audit obligations for:
(18) A.J.’s Cigars;
(19) Native Outlet; and
(20) RJESS.
As to the remaining shipper, Sweet Seneca
Smokes, plaintiffs have not proven that there was a
violation of the audit obligation, or that the shipper in
fact shipped cigarettes through UPS, and/or that UPS
possessed the requisite knowledge of such facts.

191a
Below, the Court sets forth its specific findings
with regard to each of the Relevant Shippers. The
Court has considered the often obvious methods used
by cigarette shippers to reduce their risk of losing UPS
service.57 For instance, certain shippers would open
(or UPS opened for them) successive accounts (e.g., Elliott Enterprises became EExpress; Seneca Ojibwas
became Shipping Services, which became Morningstar Crafts & Gifts). In some instances, these shippers continued to have UPS pick up from the same
physical address (e.g., Shipping Services and Morningstar Crafts & Gifts) or a shared billing address; in
others, a different address might have been used but
the personnel overlapped (e.g., Elliott Enterprises and
EExpress). It is the Court’s view that in all events,
these techniques were so basic that they should not
have prevented detection if UPS had undertaken modest efforts to link accounts.58

57

Notably, and as discussed below, the use of such methods
does not eliminate UPS’s liability; UPS personnel were sometimes complicit in such conduct—in an effort to maintain the accounts—and in other instances the methods were so obvious that
failure to recognize them as indications of likely cigarette shipping amounted to conscious avoidance.
58

Using duplicate accounts and alter egos were known tactics
of cigarette shippers attempting to evade the law. The AOD specifically provided that “[t]he violations found to have occurred
pursuant to this [AOD] . . . shall be applied both to the shipper
committing the violation, and to any other shipper . . . that UPS
has a reasonable basis to believe is shipping or seeking to ship
Cigarettes (a) from the same location as the suspended shipper,
(b) on behalf of a suspended shipper, or (c) with the same account
number as the suspended shipper.” (AOD, DX 23 ¶ 31 (emphasis
added).)

192a
There is also credible evidence that UPS personnel were sometimes complicit in this avoidance technique. For instance, as described below, Fink assisted
Seneca Ojibwas in opening two separate accounts
(with regard to the second, he recommended using a
different address than the first), and then opened an
account under Morningstar Crafts & Gifts when Shipping Services was terminated for shipping cigarettes—at the same address as the second Shipping
Services account.
B. Liability Shippers
The Court finds that plaintiffs have proven liability under the AOD and each statutory scheme at issue
with respect to the following Liability Shippers.
1. Elliott Enterprises59
Elliott Enterprises operated from a retail storefront on 38 Main Street, Salamanca, New York, on the
Seneca Allegany reservation. (Fink Decl., DX 602
¶ 58; DX 490 at 2.) Gerard Fink was its Account Executive and opened its first account on September 28,
2010.60 (PX 174, row 60.) This was shortly after passage of the PACT Act. Aaron Elliott was the principal

59

The Court’s discussion of its analysis of the facts with regard
to this entity is more extensive than for others. This is intended
to lay out the way in which the Court has considered certain
types of evidence.
60

The principal of Elliott Enterprises, Aaron Elliott, had a
prior account with UPS for another entity named “Rock Bottom
Tobacco.” That company had executed a Tobacco Agreement and
was also listed in UPS’s Tobacco Database. (See DX 371, line
472.) The account was canceled as part of the broader plan implemented by UPS in connection with the AOD to require all

193a
of Elliott Enterprises and, while Fink denied making
the connection, there was credible evidence that Fink
understood that Aaron Elliott was associated with
this account as early as 2010. (See, e.g., PX 559, col.
DL; PX 439, rows 127-28, col. DL.) This fact is relevant to whether—in light of Aaron Elliott’s subsequent history of shipping cigarettes with UPS through
another entity (Elliott Express or EExpress)—Fink
knew or should have known of, or was complicit in,
Elliott’s attempt to circumvent UPS policy by opening
other accounts. The Court finds that not only should
Fink have known, but that he did know.
UPS began shipping for Elliott Enterprises on October 1, 2010. This account was part of the business
UPS acquired following passage of the PACT Act. A
month later, Elliott Enterprises, 38 Main Street, Salamanca, New York, was listed on the NCL issued by
the ATF and sent to UPS; it was also listed in the Tobacco Watchdog Group letter issued on November 10,
2010, that Fink received. (DX 62.)61 As discussed
above, the Tobacco Watchdog Group letter and the November 10, 2010 NCL were both distributed to others
within UPS. The account was terminated on or about
September 18, 2012, after a UPS driver discovered a
smoke shops in the area to establish new accounts with new Tobacco Agreements. (See AOD, DX 23 ¶ 21; Trial Tr. 200:6-14
(Cook); id. 499:22-500:3 (Fink).) Notably, not all accounts
changed their names. Here, the name change (by the same
owner) away from one that used the word “tobacco” was more
likely than not an attempt to obscure the goods shipped.
61

In the email exchange among UPS personnel regarding the
Tobacco Watchdog Group letter, Fink states that he only has one
account on the list, Smokes & Spirits. He does not acknowledge
his new account for Elliott Enterprises (also listed with an address of 38 Main Street, Salamanca, New York).

194a
shipment of cigarettes. (PX 172; Cook Decl., DX 600
¶ 76.)
It is quite clear from these facts alone that, from
the date on which its account was opened, Elliott Enterprises was, at best, a very high-risk account and
more than likely a cigarette shipper. While the fact
that it was located on an Indian reservation was alone
insufficient to support a reasonable basis to believe it
was shipping cigarettes, when that fact was combined
with its presence on the November 2010 NCL and its
presence in the Tobacco Watchdog Group letter, the
question was not close. These facts—even before addressing others—support that not later than November 11, 2010 (the day after the November 10, 2010
NCL and the Tobacco Watchdog Group letter), there
was a reasonable factual basis to believe Elliott Enterprises may have been tendering cigarettes via
UPS. Under the AOD, not later than November 11,
2010, UPS thus had an obligation to audit Elliott Enterprises.
There is more, however. UPS’s failure to audit
when obligated to do so does not mean that Elliott Enterprises was in fact tendering cigarettes or that UPS
knew that it was. The audit obligation attaches only
upon a reasonable belief that a shipper may be tendering cigarettes. Additional facts are required to
support a finding of actual tendering and UPS’s
knowledge.
In this regard, the NCLs constitute some evidence
of cigarette shipping. They are lists of shippers known
by a federal agency to ship cigarettes. In addition,
UPS received additional notice by way of tracers that
particular shippers were likely tendering cigarettes.

195a
The number of such tracers and consistency of their
package descriptions adds to their impact. On March
8, May 26, and December 15, 2011, UPS received inquiries for lost or damaged packages of cigarettes
shipped by Elliott Enterprises. (PX 191, rows 267-70.)
Additional tracers for cigarettes shipped by Elliott Enterprises were made on March 22, 2012. (PX 190, row
303; see also PX 213, rows 267-70.)
The Court now turns to UPS’s knowledge. First,
the NCLs provided UPS with factual information.
The Tobacco Watchdog Group letter was distributed
within UPS, and UPS’s emails reflect that it was
taken seriously; while the letter’s source and reliability were unknown, it should have at least raised further questions. Together, these two sources of information were significant; UPS ignored them and failed
to take action at its peril.
But further, the Court finds that various facts
taken together support circumstantial evidence of
UPS’s knowledge that Elliott Enterprises was tendering cigarettes. First, it was clear that Elliott Enterprises was a smoke shop. Fink testified at trial that
he assumed Elliott Enterprises was shipping “little cigars” because it was located in Salamanca, where “[a]
lot of the smoke shops sold everything from Native
American gifts to cigarettes, to cigars, to pipe tobacco.” However, he could not explain why, given this
explanation, he did not also assume (or simply suspect) that Elliott Enterprises sold cigarettes. (Trial
Tr. 589:12-591:23 (Fink).) Despite knowing that Elliott Enterprises shipped tobacco products, Fink never
required that they execute a Tobacco Agreement.

196a
The absence of a Tobacco Agreement under such
circumstances was equivalent to an affirmative act of
conscious avoidance and supports an inference of
Fink’s knowledge that Elliott Enterprises was shipping cigarettes. In addition, despite its presence on
the NCL, in the Tobacco Watchdog Group letter, and
in the tracers for cigarettes, and despite the fact that
Fink knew it was a smoke shop, Elliott Enterprises
was never audited. Based on known facts, the Court
views the lack of audits as additional affirmative acts.
UPS, in effect, “stood down” on its Tobacco Policy with
regard to this account. Fink was UPS’s first line of
defense against Elliott Enterprises: He had more
than enough information to request an audit but did
not. The Court finds that had Elliott Enterprises been
audited, most shipments would have been discovered
to contain cigarettes. Together, this circumstantial
evidence supports an inference of knowledge.
UPS argues that it is unfair to attribute
knowledge to Fink, or through him to UPS, because
the sheer volume of Fink’s accounts supports his assertion that he did not have specific knowledge as to
this one. This argument is unavailing. First, as discussed above, the Court did not find Fink credible as
a general matter or here, specifically. Additionally,
the argument ignores the context of UPS’s position at
the time: If Fink had so many accounts that he could
not possibly know what any one of them was shipping—including those located on Indian reservations
at higher risk of shipping cigarettes and that he himself referred to as “smoke shops”—then UPS bears direct responsibility for this failure.
But the Court believes Fink did know. During the
time Elliott Enterprises was shipping with UPS, it

197a
was among his largest accounts. In March 2012, it
was his highest gross-revenue account; by the end of
2012 it was his sixth-highest gross-revenue account.
(PX 568; PX 102, row 9.) Evidence indicates he was
compensated at least in part based on commissions.
Only a very small handful of accounts were as large
as Elliott Enterprises—it was in the top group on his
list. (PX 568.) Moreover, documentary evidence
shows that Fink received regular information regarding his accounts and whether they were meeting specified revenue targets. It is reasonable to infer that
Fink understood exactly how much business Elliott
Enterprises brought in and what their business was.
In sum, the Court finds that (1) not later than November 11, 2010, there was a reasonable basis to believe Elliott Enterprises may have been shipping cigarettes (this date is based on receipt of the November
10, 2010 NCL and Tobacco Watchdog Group letter,
along with the accumulated other facts discussed
above); (2) from November 11, 2010, onward Elliott
Enterprises was in fact shipping cigarettes via UPS
(based on the same information); and (3) from November 11, 2010, onward UPS knew that Elliott Enterprises was shipping cigarettes (based on the same information).
The Court further finds that 95% is a reasonable
approximation of the percentage of packages shipped
by Elliott Enterprises that contained cigarettes.62

62

This approximation is based on the Court’s assessment,
given the totality of the evidence, that most, but not all, of Elliott
Enterprises’s shipments contained cigarettes. The evidence supports that Elliott Enterprises sold a full array of tobacco products

198a
2. EExpress
EExpress was another Fink account. He opened
it on September 20, 2012, only days after Elliott Enterprises’s account was terminated.63 The account was
located at a residential address on 11074 Indian Hill
Road, Perrysburg, New York, on the Seneca Cattaraugus reservation. (Logan Dep. Tr. 82:4-19.) There was
significant customer overlap between the consignees
for Elliott Enterprises and EExpress. EExpress was
also a high-volume account, shipping hundreds of
packages a week from its residential address; the day
it opened, it immediately became one of Fink’s largest
accounts. (See PX 102; PX 143.) The timing could not
have escaped Fink’s notice: One of his largest accounts was terminated, and, just a few days later, another account opened that happened to largely fill the
revenue hole. These facts alone should have raised
red flags.
Fink’s trial testimony regarding what he knew
about EExpress’s shipments with UPS was particularly lacking in credibility. He testified that shortly
after the account was opened, he allegedly called EExpress and spoke to a woman named Adrian; he said he
remembered her from her prior employment at
at its commercial storefront, and it is reasonable to assume that
from time to time customers ordered some to be shipped (rather
than purchasing the products in person). Moreover, the Court
credits Farrell Delman’s testimony that cigarettes are most
likely to have been shipped because of the greater consumer demand and lesser tax imposed. (Delman Decl., DX 611 ¶¶ 24-34.)
63

As described below, based on the totality of the evidence, the
Court finds that EExpress was shipping on behalf of Elliott Enterprises and used a different name/address to avoid detection as
a cigarette shipper

199a
LouAnn’s Smoke Shop, an entity with which he was
familiar. (Fink Decl., DX 602 ¶¶ 66, 67; DX 511, line
40.) According to Fink, Adrian informed him that
EExpress was not shipping tobacco, but she refused to
disclose exactly what they were shipping; she said
that EExpress wanted to maintain the confidentiality
of its business model in order to avoid competition
from others on the reservation. (Fink Decl., DX 602
¶ 67.) Fink then stated, “[a]s Adrian promised me
EExpress was not shipping tobacco products and
there was no indication from the name of the business
or its location at a residence that it sold tobacco products, I had no reason to require EExpress to sign a
Tobacco Agreement.” (Id.) Yet, despite this professed
belief, Fink referred to EExpress as a “cigar shop” in
an email to Senior Sales Manager Mike Zelasko in
April 2013. (DX 184.) According to Fink, this reference was simply a mistake. (Trial Tr. 637:5-15 (Fink);
Fink Decl., DX 602 ¶ 68.)64 The Court also does not
find this testimony credible. At the very least, given
the accumulation of facts already mentioned, trusting
the self-serving statement of “Adrian” was unreasonable. More than that, it was an affirmative act of
“standing down” on the account and allowing the obvious to occur.

64

In this same email, he also stated that EExpress was not a
tobacco shipper or shipping cigarettes. Fink refers to other statements he made reflecting that EExpress was not a smoke shop.
The Court views the statement in PX 115 as reflecting his
knowledge that EExpress was a smoke shop. The Court further
views his dissembling as covering the more damaging truth that
he knew EExpress to be a cigarette shipper.

200a
But, in addition, there were clear connections between Aaron Elliott—the principal of Elliott Enterprises and by then a known cigarette shipper—and
EExpress. On September 26, 2012, Aaron Elliott executed the Carrier Agreement on behalf of EExpress.
(PX 128.) Fink testified that he did not recognize the
name and made no connection to the prior, terminated
account. (See Fink Decl., DX 602 ¶¶ 67, 75.) The
Court does not credit this testimony.
In the first full month that the EExpress account
was open, it shipped approximately 2,100 packages
with UPS from a residential address; that is, an average of 105 packages per day. (See PX 552; PX 559.)
With one exception, monthly volume for EExpress averaged about 2,000 packages, or 100 packages a day.
(PX 559.) On January 11, 2013, EExpress’s cover was
blown: The driver assigned to EExpress reported that
it was shipping cigarettes. (PX 172.) However, despite this information, UPS continued to ship for EExpress and failed to take any remedial action as required by the AOD.
Commencing in April 2013, UPS received a number of inquiries regarding lost or damaged packages
shipped by EExpress. There were five tracers on April
25, 2013, each of which referenced packages containing cigarettes. (PX 405, rows 61-64, 66.) A tracer on
June 6, 2013, also referenced a package containing
cigarettes. (Id., row 65.) On December 26, 2013, a
tracer referenced a package of cigarettes. (PX 211,
row 588.) Two tracers, in January and May of 2014,
referenced package containing cigarettes. (Id., rows
589-90.)

201a
Next, in May 2014, attorneys for the City and
State identified a shipper named “Native Express,” located at the same address as EExpress, as shipping
cigarettes. (Cook Decl., DX 600 ¶¶ 121, 122.) UPS
identified EExpress as being located at the address in
question and requested an audit. (Id. ¶ 122.) In a first
audit, conducted on May 5, 2014, UPS opened a package and found only coffee.65 (DX 549.) As described
above, Fink sent an email to Michael Zelasko, a UPS
sales manager, stating that the audit revealed only
packages containing coffee, and concluding with a
“smiley face” emoticon. (PX 569.) Zelasko forwarded
this email to Brian Weber of UPS Customer Solutions.
(Id.) Zelasko stated, “The audit for EExpress came
back as coffee!! Dodged a bullet.” (Id.) Weber responded, assuming the issue was cigarettes, “Why did
you assume they shipped cigarettes; Gerry said he
didn’t know what they shipped.” (Id.)
However, approximately one month later, on June
11, 2014, three boxes shipped by EExpress broke open
in UPS’s Dunkirk Center, revealing cigarettes. (PX
358.) A second audit was conducted June 13, 2014, on
packages consigned by the shipper to UPS on June 13,

65

An email about an unrelated shipper sent two years after
this audit indicates a view by some at UPS that this audit may
have been compromised by a tip to EExpress. (PX 536.) At trial,
the author of that email stated that he and others at UPS ultimately concluded that the audit had not been compromised. The
Court views the weight of the evidence as supporting a compromised audit—that someone within UPS, Fink or another, alerted
EExpress to the upcoming audit. This is particularly so in light
of the subsequent events. This supports both knowledge of what
was being shipped and intent to assist the customer in continued
shipping.

202a
2014. All ninety-nine packages opened revealed cigarettes; UPS terminated the account. (PX 358.) When
EExpress was terminated, Zelasko asked Mike Piazza
of UPS: “This is Gerry[ Fink’s] top account worth almost $200,000. Is there anything we can [do] for relief?” (PX 370.)
In sum, the Court finds (1) that as of the date Aaron Elliott (who was the principal of the terminated
Elliott Enterprise account) signed the Carrier Agreement on September 26, 2012, there was a reasonable
basis to believe that EExpress may have been tendering cigarettes; (2) that EExpress was tendering cigarettes throughout the entire time that it shipped with
UPS; and (3) that UPS knew EExpress was shipping
cigarettes throughout that period.
The Court further finds that 100% constitutes a
reasonable approximation of the percentage of packages shipped by EExpress that contained cigarettes.66
3. Bearclaw/AFIA
In early October 2010, Bearclaw Unlimited
opened the first of what would turn out to be eighteen
separate UPS accounts.67 (See Fink Decl., DX 602
66

This approximation is based on the Court’s view of the totality of the evidence, including that the tracers overwhelmingly indicated cigarettes and only some other unidentified “paper products.” (DX 500.) It is further based on the fact that, unlike Elliott
Enterprises, EExpress was not a retail shop, and there is no indication that it sold anything other than cigarettes. The Court
views the “paper products” as referring, in fact, to cigarettes.
67

While there is nothing inherently unlawful or violative of
UPS policy about a shipper having multiple accounts, in the context of UPS’s AOD and statutory obligations, UPS should have
closely monitored such activity occurring on reservations that

203a
¶ 142.) The first account was opened on October 2,
2010, not long after the effective date of the PACT Act;
and fourteen other accounts were opened between October 12 and December 27, 2010. (See PX 606-PX
619.) Bearclaw was located at 4888 Klawitter Road,
Great Valley, New York (3.5 miles from the Seneca Allegany Reservation). This is a residential address. On
January 8, 2011, UPS opened a sixteenth account for
Bearclaw, also at the same address. (See PX 620.) A
seventeenth account was opened on February 24,
2011, and an eighteenth and final account was opened
on May 8, 2012, under the name “AFIA,” but at the
Bearclaw address.68 (See PX 174, row 899.) Fink was
the Account Executive for all of the accounts. (See,
e.g., DX 371.) Notably, Bearclaw/AFIA and Elliott Enterprises shared a telephone number. (Compare DX
371, row 2902, with PX 472.) It was Fink’s responsibility to maintain contact with this larger accounts,
and it is reasonable to infer that he was aware of the
relationship among these entities.69 The fact of such a

have had active tobacco shippers. As discussed in footnote 57
above, “multiple accounts” was recognized as a red flag in the
AOD itself. (AOD, DX 23 ¶ 31.)
68

At least one UPS document (relating to an audit that occurred in September 2012) used “AFIA” and “Bearclaw” interchangeably. (PX 531; see also PX 174.) UPS did not rebut this
evidence. The Court finds no basis to consider Bearclaw and
AFIA as separate entities. In all events, the fact that UPS linked
these accounts and addresses, together with other commonalities
between the entities, provides a sufficient basis for the Court’s
findings for Bearclaw to apply to AFIA. It appears that AFIA’s
business was the same as Bearclaw’s.
69

Based on the totality of the evidence, the Court finds that
Bearclaw was shipping on behalf of Elliott Enterprises and used

204a
large number of accounts, with the first opening in the
months following the effective date of the PACT Act,
with a location at a residential address proximate to
an Indian reservation, with a name suggesting possible affiliation with a cigarette shipper, should have
raised red flags.
There were several early indications that Bearclaw was shipping cigarettes. First, Bearclaw/AFIA
was a relatively high-volume shipper proximate to an
Indian reservation.70 Further, as early as January 24,
2011, UPS received an inquiry regarding a damaged
package of cigarettes shipped by Bearclaw/AFIA. (PX
213, row 204.) Then, on August 26, 2011, UPS discovered twelve cartons of cigarettes in a shipment tendered by Bearclaw and addressed to a private residence in Arizona. (PX 333.) Despite this blatant violation of UPS’s Tobacco Policy, UPS did not terminate
the account or take remedial action apart from having
Fink review UPS’s Tobacco Policy with Bearclaw/AFIA; Fink claimed that he reviewed the policy
with them in September 2011. (DX 119; see PX 333.)
Cook was aware of this incident and that Bearclaw
had not executed a Tobacco Agreement. (See, e.g., PX
200; Trial Tr. 618:18-619:21 (Fink).) Despite these
events, Fink did not request that Bearclaw sign a Tobacco Agreement—and no supervisor within UPS followed up to find out why. Also, despite these events,
UPS did not conduct an audit of Bearclaw/AFIA until
September 21, 2012. When it did, it found cigarettes.
different names/addresses to avoid detection as a cigarette shipper.
70

When Bearclaw’s initial accounts were first opened, it was in
the top 2% of Fink’s highest revenue-generating accounts. (See
PX 104.) Over time it dropped to the top 11%. (See PX 102.)

205a
(Cook Decl., DX 600 ¶ 75.). The Court views this series of omissions and failures to respond as UPS affirmatively “standing down” on this account.
It took a month from the time UPS’s discovered
cigarettes in the audit to suspend the account: UPS
suspended Bearclaw’s account on or about October 23,
2012. (See PX 174, row 832.) The Court views this
delayed timing as suspect and as reflecting corporate
concern about the financial impact such suspension
would have.71
In sum, the Court finds that (1) not later than December 27, 2010, there was a reasonable basis to believe Bearclaw/AFIA may have been tendering cigarettes (this date is based on the series of red flags described above by then in existence); (2) Bearclaw/AFIA was in fact shipping cigarettes from the inception of its first account; and (3) UPS knew that
Bearclaw/AFIA was shipping cigarettes not later than
January 24, 2011.72

71

While the impact would have been insignificant in the overall
context of UPS’s business, the evidence supported greater attention within UPS to keep even modest revenues.
72
These latter findings are based on the fair inference drawn
from the totality of the evidence and the number of red flags, including the tracers. By not auditing and not requiring a Tobacco
Agreement, UPS took affirmative steps supporting a finding of—
at least—willful blindness.

206a
The Court further finds that 100% is a reasonable
approximation of the percentage of packages shipped
by Bearclaw/AFIA that contained cigarettes.73
4. Shipping
Services/Seneca
Morningstar Crafts & Gifts

Ojibwas/

The Seneca Ojibwas Trading Post, Shipping Services, and Morningstar Crafts & Gifts were referred
to by plaintiffs as the “Shipping Services Group.” For
these companies, combined consideration of the facts
and circumstances relating to their accounts is appropriate. As explained below, there is significant evidence that the entities were in fact one and the same.74

73

This approximation is based on the Court’s view of the totality of the evidence, including the tracers for cigarettes, the August 2011 discovery of cigarettes, and the fact that the audit
found cigarettes. It is also based on the fact that Bearclaw and
AFIA shipped out of a residential address, which reduces the
likelihood that they carried the broad array of goods a storefront
retailer might offer. There was no storefront displaying other
goods.
74

Courts generally evaluate the totality of the circumstances
to determine if formally separate entities are identical in substance, and if it is fair and equitable to regard them as alter egos.
Cf. N.Y. Pattern Jury Instr., Civil 2:266, Liab. for Conduct of Another (2016) (“The corporate veil or shield may be pierced when
(1) the [entity’s] owner(s) completely controlled the [entity] and
did not treat it as a separate business entity and (2) the [entity’s]
owner(s) used [their] complete control to commit a fraud or a dishonest or an unjust act . . . .”); Newspaper Guild of N.Y., Local
No. 3 of Newspaper Guild, AFL-CIO v. NLRB, 261 F.3d 291, 294
(2d Cir. 2001) (explaining that the determination of whether subsidiaries are alter egos “focuses on commonality of (i) management, (ii) business purpose, (iii) operations, (iv) equipment, (v)
customers, and (vi) supervision and ownership”); OOO v. Empire
United Lines Co., 557 F. App’x 40, 45-46 (2d Cir. 2014) (“‘In de-

207a
Nevertheless, the Court has analyzed the facts with
regard to each of the entities separately, and its findings below take such individualized consideration into
account.
Shipping Services was a successor entity to a company called the Seneca Ojibwas Trading Post (“Seneca
Ojibwas”). Seneca Ojibwas opened an account with
UPS in April 2002. (PX 299, row 3; PX 309, row 14.)
Fink knew that Seneca Ojibwas shipped tobacco products. (See PX 306, row 4 (“Smokes”).) A spreadsheet
sent to Fink lists Seneca Ojibwas as a “smoke shop.”
(PX 306.) After UPS entered into the AOD, Fink informed the owner of the Seneca Ojibwas that his account would be cancelled and reopened. (PX 452.)
On November 22, 2005, Fink opened a new account for Seneca Ojibwas under the name “Shipping
Services.” (Fink Decl., DX 602 ¶ 46; Trial Tr. 579:7-9,
630:21-23 (Fink).) The Court views the name change
as an attempt to obscure the affiliation between these
companies, and specifically to obscure that Shipping
Services was a smoke shop. The Court further finds
that the UPS account team nonetheless understood

ciding whether to pierce the corporate veil, ‘courts look to a variety of factors, including the intermingling of corporate and
[shareholder] funds, undercapitalization of the corporation, failure to observe corporate formalities such as the maintenance of
separate books and records, failure to pay dividends, insolvency
at the time of a transaction, siphoning off of funds by the dominant shareholder, and the inactivity of other officers and directors.’” (quoting Kiobel v. Royal Dutch Petroleum Co., 621 F.3d
111, 195 (2d Cir. 2010)). While the evidence at trial did not allow
for findings as to each factor set forth in the case law, the evidence presented plainly supported the factors set forth in the pattern jury instruction.

208a
the affiliation. Thus, from the outset, Shipping Services was known by UPS to be a tobacco shipper. The
new “Shipping Services” account began shipping on
November 22, 2005. The account was located at 13113
Route 438, Gowanda, New York on the Seneca Allegany reservation, and it operated out of a storefront.
(See Fink Decl., DX 602 ¶ 45.) Cigarettes were among
its wares.
Responsibility for the account was initially assigned to a UPS Sales Support Representative, Tina
Mahon. (Trial Tr. 493:25-494:3 (Fink); Fink Decl., DX
602 ¶ 47.) In August 2010, Mahon obtained a Tobacco
Agreement from Shipping Services. (DX 51.) Fink
took over responsibility for the account in late 2010,
after he was promoted to Account Executive. Fink
personally visited the storefront out of which Shipping
Services operated in 2010, and he spoke with a representative of the company quarterly thereafter. (Fink
Decl., DX 602, ¶ 50.) He testified that he only saw little cigars during his visit, not cigarettes. (Id.) The
Court did not believe this testimony. The testimony
conflicts with the rational business incentive of a
smoke shop to display wares corresponding to the
highest consumer demand, i.e., cigarettes. (See, e.g.,
PX 11.)
Until passage of the PACT Act, Shipping Services
shipped insignificant volume through UPS. Its volume began to increase in 2010 after the PACT Act became effective. (Id. ¶ 49.) Given that it was a tobacco
shipper, this was a serious red flag. Today, UPS’s
data analytics would likely flag this shift. Fink
opened a second Shipping Services account in January 2011. In a spreadsheet maintained by UPS to record in-person visit details, Fink noted on January 11,

209a
2011, “Rock-N-Roll . . . Still retaining same customer
base, and not even allowing new people to place orders. Locked-in majority to keep the reships rolling[.]”
(PX 235, row 3275). The Court views this use of the
term “reships” as indicating knowledge of a customer
base in need of a consistent supply, such as customers
addicted to tobacco products, including possibly cigarettes. Following a March 2011 in-person visit, Fink
noted that business was so strong that Shipping Services was “[s]till reluctant to go after new [business]
(CRAZY), way over the top.” (PX 235, row 3276.)
During the period from July 28, 2011, to November 30, 2011, customers made three inquiries to UPS
relating to lost or damaged shipments of cigarettes
from Shipping Services. (DX 500, lines 15, 17, 20.)
Customers also made inquiries regarding lost or damaged packages of non-cigarette products (including
non-tobacco products). (DX 500; see also DX 499,
Package Details Tab for Account 03E04E.)
In January 2012, Shipping Services was referred
to as one of Fink’s “must keep accounts.” (PX 137; PX
138.) As of March 5, 2012, it was second in revenue
for Fink only to Elliott Enterprises. (PX 568.) In
2012, Shipping Services’s volume began to decline.
(DX 511, row 181.) UPS noted that this decline related to regulatory issues. (Id.) For instance, a UPS
document noted, “Still considering [a] move out of NY
due to state issues.” (Id.) And that there were “changing rules for Native Americans.” (Id. row 179.) Additionally, at trial, Fink lacked credibility when he testified that he believed Shipping Services only shipped
little cigars. He provided no credible basis for this belief.

210a
On January 2, 2014, UPS conducted an audit of
five packages sent by Shipping Services. Three of the
five contained little cigars and two contained cigarettes; put otherwise, 40% contained cigarettes. UPS
terminated Shipping Services’s account on January
13, 2014. (See PX 360; PX 373; PX 363; PX 374.) At
the time it was terminated, Shipping Services still accounted for $80,000 in annual net revenue with UPS.
(PX 363; DX 250.)
Shortly after the Shipping Services account was
closed, on January 21, 2014, Fink opened an account
for Morningstar Crafts & Gifts. (Fink Decl., DX 602
¶ 138.) He did not indicate that this was a “new” opportunity. (PX 226.) It operated out of a storefront
located at 13113 Route 438, Gowanda, New York—the
same address as Shipping Services. (PX 226; Fink
Decl., DX 602 ¶ 138.) This was not only a red flag, but
indicative of knowledge by Fink that this entity was
Shipping Services, redux. A sign located in front of
the store featured “Discount Cigarettes” among its
wares. (PX 574.) However, the store also sold Native
American crafts, gifts, and little cigars. (Fink Decl.,
DX 602 ¶ 139; Logan Dep. Tr. 85:5.) Morningstar
Crafts & Gifts executed a Tobacco Agreement on January 27, 2014. (DX 262; DX 310; Fink Decl., DX 602
¶ 139.) By October 2014, Morningstar Crafts & Gifts
had been suspended by UPS. (See PX 226.)
In sum, the Court concludes that (1) from the inception of each account there was a reasonable basis
to believe that Seneca Ojibwas, Shipping Services,
and Morningstar Crafts & Gifts may have been tendering cigarettes; (2) Shipping Services and Morningstar Crafts & Gifts were in fact shipping cigarettes
throughout the entirety of their relationship with

211a
UPS; and (3) UPS knew Shipping Services was shipping cigarettes not later than November 1, 2010, and
it knew that Morningstar Crafts & Gifts was shipping
cigarettes from the date on which its account was
opened.75
The Court further finds that 40% is a reasonable
approximation of the percentage of packages shipped
by this group with UPS that contained cigarettes.76
5. Indian Smokes
Indian Smokes opened an account with UPS on
May 14, 2001. The company was located at 21 Race
Street, Salamanca, New York. As of October 27, 2005,
UPS considered Indian Smokes to be a suspected cigarette shipper. (See PX 299; see also Trial Tr. 304:1322 (Cook) (Indian Smokes identified as smoke shop in
December 20, 2005 UPS report); DX 35.) On November 23, 2005, UPS canceled its account. (See PX 318,
row 169.) Thereafter, the company did not ship with
UPS for several years. Following a sales lead from a
UPS driver, Louis Potter, UPS began discussing an
account with them in March 2011. (See DX 510.)

75

These three findings are based on the totality of the evidence.
The Court views November 1, 2010, as the date not later than
which UPS knew of its cigarette shipments because the increase
in volume closely followed on the effective date of the PACT Act.
At the very least, continuing to make pickups without auditing
is evidence of standing down on the account and of willful blindness.
76

This percentage is based on the Court’s consideration of data
points indicating that 25% of customer inquiries related to cigarettes, that the audit revealed that 40% of shipments were for
cigarettes, and that it operated out of a storefront that sold other
items, along with the totality of the evidence.

212a
On April 27, 2011, Indian Smokes opened a new
account. (PX 216.) There was no credible evidence
that UPS had any basis to believe this entity had
changed its business model between 2005 and 2011,
and it certainly had not changed its name. At the very
least, its prior business as a smoke shop (and suspected cigarette shipper) should have raised a red
flag. Indian Smokes was immediately a significant account for the area, generating over $55,000 in annualized revenue in the first year. (Id.) Fink oversaw the
account. He knew from the outset—and continuously
until May 2012, when Indian Smokes was terminated—that it shipped tobacco products. (See PX 301,
line 4; PX 306, line 11.)
A month after the account was opened, on May 6,
2011, it appeared on the NCL. (See PX 514; PX 518;
PX 524 (referencing date first “entered on NCL”); see
also DX 510.) However, evidence also supports that
Indian Smokes shipped some non-cigarette products.
For instance, tracers regarding lost or damages packages in January and April 2012 were for cigars only.
(DX 500.)
On January 11, 2013, the UPS Center processing
Indian Smokes packages determined that they were
shipping cigarettes and refused to process their packages. (See PX 172.) On the same day, Fink asked
Brian Weber of UPS, “shouldn’t smoke shops get removed from my plan?” (Id.) The Court views this
statement as acknowledgement by Fink and others
within UPS that smoke shops were generally known
to be likely cigarette shippers at risk of account termination. Here, however, in lieu of termination or other
action, UPS responded by only requiring Indian
Smokes to sign a Tobacco Agreement; it executed one

213a
on February 1, 2013, and service was restored. (DX
510, rows 6, 9.)
Despite the restoration of service, the volume of
shipments from Indian Smokes declined. On February 26, 2013, Fink asked McDowell, UPS’s “bid contract manager” for this account, whether Indian
Smokes was still using UPS to ship. (PX 162; PX 274,
row 689.) McDowell told Fink that Indian Smokes
was “concerned that we [UPS] are going to open all of
their packages.” (Id.) In fact, there is no evidence that
UPS tested Indian Smokes’s commitment to its Tobacco Policy. UPS’s McDowell must have understood
Indian Smokes’s concern with audits as some evidence
that it was shipping contraband. Fink asked whether
the account should be closed, and McDowell responded, “Not if it were up to me. At least, not yet
anyway.” (Id.) However, by April 18, 2013, McDowell
noted that Indian Smokes would not be using the account any longer. (DX 510, row 5.)
In May 2013, UPS canceled the account. (Id., row
3; PX 150.) On July 5, 2013, McDowell noted the “customer diverted due to a cigarette issue.” (DX 510, row
2.)
In sum, the evidence supports that (1) not later
than the time the account was opened on April 27,
2011, there was a reasonable basis to believe Indian
Smokes may have been tendering cigarettes for delivery; (2) it was in fact shipping cigarettes throughout
the entire period from account inception to termination (this is based on the fact that only a month
elapsed between the account opening and its appearance on the NCL); and (3) not later than May 6, 2011

214a
(when it appeared on the NCL), UPS knew that it was
shipping cigarettes.
The Court further finds that 50% represents a reasonable approximation of the percentages of packages
by Indian Smokes shipped with UPS that contained
cigarettes.77
6. Smokes & Spirits78
Smokes & Spirits opened an account with UPS in
late August 2010, shortly after implementation of the
PACT Act. (See PX 70.) It was located at a commercial address at 270 Rochester Street in Salamanca,
New York, on the Seneca Allegany reservation; UPS
also associated this entity with the address 6665
Route 417, Kill Buck, New York. (See id.; Cook Decl.,
DX 600 ¶ 97.) Fink was Smokes & Spirits’s Account
Executive; Fink testified that he knew Salamanca had
a number of tobacco shippers. (Trial Tr. 589:23590:15 (Fink); Fink Decl., DX 602 ¶¶ 31, 32; PX 326.)
Smokes & Spirits immediately began shipping in volume—with 1,300 packages to residential addresses in
the first month of its relationship with UPS. (PX 433.)

77

The finding of 50% is based on the fact that Indian Smokes
was listed on the NCL as a cigarette shipper, and the Court
therefore credits that they were shipping cigarettes; this is also
confirmed by the driver report on January 11, 2013. However,
DX 500 and other evidence supports that Indian Smokes might
have had a broader product line. In the absence of precise evidence, the Court uses 50% as a conservative view of an even split
between cigarette and non-cigarette products.
78

Smokes & Spirits is part of the “Smokes & Spirits Group”
designated by plaintiffs as including this entity along with Native Outlet, A.J.’s Cigars, Sweet Seneca Smokes, and RJESS.

215a
These facts alone should have raised red flags. On October 11, 2010, it executed a Tobacco Agreement. (DX
55.)
On November 10, 2010, Fink received a copy of the
Tobacco Watchdog Group letter, which indicated that
Smokes & Spirits, located at 270 Rochester Street,
Salamanca, New York, was making “illegal contraband cigarette shipments to residential consumers.”
(DX 62.) This was another, major red flag.
According to Fink, there were a number of reasons
he did not view Smokes & Spirits as a cigarette shipper. First, Bob Oldro, the principal of Smokes & Spirits, informed Fink that Oldro was moving to New York
from another state to take advantage of the growth in
New York’s little cigar market by opening up a new
business to ship little cigars. (Fink Decl., DX 602 ¶ 37;
Trial Tr. 626:23-627:4 (Fink).) Fink’s notes following
an in-person visit with the Smokes & Spirits on March
4, 2011, indicated that the customer had expressed a
concern regarding proposed changes to the New York
tax law regarding little cigars. (DX 526, line 3257; DX
47; DX 553.) Fink further testified that over the life
of the account, Oldro or his colleagues continued to assure Fink that the business was only shipping cigars
or other tobacco products, not cigarettes. (Fink Decl.,
DX 602 ¶¶ 32, 36; DX 55.) The Court did not believe
Fink’s testimony—at the very least, if those statements were made by Oldro and others, the Court does
not believe Fink believed them. In all events, given
the numerous red flags, it was unreasonable for Fink
to have relied on these self-serving statements.
The red flags accumulated further. In the fall of
2010, UPS received its first inquiries regarding lost or

216a
damaged packages containing cigarettes shipped by
Smokes & Spirits. The first tracer regarding packages
containing cigarettes occurred on October 29, 2010.
(DX 500, row 8; see also PX 470, row 2865.) A second
tracer concerning a cigarette shipment occurred on
December 27, 2010; a third on December 27, 2011; a
fourth on September 14, 2012; and a fifth on September 17, 2013. (DX 500, rows 13, 38, 55, 84.) Nineteen
other tracers related to packaging containing filtered
cigars and other tobacco products. (DX 500, Package
Details Tab for Account W9476E.)
Smokes & Spirits, with an address listed as 6665
Route 417, Kill Buck, New York, appeared on the NCL
as of February 15, 2012. “Smokes_Spirits.com LCC,”
at that same address, appeared on the NCL as of July
16, 2012. (See PX 514; PX 518; PX 524.)79 On July 29,
2013, the subpoena UPS received from City Finance
specifically identified the address “6665 Route 417,
Kill Buck, NY.” (PX 248.) Kill Buck also is less than
two miles from Salamanca, New York. Still, UPS did
not audit the company.
In June 2012, the First Deputy Sheriff of City Finance made several controlled buys of packages containing cigarettes from Smokes & Spirits. (Kokeas
Aff. ¶ 9; PX 40; PX 43; PX 44; PX 45.) In addition, on
July 29, 2013, City Finance issued a subpoena to UPS
that sought delivery records of a number of shippers,

79

As the Court has found, UPS knew that UPS knew Smokes
& Spirits was operating out of multiple locations, including 6665
Route 417, Kill Buck, New York. Among other evidence, UPS’s
records for Smokes & Spirits shipments in 2011 listed this address. (See PX 70.) This is relevant for UPS’s PACT Act liability,
as discussed by the Court in its conclusions of law.

217a
including Smokes & Spirits.
428.)

(Kokeas Aff. ¶ 6; PX

In the fall of 2013, UPS’s Cook received a copy of
the NCL; he noticed that Smokes & Spirits was listed.
Notably, he did not immediately require an audit. On
December 20, 2013, the City sent an email to UPS
that, inter alia, identified Smokes & Spirits as a cigarette shipper. On January 2, 2014, Cook finally ordered an audit; for reasons that were unclear, this audit was still not conducted for another three weeks.
On January 21, 2014, UPS audited a total of fifteen
packages; nine of these packages—i.e., 60%—contained cigarettes. (Cook Decl., DX 600 ¶ 97; DX 257;
Fink Decl., DX 602 ¶ 39.) UPS terminated service to
Smokes & Spirits on January 22, 2014. (Cook Decl.,
DX 600 Attachment A; Fink Decl., DX 602 ¶ 40; DX
260; DX 256.)
Bergal Mitchell, who had been a consultant for
Smokes & Spirits, testified at trial. The Court found
him generally credible. He testified that Smokes &
Spirits shipped cigarettes since before he and his
brother purchased the business in August 2004.
(Trial Tr. 1190:23-1191:-16 (Mitchell).) He also testified that they shipped candy, flowers, and other tobacco products in addition to cigarettes. (Id. 1191:616 (Mitchell).) From 2010 onward, Mitchell testified,
99% of all of Smokes & Spirits’s orders were placed
online. (Id. 1196:1-6 (Mitchell).)
Plaintiffs introduced a number of invoices from
Smokes & Spirits to its customers. While those invoices reflect cigarette shipments, those invoices also
demonstrate that a significant volume of Smokes &

218a
Spirits’s sales consisted of little cigars and other tobacco products. (See, e.g., PX 54; PX 55; PX 191; DX
500.) These same invoices further show that sales of
little cigars were particularly prevalent when the account was first opened. (Id.)
In sum, the Court finds that (1) not later than October 11, 2010, the date on which UPS had it sign a
Tobacco Agreement and when a number of red flags
were already evident, there was a reasonable basis to
believe Smokes & Spirits may have been tendering
cigarettes; (2) from at least October 29, 2010 (the date
of the first cigarette tracer), Smokes & Spirits was in
fact shipping cigarettes; and (3) UPS knew it was
shipping cigarettes not later than October 29, 2010,
the date of the first cigarette tracer.
The Court further finds that 60% is a reasonable
approximation of the percentage of Smokes & Spirits
shipments via UPS that contained cigarettes.80

80

The Court’s finding of 60% is based on the totality of the evidence, considering in particular the fact that Smokes & Spirits
operated from a commercial address and sold an array of goods,
and the Court’s weighing of invoices and tracer evidence. Further, the audit likely reflected the approximate portion of this
entity’s business involving cigarettes.

219a
7. Arrowhawk/Seneca Cigars/Hillview Cigars/Two Pine Enterprises81
Plaintiffs refer to the Arrowhawk Smoke Shop,
Seneca Cigars/Cigarettes, Hillview Cigars, and Two
Pine Enterprises as the “Arrowhawk” group. The evidence supports that they functioned as a single entity
and were alter egos of one another. Philip Christ, a
former consultant for the Arrowhawk Group, testified
as much.82 UPS treated the accounts as related. The
UPS processing system showed all of the accounts
were related; UPS Account Executive Richard
DelBello acknowledged the connection between

81

In certain submissions, an entity referred to as “Native Gifts”
is included in this group. The evidence is insufficient to determine if plaintiffs intended to include them in this group or not.
For instance, apart from including them in their damage analysis as one group, plaintiffs’ final proposed findings of fact keep
them separate. The Court finds there is insufficient evidence
with respect to Native Gifts to find liability or even discuss them
as a Relevant Shipper.
82

Philip Christ, a witness cooperating with the plaintiffs,
worked for the Arrowhawk Group of companies throughout the
relevant time period. He testified credibly (and there was no significant contrary evidence offered by UPS) that the group of companies that plaintiffs have designated as the “Arrowhawk” group
did in fact operate as a single entity. The Court found portions of
Christ’s testimony not credible. His demeanor conveyed a lack of
full mental acuity. His answers were often halting, as if he was
either searching for the correct answer or confused. (Indeed, the
Court raised with counsel whether he was on any medications
that could account for his presentation). Nevertheless, upon careful reflection and after assuring itself other corroborating evidence exists for many points covered in his testimony, the Court
finds that there are a number of facts as to which he testified
credibly, as set forth below.

220a
Hillview and Two Pine Cigars. (PX 340.) These entities had the same address: 852 Bloomingdale Road,
Basom, New York. (See PX 232; PX 95; PX 340; DX
234; PX 154; PX 344; Trial Declaration of Richard
DelBello (“DelBello Decl.”), DX 604 ¶¶ 19-21, 31, 45.)
That same address had previously been used by an entity named “Hootysapperticker.com.” Hootysapperticker had been a UPS shipper and, at the time UPS
entered into the AOD, UPS believed it might be a cigarette shipper.83 (DX 35 at 109.) Despite this evidence
of these entities being one and the same, the Court
has considered the facts as to liability separately for
each. Its findings below reflect this individualized
consideration.
The first account for this group was opened under
the name Seneca Cigars on January 9, 2012. It was
located at 852 Bloomingdale Road, Basom, New
York—along with each of the other Arrowhawk Group
shippers (except for Native Gifts). Accounts for the
other entities in the group were opened thereafter.
UPS had a daily pickup at 852 Bloomingdale
Road. DelBello, the UPS Account Executive for Arrowhawk Smoke Shop, Seneca Cigarettes/Cigars,
Hillview Cigars, and Two Pine Enterprises, knew
there were three accounts located at this address.84
(DelBello Decl., DX 604 ¶¶ 18, 20.) Given the signage
at the address, it was impossible for him (or any other
83

In addition, Hootysapperticker had been identified by UPS’s
outside counsel as a suspected cigarette shipper. (See PX 292.)
The Court credits Christ’s testimony that it was in fact a cigarette shipper. (Trial Tr. 915:8-12, 921:18-21, 947:22-948:3
(Christ).)
84

Ryan Keith of UPS was listed as part of the UPS team along
with Richard DelBello. (PX 95.)

221a
driver picking up from that account) not to know that
there was a significant cigarette seller located at that
address. Christ was the primary contact for these accounts. DelBello testified that he knew Christ had “a
lot” of businesses that shipped cigarettes. (Trial Tr.
901:14-18 (DelBello).) Christ had expressed to one
UPS account representative that he was interested in
shipping cigarettes. (Id. 843:15-17, 844:8-11, 848:24849:11, 851:1-6 (DelBello).)
UPS knew that “Seneca Cigars and Hillview Cigars” used the URL “www.senecacigarettes.com.” (PX
95; Trial Tr. 737:22-738:5 (Keith).) The UPS “Account
Strategy Planning Tool” for this account noted that
the customer intended to ship tobacco products to residential customers and that one of its business challenges was “complete compliance with all applicable
state and federal mandates.” (PX 95.)
Almost immediately after the account was
opened, in February 2012, UPS received its first indication that Seneca Cigars was actively seeking to ship
cigarettes. On March 9, 2012, DelBello and Christ
met in person. (Trial Tr. 839:1523 (DelBello); DX
128.) According to DelBello, Christ and two other people involved with the company assured him that Seneca Cigars would be shipping cigars. (Trial Tr. 837:23838:14 (DelBello).) Christ claims, to the contrary, that
during the two years in which Christ worked for Seneca Cigars/Arrowhawk, he specifically informed UPS
that they would be shipping cigarettes when the account was opened and in later conversations. (Id.
946:25-952:3 (Christ).) Christ also testified that 99%
of its walk-in sales and 99.5% of its mail-order sales
were of cigarettes. (Id. 914:4-915:2 (Christ).) Follow-

222a
ing the effective date of the PACT Act, volumes increased many fold. (See PXs 67, 70, 80, 220, 221, 222,
227, 413, 420, 422, 433, 435, 436.) UPS notes from
July 2012 indicated that “100% of outbound shipments [for the accounts] go via UPS.” (PX 95.) UPS
representatives also understood that the Arrowhawk
group were high-volume shippers. (See, e.g., PX 491.)
At various times, Christ attempted to mislead
UPS as to what these entities were in fact shipping.
For instance, he told Keith that they were shipping
cigars. (Trial Declaration of Ryan Keith (“Keith
Decl.”), DX 603 ¶ 26.) The Court does not find UPS
believed him; instead, UPS viewed Keith as understanding these statements to provide UPS with “plausible deniability” of violations when Keith in fact believed otherwise.
Keith also had several telephone conversations
with Christ, beginning in January 2013, about Seneca
Cigars and Hillview Cigars. According to Keith, during these conversations, Christ discussed his interest
in complying with regulations and laws. (Trial Tr.
765:21-766:3 (Keith).) In October 2013, Keith’s contemporaneous notes in his UPS TEAMS report states
that Christ had told him that “everything he ships is
considered a cigar,” that his only question was a product called Swisher Sweets, and that he would check
with his lawyer on the legality to ship that product.
(Trial Tr. 789:13-790:4 (Keith); DX 511, line 289 at
UPS00000189.) Shining through Keith’s testimony
are his continued skepticism and his concern that
these entities were in fact shipping cigarettes.

223a
Vincent Guarino was the assigned UPS driver for
these accounts. He made daily pickups for these entities; he must have seen the signage on the front of 852
Bloomingdale Road. Guarino testified that when he
picked up packages from the Seneca Cigars and Arrowhawk/Hillview Cigars/Two Pine location, he could
not always see inside the warehouse. (Trial Tr.
1345:14-22 (Guarino).) However, on one occasion,
Guarino observed Christ taping up a box that appeared to have cartons inside. (Id. 1348:1-3 (Guarino).) Guarino asked Christ what he was shipping;
Christ told him that he was shipping little cigars. (Id.
1348:4-6, 1348:24-1349:16 (Guarino).)
Guarino
checked with his supervisor to make sure that little
cigars were permitted to be shipped, and he was told
that little cigars were permitted. (Id. 1351:15-25
(Guarino).) Neither Guarino nor his supervisor
should have accepted this self-serving statement from
an obvious tobacco shop. They should have requested
an audit.
While negotiating the pricing for Seneca Cigars
and Hillview Cigars in June 2013, Christ informed
Keith that the owners of the companies were planning
to purchase a new company, which had been shipping
with a competing carrier but would move its business
to UPS. (Keith Decl., DX 603 ¶ 31; DX 511, line 266
at UPS00000187.) This was Two Pine Enterprises. It
opened an account with UPS on July 9, 2013. Both
DelBello and Keith testified that customers told them
that Two Pine, as an affiliate of the other shippers,
was also not shipping cigarettes, but only cigars or
other tobacco products. (DelBello Decl., DX 604 ¶ 42;

224a
Keith Decl., DX 603 ¶¶ 54, 56.) Given the accumulated red flags, UPS should not have accepted this
self-serving statement without an audit.
In June 2012, Sheriff Kokeas made controlled
buys of packages containing cigarettes from Seneca
Cigars. (Kokeas Aff. ¶ 9; PX 40.) She did this because
she had received an email from them advertising untaxed cigarettes shipped via UPS. (PX 592.) On July
29, 2013, City Finance served a subpoena on UPS
seeking delivery records for a number of shippers, including Seneca Cigars. (Kokeas Aff. ¶ 6; PX 248.)
Guarino was also the assigned driver for Two Pine Enterprises. While Two Pines Enterprises shared the
same account address with Seneca/Hillview, it
shipped from a different location. (See Trial Declaration of Vincent Guarino (“Guarino Decl.”), DX 607
¶ 14.) In March 2014, UPS learned that Two Pine Enterprises was dropping packages at a location that
was not its regular pickup location. When DelBello
asked Dolores Uebelhoer, the owner of Two Pine Enterprises, why this was occurring, she responded that
it was due to the time of UPS’s daily pick-up for the
account. (DX 529.) DelBello noted that he did not believe Uebelhoer’s explanation. However, he testified
at trial that he had no suspicion that Two Pine Enterprises might be shipping cigarettes; instead, he believed that Uebelhoer may have been dropping the
packages at the UPS Store as a matter of convenience.85 (Trial Tr. 882:18-883:18 (DelBello); DX 529.)
85

Two emails from DelBello refer to Christ and Uebelhoer as
“liars.” Both of these emails are dated after the April 17, 2014
audit of Two Pine Enterprises; DX 335 is dated June 26, 2014,
and PX 336 is dated April 23, 2014. DelBello testified that after

225a
DelBello informed Uebelhoer that she had to resume
pick-up service for her account. (DelBello Decl., DX
604 ¶ 37.) The Court finds that DelBello strongly suspected the truth—that Two Pines was shipping cigarettes—but he turned a blind eye. Given the accumulated red flags, UPS acted affirmatively by not requiring an audit and “standing down” on this account.
Finally, on April 15, 2014, the game was up: A
clerk in a UPS Center in Philadelphia reported that a
package from Two Pine Enterprises had broken open
on a conveyor belt, revealing cigarettes. Corporate
Dangerous Goods requested an audit of Two Pine Enterprises, which took place two days later, on April 17,
2014. The audit revealed cigarettes, and UPS terminated the account. (Cook Decl., DX 600 ¶¶ 116-17;
DelBello Decl., DX 604 ¶¶ 38-40; Guarino Decl., DX
607 ¶ 21; DX 299; DX 528.)
Despite the fact that some of the Arrowhawk entities had names suggesting a focus on tobacco products (e.g., Seneca Cigars, Hillview Cigars, Arrowhawk
Smoke Shop (or Cigars)), UPS did not have a Tobacco
Agreement with any of these entities until September
2013. (See DX 210.) UPS had Twin Pines sign an
agreement only after plaintiffs sent UPS a draft complaint on October 21, 2013. (DX 234.) When Seneca
Cigars and Hillview Cigars sent UPS a Tobacco
Agreement, it was from “seneca cigarette” with the
email address “senecacigarette@gmail.com.” (Id.)

the audit revealed cigarettes, he realized that Christ and
Uebelhoer had lied to him about shipping cigars, but he maintained that prior to the audit he had no reason to believe that
they were lying about shipping cigars. (Trial Tr. 860:25-861:11,
887:20-889:10 (DelBello).)

226a
In sum, the Court finds that (1) from the date the
first account was opened at 852 Bloomingdale Road,
January 9, 2012, and for each day and with regard to
each of these entities thereafter, there was a reasonable basis to believe each of Arrowhawk, Seneca Cigars/Cigarettes, Hillview Cigars, and Two Pine Enterprises may have been tendering cigarettes; (2) the
companies were in fact shipping cigarettes from that
date or the date of the specific account opening onwards; and (3) UPS knew that Arrowhawk Smoke
Shop, Seneca Cigars/Cigarettes, and Hillview Cigars
were shipping cigarettes not later than March 9, 2012,
when DelBello met with Christ and was told they
would be shipping cigarettes. Given the accumulated
circumstantial evidence, UPS knew that Two Pine Enterprises was shipping cigarettes from the inception
of its account on July 9, 2013.
Finally, the Court finds 90% to be a reasonable approximation of how much of each of the separate entities’ shipments contained cigarettes.86
8. Mohawk Spring Water
Robert Oliver opened an account with UPS on November 1, 2010, at 263 Frogtown Road, Hogansburg,
New York, on the St. Regis Mohawk Reservation. (PX
281, row 72; PX 329.) This was shortly after the passage of the PACT Act. In the first month the account

86

The Court’s finding of 90% is based on the totality of the evidence and on its weighing of Christ’s testimony that these entities shipped almost exclusively cigarettes with the fact that,
based on the testimony regarding other tobacco products, they
sold other products, as well.

227a
was opened, UPS picked up 569 packages. (PX 281,
sheet 2, row 2.)
Oliver testified credibly at trial that when the account was opened, he personally told Carmine Della
Serra, the UPS sales support representative, “you
know, some of these boxes will contain cigarettes.”
(Trial Tr. 1131:2-9 (Oliver).) In response, Della Serra
threw up his hands and said, “I don’t want to hear
that,” and proceeded to open the account. (Id. 1131:29 (Oliver).) The Court credits Oliver’s testimony in
that regard. Oliver testified at trial that Mohawk
Spring Water manufactured cigarettes on the Akwesasne Reservation between June 2010 and mid-October 2011. (PX 49; Oliver Trial Tr. 1128:9-11.) Mohawk Spring Water did not manufacture little cigars.
Oliver testified that UPS driver Donald Jarvis
made pickups from this account. (Trial Tr. 1134:211135:1 (Oliver).) On one occasion, when Jarvis was
picking up packages from Mohawk Spring Water, Oliver saw boxes of cigarettes inside UPS’s vehicle, including “Chiefs,” and “222s.” (Id. 1141:22-1142:22 (Oliver).)
During the period in which its account with UPS
was active, Mohawk Spring Water made “scores” of
shipments of cigarettes in lots of 10,000. (PX 49
¶ 6(b).) In total, this entity shipped at least 2,556
cases of cigarettes, totaling 76,680 cartons (each case
consisting of 30 cartons). (PX 49 ¶ 6(c) and (d).) Oliver also testified that the cigarettes were unstamped.
(Trial Tr. 1132:5-1134:20 (Oliver).)
At his deposition, Jarvis testified that he knew
that Mohawk Spring Water had been shipping cheap
cigarettes to Long Island (most of which were being

228a
shipped to another Indian reservation there). (Jarvis
Dep. Tr. 54:18-55:12, 56:711.). On multiple occasions,
packages that Mohawk was shipping broke open at
the UPS Potsdam Center and Jarvis saw that they
contained cigarettes. (Id. 70:3-20.)
In the fall of 2010, another UPS driver, Candace
Sheridan, also concluded that Mohawk Spring Water
was shipping cigarettes.
(Sheridan Dep. Tr.
66:2168:3.) This caused Sheridan to inform her supervisor, Terry Foster, that she no longer wanted to make
pickups from Mohawk Spring Water. (Id. 39:5-40:1.)
Sheridan also informed her union representative
about the pickups at Mohawk Spring Water and said
she would not pick up untaxed cigarettes. (Id. 42:244:1.) The union representative reported back that
UPS employees at the highest levels of the Potsdam
Center (Roger Bousquet) instructed that drivers were
to continue making pickups. (Id. 43:19-44:1.) As a result, Sheridan continued to make pickups. (Id. 46:147:3, 49:12-24, 68:14-25.) Sheridan testified, “[t]he
more I covered the routes, you know, the more suspicious I became, the more questions I started to ask.”
(Id. 67:18-19.) And, “[t]he more I covered the area, the
more I didn’t want to.” (Id. 58:8-9; see also id. 39:540:1.)87
As discussed in detail in other sections of this
Opinion, on April 26, 2011, UPS’s Potsdam facility supervisor, Steve Talbot, indicated to a UPS Account Executive that there was a potential issue with pickups
of cigarettes. (DX 74.) Shortly thereafter, Talbot
87

The Court finds Sheridan’s testimony supports the obvious
red flags other drivers would have seen with regard to other accounts, as well.

229a
called UPS security employee James Terranova. (DX
389.) As discussed above, Terranova told Talbot that
his State Police contact in Syracuse told UPS to keep
picking up cigarettes. (DX 389.) Talbot relayed this
information to his drivers but otherwise did not make
a record of the calls(s). (DX 389; Trial Tr. 1268:16-20
(Talbot).) On June 22, 2011, the DTF Chief Investigator, John Connolly, visited the Potsdam Center to discuss the possibility of shipments from the Mohawk
Reservation. (DX 389.) Connolly made arrangements
for a seizure of cigarette shipments. (Id.) On June 28,
2011, UPS closed the account. (PX 330.)
In sum, the Court finds that (1) there was a reasonable basis to believe Mohawk Spring Water may
have been tendering cigarettes the day the account
was opened on November 1, 2010;88 (2) Mohawk
Spring Water was in fact shipping cigarettes from the
inception of the account on November 1, 2010, until
the account was closed on June 28, 2011 (based on the
same facts); and (3) UPS knew that Mohawk Spring
Water was shipping cigarettes throughout the entire
period (based on the same facts).
The Court further finds that 90% is a reasonable
approximation of the percentage of packages that contained cigarettes.89

88

This date is based on the red flags along with the Court’s
crediting Oliver’s testimony that he informed UPS of package
contents.
89

The Court’s finding of 90% is based on the testimony discussed above, but also takes into consideration that, based on
this testimony, this entity shipped other products as well.

230a
9. Jacobs Tobacco Group
Rosalie Jacobs was the owner of Jacobs Manufacturing/Tobacco. She testified live at trial and the
Court found her to be a highly credible witness. She
testified that her entire business consisted of the shipment of unstamped cigarettes to other Indian reservations.90 Jacobs further testified that the majority of
her shipments were by the case and that cases included fifty cartons, which amount to 10,000 cigarettes. (Trial Tr. 1680:20-22 (Jacobs).) The account
was opened on July 26, 2006, and the number of packages shipped by Jacobs Manufacturing/Tobacco increased significantly in June and July 2010, the same
timeframe as the June 29, 2010, effective date of the
PACT Act. (PX 281; PX 410; PX 434.)
By the end of 2010, UPS had picked up more than
2,200 packages from Jacobs Tobacco. The UPS driver
assigned to the account was Donald Jarvis. Jacobs
testified that her warehouse contained “piles” of cigarette inventory. (Trial Tr. 1662:7-18 (Jacobs).) Jarvis
confirmed that when he made pickups at Jacobs Manufacturing/Tobacco he saw pallets of cigarettes. (Jarvis Dep. Tr. 55:1-6.) In addition, another UPS driver,
Candace Sheridan, testified that she also made
pickups for this account and saw packages from Jacobs on the conveyor belt at the UPS Potsdam Center
and that she knew the packages contained cigarettes
because of the smell and because they were “picked up
by cigarette factories.” (See PX 410, row 6223; Sheridan Dep. Tr. 50:20-52:6.)

90

Jacobs testified further that her company did not engage in
sales of any type of cigar.

231a
In addition, in February 2011, customer inquiries
regarding lost or damaged packages shipped by Jacobs Tobacco indicated cigarettes, including “Canton,
Nation’s Best American Full, 100 Softpk/EA” and “Nation’s Best Full Flavor Cigarettes.” (PX 468, rows 3840.) In June 2011, the ATF seized a number of such
cases of cigarettes. (DX 89.)
In sum, the Court finds that (1) there was a reasonable basis to believe Jacobs Manufacturing/Tobacco may have been tendering cigarettes from the inception of its account until it was terminated on June
22, 2011; 91 (2) based on Jacobs’s testimony, her company was in fact shipping cigarettes throughout this
period; and (3) based on Jarvis’s and Sheridan’s testimony, UPS knew this. The Court further finds that,
based on the uncontroverted evidence, 100% of all Jacobs Manufacturing/Tobacco shipments were cigarettes from the UPS Potsdam Center. (DX 389.) 92
10. Action Race Parts
UPS opened an account for Action Race Parts on
May 11, 2009. (PX 281.) It was located at 1552 State
Road 37, Hogansburg, New York. UPS began regular
pickups for this account in February 2011. (PX 75.)
Between February and June 2011, Action Race
Parts shipped 2,368 packages with UPS. (PX 281.)
Most of these packages were addressed to smoke
91

As discussed above, the term “Individual Consumer” as used
in the AOD encompasses the unauthorized commercial entities
to whom Jacobs shipped cigarettes.
92

This finding is based on the totality of the evidence, including
the fact that the evidence regarding shipments was exclusively
as to shipments of cigarettes.

232a
shops, including Rez Smoke Shop and Poospatuck
Smoke Shop. (PX 75.) Three UPS drivers primary
shared responsibility for the account: Donald Jarvis,
Amanda Donaldson, and Gregory Labtake.93 (PX 590.)
These drivers had to have known that Action Race
Parts was shipping primarily to smoke shops. These
facts alone should have raised red flags.
On June 22, 2011, DTF Investigator Connolly visited the Potsdam Cacility, which processed the Action
Race Parts packages. Connolly inquired about accounts located on reservations. UPS’s Steve Talbot
identified four accounts: Mohawk Spring Water, Jacobs Manufacturing/Tobacco, Tarbell/Mohawk Distribution, and Action Race Parts. (See DX 389.) Packages that were picked up from Action Race Parts were
opened and revealed cigarettes; those packages were
seized. (See DX 389.) On June 28, 2011, UPS told
Action Race Parts that it would no longer accept its
packages. (PX 331.)
In sum, the Court finds (1) that not later than February 1, 2011, there was a reasonable basis to believe
Action Race Parts may have been tendering cigarettes;94 (2) that it was in fact shipping cigarettes from
February 2011 to the termination of its accounts
(based on the same facts as well as confirmed through
the audit); and (3) that UPS knew that (based on the
fact that UPS drivers saw sufficient red flags that
they would have had to turn a blind eye to the truth).
93

Among Action Race Parts’s cigarette brands was “Chicos,” located in Donald Jarvis’s UPS vehicle.
94

This date is based on the volume of shipments from the location addressed to smoke shops.

233a
The Court further finds that 100% is a reasonable
approximation of the percentage of its packages that
contained cigarettes.95
11. Native Wholesale Supply
In 2002, UPS opened an account for Native Wholesale Supply, located at 11037 Old Logan Road, Perrysburg, New York on the Seneca Cattaraugus reservation. This was a residential address. On or about
April 4, 2007, UPS Operations Supervisor for UPS
Supply Chain Solutions in Catoosa, Oklahoma, asked
its customer Native Wholesale Supply whether it
wished to authorize destruction of the company’s “cigarettes in the Catoosa Warehouse.” (DX 41 at
UPS92311-12.) Native Wholesale Supply agreed (the
destroyed inventory consisted of “156 cases of Opals
[cigarettes] and 412 cases of cigars”).
(Id. at
UPS92358, UPS92360-61.)
Fink was Native Wholesale Supply’s Account Executive. Native Wholesale Supply was Fink’s fifthhighest revenue-generating account in 2011, generating $215,382 in net revenue for UPS that year. (PX
104, line 7.) On or about October 17, 2012, UPS closed
the Native Wholesale Supply account numbered
RA0610 due to a “bankruptcy issue.” (Fink Decl., DX
602 ¶ 79.) Fink then opened another account for Native Wholesale Supply under the number A590X8.
(Id. ¶ 79.)
On April 18, 2013, UPS picked up pallets that
were to be delivered to HCI Distribution; HCI (located
95

This finding is based on the totality of the evidence, including
the fact that the evidence regarding shipments was exclusively
as to shipments of cigarettes.

234a
in Nebraska) was one of the largest tribal cigarette
and tobacco distributors. (See PX 425, line 4; PX 182.)
The payment for these shipments was made by Seneca
Promotions (another relevant shipper, discussed below). (PX 425, line 4.) On October 2, 2013, Cook directed certain employees not to deal with HCI. (PX
182.) Cook further directed such account managers to
“stay clear of any and all businesses associated with”
HCI Distribution. (Id.) Despite this instruction, on
October 31, 2014, UPS picked up another large shipment (weighing 540 pounds) for this account, again
paid for by Seneca Promotions. (PX 425, row 7.)
On October 16, 2015, a UPS Regulated Goods Coordinator, Matthew Szelagowski, contacted Fink
about an attempted audit for this account. (PX 467.)
Szelagowski stated UPS was looking for “cigarettes
going to consumers” and considered this account
(along with Seneca Promotions) to be “Potential High
Risk.” (Id.)
Fink told Szelagowski that Native Wholesale Supply shipped advertising material. (DX 381.) When
Fink’s area Sales Manager, Michael Zelasko, asked
Fink whether he had “advised” Szelagowski, Fink responded “of course.” Zelasko in turn responded,
“[n]ever a doubt!” (PX 467.) UPS did not audit Native
Wholesale Supply. (See Cook Decl., DX 600 ¶ 139.)
In sum, the Court finds that (1) from April 4, 2007,
there was a reasonable basis to believe Native Wholesale Supply may have been tendering cigarettes;96 (2)
96

The Court’s finding as to this date is based on the communication from UPS to Native Wholesale Supply asking whether it
wished to authorize destruction of the company’s “cigarettes in

235a
in light of the absence of information that it had altered its business model since 2007, the Court also
finds that it was in fact tendering cigarettes throughout this period; (3) the Court further finds that given
its prior business model, high-volume shipments, and
shipments to HCI on April 18, 2013, not later than
April 18, 2013, UPS knew it was shipping cigarettes.
The Court finds that 27% is a reasonable approximation of the percentage of Native Wholesale Supply’s
packages that contained cigarettes.97
12. Seneca Promotions
UPS opened an account for Seneca Promotions on
May 31, 2013. (See PX 553.) The account was located
at 10955 Logan Road, Perrysburg, New York, on the
Seneca Cattaraugus reservation. (Fink Decl., DX 602
¶ 80.) While Seneca Promotions has a corporate address at 464 Franklin Street, Buffalo, New York,
UPS’s pickups were from the residential address located in Perrysburg. (Id.) Seneca Promotions remains a UPS account.
The location for Seneca Promotions is the same as
that for Native Wholesale Supply (11037 Old Logan
Road and 10955 Logan Road are geographically the
same). (Logan Dep. Tr. 103:16-108:3; PX 400.) The
account contacts were also the same for both accounts.
the Catoosa Warehouse.” Native Wholesale Supply acknowledged (and then destroyed) the cigarettes in the warehouse.
97

This finding is based on the totality of the evidence, including
that 156 of the 568 cases (or 27%) in Native Wholesale Supply’s
inventory at the Catoosa Warehouse consisted of cases of cigarettes. In addition, as the Court has noted, there is no evidence
that Native Wholesale Supply altered its business model subsequent to 2007.

236a
(Fink Decl., DX 602 ¶ 81.) Even Fink conceded that
he believed there was some affiliation. (Id.)
Seneca Promotions paid for certain of Native
Wholesale Supply’s shipments, including the April 18,
2013 shipment of pallets to HCI, one of the largest
tribal cigarette and tobacco distributors. According to
Cook, Seneca Promotions was, itself, a low-volume
shipper. However, between July 2013 and October
2014, it used UPS to ship over 12,800 pounds of
freight to entities such as “Blue Ridge Tobacco Co.,”
“Tobaccoville,” “Tobacco Town,” “Arrowhead Tobacco,”
and HCI Distribution. (PX 424.) Seneca Promotions
also used UPS to ship over 30,000 pounds of freight
between September 2013 and February 2015 (under
the name “ERW Enterprises,” to companies identified
as “Tobaccoville,” “Seneca Direct,” and “Tobacco
Town”). (PX 546.) UPS in fact shipped packages from
Seneca Promotion to HCI Distribution—ten months
after Cook had instructed UPS personnel to “stay
clear of any and all businesses associated” with “tobacco shipper” HCI Distribution. (PX 182.)
In sum, the Court finds (1) that from the inception
of the account on May 21, 2013, there was a reasonable basis to believe Seneca Promotions may have been
tendering cigarettes;98 but (2) the circumstantial evidence supports that they were shipping cigarettes
from May 31, 2013 (based on the same evidence) and

98

The Court’s finding as to this date is based on the totality of
the evidence, including the fact that Seneca Promotions was
known to have already paid for a shipment of pallets for Native
Outlet to HCI, a known cigarette shipper, and that the two companies shared the same address.

237a
thus UPS’s knowledge thereof (based on the same evidence); and (3) that UPS’s failure to audit them
evinces an affirmative act of conscious avoidance and
demonstrates knowledge.
The Court finds that 27% is a reasonable approximation of the percentage of Seneca Promotions’s packages that contained cigarettes.99
C. Shippers as to Which There Is Only AOD Liability
As the Court previewed above, there are certain
entities as to which the Court finds that there is sufficient evidence to support a finding that there was a
reasonable basis to believe the account may have been
tendering cigarettes— triggering an audit obligation—but insufficient evidence to indicate whether
they were in fact shipping cigarettes and/or that UPS
knew that.
1. Native Outlet
UPS opened an account for Native Outlet on October 18, 2010, not long after the implementation of
99

This finding is based on the totality of the evidence, including
that Seneca Promotions paid for certain of Native Wholesale
Supply’s shipments; operated at the same location as Native
Wholesale Supply; and had the same account contacts as Native
Wholesale Supply. In short, the evidence supports that Seneca
Promotions had a principal/agent relationship with Native
Wholesale Supply and acted in concert with Native Wholesale
Supply. Based on the facts described and this relationship between the entities, the Court’s finding that approximately 27%
of Native Wholesale Supply’s packages contained cigarettes also
appropriately approximates the percentage of Seneca Promotion’s packages that contained cigarettes.

238a
the PACT Act.100 It was located at 11157 Lakeshore
Road, Irving, New York, and also used an address at
1525 Cayuga Road, Irving, New York, both on the
Seneca Allegany reservation. (Fink Decl., DX 602
¶ 129.) The 1525 Cayuga Road address was associated with Pierce Trading Company and “SenecaDirect.com,” a known cigarette shipper. (See PX 174,
row 659.) The contact person for the account was John
Waterman. (PX 86, row 2183.) Its operations were
housed in a large commercial warehouse. (DX 490;
Fink Decl., DX 602 ¶ 129.)
Fink was also Native Outlet’s Account Executive.
In 2011, Native Outlet generated over $190,000 in net
revenue and was Fink’s eighth-largest account. (PX
104, row 10.) In 2012, account revenue remained
strong at $148,593. (PX 102, row 14.) Native Outlet
was a high-grossing, “must keep” account. (See PX
104, row 10; PX 137; PX 138, row 3; PX 168; PX 169,
row 30.) The fact that this was a high-volume shipper,
on an Indian reservation known to be high risk, that
acquired significant business shortly after the effective date of the PACT Act, provided sufficient red flags
to have triggered an audit obligation. But there was
more.
Fink testified that when the account was opened,
he was told that Native Outlet intended to ship cigars;
the company then executed a Tobacco Agreement.

100

Plaintiffs describe Native Outlet as belonging within the
“Smokes & Spirits Group.” However, plaintiffs have not put forth
sufficient evidence to establish that that Native Outlet was an
alter ego or was shipping on behalf of Smokes & Spirits.

239a
(Fink Decl., DX 602 ¶ 131.) The agreement was returned signed by John Waterman at 1525 Cayuga
Road. (See id.; DX 58; DX 371, row 3062.)
On March 21, 2013, UPS received a communication from the ATF requesting that it investigate possible bulk shipments of cigarettes from “John Waterman.” (PX 530.) Waterman was the listed customer
contact for Native Outlets. (PX 86, row 2183.)
On July 29, 2013, UPS received a subpoena from
City Finance regarding potential cigarette shippers.
That subpoena requested information associated with
“Seneca Direct” or the address 1525 Cayuga Road, Irving, New York. UPS did not audit Native Outlet until July 2013. Thereafter, it conducted five audits: On
or about July 10, 2013; January 2, 2014; October 6,
2015; January 14, 2016; and April 27, 2016. Each
time it found only little cigars. (Cook Decl., DX 600
¶¶ 86-91; DX 194; DX 244; DX 421; DX 363; DX 375.)
In sum, the Court finds that from the inception of
the account on October 18, 2010, there was a reasonable basis to believe Native Outlet may have been tendering cigarettes. This date is based on the Court’s
assessment of the red flags discussed above; inter alia,
that the combination of high-volume business from
the same address as a known cigarette shipper, business acquisition so closely correlated with the PACT
Act, and association with John Waterman. The Court
further finds the audit obligation continued to July 9,

240a
2013—the day before the first of several audits. However, there is insufficient evidence that it was in fact
shipping cigarettes.101
2. A.J.’s Cigars
A.J.’s Cigars opened an account with UPS in September of 2010—shortly following implementation of
the PACT Act.102 It was a relatively high-grossing account assigned to Fink, with more than $100,000 in
gross revenue per year. From the outset, Fink knew
that A.J.’s would be shipping tobacco products. He
testified that he had them execute a Tobacco Agreement in September 2010, but could not locate the original when later asked to do so (he testified that he
thought he left it in the trunk of his car). (Fink Decl.,
DX 602 ¶¶ 87-89; DX 230.) The Court does not credit
this testimony and finds it more likely that he did not
have A.J.’s execute a Tobacco Agreement until the audit described below.
But in addition, as with other shippers, there were
a number of tracer inquiries made with regard to shipments originating with A.J.’s. In A.J.’s case, there
were a total of nine between August 2010 and August
2013. Each of those inquiries concerned little or full-

101

While there is circumstantial evidence of the possibility that
Native Outlet was shipping cigarettes (that Waterman was suspected of making bulk shipments, the subpoena for documents
relating to this address), there is an insufficient basis to find actual shipments of cigarettes or UPS’s knowledge thereof.
102

Plaintiffs also describe A.J.’s Cigars as belonging within the
“Smokes & Spirits Group.” However, plaintiffs have not put forth
sufficient evidence to establish that that A.J.’s Cigars was an alter ego or was shipping on behalf of Smokes & Spirits.

241a
sized cigars. (DX 499, rows 106, 114, 115, 138, 145,
197, 199, 209, 221.)
On June 4, 2013, A.J.’s informed UPS that it
would like to ship cigarettes, and the UPS representative responded that he would check to see if that was
allowed and get back to them. The result of this inquiry is unknown.
UPS audited A.J.’s on October 2, 2013. The packages it opened contained filtered cigars and other tobacco products. (Cook Decl., DX 600 ¶ 80; DX 219.)
No cigarettes were found in the audited packages.
Thereafter, on October 24, 2013, Fink had A.J.’s execute a Tobacco Agreement. (Fink Decl., DX 602 ¶¶ 9293; DX 230; DX 357; DX 371, line 3030.)
In early February 2014, UPS learned from a news
report that an entity known as AJ’s Candy had plead
guilty to cigarette trafficking. (Cook Decl., DX 600
¶ 81; DX 270.) UPS terminated A.J.’s Cigars on February 10, 2014. (Cook Decl., DX 600 ¶ 81; DX 272; PX
160.)
In sum, the Court finds that not later than June
4, 2013, there was a reasonable basis to believe A.J.’s
Cigars may have been tendering cigarettes.103 However, there is insufficient evidence in the record to
103

The audit obligation continued to October 1, 2013 (A.J.’s Cigars was audited on October 2, 2013). Before this date, tracers
indicated only non-cigarette goods being shipped. But, once A.J.’s
Cigars notified UPS that it would like to ship cigarettes (on June
4, 2013), that fact combined with its status as a known tobacco
shipper should have triggered an audit. This finding is therefore
based on the totality of the evidence, including the fact that A.J.’s
informed UPS that it would like to ship cigarettes.

242a
support a finding that A.J.’s was shipping cigarettes
through UPS. The request by the customer “to ship”
cigarettes falls short of proving that they “did” make
such shipments.
3. RJESS104
RJESS first opened an account with UPS before
2005, under the name Ross John Enterprises - Iroquois Tobacco Direct (“RJE-ITD”). (Fink Decl., DX
602 ¶ 107; DX 371, line 1344.) Its most notable fact is
that it shared an address with Smokes & Spirits.105
In 2005, RJE-ITD signed a Tobacco Agreement.
(DX 371, row 1344.) In November 2005, as part of
what UPS has characterized as a “broader plan” requiring all smoke shops in the area to open new accounts with Tobacco Agreements, the RJE-ITD account was canceled. (Fink Decl., DX 602 ¶¶ 106-07;
Trial Tr. 200:6-14 (Cook); id. 499:22-500:3 (Fink).)
On April 7, 2005, Ross John, the owner of RJEITD and a college professor, opened a new account under the name Ross John Enterprises Smoke Shop
(“RJESS”). (Fink Decl., DX 602 ¶¶ 106, 108.) Both
RJE-ITD and RJESS were located in a warehouse behind a gas station at 6665 Route 417, Kill Buck, New
104

In their final proposed findings of fact, plaintiffs did not attempt to support their prior assertions of UPS’s liability for
RJESS (though they did include them within their damage request). (ECF No. 491.)
105

Again, plaintiffs describe RJESS as belonging within the
“Smokes & Spirits Group.” While plaintiffs did demonstrate that
RJESS and Smokes & Spirits shared an address for some purposes, considering all the facts and circumstances, plaintiffs have
not put forth sufficient evidence to establish that that RJESS
was an alter ego or was shipping on behalf of Smokes & Spirits.

243a
York. (Fink Decl., DX 602 ¶ 106; DX 490 at 4; DX 371,
lines 1344, 3619.) Fink was assigned account responsibility for RJESS. (DX 313; DX 520, lines 167-71; DX
542; see Trial Tr. 640:16-21. (Fink).)
RJESS’s address (which was also the address for
Smokes & Spirits) was included on the NCL in association with Smokes & Spirits as of February 15, 2012.
(PX 450; Cook Decl., DX 600 ¶ 111.) This red flag
should have triggered an audit. In addition, the
RJESS address—6665 Route 417, Kill Buck, New
York—was included in the subpoena issued by City
Finance on July 29, 2013. (PX 248.)
On January 28 and 30, 2014, UPS subsequently
conducted two audits of RJESS, which revealed only
little cigars. (Cook Decl., DX 600 ¶ 111; Trial Declaration of Debra Blauvelt (“Blauvelt Decl.”), DX 609
¶ 17(b); DX 264; DX 265.) Additional spot audits of
RJESS packages never revealed cigarettes. (Id. ¶ 12.)
RJESS and Smokes & Spirits had separate accounts and separate owners. Plaintiffs did not introduce evidence that Ross John had involvement in
Smokes & Spirits. (DX 371, lines 3619, 1285; Fink
Decl., DX 602 ¶¶ 38, 109; Trial Tr. 1190:20-1191:3
(Mitchell).) And RJESS was an active account of its
own the entire time Smokes & Spirits was in operation. Lastly, both RJE-ITD and RJESS were located
at 6665 Route 417, Kill Buck, New York, while
Smokes & Spirits shipped from 270 Rochester Street,
Salamanca, New York 14779. (Fink Decl., DX 602
¶¶ 31, 106; DX 490; DX 371, lines 1344, 3619.) In
other words, nothing in UPS’s records provides any
basis to connect the two accounts.

244a
In sum, the Court finds that as of February 15,
2012, when RJESS’s address was listed in the NCL,
there was a reasonable basis to believe it may have
been tendering cigarettes; this lasted until the day
prior to the first audit on January 28, 2014. However,
there is insufficient evidence that RJESS was in fact
shipping cigarettes.
D. Shipper as to Which There Is No Liability
1. Sweet Seneca Smokes
Sweet Seneca Smokes opened its UPS account on
February 14, 2014, and it remains an active account.106 (Fink Decl., DX 602 ¶ 122.) It is located at
14411 Route 439, Gowanda, New York on the Seneca
Cattaraugus reservation. Fink was and is the Account Executive. He has always known that they
shipped tobacco products. (Id. ¶¶ 122, 123.) Indeed,
that much is evident from the name alone.
UPS has approached the account with skepticism
from the beginning, and it has taken affirmative steps
to investigate whether it was a terminated shipper
trying to obscure its identity (in this instance, A.J.’s
Cigars) or was otherwise shipping cigarettes. In light
of various red flags, this was entirely appropriate. In
this regard, immediately after the account was first
opened, Timothy McDowell, a UPS sales representative, sent an email to Fink questioning whether this
account was merely “A.J.’s” trying to “get back in.” He
then communicated with Jim Phillips of Sweet Seneca
106

Plaintiffs place Sweet Seneca Smokes within what they identify as the “Smokes & Spirits Group.” However, plaintiffs have
not put forth sufficient evidence to establish that that Sweet Seneca Smokes was an alter ego or was shipping on behalf of Smokes
& Spirits.

245a
Smokes. During that conversation, Phillips informed
McDowell that the company intended to ship only little cigars through UPS. UPS informed Phillips of its
Tobacco Policy. (Trial Tr. 667:1-17 (McDowell); Fink
Decl., DX 602 ¶ 123; DX 371, line 3650.) McDowell’s
investigation did not stop there, however.
To ensure that Sweet Seneca Smokes was not
shipping on behalf of the Shipping Services or A.J.’s
Cigars terminated accounts, McDowell contacted
Fink. (DX 274; DX 276; Fink Decl., DX 602 ¶ 124.)
None of the three shippers shipped from the same address, had the same contacts, or shared any other
overlapping information. (DX 371, rows 3024, 3030,
3650.) McDowell considered whether one of the company’s contact names, “Bob Oldrow/Oldsdrow,” could
be the same person as an individual by the name of
“Oldro,” Fink’s contact, at Smokes & Spirits. (DX 276;
Fink Decl., DX 602 ¶ 32; cf. DX 371, row 1285.)
McDowell ultimately found no evidence connecting
Sweet Seneca Smokes to either shipper. McDowell
then investigated the Sweet Seneca Smokes website
and product line, and he requested photos of their cigars to satisfy himself that they marketed the products they claimed. (DX 274.)
Plaintiffs have pointed to evidence that 62% of
Sweet Seneca Smokes customers were those of
Smokes & Spirits but not to evidence that this percentage concerned buyers of cigarettes versus other
tobacco products. Comparing the customer names
and purchases on PX 54, a shipment inventory from
Smokes & Spirits, to the customer names in PX 557,
a Sweet Seneca Smokes delivery spreadsheet, supports a finding that Sweet Seneca Smokes shipped a
significant amount of non-cigarette tobacco products,

246a
in general, and to former Smokes & Spirits customers,
specifically.
An audit of Sweet Seneca Smokes’s packages over
a three-day period revealed cigars, chew, or other tobacco products, but no cigarettes. Another audit was
performed on April 27, 2016, by Cook. Cook personally audited all of the packages shipped out of the
Dunkirk Center, including seventy-one packages
shipped by Sweet Seneca Smokes. (Trial Tr. 359:23360:16 (Cook); Cook Decl., DX 600 ¶¶ 90, 135-36; DX
327; DX 422; DX 550; DX 551; Trial Declaration of
Jennifer Puleo (“Puleo Decl.”), DX 608 ¶ 23(c).) None
contained cigarettes. (Cook Decl., DX 600 ¶¶ 136-37.)
UPS audited Sweet Seneca Smokes a third time
on July 10, 2016, when the “Designated Responders”
for hazardous materials segregated and inspected the
contents of these Sweet Seneca Smokes packages because an unknown substance—later identified as
chocolate syrup—had leaked onto each package in the
load. (Cook Decl., DX 600 ¶ 137; DX 429.) Consistent
with prior audits, the packages contained filtered cigars, loose tobacco, and chewing tobacco. (Id.)
In sum, based upon UPS’s proactive efforts with
regard to this account and the lack of evidence of cigarette shipments, the Court declines to find that there
was a reasonable basis to believe Sweet Seneca
Smokes may have been tendering cigarettes at any
point in time prior to the first audit, or that it was
shipping cigarettes.

247a
X. CONCLUSIONS OF LAW
Plaintiffs allege violations of the PACT Act, 15
U.S.C. §§ 375-78; the AOD, PHL § 1399-ll;107 and the
CCTA, 18 U.S.C. §§ 2341-46. Set forth below are the
Court’s conclusions of law. Analysis and interpretation of the AOD is the logical starting point. As previewed above and discussed in detail below, if the
AOD was “honored” throughout the United States,
UPS is statutorily exempt from the PACT Act and
PHL §1399-ll; if it was not, UPS is exposed to liability
under the AOD, the PACT Act, and PHL § 1399-ll,
along with the CCTA. The Court therefore resolves
the question of AOD liability at the outset.
The Court next turns to the common issue of what
it means to act “knowingly.” Certain violations of the
AOD and the PACT Act, and all violations of PHL
§ 1399-ll and the CCTA, require that UPS have
shipped cigarettes knowingly. The Court addresses
the legal standard for a finding of actual knowledge,
including conscious avoidance, or willful blindness, as
well as the legal and factual requirements regarding
imputation of an employee’s knowledge to a large corporate entity such as UPS. As part of this discussion,
the Court discusses presumptions that common carriers of regulated goods have knowledge of various regulatory requirements. The Court then turns to each
of the alleged violations, along with specific arguments and defenses that UPS has asserted.

107

Plaintiffs’ alleged violations of N.Y. Exec. Law § 63(12) are
co-extensive with their PHL § 1399-ll claims.

248a
A. The AOD
The AOD, executed in October 2005, was a negotiated resolution to an investigation commenced by
the State of New York into whether UPS was violating
PHL § 1399-ll 108 and N.Y. Exec. Law § 63(12).109
Plaintiffs claim that UPS repeatedly violated a
number of separate provisions of the AOD. However,
they seek penalties with regard to only one type of violation: the audit requirement set forth in ¶ 24.
Plaintiffs define such audit violations as commencing
as of the date there was a reasonable basis to believe
that a shipper may have been tendering packages containing cigarettes, and continuing with regard to each
and every package tendered thereafter. While plaintiffs do not seek damages for other violations of the
AOD, they nonetheless seek to prove that UPS knowingly shipped cigarettes. Proof of knowing shipments
provides for the presumption of a PHL § 1399-ll violation; such presumption is found in AOD ¶ 43: A violation involving the knowing shipment of cigarettes
“to an Individual Consumer within the State of New
York” constitutes “prima facie proof of a violation of
PHL § 1399-ll(2)[.]” (AOD, DX 23 ¶ 43.) For its part,
UPS asserts that it has complied with its AOD obligations and that the AOD is honored throughout the
United States. Thus, according to UPS, no penalties
may properly be assessed under the AOD, and UPS is
exempt from both the PACT Act and PHL § 1399-ll.
108

PHL § 1399-ll is titled “Unlawful Shipment or Transport of
Cigarettes.”
109

N.Y. Exec. Law § 63(12) is the means by which the New York
Attorney General commences an enforcement action for violation
of cigarette transport such as PHL § 1399-ll.

249a
The Court disagrees with UPS. The Court therefore proceeds to resolve the parties’ positions with regard to whether calculating penalties in the manner
plaintiffs suggest would result in an excessive award.
1. Background Described in the AOD
The AOD was the product of extensive negotiations. This is evident throughout the text of the agreement. In particular, multiple pages describing the
parties’ respective positions precede the particular obligations UPS agreed to assume. (See AOD ¶¶ 1-15.)
These preliminary statements do not themselves create binding commitments, but they do provide useful
background for understanding the intent of the parties.
In this regard, the AOD commences with a description of the parties’ respective views on UPS’s conduct prior to its effective date of October 21, 2005. The
State asserted that, based upon its investigation, it
believed that UPS “ha[d] delivered many packages
containing cigarettes to persons who were not authorized to receive them pursuant to PHL § 1399-ll in violation of PHL § 1300-ll(2) and thereby engaged in repeated illegal acts and business activities in violation
of EL § 63(12)[.]” (AOD, DX 23 ¶ 8.) UPS responded
that even before the Attorney General had initiated
an investigation into its business practices in 2004,
UPS had “adopted revised policies governing the
transportation of tobacco products, and that UPS policies, among other things, are meant to insure that
UPS does not knowingly deliver cigarettes to unauthorized recipients in violation of various state laws,
including PHL § 1399-ll(2).” (Id. ¶ 9.)

250a
In the AOD, UPS also described various actions it
had taken following the April 10, 2013 effective date
of PHL § 1399-ll, including changing to its Tariff and
Terms and Conditions to add a provision that “Shippers are prohibited from shipping, and no service shall
be rendered in the transportation of, any tobacco products that shippers are not authorized to ship under
applicable state law or that are addressed to recipients not authorized to receive such shipments under
applicable law.” (Id. ¶ 10.) UPS further asserted that
since the implementation of the PHL § 1399-ll, it had
provided formal training to its employees, and that it
had written to approximately 400 UPS shippers to notify them of PHL § 1399-ll and advising them that
UPS would no longer accept packages containing cigarettes for delivery to unauthorized recipients in New
York. (Id. ¶¶ 11, 12.) UPS also referred to its decision
to adopt a formal Cigarette Policy, which stated:
1. UPS does not provide service for shipments of
cigarettes to consumers.
2. UPS only accepts shipments of cigarettes for
delivery to recipients who are licensed or otherwise authorized by applicable federal, state,
provincial or local law or regulation to receive
deliveries of cigarettes.
(Id. ¶ 15.)
The following “WHEREAS” clause recites that
“UPS offers this Assurance of Discontinuance” in settlement of alleged past violations, and “intending that
this [AOD] will promote further and ongoing cooperation between UPS and the Attorney General concerning UPS’s compliance with PHL § 1399-ll[.]” (Id.) The
AOD”s final WHEREAS clauses states that New

251a
York’s Attorney General “accepts the following assurances from UPS pursuant to Executive Law § 63(12)”
in lieu of commencing a civil actions for past violation.
(AOD, DX 23.)
2. The Terms of the AOD
Paragraph 17 of the AOD contains a broad commitment by UPS to “comply with PHL § 1399-ll(2),
and adhere to the UPS Cigarette Policy[.]” (AOD, DX
23 ¶ 17.) In ¶ 20, UPS agreed to “revise, to the extent
that it has not yet done so already, and maintain its
delivery policies and procedures for Cigarettes in accordance with this [AOD].” (Id. ¶ 20.)
In ¶ 21, UPS agreed to identify and compile a list
of its customers that UPS believes may be “Cigarette
Retailers.” (Id. ¶ 21.) The list was to be compiled from
a number of sources, including UPS’s search of its own
customer database for words such as “cigarette,”
“smoke,” and “tobacco,” as well as “UPS’s knowledge
of known Cigarette Retailers.” (Id.) When the list was
completed, UPS was required to provide it to the New
York Attorney General. (Id.) The AOD also required
UPS to use an internet search engine on a periodic basis to investigate shippers who use the “Cigarette
Websites”110 to determine whether they ship via UPS
(and to conduct audits if so). (Id. ¶ 22.) However, if
internet searches during any consecutive twelve-

110

Defined as an internet website through or at which a person
sells Cigarettes. (AOD, DX 23 ¶ 16(D).)

252a
month period do not uncover shippers who had tendered cigarettes to UPS for delivery, this obligation
ceases. (Id.)111
Paragraphs 24 to 33 of the AOD relate to audits
and remedial action for shippers found to have
shipped cigarettes. The audit provision states:
24. UPS shall audit shippers where there is a reasonable basis to believe that such shipper may be
tendering Cigarettes for delivery to Individual
Consumers, in order to determine whether the
shippers are in fact doing so.
(Id. ¶ 24.)112 It is worth pausing on the standard for
identifying shippers that should be audited: As set
forth in this provision, the standard is objective.
There must be a “reasonable basis to believe” that the
shipper may be tendering cigarettes.
UPS has a separate obligation under the AOD to
maintain a database that includes information regarding Cigarette Retailers. (Id. ¶ 25.) This is referred to as the “Tobacco Shipper Database.” (Id.)
Such database must include various identifying infor-

111

This obligation in fact expired according to these terms in
July 2010.
112

The AOD defines “Individual Consumer” as any person or entity other than an “Authorized Recipient,” which in turn is defined as “tobacco manufacturers; licensed wholesalers, tax
agents, retailers, and export warehouses; government employees
acting in accordance with their official duties; or any other person or entity to whom cigarettes may be lawfully transported
pursuant to federal law and the law of the state in which delivery
is made, including those persons described in PHL § 1399-ll(1)
with respect to the State of New York.” (AOD, DX 23 ¶ 16(G),
(A).)

253a
mation along with a shipper’s record of non-compliance with the UPS Cigarette Policy, down to the level
of tracking number for individual packages. (Id. ¶ 25
A, B.) The database must also include the results of
any audits and a record of any discipline imposed by
UPS. (Id. ¶ 25 C, D.)
The AOD requires that UPS undertake “progressive” discipline for shippers its [sic] determines to
have tendered a package of cigarettes for delivery.
(Id. ¶¶ 26-33.) That is, the discipline is organized into
escalating steps. UPS’s obligation to impose discipline commences when it discovers that a shipper has
tendered “a shipment of Cigarettes to Individual Consumers.” (Id. ¶ 26.) A single shipment therefore triggers the progressive discipline measures set forth in
¶¶ 26 to 33.
The first step requires that UPS create and maintain a record of the offending shipper and packages or
shipments. (Id.) This information would be available
to the New York Attorney General in response to a
subpoena at a later date. (Id.) Paragraph 27 provides
for suspension of service to that shipper altogether:
27. If UPS has a reasonable basis to believe that
a shipper has willfully or intentionally violated
UPS’s Cigarette Policy, UPS shall immediately
and permanently suspend all Delivery Services
for such shipper. For other violations of UPS’s
Cigarette Policy, which UPS has a reasonable basis to believe are not willful or intentional, UPS
shall apply the discipline procedures established
in Paragraphs 28 through 33 of this [AOD].
(AOD, DX 23 ¶ 27.) If triggered, the progressive discipline scheme requires UPS to notify the shipper of

254a
the violation within five days after discovery; two days
later UPS must suspend delivery for ten days unless
a reasonable and verifiable written action plan for
compliance is provided to UPS by the shipper. (Id.
¶ 28.) If a second violation occurs within 180 days of
the first, UPS must again immediately provide notice
to the shipper, but this time UPS must deliver a warning of a possible suspension of service for up to three
years for a third non-compliant shipment. (Id. ¶ 29.)
A third violation within 180 days of the contact for the
second violation requires notice, as well as an in-person meeting with management-level personnel; two
days following such notice, UPS is required to suspend
delivery for three years (there are provisions to restore service after six months for non-cigarette products). (Id. ¶ 30.)
Paragraph 31 of the AOD contains an explicit
acknowledgement that shippers of cigarettes are
known to try to persist in unlawful shipping by using
the same location under a different account name or
having another person or entity ship from a different
address on the suspended shipper’s behalf. This provision states in full:
31. The violations found to have occurred pursuant to this [AOD], as well as the periods of suspension that are imposed, shall be applied both to the
shipper committing the violation, and to any other
shipper, whether an existing UPS customer or a
new UPS customer, that UPS has a reasonable basis to believe is shipping or seeking to ship Cigarettes (a) from the same location as the suspended
shipper, (b) on behalf of a suspended shipper, or
(c) with the same account number as the suspended shipper.

255a
(Id. ¶ 31.)
Paragraph 32 recognizes that if a violation is inadvertent or immaterial, and made by a shipper of
products that are not predominantly cigarettes, UPS
can reasonably deviate from the procedures “for the
limited purpose of affirmatively assisting such shippers to implement safeguards intended to eliminate
future inadvertent and immaterial shipments of Cigarettes to Individual Consumers.” (Id. ¶ 32.) In order
to avail itself of this provision, it is of course the case
that UPS must know (or have processes to verify) certain facts about the contents of the shippers’ packages; otherwise, it would be impossible to establish
that 90% of packages (for the previous year) contained
goods other than cigarettes. (Id.) UPS has not attempted to argue that any of its actions are based on
this paragraph (indeed, it must take this position to
be consistent with its primary position that it lacks
the means to determine the contents of a customer’s
packages).
The AOD also requires UPS to provide ongoing
training to its personnel to ensure compliance with its
Cigarette Policy. (Id. ¶ 34.) On at least an annual
basis, UPS is required to issue a PCM to UPS drivers,
pre-loaders, and other personnel involved in compliance measures to “help ensure that these personnel
are actively looking for indications that a package contains Cigarettes being shipped to an Individual Consumer, alerting UPS management of such packages
and attempting to intercept such packages.” (Id.
¶ 35.)
The AOD also requires UPS to periodically train
Account Executives handling tobacco accounts on its

256a
Cigarette Policy, PHL § 1399-ll, and the compliance
measures agreed to in the AOD. (Id. ¶ 37.)
Additional provisions in the AOD outline the further actions UPS must take in response to notice it
may receive from the New York Attorney General or
any other governmental authority of evidence that a
UPS customer is tendering cigarettes. (Id. ¶ 39.)
There is no obligation imposed on the New York Attorney General or any other entity to provide such notice.
The AOD also contains two paragraphs that set
forth terms relating to enforcement of UPS’s obligations and to the imposition of penalties imposed for
violations thereof. (Id. ¶¶ 42-43.) In light of the importance of these provisions to assessment of damages
in this case, the Court sets them out in full:
42. UPS shall pay to the State of New York a stipulated penalty of $1,000 for each and every violation of this [AOD] occurring after the Effective
Date; provided, however, that no penalty shall be
imposed if (a) the violation involves the shipment
of Cigarettes to an Individual Consumer outside
the State of New York, or (b) the violation involves
the shipment of Cigarettes to an Individual Consumer within the State of New York, but UPS establishes to the reasonable satisfaction of the Attorney General that UPS did not know and had no
reason to know that the shipment was a Prohibited Shipment.113

113

“Prohibited Shipment” is defined as “any package containing
Cigarettes tendered to UPS where the shipment, delivery or

257a
(Id. ¶ 42.) The AOD further provides:
43. Pursuant to EL § 63(15), evidence of a violation of this [AOD] that involves the shipment of
Cigarettes to an Individual Consumer within the
State of New York shall also constitute prima facie proof of a violation of PHL § 1399-ll(2) in any
civil action or proceeding that the Attorney General hereafter commences against UPS for violation of PHL § 1399-ll(2).
(Id. ¶ 43.) Paragraph 51 explicitly provides that the
“rights and remedies in this [AOD] are cumulative
and in addition to any other statutory or other right
that the New York Attorney General may have at law
or equity, including but not limited to any rights and
remedies under PHL § 1399-ll.” (Id. ¶ 51.)
Finally, the AOD’s sole termination provision is
contained in ¶ 47. It provides that a legislative repeal
or amendment of PHL § 1399-ll to allow common carriers to deliver cigarettes to consumers, or a judicial
determination of that statute’s invalidity, would trigger a right to terminate by UPS upon thirty days written notice. (Id. ¶ 47.)114

packaging of such Cigarettes would violate Public Health Law
§ 1399-ll.” (AOD, DX 23 ¶ 16(H).)
114

The presence of this termination provision satisfies the rule
against perpetuities. See Nicholas Labs. Ltd. v. Almay, Inc., 723
F. Supp. 1015, 1018 (S.D.N.Y. 1989) (“A perpetual contract runs
without end or without provision for its termination. An indefinite contract runs without a fixed end but contains provisions
under which the contract might terminate at any time. . . . Thus
where termination has been provided for in the contract, even if
continuous performance is a possibility, courts should not refuse

258a
B. Interpretation of the AOD
The AOD is a settlement agreement between UPS
and the State of New York. As such, its interpretation
is governed by general principles of contract law.115
See United States v. Sforza, 326 F.3d 107, 116 (2d Cir.
2003) (stating that settlement are agreements construed in accordance with principles of contract law)
(citing Janus Films, Inc. v. Miller, 801 F.2d 578, 583
(2d Cir. 1986)). To be sure, the AOD is a special type
of contract—one entered into with the Attorney General for the State of New York, who is presumed to act
in the public interest. However, similar to a consent
decree entered into by the Department of Justice or
other government agency, once an AOD has been executed by the parties, it is a species of contract governed by principles of contract construction. See People v. Condor Pontiac, Cadillac, Buick & GMC Trucks,
Inc., No. 02-1020, 2003 WL 21649689, at *5 (N.Y. Sup.
Ct. July 2, 2003) (An AOD “is a stipulation of settlement, which binds the parties [and] will not be set
aside or departed from absent a showing of such good
cause as would invalidate a contract.”); EEOC v. Fed.
Express Corp., 268 F. Supp. 2d 192, 206 (E.D.N.Y.
2003) (“It is well settled that consent decrees are construed primarily as contracts and derive their legal
force largely from the parties’ voluntary agreement.”).
Several principles of contract interpretation are
particularly relevant here. First, it is black-letter law
to enforce such contracts or read into them different conditions
of termination.”).
115

Paragraph 44 acknowledges the AOD’s contractual status:
“This [AOD] represents a voluntary agreement, and is a settlement of the parties’ claims and defenses . . . .” (AOD, DX 23 ¶ 44.)

259a
that “[w]hen an agreement is unambiguous on its face,
it must be enforced according to the plain meaning of
its terms.” Lockheed Martin Corp. v. Retail Holdings,
N.V., 639 F.3d 63, 69 (2d Cir. 2011) (citing South Rd.
Assocs., LLC v. IBM, 826 N.E.2d 806, 809 (N.Y.
2005)). In addition, “well-established principles of
contract interpretation . . . require that all provisions
of a contract be read together as a harmonious
whole[.]” Schlaifer Nance & Co. v. Estate of Warhol,
119 F.3d 91, 100 (2d Cir. 1997). Finally, a basic tenet
of contract law provides that “[c]ourts may not ‘by construction add or excise terms, nor distort the meaning
of those used and thereby make a new contract for the
parties under the guise of interpreting the writing[.]’”
Riverside S. Planning Corp. v. CRP/Extell Riverside,
L.P., 920 N.E.2d 359, 363 (N.Y. 2009) (quoting Reiss
v. Fin. Performance Corp., 764 N.E.2d 958, 961 (N.Y.
2001)).
The Court finds the relevant provisions of the
AOD to be unambiguous and therefore applies the
well-known principles of contract construction without resort to parol evidence.
C. Violations of the AOD
An initial interpretive question concerns the definition of a “violation” under ¶ 42 of the AOD which, if
met, triggers the imposition of penalties. A second
question concerns whether AOD penalties are calculated on a per-violation basis; if so, a third question is
whether, textually or under principles of conscionability, there are limits to the number of violations for
which such penalties may or should be assessed.

260a
The Court turns first to the proper interpretation
of the term “violation.” As used in ¶ 42, the term expressly equates a “violation” to a failure by UPS to fulfill its obligations under the AOD. These obligations
are many and varied, as set forth in detail above. On
its face, ¶ 42 does not limit “violations” for which penalties may be imposed solely to any one type of obligation—that is, a failure to audit a shipper or a failure
to comply with PHL § 1399-ll (in “violation” of ¶ 17) by
knowingly transporting cigarettes to consumers.
Read in its entirety, the AOD is an attempt to establish a comprehensive and interdependent set of obligations that collectively reduce the likelihood that
UPS accepts packages containing cigarettes or transports such packages. A failure to abide by any one
obligation—for instance, employee training—places
at risk other aspects of the overall compliance scheme.
A failure to audit prevents implementation of the discipline procedures designed to place shippers on notice of possible suspension, and to give UPS and the
shipper the opportunity to work together to avoid such
a result. In other words, failure to audit prevents that
mutual compliance effort, and failure to discipline diminishes the chances that a shipper will alter its conduct. In sum, there is no reason for this Court to separate one type of contractual obligation that UPS assumed in the AOD from another when determining
what constitutes a “violation” under ¶ 42. Any failure
to comply with a contractual obligation constitutes a
separate violation of the AOD.
One argument that this Court has considered is
whether the term “violation” is used in ¶ 42 to mean
only UPS’s knowing shipment of cigarettes. It is certainly the case that ¶ 42 refers to exclusions from the

261a
penalty provision in terms of a “shipment.” It might
therefore be reasonable to conclude that the entire
provision must be read in terms of shipments of cigarettes. However, after considering this argument
carefully, the Court is not persuaded. This argument
fails to take into account the interdependent obligations UPS assumed in the AOD. The overall intent of
the parties was to use the penalty provision as a
method to ensure compliance with all of the AOD obligations, which are of course ultimately directed at
preventing shipments of cigarettes. This ultimate
goal, however, does not limit the particular obligations. To read the term “violation” as limited to a shipment of cigarettes (and one that UPS would then presumably have to have known about) would mean that
UPS could fail to comply with any of the host of other
obligations without consequence.
This, frankly,
makes no sense and is an unreasonable reading.
The facts set forth earlier in this Opinion establish
a number of separate violations by UPS of its obligations under the AOD:
1. On numerous occasions, UPS failed to comply
with PHL § 1399-ll(2), in violation of ¶ 17;
2. On numerous occasions, UPS failed to audit a
shipper where there was a reasonable basis to
believe that such shipper may have been tendering cigarettes for delivery to Individual
Consumers, in violation of ¶ 24;
3. On numerous occasions, UPS failed to input
required information into the Tobacco Database, in violation of ¶ 25;

262a
4. On numerous occasions, UPS failed to implement the discipline of shippers, in violation of
¶¶ 26-33;
5. UPS provided inadequate compliance training
and PCMs; such training failed to help “ensure that [] personnel are actively looking for
indications that a package contains Cigarettes
being shipped to an Individual Consumer,
alerting UPS management of such packages
and attempting to intercept such packages,”
in violation of ¶ 35; and
6. On numerous occasions, UPS knowingly
transported shipments containing cigarettes
to Individual Consumers, in violation of ¶ 42.
The Court turns, now, to the second and third
questions concerning the interpretation of the AOD.
The factual findings already made by this Court support numerous violations of the AOD. Did the parties
really intend that each and every such violation would
carry a separate $1,000 penalty? If so, are there conscionability or constitutional limits to the aggregate
amount of such penalties?
It is clear that at the time the parties entered into
the AOD, they were wiping the slate clean: Although
UPS did not agree that it had previously violated PHL
§ 1399-ll, it nevertheless assumed clear obligations
under the AOD to resolve those concerns, and the
State of New York agreed to settle any claims for past
violations that it might have. It is possible that, as so
often occurs at the outset of an agreement, the parties
hoped the penalty provision would never become an
issue. If such a hope existed, it was long ago extinguished.

263a
Of course, all parties were aware that the stakes
were high: The State of New York was specifically attempting to ensure compliance with a public health
law that recognized the enormous destructive power
of cigarette use, and the particular issues surrounding
traffic in unstamped cigarettes.
Insofar as trafficking related to Indian reservations, historical difficulties and restrictions with regard to enforcing state and federal cigarette laws on
shippers directly rendered the AOD with a non-tribal
courier all the more important. UPS was—in 2005 as
today—a large, highly sophisticated corporation. It
already had many thousands of employees in the
United States and vast pickup and delivery operations
using local service centers. Both UPS and the State
knew then that many smoke shops on Indian reservations in New York had shipped and would likely try to
ship cigarettes. It is more than reasonable for this
Court to assume that the well-counseled UPS understood the obligations it assumed in the AOD and the
risks inherent in breaching those obligations.
It is therefore important that these sophisticated
counterparties did not negotiate a top end of penalties
that could be imposed, or other limitations on penalties, apart from the “$1,000 for each and every violation.” For instance, the parties could have limited
monetary penalties to only shipments of cigarettes by
agreeing that violations of certain AOD obligations
would be treated differently from violations of other
AOD obligations. But they did not. The Court also
finds the language “each and every” violation, as used
in ¶ 42, applies not only to the potential number of violations (e.g., an instruction to count them all) but
also to the type of violations. That is, the AOD clearly

264a
provides that UPS shall pay penalties for each and
every violation, of whatever type. Conscionability issues are discussed further below.
D. Violations of the Audit Obligation Under the
AOD
Plaintiffs seek penalties only for violations of the
AOD’s audit obligation. In other words, plaintiffs seek
penalties only for violations of ¶ 24 and not ¶¶ 17, 25,
26-33, 35, or 42.
With that in mind, the Court must determine the
date(s) on which the audit obligation was first violated, and how to count violations. Plaintiffs assert
that a reasonable interpretation of the AOD supports
determining damages by establishing the date when
UPS first failed to audit a shipper in compliance with
its obligations, and then assessing each and every
package tendered to UPS thereafter as a separate violation of that audit obligation. In other words, according to plaintiffs, once UPS was obligated to audit
a shipper, every package that was not audited thereafter constituted a separate violation.
UPS, on the other hand, argues that the audit provision should be interpreted at the “shipper” level versus at the “shipment” level. UPS focuses on the obligation in ¶ 24 to audit “shippers.” According to UPS,
if there is a reasonable belief that a shipper may be
tendering cigarettes for delivery, and UPS fails to audit that shipper, such failure results in a single violation. Thus, no matter how long that violation continues and no matter how many packages are tendered
to UPS by a shipper, the total number of violations per
shipper would be “one.”

265a
This is an unreasonable interpretation. The trigger for ¶ 24 is a reasonable basis to believe the shipper
may be tendering cigarettes. Audits are conducted
with regard to packages. Under UPS’s interpretation,
if it allowed such tendering to go on day in and day
out, without an audit, the penalty UPS would incur
would be the same on day one as on day 300 ($1,000).
This would create a perverse counter-incentive: The
longer UPS failed to audit and thereby discover cigarettes (triggering discipline), the longer a shipper
could use UPS’s services for cigarette delivery. Under
this theory, once an audit obligation attached UPS
would be financially incented not to audit until at
least the revenues associated with that shipper exceeded the penalty. This makes no sense in light of
the other provisions and intent of the parties expressed in the AOD.
1. Proof to the Reasonable Satisfaction of
the State Attorney General
UPS also argues that the penalty provision contained in ¶ 42 allows it to avoid penalties when it has
demonstrated “to the reasonable satisfaction of the
New York Attorney General that UPS did not know
and had no reason to know that the shipment was a
Prohibited Shipment.” (AOD, DX 23 ¶ 42.) As discussed above, in 2011 the New York Attorney General
communicated with UPS regarding penalties for unspecified violations of the AOD in connection with only
three shippers—the so-called Potsdam Shippers (Action Race Parts, Mohawk Spring Water, and Jacobs
Manufacturing/Tobacco). Based on the fact that these
communications followed the seizure of cigarettes, it
is reasonable to infer that the obligations specifically
at issue were those set forth in ¶¶ 17 and 43(a)

266a
(“knowing shipments”). Plaintiffs are not seeking
penalties for such violations here—they seek penalties only for violations of the audit obligation in ¶ 24.
Nevertheless, defendant points out that after
some back and forth, including a proffer by UPS of its
position, the State did not take any action. UPS
points to this series of events as supportive of a finding that it had established “to the reasonable satisfaction” of the Attorney General that it had not violated
the AOD in any regard. UPS points to the absence of
any claims relating to the Potsdam Shippers in plaintiffs’ original complaint as further evidence of the Attorney General’s satisfaction. (See ECF No. 1.)116
UPS’s argument fails. As stated, plaintiffs are not
seeking the imposition of AOD penalties for knowing
shipments. As a result, even if the Court were to find
that UPS had proven to the satisfaction of the New
York Attorney General that it had not knowingly
transported cigarettes, such a finding does not eliminate liability for separate violations of the audit obligation.117
UPS also argues that these same events support
its waiver or laches defenses with regard to the three
Potsdam Shippers. These arguments are similarly
unavailing. The basic elements of laches are well established: “(1) the plaintiff knew of the defendant’s
misconduct; (2) the plaintiff inexcusably delayed in
116

UPS also makes a spoliation argument that was not raised
before trial: that plaintiffs failed to preserve certain 2011 documents, thereby prejudicing UPS. UPS waived this argument by
failing to raise it during the discovery period.
117

The Court does, however, take these considerations into account when assessing whether UPS honored the AOD.

267a
taking action; and (3) the defendant was prejudiced by
the delay.” Ikelionwu v. United States, 150 F.3d 233,
237 (2d Cir. 1998). A waiver requires an intentional
relinquishment of a known right, based on full information. Capitol Records, Inc. v. Naxos of Am., Inc.,
372 F.3d 471, 482 (2d Cir. 2004).
The parties debate whether either of these defenses are applicable to the governmental-entity
plaintiffs. The Court need not resolve that question
because, as a factual matter, UPS has failed to carry
its burden to establish the requisite elements. Plaintiffs simply never had full information to support either defense.118 As for waiver, there is certainly insufficient evidence to support intentional relinquishment
of any rights.
2. Implied Covenant of Good Faith and Fair
Dealing119
UPS counters any purported violations of the
AOD with an assertion that plaintiffs may not recover
for such violations if they have themselves breached
the covenant of good faith and fair dealing implicit in
the AOD. Specifically, UPS argues that the AOD im-

118

The Court need look no further than UPS’s own response to
the inquiries by the New York Attorney General: UPS denied
any violations of the AOD. While it is true that UPS provided the
State with information at that time, there is no doubt that additional information came to light much later.
119

In its answer, UPS also asserted “impracticability and frustration” as separate defenses. These were abandoned in its final
proposed findings of fact and conclusions of law. In any event, for
all of the many reasons discussed throughout this Opinion, such
defenses lack adequate factual support with regard to the AOD
or any other claim.

268a
plicitly obligated the State to provide UPS with information the State had regarding particular shippers.
Instead, according to UPS, plaintiffs accumulated information regarding non-compliant shippers and then
sued UPS at a point when there was no longer any
opportunity to remediate. This argument is without
merit.
Every contract is subject to an implied covenant of
good faith and fair dealing, which comprises “‘any
promises which a reasonable person in the position of
the promisee would be justified in understanding
were included’” in the contract. Nat’l Mkt. Share, Inc.
v. Sterling Nat’l Bank, 392 F.3d 520, 525 (2d Cir.
2004) (quoting Dalton v. Educ. Testing Serv., 663
N.E.2d 289, 291 (N.Y. 1995)) (alteration omitted).
This covenant applies both in the context of an assurance of discontinuance and where the party at issue is
a governmental entity. C.f. Handschu v. Special
Servs. Div., No. 71-cv-2203, 2007 WL 1711775, at *10
n.10 (S.D.N.Y. June 13, 2007) (noting that the NYPD
was subject to the covenant of good faith and fair dealing where it was party to a consent decree).
This defense fails here for the simple reason that
the State had (and has) neither an implicit nor an explicit obligation to provide UPS with any information.120 The AOD does not contain a contractual
120

UPS attempts to ground the State’s alleged breach in a statement in the AOD that the agreement is intended to “promote further and ongoing cooperation between UPS and the Attorney
General concerning UPS’s compliance with [State law].” (AOD,
DX 23 ¶ 15.) But this statement is contained in a “whereas
clause” recital which, as a matter of law, does not create a contractual obligation. See Abraham Zion Corp. v. Lebow, 761 F.2d

269a
provision requiring any such sharing of information,
and to require the State to assume such an obligation
would add a significant term to the agreement. The
law is clear that a court should not, under the guise of
the covenant of good faith and fair dealing, rewrite a
contract. Nat’l Gear & Piston, Inc. v. Cummins Power
Sys., LLC, 861 F. Supp. 2d 344, 365 (S.D.N.Y. 2012)
(“‘The duty of good faith and fair dealing is a tool of
interpretation that cannot be used to rewrite a contract and impose new terms. Thus, courts have generally been reluctant to find a breach of the implied
covenant of good faith when doing so reads so much
into the contract as to create a new term or when alleged misconduct is expressly allowed by the contract.’” (quoting In re Musicland Holding Corp., 386
B.R. 428, 438-39 (Bankr. S.D.N.Y. 2008)); see also,
e.g., Filner v. Shapiro, 633 F.3d 129, 141 n.1 (2d Cir.
1980) (“Under the guise of interpreting a contract, a
court should not rewrite it.”); Reiss, 764 N.E.2d at 961
(“[C]ourts may not by construction add or excise
terms, nor distort the meaning of those used and
thereby make a new contract for the parties under the
guise of interpreting the writing.” (quotation marks
omitted)).
UPS next argues that even if the State’s cooperation with UPS is discretionary, the implied covenant
of good faith and fair dealing “includes a promise not
to act arbitrarily or irrationally in exercising that discretion,” TIG Ins. Co. v. Newmont Mining Corp., 413
93, 103 (2d Cir. 1985) (noting that “[a]lthough a statement in a
‘whereas’ clause may be useful in interpreting an ambiguous operative clause in a contract, it cannot create any right beyond
those arising from the operative terms of the contract” (internal
quotation marks omitted)).

270a
F. Supp. 2d 273, 281 (S.D.N.Y. 2005) (quoting Dalton,
87 N.Y.2d at 389), aff’d, 226 F. App’x 49 (2d Cir. 2007).
Thus, UPS argues, even if the State were not required
to share information, good faith precludes it from
withholding all cooperation, permitting damages to
mount over a period of years, and then suing UPS under the contract the State decided not to implement.
This defense fails for a clear factual reason: There
is insufficient evidence to support it. First, there is no
evidence that the State acted arbitrarily or irrationally in exercising its discretion. But second, the
proven facts demonstrate that when UPS actually was
provided with certain information from other governmental authorities—namely, the NCLs from the
ATF—it ignored them. For instance, Cook noticed
Smokes & Spirits on the NCL in August 2013, and in
December 2013 New York City warned UPS by email
that Smokes & Spirits was a possible cigarette shipper. (Cook Decl., DX 600 ¶¶ 109, 110, 96.) Yet UPS
did not audit Smokes & Spirits until late January
2014. (Id. ¶ 97.) The Court has no reason to believe
that such information (other than in a form indicating
a formal investigation had begun) would have resulted in prompt, compliant action by UPS.
E. Whether the AOD Was “Honored”
As discussed above, the PACT Act specifically exempts common carriers with AODs (or similar agreements) relating to “tobacco product deliveries to consumers” if those AODs are “honored” throughout the
United States. New York v. United Parcel Serv., 179
F. Supp. 3d 282, 294 (S.D.N.Y. 2016). This includes:

271a
(I) . . . the [AOD] entered into by the Attorney
General of New York and United Parcel Service, Inc., on or about October 21, 2005 . . . if
each of those agreements is honored throughout the United States to block illegal deliveries of cigarettes . . . to consumers; and
(II) any other active agreement between a common carrier and a State that operates
throughout the United States to ensure that
no deliveries of cigarettes . . . shall be made to
consumers[.]
15 U.S.C. § 376a(e)(3)(B)(ii)(I), (II).
Thus, if UPS’s AOD is “honored throughout the
United States to block illegal delivery of cigarettes,” it
is exempt from the PACT Act. If the AOD is not so
honored, the exemption is eliminated.121 This Court
has issued two rulings on the appropriate interpretation of what to be “honored” throughout the United
States means. (ECF Nos. 49, 206.) In short, the Court
has previously held that if UPS itself implements the
AOD and honors its contractual obligations on a nationwide basis, then the AOD has been honored by
UPS. (See ECF No. 49 at 15-17, New York v. United
Parcel Serv., 131 F. Supp. 3d 132, 140-41 (S.D.N.Y.
2015).) As the Court previewed in its April 19, 2016
Opinion on this topic, a common carrier’s entitlement
to the benefits of the PACT Act’s exemption would be
lost if “the effectiveness of UPS’s [compliance] policies
[were] so compromised that the[] policies are not in
fact in place.” 179 F. Supp. 3d at 306. That conclusion
of law is proven by evidence of “a sufficiently large
121

Once the exemption is eliminated, as it is here, the Court
must further determine “as of when.”

272a
number of instances of shipments of contraband cigarettes” as to establish that “UPS is, overall, turning a
blind eye towards such unlawful shipments” or that
“UPS policymakers have in fact turned a blind eye to
shipments of contraband cigarettes.” Id.
It is, of course, of no moment if the violations here
at issue originate only in New York. Persistent or
widespread violations wherever located can indicate
that the AOD is not being honored by UPS.122 Nothing
in the PACT Act suggests the contrary. Indeed, it
would be odd to find that an AOD was not honored in
its home state (here, New York) due to flagrant and
repeated violations, but that because the home-state
Attorney General did not prove violations in other
states, the AOD was nonetheless “honored” nationally. In all events, the mere fact of a single violation—
or even several—in any state (including New York) is
insufficient to demonstrate that UPS is not honoring
its AOD. Thus, an audit violation regarding a single
shipper would be insufficient. The Court also considers the presence of procedures to ensure compliance.
As discussed above, the Court has found that until
this lawsuit was filed in February 2015, UPS’s procedures were inadequate.
Because UPS has violated so many different AOD
obligations as to so many shippers, this Court easily
finds that, up to the date this lawsuit was filed, UPS
was not honoring the AOD.
In this regard, the Court observes that while
plaintiffs seek penalties only with regard to the audit
122

The evidence at trial, including addresses on cigarette tracers, supports UPS transporting cigarettes to individuals outside
of New York.

273a
provision in ¶ 24 of the AOD, there is ample evidence
to find numerous violations of ¶¶ 17, 25, 26-33, 35,
and 42 as well. In addition, these violations were in
connection with accounts for a number of different
shippers overseen by different Account Executives
and serviced by different UPS drivers and Processing
Centers. Moreover, these violations were not isolated
in time but occurred over a period of years. Together,
these facts support a finding of UPS’s widespread and
persistent failure to honor the AOD.
The Court next turns to the further question of
timing: When did UPS’s conduct reach the point of
failure to honor the AOD? That is, when was UPS’s
conduct persistent enough and widespread enough?
As to that question, the Court refers back to the findings of fact with regard to the Relevant Shippers. It
is apparent that at least as of the fall of 2010—when
the PACT Act became effective and UPS began picking up business from other carriers as a result—UPS
should have “put two and two together;” when it received cigarette tracers for the Relevant Shippers in
the summer and fall of 2010, the scales tipped further.
By November 1, 2010, there were already a number of
instances when UPS had a reasonable basis to believe
shippers may have been tendering cigarettes, and it
looked the other way. Thus, the Court finds that not
later than December 1, 2010 (a month later), it was
evident that UPS was not taking appropriate action
and that UPS was no longer honoring the AOD.

274a
The next question is what, precisely, the lack of a
PACT Act exemption means. UPS’s violations continued until the filing of this lawsuit.123 The Court finds
that by the time of the lawsuit’s filing, UPS’s determined and serious actions reached a point at which its
compliance efforts to comply brought it back into a position of honoring its obligations under the AOD.
Thus, as of February 18, 2015, UPS was again honoring the AOD.
In sum, the Court finds that UPS was exempt
from the PACT Act until December 1, 2010. It lost its
exemption for the period between December 1, 2010
and February 18, 2015, but acquired it again after
that point.
UPS argues that as late as 2013 the State conceded that UPS was entitled to the PACT Act exemption. Its support for this rather surprising proposition
are the discussions between the State and UPS during
the late summer and fall of 2013 regarding whether
UPS would voluntarily agree to prohibit service to
shippers identified on the NCLs. (See Trial Tr.
269:23-270:20.) UPS draws an overbroad conclusion
from these discussions. While the discussions may
lead to an inference that the State did not have sufficient information at that time to suggest that the AOD
was not being honored, it does not prove that the AOD
was actually being honored. Until the State had access to the variety of materials it sought in discovery
123

As stated above, UPS remains in breach with regard to Seneca Promotions. However, as mentioned, one ongoing audit obligation for one shipper is insufficient to support a finding that the
AOD is not being honored. Nevertheless, the Court strongly suggests UPS conduct random audits of Seneca Promotion to resolve
whether they are tendering cigarettes.

275a
in this case and in response to subpoenas, it did not
possess full information. The State did not knowingly
and intentionally waive any claim to violations of the
AOD.
XI. KNOWLEDGE
As previewed at the outset of this opinion, plaintiffs’ claims for violations of the PACT Act, PHL
§ 1399-ll, CCTA, and ¶¶ 17 and 42 of the AOD require
UPS’s “knowing” transport of cigarettes. For instance, the PACT Act provides that, subject to certain
exceptions, “no person who delivers cigarettes . . . to
consumers, shall knowingly complete, cause to be
completed, or complete its portion of a delivery of any
package for any person whose name and address are
on” a list of non-compliant shippers maintained by the
U.S. Attorney General (the NCLs). 15 U.S.C.
§ 376a(e)(2)(A) (emphasis added).124 PHL § 1399-ll requires that plaintiffs prove that UPS “knowingly
transport[ed] cigarettes to any person in this state
reasonably believed by such carrier to be” anyone
other than an authorized recipient, as defined in PHL
§ 1399-ll(1). Paragraphs 17 and 42 of the AOD incorporate the liability standard from PHL § 1399-ll.
Thus, a violation of the AOD occurs if UPS knowingly
delivered cigarettes.125 Paragraph 17 of the AOD incorporates the provisions of PHL § 1399-ll(2). And finally, to establish a CCTA violation, plaintiffs must
124

The PACT Act also provides that it does not require or obligate “[a]ny common carrier . . . making a delivery subject to this
subsection” to “(iii) open or inspect, pursuant to this chapter, any
package being delivered to determine its contents.” 15 U.S.C.
§ 376a(e)(9)(A).
125

These are entirely separate breaches from the audit obligation set forth in AOD ¶ 24.

276a
prove that UPS knowingly shipped, transported, received, possessed, sold, distributed, or purchased “contraband” cigarettes. 18 U.S.C. §§ 2342(a), 2341(2).
The Court discusses the legal principles underpinning its findings of knowledge below.
A. Knowledge
In 1969, the Supreme Court adopted the use of the
word “knowledge” as set forth in the then-current
draft Model Penal Code (which remains in the Model
Penal Code today): “When knowledge of the existence
of a particular fact is an element of an offense, such
knowledge is established if a person is aware of a high
probability of its existence, unless he actually believes
that it does not exist.” Leary v. United States, 395
U.S. 6, 46 n.93 (1969) (quoting Model Penal Code
§ 2.02 (Am. Law Inst., Proposed Official Draft 1962));
Model Penal Code § 2.02(7) (2015). A party acts knowingly when he/she proceeds intentionally with
knowledge and “not because of ignorance, mistake, accident or carelessness.” See United States v. Kelly,
147 F.3d 172, 177 (2d Cir. 1998). While there are different ways one may acquire knowledge—for instance, directly, or through willful blindness/conscious avoidance—the law does not privilege one over
the other. See United States v. Ferguson, 676 F.3d
260, 278 (2d Cir. 2011). Direct knowledge is most frequently acquired by way of one’s own senses, e.g., one
comes to know a fact by seeing it, hearing it, touching
it, otherwise sensing it. But one can “know” a fact
without direct sensory input. In this regard, the law
deems a person to have “knowledge” when he or she
has a strong suspicion that a fact exists, but intentionally avoids confirmation. Global-Tech Appliances,

277a
Inc. v. SEB S.A., 563 U.S. 754, 766 (2011); Viacom Int’l
v. YouTube, Inc., 676 F.3d 19, 34 (2d Cir. 2012); Tiffany (NJ) v. eBay, Inc., 600 F.3d 93, 109-10 (2d Cir.
2010) (“[W]illful blindness is equivalent to actual
knowledge[.]” (citation and quotation marks omitted))
Intentionally avoiding confirmation of a fact is
willful blindness or conscious avoidance.126 See
Global-Tech Appliances, 563 U.S. at 766; United
States v. Fofanah, 765 F.3d 141, 144 (2d Cir. 2014).
These doctrines are materially similar. Fofanah, 765
F.3d at 144. A finding of either requires proof that (1)
the defendant subjectively believe that there is a high
probability that a fact exists, and (2) he/she must have
taken deliberate action to avoid learning of that fact.
Global-Tech, 563 U.S. at 766; United States v. Svoboda, 347 F.3d 471, 477-78 (2d Cir. 2003). The requirement of deliberate action gives willful blindness
a scope that goes beyond recklessness or negligence.
Global-Tech, 563 U.S. at 769 “Under this formulation,
a willfully blind defendant is one who takes deliberate
actions to avoid confirming a high probability of
wrongdoing and who can almost be said to have actually known the critical facts.” Id. As a result, a defendant may not escape a finding of “knowing” a fact
if he/she deliberately shields him/herself from clear

126

“Deliberate indifference” was once a third way in which
courts described such avoidance. See, e.g., United States v.
Reyes, 302 F.3d 48, 54 (2d Cir. 2002). However, in 2011, the Supreme Court held that the “deliberate indifference” standard
fails to require sufficient active efforts to avoid knowledge
(though, in that case, the underlying facts were sufficient to support a finding of willful blindness). Global-Tech, 563 U.S. at 769.

278a
evidence of critical facts strongly suggested by the circumstances. Id.; see also Fofanah, 765 F.3d at 144;
Svoboda, 347 F.3d at 477-78.
While Global-Tech requires proof of deliberate actions, the standard does not require proof of an identifiable “affirmative act[].” Fofanah, 765 F.3d at 150
(Leval, J., concurring) (“Our statements that the evidence must support a finding that the defendant “consciously” or “deliberately” avoided referred to a requisite state of mind, not to a need for affirmative acts. .
. . A finding that a defendant’s ignorance of incriminating facts was a conscious choice on the defendant’s
part in no way requires a finding that the defendant
took affirmative steps to avoid gaining the knowledge.
It does not depend, for example, on the defendant having said ‘I don’t want you to tell me how you obtained
these stacks of neatly bound $100 bills, packed in bags
labeled ‘Brink’s’”). Courts look to the totality of the
circumstances. “There must be evidence capable of
supporting a finding that the defendant was aware of
a high probability of the [incriminating] fact in dispute and consciously avoided confirmation of that
fact.” Id. (quotation marks omitted). From time to
time, defendants have argued that while they may
have believed a fact, they did not “know” the fact to be
true; binding case law has found that the difference
between belief and knowledge is “a distinction without
a difference.” United States v. Nektalov, 461 F.3d
309, 315 (2d Cir. 2006). “The rationale for the conscious avoidance doctrine is that a defendant’s affirmative efforts to ‘see no evil’ and ‘hear no evil’ do not
somehow magically invest him with the ability to ‘do
no evil.’” United States v. Adeniji, 31 F.3d 58, 62 (2d
Cir. 1994) (internal quotation marks omitted); see also

279a
Nektalov, 461 F.3d at 315. The Second Circuit has
found that the presence of “red flags” can support a
finding of actual knowledge and conscious avoidance.
Ferguson, 676 F.3d at 278 (“Red flags about the legitimacy of a transaction can be used to show both actual
knowledge and conscious avoidance.”); see also
Nektalov, 461 F.3d at 312, 317. In Ferguson, the Second Circuit found that red flags—such as secret side
agreements, a fake offer letter, and an insistence on
strict confidentiality—supported knowledge in the
context of an allegedly fraudulent reinsurance transaction. 676 F.3d at 278.
The Court has set forth its findings of fact with
regard to the Relevant Shippers above. It previewed
its legal conclusions by separating the shippers into
three groups. The first group comprises those shippers as to whom the Court has found sufficient facts
to support finding violations of the audit obligation, as
well as facts supportive of actual shipments of cigarettes and UPS’s knowledge of such shipments. A
subgroup comprises those shippers as to whom this
Court has found sufficient evidence to support the violations of the audit obligation, but not the fact of
shipments and/or UPS’s knowledge thereof. The second group therefore corresponds to the Liability Shippers as to whom the Court found plaintiffs have carried their burden as to AOD audit violations, but finds
they have failed to carry their burden with respect to
statutory violations requiring knowledge. The Court
now turns to the basis for its legal conclusion that the
facts support a finding of UPS’s knowledge.
The knowledge at issue in this case concerns
UPS’s knowledge that certain shippers were tendering packages containing cigarettes, and that in the

280a
face of such knowledge, UPS nonetheless stood down
in various ways, including by not probing further, not
conducting audits, and ultimately agreeing to
transport such packages. As to each shipper, the
Court made its ultimate finding based on a preponderance of the evidence and based upon the legal principles recited herein.
Without reviewing each shipper again, the evidence supportive of the Court’s finding of knowledge
included, inter alia, the past history with the shipper;
knowledge of activity from its address; the tracers; the
NCLs; the Tobacco Watchdog Group letter; the wares
a shipper sold; signage; visible inventory in a warehouse; the use of the terms “cigar,” “tobacco,” or “cigarette” in a name or URL; the use of multiple accounts;
business acquisition or significant increase after the
passage of the PACT Act; proximity to a reservation
with a prior history of cigarette shipping; and highvolume shipments from residential addresses. There
are additional facts recited with regard to each shipper set forth above.
UPS’s knowledge of these facts was based on what
different personnel knew—individually and collectively. The question naturally arises as to whether
facts known to certain UPS employees, including an
Account Executive, a driver, a customer service representative, the legal department, and the security
group, among others, establishes sufficient knowledge
and whether that knowledge may be imputed to
UPS.127
127

In all instances in which this Court has found a sufficient
basis for a violation of the audit obligation or statutory provision

281a
B. Imputation of Knowledge128
It is true that certain facts upon which the Court
has relied for its finding of knowledge were known
only to one or a limited number of employees within
UPS.
The question next arises whether such
knowledge may properly be imputed to UPS as a corporate entity. On the facts in the trial record, the answer is yes.
As a corporate defendant, UPS acts only through
its employees and agents. Suez Equity Investors, L.P.
v. Toronto-Dominion Bank, 250 F.3d 87, 101 (2d Cir.

at issue, there was sufficient evidence to support such conclusion
based solely on the knowledge of assigned Account Executive and
driver. The evidence supports an interdependent working relationship between those two categories of personnel to support a
client. Nonetheless, the Court notes that the record contains additional evidence (supporting knowledge) from the customer service representatives and legal groups (who had direct knowledge
of the tracers and NCLs). These individuals also played a role,
though less direct, in supporting the client relationship. As the
Court describes, most information was distributed among various personnel.
128

The related doctrine of respondeat superior similarly provides that a corporation may be held liable for the torts of its
employees. E.g., Holmes v. Gary Goldberg & Co., 838 N.Y.S.2d
105 (N.Y. App. Div. 2d Dep’t 2007) (“Pursuant to the doctrine of
respondeat superior, liability for an employee’s tortious acts may
be imputed to the employer when they were committed ‘in furtherance of the employer’s business and within the scope of employment.’” (quoting N.X., v. Cabrini Med. Ctr., 765 N.E.2d 844,
847 (N.Y. 2002)). It is certainly true that certain facts upon which
the Court has relied for its finding of knowledge were known only
to one or a limited number of employees within UPS. The question next arises whether such knowledge may properly be imputed to UPS. The answer in all instances is yes.

282a
2001). Principles of agency law provide that a corporation can be held liable for the acts of employees or
agents when they are acting within the scope of their
authority. Reino de España v. Am. Bureau of Shipping, 691 F.3d 461, 473 (2d Cir. 2012). Knowledge that
an agent acquires during the course of performing his
or her job responsibilities may be imputed to an employer. Id. (For knowledge of an agent to be imputed
to a principal, “the information at issue . . . [must go]
to matters within the scope of the agency.”); Apollo
Fuel Oil v. United States, 195 F.3d 74, 76 (2d Cir.
1999) (“In general, when an agent is employed to perform certain duties for his principal and acquires
knowledge material to those duties, the agent’s
knowledge is imputed to the principal.”). Under
Apollo Fuel Oil, employees’ knowledge acquired
within the scope of their employment is imputed to the
corporation. 195 F.3d at 76 (citing Restatement (Second) of Agency §§ 9(3), 268, 272, 275 (1958)); accord
Consol. Edison Co. of N.Y., Inc. v. United States, 221
F.3d at 364, 370 (2d Cir. 2000) (discussing imputation
of an employee’s knowledge to an employer); Steere
Tank Lines, Inc. v. United States, 330 F.2d 719, 722
(5th Cir. 1964) (same); United States v. Inc. Vill. of
Island Park, 888 F. Supp. 419, 437 (E.D.N.Y. 1995)
(“An agent’s acts are within the scope of his actual authority if it . . . is actuated, at least in part, by a purpose to serve the master.” (internal quotation marks
omitted)).
An act is deemed to be within the scope of employment if it is performed while an employee is engaged
generally in the business of his employer, or if his act
may be reasonably said to be necessary or incidental
to such employment. Harisch v. Goldberg, No. 14-cv-

283a
9503, 2016 WL 1181711 at *14 (S.D.N.Y. Mar. 25,
2016). In addition, the presumption of corporate
knowledge is conclusive, even if the corporate employee never communicated the information to her superiors. N.Y. Univ. v. First Fin. Ins. Co., 322 F.3d 750,
753 n.2 (2d Cir. 2002) (citing Center v. Hampton Affiliates, 488 N.E.2d 898, 899 (N.Y. 1985)).
Thus, “a corporation may be charged with the collective knowledge of its employees[.]” First Equity
Corp. of Fla. v. Standard & Poor’s Corp., 690 F. Supp.
256, 260 (S.D.N.Y. 1988), aff’d, 869 F.2d 175 (2d Cir.
1989). Corporations often compartmentalize information, whether for efficiency, practicality, or both.
But such compartmentalization does not shield a company from knowledge maintained by employees in
such a structure.
United State [sic] v. Bank of New England is instructive. There, the court stated:
Corporations compartmentalize knowledge,
subdividing the elements of specific duties
and operations into smaller components. The
aggregate of those components constitutes the
corporation’s knowledge of a particular operation. It is irrelevant whether employees administering one component of an operation
know the specific activities of employees administering another aspect of the operation:
[A] corporation cannot plead innocence by asserting that the information obtained by several employees was not acquired by any one
individual who then would have comprehended its full import.

284a
821 F.2d 844, 856 (1st Cir. 1987) (internal quotation
marks omitted); see also id. (“Since the Bank had the
compartmentalized structure common to all large corporations, the court’s collective knowledge instruction
was not only proper but necessary.”)). A corporation
is considered to have acquired the collective
knowledge of its employees and is held responsible for
their failure to act accordingly. Id. at 856 (internal
citations omitted); see also In re Worldcom, Inc. Secs.
Litig., 352 F. Supp. 2d 472, 497 (S.D.N.Y. 2005) (“To
carry their burden of showing that a corporate defendant acted with scienter, plaintiffs . . . need not prove
that any one individual employee of a corporate defendant also acted with scienter. Proof of a corporation’s collective knowledge and intent is sufficient.”).
Imputation does not, however, apply to facts hidden from an employer. If an employee has failed to
disclose all material facts relating to performance of
his or her agency, such undisclosed facts may not be
imputed to the principal, i.e., the employer. Hampton
Affiliates, 488 N.E.2d at 829-30. “However, ‘this [is
the] most narrow of exceptions,’ ‘reserve[d] . . . for
those cases—outright theft or looting or embezzlement—where the insider’s misconduct benefits only
himself or a third party; i.e., where the fraud is committed against a [principal] rather than on its behalf.”
Republic of Iraq v. ABB AG, 768 F.3d 145, 166 (2d Cir.
2014) (quoting Kirschner v. KPMG LLP, 937 N.E.2d
941, 952 (N.Y. 2010)). “To come within the exception,
the agent must have totally abandoned his principal’s
interests and be acting entirely for his own or another’s purposes.” Id. (quoting Center, 488 N.E.2d at
830). Here, the Court has already found that the acts

285a
of UPS employees (including Fink) vis-à-vis the Liability Shippers were within the scope of their job responsibilities.
The Court also finds imputation appropriate because the employees did not hide or otherwise fail to
disclose material facts necessary to its finding of
knowledge. Instead, the Court finds that information
obvious to drivers and to account personnel (much of
which could not be or was not hidden), along with information contained in UPS internal documents accessible to others within the organization, are sufficient to support UPS’s liability. But in addition, the
Court finds a corporate culture that broadly accepted
non-compliance. Accordingly, while the record does
not indicate affirmatively that every fact was shared
widely, the evidence reasonably supports an inference
that material facts were not withheld. That the record
does not contain direct evidence of explicit disclosure
does not erase the circumstantial evidence supporting
widespread knowledge of material facts relating to
each account.
C. Presumptions of Knowledge for Common
Carriers
Another way in which UPS may be deemed to
have knowledge is through “regulatory” imputation.
As a regulated common carrier, UPS is presumed to
possess knowledge of all laws and regulations pertaining to its business, including specifically as they relate
to the transport of dangerous goods:
[I]nterstate motor carriers are members of a
regulated industry, and their officers, agents,
and employees are required by law to be conversant with the regulations in question. As

286a
a practical matter, therefore, they are under a
species of absolute liability for violation of the
regulations despite the ‘knowingly’ requirement. This, no doubt, is as Congress intended
it to be. Likewise, prosecution of regular shippers for violations of the regulations could
hardly be impeded by the “knowingly” requirement, for triers of fact would have no difficulty whatever in inferring knowledge on the
part of those whose business it is to know, despite their protestations to the contrary.
U.S. v. Int’l Minerals & Chem. Corp., 402 U.S. 558,
569 (1971) (Stewart, J. dissenting) (citations and footnote omitted). “[A] corporate defendant is deemed to
have had knowledge of a regulatory violation if the
means were present by which the company could have
detected the infractions.” United States v. T.I.M.E.D.C., 381 F. Supp. 730, 739 (W.D. W. Va. 1974).
Here, UPS personnel are deemed broadly to be
aware of the PACT Act, CCTA, and PHL § 1399-ll. In
addition, UPS certainly had the means to understand
that certain of its clients were shipping cigarettes.
For instance, UPS had an audit right, and it could
open packages. And in the course of providing its services, it learned information about a customer’s business. Of course, it would know a customer’s location,
its name, whether it was located in a storefront (or located at a residential address), the goods it sold, the
signage it used for advertisement; UPS had its Tobacco Policy, which acknowledged tobacco shipments
(and yet there were instances in which even that was
not enforced appropriately). UPS knew that certain
customers were high risk—indeed, at times it said so;
it had access to the NCLs. UPS had the means to

287a
monitor and discover regulatory violations, and there
were red flags aplenty.
D. Knowledge as to Each Shipper
Based upon the facts discussed in the Court’s findings of fact, and based upon the application of the legal standard, the Court has made its determinations
with regard to UPS’s knowledge of facts relating to
each Relevant Shipper’s shipments as set forth above.
XII. LIMITATIONS PERIOD
One of UPS’s defenses is that the applicable statutes of limitations bar certain claims. According to
UPS, the applicable statutes of limitations preclude
CCTA and PACT Act claims for violations prior to
September 18, 2010; and preclude PHL § 1399-ll and
AOD claims for violations prior to September 18,
2011. (Def. Proposed Findings of Fact, ECF No. 492
at 264.)
The Court does not find violations of the CCTA or
PACT Act prior to September 18, 2010, and therefore
need not address defendant’s statute-of-limitations
arguments as to these bases for liability. Additionally, the Court agrees that the statute of limitations
for violations of PHL § 1399-ll is three years plus the
five months of a voluntary tolling agreed to by the parties. The Court’s rationale is as follows: Under New
York law, the applicable limitations period for an action to recover upon a liability, penalty, or forfeiture
created or imposed by statute is three years. N.Y.
C.P.L.R. § 214(2). For a claim to fall within the confines of C.P.L.R. § 214(2), the statute must impose liability “‘for wrongs not recognized in the common or
decisional law.’” Banca Commerciale Italiana v. N. Tr.
Int’l Banking Corp., 160 F.3d 90, 94 (2d Cir. 1998)

288a
(quoting State v. Stewart’s Ice Cream Co., 64 N.Y.2d
83, 88 (1984)). Here, plaintiffs’ claims against UPS for
“knowingly transport[ing] cigarettes” would not exist
but for the statute and, therefore, are governed under
the three-year limitations period set forth in C.P.L.R.
§ 214(2). See, e.g., Motor Vehicle Acc. Indem. Corp. v.
Aetna Cas. & Sur. Co., 674 N.E.2d 1349, 1352 (N.Y.
1996) (“No-Fault Law does not codify common-law
principles; it creates new and independent statutory
rights and obligations” and thus is governed by N.Y.
C.P.L.R. § 214(2). (quotation marks omitted)); Zeides
v. Hebrew Home for the Aged at Riverdale, Inc., 753
N.Y.S.2d 450, 452 (N.Y. App. Div. 1st Dep’t 2002)
(plaintiff’s cause of action under P.H.L. § 1801-d,
which confers a private right of action on a patient in
a nursing home for injuries sustained as the result of
the deprivation of statutorily specified rights, is governed by the three-year period of limitations of
C.P.L.R. § 214(2)). The parties also entered into a tolling agreement for a period of five months, from July
24, 2014, through December 24, 2014. Accordingly,
any violations of PHL § 1399-ll are cognizable only if
they occurred no earlier than three years and five
months prior to the filing of this suit, i.e., no earlier
than September 18, 2011.
Defendant also seeks to limit recovery for AOD violations to the same three-year statute of limitations.
That is incorrect. The AOD is a contract, and under
New York law the statute of limitations for contract
claims is six years. C.P.L.R. § 213(2); Town of Oyster
Bay v. Lizza Indus., Inc., 4 N.E.3d 1024, 1030 (N.Y.
2013) (“A breach of contract action must be commenced within six years from the accrual of the cause

289a
of action.” (citations omitted)). Not only is the contractual nature of the AOD clear from its form, its
terms, and consideration provided by the parties, its
obligations are different from and in addition to statutory requirements. For instance, the AOD’s audit requirement is an obligation that exists nowhere in
state or federal statutes and for which the AOD provides its own, independent remedy. Therefore, the
six-year statute of limitations applies to all claims
arising from breaches of UPS’s AOD obligations, including its audit obligation.
As discussed below, when the parties provide the
number of defined “Packages” and “Cartons” for the
Liability Shippers, they should do so according to
these time frames.
XIII. THE PACT ACT
As explained above, the PACT act directs the Attorney General to compile a list of cigarette and
smokeless tobacco delivery sellers that have not registered with the Attorney General or “are otherwise
not in compliance with [the] Act” (i.e. the “non-compliant list” or “NCL”). 15 U.S.C. § 376a(e)(1)(A). Sixty
days after the Attorney General distributes the NCL,
“no person who receives the list . . . and no person who
delivers cigarettes or smokeless tobacco to consumers,
shall knowingly complete its portion of a delivery of
any package for any person whose name and address
are on the list . . . .”129 Id. § 376a(e)(2)(A). Importantly,
the PACT Act also prohibits a carrier such as UPS
from making deliveries on behalf of a known seller
identified on the NCL when the carrier knows that
129

There are certain exceptions that are not relevant here.

290a
such seller “is using a different name or address to
evade the delivery restrictions.” Id. § 376a(e)(9)(B)(ii).
All recipients and common carriers are also subject to
the prohibitions on delivery described above with regards to any updates to the NCL thirty days after such
updates have been distributed or made available. Id.
§ 376a(e)(2)(B).
Plaintiffs allege that UPS violated the PACT Act
by delivering packages from sellers that UPS knew
were identified on the NCLs (or were affiliated with
entities identified on the NCLs). Specifically, plaintiffs seek penalties under the PACT Act for deliveries
made by UPS to the “Elliott Enterprises Group,”130 Indian Smokes, and the “Smokes and Spirits Group.”131
As the Court has already explained, UPS is not
exempt from the PACT Act; the Court finds that UPS
violated the PACT Act by knowingly delivering packages from sellers identified on the NCLs, which UPS
received. However, the Court also finds that plaintiffs
are not entitled to PACT Act penalties relating to all
of the shippers for which they seek such penalties.
The Court’s conclusions are as follows:


Elliott Enterprises first appeared on the
NCL dated November 10, 2010. (PX 472.)
UPS received the first NCL on November
11, 2010. UPS lost its PACT ACT exemption
by December 1, 2010. Because this was the

130

As discussed above, plaintiffs include Elliott Enterprises, Elliott Express (or EExpress), and Bearclaw Unlimited/AFIA in
this “group.”
131

As discussed above, plaintiffs include Smokes & Spirits, Native Outlet, A.J.’s Cigar, Sweet Seneca Smokes, and RJESS in
the “group.”

291a
first NCL, UPS had sixty days to comply; its
delivery of any packages for Elliott Enterprises after January 10, 2011, was thus a violation of the PACT Act.


Indian Smokes first appeared on the NCL
dated May 6, 2011. (PX 450). This NCL was
distributed by the ATF that day. As noted,
UPS had already lost its PACT Act exemption, and was therefore in violation of the
PACT Act for all shipments UPS delivered
for Indian Smokes starting thirty days
thereafter, or as of June 6, 2011.



Smokes & Spirits first appeared on the NCL
dated February 15, 2012. (PX 450) The ATF
distributed this NCL that day. Accordingly,
UPS became liable for PACT Act penalties
for all shipments UPS delivered for SmokesSpirits on and after March 15, 2012.132

UPS’s liability under the PACT Act regarding Elliott Enterprises, Indian Smokes, and Smokes & Spirits is clear. As the Court has described, however,

132

UPS argues that it cannot be liable under the PACT Act for
deliveries made to Smokes & Spirits because the PACT Act NCL
identified Smokes & Spirits as being located at 6665 Route 417,
Kill Buck, New York, while UPS provided service to Smokes &
Spirits at 137 Main Street, Salamanca, New York 14779. This
argument lacks merit. As the Court has already found in its findings of fact, UPS knew, before the NCL was disseminated, that
Smokes & Spirits was operating at 6665 Route 417, Kill Buck,
New York (UPS provided service to Smokes & Spirits at that address). In all events, plaintiffs have put forth sufficient evidence
that UPS knew the Smokes & Spirits on the NCL was the same
Smokes & Spirits that UPS was servicing.

292a
plaintiffs seek PACT Act penalties not only with regard to these entities (which were explicitly identified
on the NCLs), but also for other entities that plaintiffs
claim were affiliated in the same “groups.” UPS argues that even if they are subject to PACT Act liability
for Elliott Enterprises, Indian Smokes, and Smokes &
Spirits, they cannot be subject to PACT Act liability
for other affiliated entities that were not explicitly
mentioned by “name and address” on the NCLs.
The Court finds that UPS is also subject to PACT
Act liability for a subset—but not all—of the additional shippers within the “groups” that plaintiffs
identify. Specifically, UPS is also subject to PACT Act
liability for shipments made to Bearclaw/AFIA and
EExpress during the relevant time period identified
above,133 but is not subject to PACT Act liability for
Native Outlet, A.J.’s Cigars, Sweet Seneca Smokes, or
RJESS.
The PACT Act prohibits UPS from making deliveries on behalf of entities known to be “using a different name or address [as those entities on the NCLs]
to evade the delivery restrictions.”
15 U.S.C.
§ 376a(e)(9)(B)(ii). The purpose of this provision is
clear from its text—to prevent cigarette shippers from
using alternate identities to evade delivery restrictions. The evidence in this case illustrates that
shippers did in fact use alternate identities to attempt
to evade the law.
The facts here demonstrate that EExpress had a
sufficiently close relationship with Elliott Enterprises
and that UPS Knew EExpress was in fact an alter ego
133

I.e after January 10, 2011.

293a
of Elliott Enterprises’s intended, inter alia, to evade
the PACT Act’s delivery restrictions.134 See Newspaper Guild of N.Y., 261 F.3d at 294; Empire United
Lines Co., 557 F. App’x at 45-46. EExpress was
opened by Fink only days after Elliott Enterprises’s
account was terminated, and there was significant
customer overlap between the consignees of the two.
There were clear connections between Aaron Elliott,
the principal of Elliott Enterprises—a known cigarette shipper—and EExpress. These entities had significant overlap in customers, business purpose, and
operations. Cf. N.Y. Pattern Jury Instr., Civil 2:266,
Liab. for Conduct of Another (2016).
Similarly, there was a sufficiently close relationship such that UPS knew Bearclaw was making shipments on behalf of Elliott Enterprises. As the Court
has already described, these entities shared a telephone number and Fink knew this fact. Bearclaw was
a mail-order business and its telephone number was
therefore a main point of contact (serving a similar
function as a physical address would serve for a nonmail-order entity). The Court has found that, based
on the totality of the evidence, UPS knew Bearclaw
was shipping on behalf of Elliott Enterprises and used
different names/addresses to avoid detection as a cigarette shipper. UPS is thus liable for shipments to
Bearclaw under the PACT Act.
UPS accurately points out that under the PACT
Act it is “not . . . required to make any inquiries or
otherwise determine whether a person ordering a delivery is a delivery seller on the list . . . who is using a
134

The Court has already described in detail the relevant legal
principles concerning alter egos.

294a
different name or address in order to evade the related
delivery restriction . . . .” 15 U.S.C. § 376a(e)(9)(B)(i).
Significantly, however, UPS did have such an obligation under the AOD. In other words, UPS is liable for
the deliveries made to alter egos of known shippers on
the NCLs (i.e. Bearclaw/AFIA and EExpress”), even
though the PACT Act does not require UPS to acquire
alias information.
The Court does not find, however, that there was
a sufficiently close relationship between Smokes &
Spirits and the other entities plaintiffs included
within the “Smokes & Spirits Group” to warrant
PACT Act liability for shipments to those entities (Native Outlet, A.J.’s Cigar, Sweet Seneca Smokes, and
RJESS). As the Court has noted in its factual findings
above, plaintiffs did not put forth sufficient evidence
that these additional entities were alter egos or were
shipping on behalf of Smokes & Spirits.
XIV. PHL 1399-LL
PHL § 1399-ll prohibits common carriers from
“knowingly transport[ing] cigarettes” to any person in
New York State “reasonably believed by such carrier
to be other than a person described in paragraph (a),
(b) or (c) of subdivision one of this section.” PHL
§ 1399-ll(2).135 UPS also assumed a separate, contractual obligation to comply with PHL § 1399-ll in ¶ 17 of
the AOD.

135

There are exemptions of certain persons from PHL § 1399-ll
that are not relevant here, including “(a) a person licensed as a
cigarette tax agent or wholesale dealer under article twenty of
the tax law or registered retail dealer under section four hundred

295a
In enacting PHL 1399-ll the State legislature “declare[d] the shipment of cigarettes sold via the internet or by telephone or by mail order to residents of
[New York] state to be a serious threat to public
health, safety, and welfare, to the funding of health
care . . . , and to the economy of the state.” 2000 Sess.
Laws of N.Y., Ch. 262 (S.8177) § 1.
The PACT Act contains a provision that preempts
state laws such as PHL § 1399-ll with regard to common carriers who have entered into an AOD and when
such AOD “is honored” throughout the United States.
See 15 U.S.C. §§ 376a(e)(5)(C)(ii), 376a(e)(3)(B)(ii)(I).
The Court’s determination, set forth above, that
UPS’s AOD is not so honored eliminates this protection for UPS. The AOD separately provides that a violation of its terms shall “also constitute prima facie
proof of a violation of PHL § 1399-ll(2), in any civil action or proceeding that the Attorney General later
commences.” (AOD, DX 23 ¶ 43.) Accordingly, in addition to the violations of PHL § 1399-ll for knowing
shipments of cigarettes described below, the Court
has separately found that UPS breached ¶ 42 of the
AOD, and that this breach involved the shipment of
cigarettes. Thus, ¶ 43 of the AOD also provides a basis for a violation of PHL § 1399-ll.

eighty-a of the tax law; (b) an export warehouse proprietor pursuant to chapter 52 of the internal revenue code or an operator
of a customs bonded warehouse pursuant to section 1311 or 1555
of title 19 of the United States Code; or (c) a person who is an
officer, employee or agent of the United States government, this
state or a department, agency, instrumentality or political subdivision of the United States or this state and presents himself
or herself as such, when such person is acting in accordance with
his or her official duties.” PHL § 1399-ll(2).

296a
The facts as set forth above demonstrate that UPS
in fact delivered shipments of unstamped cigarettes to
individuals who were not authorized to receive them.
The final issue is whether it did so with the requisite
level of knowledge.
As discussed above, as a common carrier of regulated goods, UPS is deemed to have knowledge of
whether the recipients of the packages it delivers “appear on a list of licensed or registered agents or dealers published by the department of taxation and finance, or . . . [are] licensed or registered as an agent
or dealer under article twenty of the tax law.” PHL
§ 1399-ll(1); see Int’l Minerals, 402 U.S. at 569;
Elshenawy, 801 F.2d at 859. Moreover, pursuant to
PHL § 1399-ll(2), if a common or contract carrier
knowingly transports cigarettes “to a home or residence, it shall be presumed that the common or contract carrier knew that such person was not a person
described in paragraph (a), (b) or (c) of subdivision one
of this section.” PHL § 1399-ll(2). UPS has offered no
evidence that the persons to whom it shipped cigarettes were persons described in paragraph (a), (b), or
(c) of subdivision one of PHL § 1399-ll(2), i.e., were licensed tobacco dealers.
Moreover, UPS recorded in its delivery records the
instances where it delivered packages from Relevant
Shippers to residential addresses; UPS is therefore
presumed to have actual knowledge that the recipients were unauthorized for purposes of PHL § 1399-ll
as to all of those deliveries.
However, even as to its deliveries to commercial
addresses, UPS could only have believed that the re-

297a
cipients were authorized to receive cigarettes if it confirmed that addresses were appropriately licensed.
See N.Y. Comp. Codes R. & Regs. tit. 20, § 74.3(a)(1).
UPS has introduced no evidence that it performed
such a confirmation. In all events, as discussed at
length above, the Court has already and separately
found sufficient knowledge to support a violation of
this statute, as described above.
XV. THE CCTA
Plaintiffs’ final claim is for violations of the CCTA.
The CCTA is a federal statute designed to address
“the flow of contraband cigarettes between jurisdictions with differing tax obligations, and the resulting
deleterious effects on state and local tax collection.”
City of New York v. Golden Feather Smoke Shop, Inc.,
No. 08-cv-03966, 2013 WL 3187049, at *20 (E.D.N.Y.
June 10, 2013). The statute makes it unlawful for any
person knowingly to ship, transport, sell, or distribute
“contraband cigarettes.” 18 U.S.C. § 2342(a); City of
New York v. FedEx Ground Package Sys., 91 F. Supp.
3d 512, 519 (S.D.N.Y. 2015).
“Contraband cigarettes” are defined as:
[A] quantity in excess of 10,000 cigarettes
which bear no evidence of the payment of applicable State . . . cigarette taxes in the State
. . . where such cigarettes are found, if the
State . . . requires a stamp, impression, or
other indication to be placed on the packages .
. . of cigarettes to evidence of cigarette taxes,
and which are in the possession of any person
other than [exceptions not relevant here].”
18 U.S.C. § 2341(2); FedEx, 91 F. Supp. 3d at 519-20
(footnote omitted).

298a
A CCTA violation therefore consists of four elements: A party must (1) knowingly ship, transport,
receive, possess, sell, distribute or purchase, (2) more
than 10,000 cigarettes, (3) that do not bear tax
stamps, (4) under circumstances where state or local
cigarette tax law requires the cigarettes to bear such
stamps. FedEx, 91 F. Supp. 3d at 520.
In New York, the cigarette tax law referred to in
the fourth element of a CCTA claim is set forth in N.Y.
Tax Law §§ 471 and 471-e. When it was first passed
in 1939, § 471 imposed a tax “‘on all cigarettes possessed in the state by any person for sale’ except when
the ‘state is without power to impose such tax.’” City
of N.Y. v. Golden Feather Smoke Shop, Inc., 597 F.3d
115, 122 (2d Cir. 2010) (“Golden Feather II”) (quoting
N.Y. Tax Law § 471). Section 471 has been amended
numerous times but has been continuously in place in
some form. During the period relevant to plaintiffs’
claims herein, § 471 has always required the affixation of tax stamps on cigarettes sold by Indian reservation retailers to non-tribal members. City of New
York v. Milhelm Attea & Bros., No. 06-v-3620, 2012
WL 3579568, at *5-6 (E.D.N.Y. Aug. 17, 2012).
In June 2010, the State amended both N.Y. Tax
Law §§ 471 and 471-e, with an effective date of September 1, 2010. Milhelm Attea, 2012 WL 3579568, at
*2. The pre- and post-amendment versions of § 471
both contain the same initial language broadly imposing a taxation requirement. As amended, § 471 requires the affixation of tax stamps to all cigarettes
sold on reservations to non-tribe members. See id.,
2012 WL 3579568, at *3.

299a
As set forth in its factual findings, the Court has
found that plaintiffs have met their burden with regard to each element of the CCTA. First, all cigarettes
possessed for sale or use within the State are presumed to be taxable, and hence must bear a tax
stamp, until the contrary is established. The person
asserting exemption from taxation bears the burden
of proving non-taxability. See N.Y. Tax Law § 471;
N.Y.C. Admin. Code § 11-1302(d). “Whether taxable
or tax-free, all [packs of] cigarettes must bear a tax
stamp.” Oneida Nation of N.Y. v. Cuomo, 645 F.3d
154, 160 n.8 (2d Cir. 2011). To indicate that the tax
has been pre-paid on cigarettes to which the tax applies, a stamping agent must purchase and affix a cigarette tax stamp to each pack of cigarettes possessed
by the agent for sale in the State and/or City, as the
case may be. N.Y. Tax Law § 471; 20 N.Y. Codes R. &
Regs. § 76.1(a)(1); Ad. Code § 11-1302(e). All cigarettes possessed for sale or use in New York State and
City, with exceptions not relevant to this action, must
bear tax stamps. N.Y. Tax Law § 471; 20 N.Y. Codes
R. & Regs. § 76.1(a)(1); N.Y.C. Admin. Code § 111302(g).
To comply with the foregoing requirements,
stamping agents purchase tax stamps from the State
and City, the cost of which is nearly equal in cost to
the amount of the cigarette tax on a pack of cigarettes.
20 N.Y. Codes R. & Regs. § 74.2. By purchasing the
tax stamps, the tax is paid. Id. By law, stamping
agents must incorporate the amount of the tax into
the price of the cigarettes, thereby passing the tax
along to each subsequent purchaser in the distribution chain, and ultimately the consumer, as required

300a
by N.Y. Tax Law § 471 and N.Y.C. Admin. Code § 111302(e) and (h).
At all relevant times (i.e., January 1, 2010, to the
present), the State excise tax has been either $2.75 or
$4.35 per pack of cigarettes. See N.Y. Tax Law
§ 471(1) (noting the July 1, 2010 change in the applicable tax from $2.75 to $4.35); Angell Aff., PX 62 ¶ 16;
Trial Tr. 1360:15-19. Accordingly, for each carton of
cigarettes (which typically contains ten packs of cigarettes), the State excise tax rate is $27.50 or $43.50
per carton. (See Angell Aff., PX 628 ¶ 16.) During the
same time period, the New York City excise tax has
been $1.50 per pack or $15.00 per carton. (Angell Aff.,
PX 628 ¶ 17.) Each pack of cigarettes in New York
City, furthermore, it must bear a joint New York
State/New York City tax stamp. 20 N.Y. Codes R. &
Regs. § 74.3.
New York law creates a presumption that all cigarettes are taxable, and are all therefore required to
be stamped, unless the person on possession of the cigarettes rebuts the presumption. N.Y. Tax Law § 471
et seq.; Oneida, 645 F.3d at 159; New York v. United
Parcel Serv., No. 15-cv-1136, 2016 WL 4747236, at *6
(S.D.N.Y. Sept. 10, 2016).
This Court has already found that the cigarettes
transported by UPS, whether to consumers or reservation-to-reservation, were required to bear tax
stamps. 2016 WL 4747236 at *4-5, *11-12. This Court
has also already held that UPS bears the burden of
rebutting that presumption. Id. at *6. UPS has introduced no evidence doing so, and hence all of the cigarettes transported by UPS to or from Indian reservations were required by law to have been stamped. The

301a
preponderance of the evidence proves that the packs
of cigarettes delivered by UPS were unstamped. The
evidence proving this element is summarized as follows: Rosalie Jacobs and Robert Oliver both testified
that the cigarettes they shipped via UPS did not bear
tax stamps. (Trial Tr. 1661:15-17 (Jacobs); Id. 1132:51134:20 (Oliver)); the cigarettes seized at UPS’s Potsdam Center did not bear tax stamps (id. 1148:1-7 (Oliver)); Phil Christ testified that the cigarettes sold by
Arrowhawk did not bear tax stamps (id. 912:20-23,
913:17-914:6 (Christ)); it can be inferred from the
prices at which Smokes & Spirits and Arrowhawk sold
cigarettes that the price could not have included either or both State and City taxes (see PX 54; PX 55);
and the cigarettes delivered by UPS to the Office of
the New York City Sheriff from Seneca Cigars or
www.senecacigarettes.com were unstamped (PX 40;
PX 43). In addition, there is no evidence in the record
that any of the shippers at issue sold any cigarettes
with stamps.
Plaintiffs have also proven that the “10,000 cigarette” quantity requirement for a CCTA violation.
Rosalie Jacobs of Jacobs Manufacturing/Tobacco testified that her company regularly shipped unstamped
cigarettes in lots of 10,000 cigarettes. (Trial Tr.
1680:8-22 (Jacobs).) This is alone sufficient to establish this element of a CCTA violation. But secondly,
Robert Oliver of Mohawk Spring Water also testified
that he shipped pallets of cigarettes via UPS in an
amount greater than 10,000. (Trial Tr. 1152:231153:11 (Oliver)); PX 49.)
Finally, as this Court and others have previously
found, the CCTA permits the aggregation of separate
deliveries to satisfy the statutory quantity of 10,000

302a
cigarettes. See 131 F. Supp. 3d at 139 (citing cases).
The total number of packages containing cigarettes
delivered by UPS, and the average weights of those
packages, when applied to the known weight of a
packaged carton of cigarettes (assumed here to be one
pound based in part on PX 40, PX 43, and the testimony elicited at trial), demonstrates that the total volume of cigarettes underlying plaintiffs’ claims far exceeds 10,000 cigarettes (fifty cartons).136
UPS asserts several defenses to plaintiffs’ CCTA
claims. They first assert that the forbearance policy
followed by the State of New York prevents enforcement of the law against UPS for deliveries during at
least the first seven months of claimed violations: December 2010 (which the Court found to be the first
date on which UPS had the requisite knowledge) and
June 2011 (when forbearance ended). UPS next argues that it reasonably believed that N.Y. Tax Law
§ 471 could be interpreted to allow common carrier

136

A common carrier “transporting the cigarettes involved under a proper bill of lading or freight bill which states the quantity, source, and destination of such cigarettes” is not subject to
CCTA liability. 18 U.S.C. § 2341(2). UPS has produced no bills
of lading or freight bills for the cigarettes at issue in this action
and accordingly is not entitled to this exemption.
Moreover, for a common carrier to be entitled to the exemption provided by 18 U.S.C. § 2341(2), the cigarettes in question
must be picked up from and delivered to persons legally entitled
to possess unstamped cigarettes. City of New York v. Gordon, 1
F. Supp. 3d 94 (S.D.N.Y. 2013); City of New York v. LaserShip,
Inc., 33 F. Supp. 3d 303 (S.D.N.Y. 2014). UPS has produced no
evidence that any person from which UPS picked up or delivered
was entitled to receive, possess, distribute, or sell unstamped cigarettes and accordingly cannot establish entitlement to this exemption.

303a
transport of unstamped cigarettes between Indian
reservations.
As to forbearance, the Court notes that it has addressed this defense extensively in prior Opinions.
(ECF Nos. 177, 406.)
UPS also argues that even if the State may assert
a CCTA violation, the City lacks standing with regard
to the Potsdam Shippers and cannot. According to
UPS, this is because the Potsdam Shippers sent packages only to other reservations in New York State—
none of which were located in New York City. However, as there is ample evidence to establish UPS’s
knowing transport of cigarettes to consignees in New
York City, therefore establishing a CCTA violation,
there is no standing issue. Other issues are addressed
in the damage discussion set forth below.
As to § 471, the Court has found as a matter of fact
that UPS presented insufficient evidence to support a
reasonable—or even widely held—belief in its asserted statutory interpretation. At long last, despite
the ink spilt, this is an ex post lawyer argument.
XVI. PREEMPTION
UPS argues that plaintiffs’ interpretation of the
AOD expands UPS’s audit obligations beyond the contract terms and thereby regulates a common carrier
in contravention of the Federal Aviation Administration Authorization Act of 1994 (“FAAAA”), which explicitly preempts state laws related to a “price, route,
or service” of carriers that transport property. 49
U.S.C. §§ 14501(c)(1); 41713(b)(4). UPS cites American Airlines, Inc. v. Wolens, in which the U.S. Supreme Court held that private contractual obligations
of an airline are not preempted by federal law in the

304a
same manner as state statutes, to conclude that plaintiffs’ interpretation of the AOD is federally
preempted. See 513 U.S. 219, 222 (1995).
This argument is flawed in at least two respects.
First, it is premised on an incorrect, overly narrow interpretation of the AOD’s audit provision. As discussed above, plaintiffs are correct that a violation of
the audit provision occurs on the date when UPS first
fails to audit a shipper in compliance with its obligations, and that each and every package tendered to
UPS thereafter effects a separate a violation. This interpretation of the audit obligation is therefore within
the terms of the AOD contract. See Wolens, 513 U.S.
at 222 (“We hold that the [Airline Deregulation Act’s]
preemption prescription bars state-imposed regulation of air carriers, but allows room for court enforcement of contract terms set by the parties themselves.”).
Second, the Court views this as an effort by UPS
to shoehorn a federal preemption challenge to § 471
and PHL § 1399-ll into an argument about interpretation of the AOD. This reflects an incorrect understanding of the FAAAA. Indeed, UPS’s argument was
tried and lost in 2003 by parties in another cigarette
contraband case in New York. See Ward v. New York,
291 F. Supp. 2d 188, 207-19 (W.D.N.Y. 2003). In
Ward, plaintiff smoke shops raised the FAAAA
preemption argument as a reason why PHL § 1399-ll
was inapplicable. The court there reviewed the argument in detail and correctly rejected it.
Federal preemption may be express or implied;
whether it is one or the other is determined by the language of the statute. Ace Auto Body & Towing, Ltd.

305a
v. City of New York, 171 F.3d 765, 771 (2d Cir. 1999)
(citing Morales v. TransWorld Airlines, Inc., 504 U.S.
374, 382 (1992)). Accordingly, analysis of preemption
must begin with analysis of the statutory text. Ace
Auto, 171 F.3d at 771. In addition, courts must “start
with the assumption that the historic policy powers of
the States [are] not to be superseded . . . unless that
is the clear and manifest purpose of Congress.” Id.;
Ward, 291 F. Supp. 2d at 209.
Here, the FAAAA expressly preempts state and
local laws. It provides that a state “may not” enact/enforce a law related to, inter alia, price, route, or service
of any motor carrier with respect to transportation of
property. 49 U.S.C. § 14501(c)(1). As in Ward, the
question here is what it means for a statute to be “related to” price, route, or service of a motor carrier.
Ward, 291 F. Supp. 2d at 208.
The FAAAA was designed to “even the playing
field between motor and air carriers.” Id. at 209 (citing Californians for Safe & Competitive Dump Truck
Transp. v. Mendoza, 152 F.3d 1184, 1187 (9th Cir.
1998)). In Mendoza, the court observed that state law
would not be preempted if it affects carriers in too tenuous or remote a manner. Mendoza, 152 F.3d at 1188;
see also Morales, 504 U.S. at 390. State laws that only
have indirect, peripheral effects on the subject matter
of the FAAAA are not sufficiently “related to” it. Cf.
N.Y. State Conf. of Blue Cross & Blue Shield Plans v.
Travelers Ins. Co., 514 U.S. 645, 661-62 (1995).
Here, PHL § 1399-ll is a public health law. It has
been enacted pursuant to the State’s historic police
powers. See Brown & Williamson Tobacco Corp. v.
Pataki, 320 F.3d 200, 216-17 (2d Cir. 2003). There is

306a
therefore a presumption against preemption at the
outset.
The question is next whether Congress expressed
a purpose to preempt this type of state regulation. It
did not. The FAAAA’s preemption provision was designed to override economic regulation of interstate
carriers, “not local safety regulation.” Ace Auto, 171
F.3d at 776; see also Ward, 291 F. Supp. 2d at 209. On
its face and throughout the text, PHL § 1399-ll is designed and intended to address public health issues
associated with smoking. It is only one of a number of
similar New York laws that regulate transport of
items implicating public health and safety (e.g., fur,
skin, hair, meat, alcoholic beverages, invasive species). See Ward, 291 F. Supp. 2d at 210 (citing N.Y.
Agric. & Mkts. Law § 96-h, N.Y. Alco. Bev. Cont. Law
§ 152, and N.Y Envt’l Conserv. Law. § 11-0507(4)).
These and other similar laws may have a peripheral
impact on the business of carriage but are not
preempted by the FAAAA because of Congress’s intent to preserve state control over such items. In
short, PHL § 1399-ll is first and foremost a public
safety regulation—not a carriage regulation.
The fact that PHL § 1399-ll places special burdens
on carriers does not change this result. In this regard,
the statute presumes that if cigarettes are transported to a home or residence, the carrier knew that
the person was not authorized to receive them. This
“home delivery” presumption does not alter the primary character of the statute as concerning public
safety. But in any event, it is a presumption concerning the status (i.e., “unauthorized”) of the package’s
recipient, not its contents. See Ward, 291 F. Supp. 2d
at 210.

307a
The CCTA and § 471 are analyzed similarly. Both
are directed at public safety. In addition, the CCTA
in fact carves out of its definition of contraband “a
common or contract carrier transporting the cigarettes involved under a proper bill of lading or freight
bill which states the quantity, source and destination
of such cigarettes.” 18 U.S.C. § 2341(2)(B).
XVII. UPS’S REMAINING DEFENSES
A. Unclean Hands/In Pari Delicto
UPS has argued that plaintiffs may not recover for
any of the asserted violations based on their own unclean hands or fault. The offending conduct to which
UPS points includes the State’s forbearance policy,
the fact that one state trooper apparently responded
to one inquiry from UPS by stating that it should proceed with “business as usual,” and plaintiffs’ failure to
provide UPS with information regarding cigarette
shippers in plaintiffs’ possession.
To support its “unclean hands” defense, UPS must
show “egregious” misconduct by plaintiffs. See, e.g.,
SEC v. Durante, 641 F. App’x 73, 78 (2d Cir. Mar. 8,
2016); Republic of Iraq, 768 F.3d at 168 (noting that
such egregious misconduct “must ‘shock the moral
sensibilities” (quoting Art Metal Works, Inc. v. Abraham & Straus, Inc., 70 F.2d 641, 646 (2d Cir. 1934) (L.
Hand, J., dissenting))); Nat’l Distillers & Chem. Corp.
v. Seyopp Corp., 214 N.E.2d 361, 362-63 (N.Y. 1966)
(holding that the doctrine of unclean hands “is never
used unless the plaintiff is guilty of immoral, unconscionable conduct and even then only when the conduct relied on is directly related to the subject matter
in litigation and the party seeking to invoke the doctrine was injured by such conduct” (internal quotation

308a
marks omitted)); SEC v. Am. Growth Funding II,
LLC, No. 16-cv-828, 2016 WL 8314623, at *3 (S.D.N.Y.
Dec. 30, 2016) (“[W]here courts have permitted equitable defenses to be raised against the government,
they have required that the agency’s misconduct be
egregious and the resulting prejudice to the defendant
rise to a constitutional level.” (quotation marks and
citations omitted)).
The doctrine of in pari delicto reflects similar principles. To establish this defense, UPS must show that
plaintiffs “participated in wrongdoing equally with”
UPS; if it meets this burden, then plaintiffs may not
recover damages. Republic of Iraq, 768 F.3d at 160.
This defense amounts to a showing that “as a direct
result of the plaintiff’s affirmative wrongdoing, the
plaintiff bears at least substantially equal responsibility, for the [same] violations of which it complains.”
Id. at 167-68 (citations and internal quotations omitted). In other words, “[n]ot only must the plaintiff ‘be
an active, voluntary participant in the unlawful activity that is the subject of the suit,’ but it is necessary
that ‘the degrees of fault [be] essentially indistinguishable or the plaintiff’s responsibility [be] clearly
greater.’” Id. at 162 (quoting Pinter v. Dahl, 486 U.S.
622, 636 (1988)). This is because “[p]laintiffs who are
truly in pari delicto are those who have themselves violated the law in cooperation with the defendant.”
Pinter, 486 U.S. at 636 (quotation marks omitted); see
also Republic of Iraq, 768 F.3d at 168.
UPS bears the burden of proof on this affirmative
defense. See Kirschner, 938 N.E.2d at 513 n.3. As a
factual matter, it has failed to carry it. Thus, the
Court need not address whether plaintiffs’ status as

309a
government entities eliminate or limit the availability
of these defenses.
First, the State’s forbearance policy suggests only
“rational” government conduct. N.Y. Ass’n of Convenience Stores v. Urbach, 712 N.Y.S.2d 220, 222 (N.Y.
App. Div. 3d Dep’t 2000). And the State’s asserted
withholding of information fails to suggest any constitutional prejudice to UPS. See SEC v. Durante, No.
01-cv-9056, 2013 WL 6800226, at *12 (S.D.N.Y. Dec.
19, 2013) (noting that a 10-year “delay” in enforcement is not “egregious”). The facts do not support anything approaching egregious misconduct or wrongdoing equal with that of UPS.
B. Waiver
UPS also asserts that plaintiffs have waived their
claims. This is based on the circumstances relating,
inter alia, to forbearance and, separately, to the Attorney General’s 2011 investigation.
Waiver is the intentional relinquishment of a
known right. U.S. D.I.D. Corp. v. Windstream
Commc’ns, Inc., 775 F.3d 128, 136 (2d Cir. 2014). Conduct said to constitute a waiver “must be clear and unequivocal, as waivers are never to be lightly inferred.”
Id.; Gilbert Frank Corp. v. Fed. Ins. Co., 520 N.E.2d
512, 514 (N.Y. 1988) (“Waiver is an intentional relinquishment of a known right and should not be lightly
presumed.”). Courts will only infer a waiver “where
the parties were aware of their rights and made the
conscious choice, for whatever reason, to waive them.
Mere negligence, oversight, or thoughtlessness does
not create a waiver.” Windstream, 775 F.3d at 136
(internal citations and quotation marks omitted).
Generally, delay in government enforcement in the

310a
public interest does not constitute a waiver or justify
the application of laches. See United States v. Angell,
292 F.3d 333, 338 (2d Cir. 2002) (“[L]aches is not
available against the [sovereign] when it undertakes
to enforce a public right or protect the public interest.”).
Putting aside that the plaintiffs here are governmental entities, the facts here fail to support a waiver.
Plaintiffs did not know all relevant facts until discovery in this matter, and, as a factual matter, there is
insufficient evidence of an intentional relinquishment
of a known right. Thus, this defense fails. Again,
therefore, the Court need not reach the question of
whether plaintiffs’ status as governmental entities
eliminates or limits the availability of this defense.
C. Public Authority and Estoppel
UPS has also asserted public-authority, entrapment-by-estoppel, general estoppel defenses. These
defenses fail as a matter of fact. UPS bases these defenses principally on the forbearance policy and purported instructions by Officer Nitti to UPS employee
Terranova. As stated above, there is no evidence that
anyone at UPS relied upon the State’s forbearance
policy when agreeing to transport cigarettes. In addition, as a factual matter, and for the reasons also
stated above, the Nitti/Terranova conversations cannot ground this defense. Even if UPS had relied on
the Nitti/Terranova communications, it would have
been unreasonable to do so.
The public-authority defense and the related entrapment-by-estoppel defense have only been applied
within the limited confines of a criminal action, which
this case is not. See, e.g., Cox v. Louisiana, 379 U.S.

311a
559, 569-71 (1965) (addressing estoppel defense to a
criminal conviction under Louisiana state law);
United States v. Giffen, 473 F.3d 30 (2d Cir. 2006) (addressing, inter alia, Federal Rule of Criminal Procedure 12.3, which governs the notice requirement for a
defendant’s assertion of a public authority-defense,
and defendant’s criminal indictment for violations of
several federal statutes); United States v. Schwartz,
924 F.2d 410, 421-22 (2d Cir. 1991) (addressing defendants’ appeal of their convictions from criminal violations of RICO, among other federal statutes).
Even assuming, arguendo, that these criminallaw defenses could be imported into a civil-law dispute, UPS’s evidence at trial fails to support such defenses. In order for a defendant to succeed in raising
these defenses, he or she must have revealed the full
extent of his or her criminal acts or illegal conduct—
simply raising a “reasonable suspicion” is insufficient.
Giffen, 473 F.3d 30, 40 n.9 (noting that “[b]ecause neither Giffen nor the defendants in Schwartz revealed
their criminal acts, in neither case could governmental authorization to do the acts revealed constitute authorization to do the illegal acts that were not revealed”); id. 41 n.10 (noting that “in order to establish
authorization of criminal conduct through the approval by government officials of the acts he described, Giffen must have reasonably clearly revealed
the criminal aspect of those acts—not merely raised a
suspicion about it”).
Here, Terranova never disclosed to Nitti the unlawful nature of UPS’s deliveries—i.e., that UPS’s
bulk shipments were being delivered by UPS to persons that were not licensed or authorized pursuant to
federal or state law to possess such cigarettes. (See

312a
Terranova Decl., DX 612 ¶¶ 1-2, 7 (failing to identify
where such bulk shipments of cigarettes were being
delivered); Trial Tr. 1529:20-1530:24 (Terranova)
(failing to identify where the cigarettes were being delivered to); id. 1532:20-25 (Terranova) (testifying that
he did not reveal to Nitti the names of the shipper accounts and that he no idea where the cigarettes being
picked up by UPS were being delivered).)
Indeed, the source of Terranova’s information—
Steve Talbot, former UPS Potsdam dispatch/preload
supervisor—never told Terranova where or to whom
the “bulk shipments” of cigarettes were being delivered. (Talbot Decl., DX 606 ¶¶ 1, 79; see also id.
1267:1-14 (Talbot) (Talbot testifying that he did not
recall where the cigarettes were being sent to, and did
not recall the details of his conversation with Terranova); id. 1254:23-25 (Talbot) (Talbot testifying that
he suffered a head injury roughly five or six years
ago—i.e., around the time of his conversation with
Terranova); id. 1255:1-3 (Talbot) (Talbot testifying his
head injury affected his short-term memory).) Terranova, moreover, took no steps to determine where,
or to whom, such cigarettes were being shipped. (See,
e.g., Trial Tr. 1528:9-11 (Terranova) (Terranova testifying that he did not ask Talbot any questions during
his phone conversation with him); id. 1533:23-25 (Terranova testifying that he did not contact any other
UPS Centers regarding his conversation with Nitti);
id. 1274:23-25 (Talbot) (Talbot testifying that he and
Terranova never discussed conducting an audit).)
UPS’s records are furthermore devoid of any such
phone conversation between Terranova and Nitti.
(See Trial Tr. 1528:12-1529:7 (Terranova) (Terranova
testifying that UPS policy required him to document

313a
all investigations in UPS’s IRS system); id. 1534:2022 (Terranova) (Terranova testifying that he could not
recall documenting his conversation with Nitti); see
also id. 1268:16-20 (Talbot) (Talbot testifying that he
did not record his phone conversation with Terranova); id. 1268:23-25 (Talbot) (Talbot testifying that
he did not make a practice of recording his phone calls
with UPS Security); id. 1269:15-18 (same)).
Given such evidence (or the lack thereof), in terms
of the “public authority” defense, Nitti could not have
“authorized” UPS’s illegal or criminal conduct because, as shown above, Terranova had no idea
whether such deliveries were unlawful, much less
failed to disclose any facts that would suggest UPS’s
delivery of cigarettes to individual consumers or persons otherwise not authorized to possess such cigarettes. As a result, UPS cannot take advantage of the
actual public-authority defense.
Similarly, UPS’s entrapment-by-estoppel defense
fails. For this defense, a defendant must show that
“he reasonably relied on the statement or conduct of a
government official when he engaged in the conduct
with which he is charged.” United States v. Tonawanda Coke Corp., No. 10-cr-219, 2013 WL 672280,
at *3 (W.D.N.Y. Feb. 22, 2013); see also United States
v. Miles, No. 11-cr-581, 2012 WL 4178274, at *4
(S.D.N.Y. Sept. 20, 2012). There must also be “‘an affirmative representation’ that the proscribed conduct
‘was or would be legal,’ not an affirmative representation that the proscribed conduct was against the law.”
Miles, 2012 WL 4178274, at *4.

314a
Perhaps most importantly, the defendant must
similarly show “that he reasonably disclosed the conduct alleged in the indictment to the government before or at the time of authorization. That is, the disclosure and authorization must be linked.” Tonawanda Coke, 2013 U.S. Dist. LEXIS 25398, at *9
(internal citations omitted) (citing cases); see also
Giffen, 473 F.3d at 42 (rejecting a defendant’s entrapment-by-estoppel defense where “[he] failed to apprise
the government officials that he was engaged in bribery and fraud, [accordingly,] we do not see how [he]
could have reasonably understood the officials’ response as authorization to engage in bribery and
fraud”).
Here, as shown above, at no point did Terranova
reveal the illegal or criminal nature of UPS’s actions,
because Terranova himself did not know (and did not
take any steps to determine) who the intended recipients of UPS’s delivered cigarettes were. Given such
evidence, UPS’s entrapment-by-estoppel defense is
unsupported and fails as a matter of law.
XVIII. DAMAGES
The Court has found that UPS violated its obligations under the AOD, the PACT Act, PHL § 1399-ll,137
and the CCTA. The Court turns now to the related
questions of compensatory damages and penalties.
This is not the first case, nor will it be the last,
where plaintiffs focused their energies so intensely on
questions of liability that they shortchanged their
damages case. UPS has made serious motions to
137

Damages under N.Y. Exec. Law § 63(12) are the same as
damages under PHL § 1399-ll.

315a
strike plaintiffs’ damages altogether based on two separate and self-inflicted wounds: (1) plaintiffs’ failure
to provide a robust pre-trial damage computation pursuant to Federal Rule of Civil Procedure 26, and (2)
their failure to anticipate evidentiary issues with the
trial presentation of their damages claim.138 The Court
addresses the pre-trial issues first, and then proceeds
to damages issues that arose during the trial. Ultimately, the Court finds that admitted evidence supports reasonable inferences regarding damages and
penalties, and that the methodology the Court applies
here does not require the use of an expert.
A. UPS’s Pre-Trial Damage Disclosure
The original complaint in this case contained a
prayer for relief seeking damages, penalties, injunctive relief, and the appointment of a monitor. (ECF
No. 1 at 39.) Those requests are contained in the operative complaint as well. (ECF No. 189 at 48.) There
was never any doubt that the case was significant—
the acknowledged reality of that fact was evident in
the robust staffing and vigorous litigation by both
sides. Nevertheless, a defendant may know that a
case is big—even very big—and yet not understand
how big, or how the plaintiffs intend to prove their
particular claims. The Federal Rules of Civil Procedure are designed, inter alia, to prevent trial by ambush. This applies to liability and damages issues
equally. Defendant asserts that it was not provided
138

It would have been far easier, and safer, to have retained a
damages expert. Perhaps cost informed plaintiffs’ decision not to
do so—the Court cannot know. Plaintiffs should understand
that, while the Court ultimately determines that they are entitled to certain damages, the motion to preclude all damages was
quite a serious one.

316a
with disclosures to which it was entitled under Rule
26(a)(1)(A)(iii), and that this Court should preclude
plaintiffs’ damage claim on this basis. The Court declines to do so. While plaintiffs could have had a more
robust Rule 26 disclosure—and indeed, should have—
the Court finds that, under all of the relevant circumstances, preclusion of damages is unwarranted.
The Court’s conclusion is based on a number of
factors. To start, the Court agrees with defendant’s
basic premise that Rule 26(a)(1)(A)(iii) is designed to
prevent undue surprise regarding damages. It requires every plaintiff to provide its opponent with “a
computation of each category of damages claimed”
and requires disclosure of “the documents or other evidentiary material, unless privileged or protected
from disclosure, on which each computation is based,
including materials bearing on the nature and extent
of injuries suffered.” Fed. R. Civ. P. 26(a)(1)(A)(iii).
The case law contains a number of examples of defendants seeking preclusion of damages for failure to
comply with Rule 26. This Court has itself, on the
facts of particular cases, granted such motions. While
Rule 26(a)(1)(A)(iii) provides for mandatory—not discretionary—obligations on the parties, a Court’s determination to impose preclusion as a penalty for failure to comply is discretionary. See Design Strategy,
Inc. v. Davis, 469 F.3d 284, 294 (2d Cir. 2006). The
Court has previously concluded that the principles underpinning Rule 26(a)(1)(A)(iii) apply to penalties as
well as compensatory damages. (See ECF No. 413.)
It is not uncommon for plaintiffs to seek to delay
the time that they must commit to a damages calcula-

317a
tion, and it is common for a defendant to press the issue. That occurred here. By Order dated February 1,
2016 (ECF No. 169), this Court required plaintiffs to
provide UPS with information regarding the nature of
plaintiffs’ expected proof regarding an exemplar shipper. Plaintiffs complied with that order with a disclosure dated March 3, 2016. (See ECF No. 396-3.)
Plaintiffs’ March 3, 2016 disclosure provided detailed information, in chart form, for the “Arrowhawk
Group” of shippers (which then, as now, included Arrowhawk Cigars, Seneca Cigars, Two Pine Enterprises, and Hillview Cigars). Citing documents identified by Bates number from UPS’s production, the
March 3, 2016 disclosure referenced the total number
of packages transported by UPS. Plaintiffs stated
that they expected to prove that these shipments all
contained cigarettes based on, inter alia, witness testimony (which they described) and shipping invoices.
Plaintiffs further outlined that they intended to prove
UPS’s knowledge that these shipments contained cigarettes based on circumstantial evidence of the pickup
location, signage, and inventory. In addition, plaintiffs indicated that testimony from and relating to
UPS drivers would be used to support their claims.
This is, in fact, what plaintiffs did.
Based on this evidence (which plaintiffs detailed
in three single-spaced pages), plaintiffs set forth a
chart that indicated that plaintiffs would each seek
damages relating to separate violations of the CCTA,
RICO, PACT Act, PHL § 1399-ll, and the AOD.139 The

139

The RICO claims were dismissed by Opinion & Order dated
August 9, 2016. (ECF No. 322.)

318a
chart further indicated the amounts for each claim for
the exemplar shipper group.
Following the chart, plaintiffs disclosed the methodology they intended to use to arrive at their particular calculation for compensatory damages under the
CCTA, including a computation of cartons of cigarettes based on the number of packages, the average
weight of the packages, and the average weight of a
carton of cigarettes. In total, plaintiffs’ disclosure revealed that they would be seeking over $100 million
dollars for this shipper group alone. The other shipper groups at issue were well known by this point in
the litigation (and, as defendant itself has noted, the
initial list of shippers at issue shrunk between the
time the case was filed and trial).
Plaintiffs’ March 3, 2016 disclosure complied with
this Court’s Order of February 1, 2016, which required
only an exemplar calculation. Defendant did not seek
reconsideration of that limitation. There is no doubt
that UPS possessed the information to replicate this
same calculation for each shipper at issue: It knew
the shippers, it could easily locate the same types of
documents for each, and it knew plaintiffs’ general
methodology. But more than that, the calculations
were ultimately based on known data points: penalty
ranges generally set forth in the AOD and statutory
schemes at issue, and compensatory damages based
on the statutory tax rate imposed on a carton of cigarettes.
While this was a “big” case—insofar as it was anticipated from the outset that the number would be
big as it concerns a number of shippers—it was not a
particularly complicated one. In addition, several

319a
weeks prior to trial, plaintiffs offered to provide defendant with a full calculation for each shipper. To
the extent there was any remaining mystery, agreeing
to accept this calculation would have eliminated it.
For reasons never explained but assumed to be tactical, defendant declined that offer. Had defendant
agreed to receive the calculation, it would have been
able to review it, assess prejudice based on late disclosure, and, if necessary, seek an adjournment. This
Court is left with the distinct impression that UPS’s
refusal to accept the calculation was a considered
move designed to retain a “cleaner” position on the
very motion now under consideration. This Court is,
however, also left with the distinct impression that
UPS had sufficient information about the methodology to prepare for trial.
The key question is whether there is any real prejudice to UPS from the incomplete March 3, 2016 disclosure combined with the trial disclosure of damages
sought. From the opening statement onward UPS expressed outrage that plaintiffs could seek such a significant sum—over $800 million—without a full Rule
26 disclosure. But the Court’s February 1, 2016 order
had allowed just that, and in any event defendant
turned down a full calculation several weeks before
trial. UPS ignored the fact that plaintiffs’ March 3,
2016 disclosure had left them in no suspense as to the
magnitude of the case—it disclosed over $100 million
in damages; one could easily assume that the addition
of the remaining shipper groups would add significantly to that figure.
But UPS also had some specific complaints as to
plaintiffs’ pre-trial disclosure compared to their trial

320a
disclosure. Notably, certain assumptions plaintiffs included in their March 3, 2016 disclosure changed. For
instance, in calculating compensatory damages (based
on lost tax revenue), plaintiffs attempted to estimate
how many cartons were at issue. This requires calculation of how many cartons are in a package. It is certainly true that plaintiffs’ position on the appropriate
weight assumption (per package or per box)
changed—but of course, that is only one input, and
one which defendant itself could counter at trial with
the information it easily had at its disposal. Changes
in such facts alone would rarely form a basis for preclusion.
UPS asserts that it was prejudiced in other ways,
as well. It argues that plaintiffs’ failure to make adequate pre-trial disclosures prevented it from identifying appropriate rebuttal witnesses and testimony.
This argument rings hollow. UPS had a detailed disclosure regarding the Arrowhawk Group yet did not
identify any rebuttal witnesses or seek to counter
even that disclosure with an expert. Had UPS done
that, its argument that it was prejudiced by a lack of
information regarding other shippers would carry
more weight. And in all events, as to one main source
of proof—the delivery spreadsheets—UPS knew as of
March 3, 2016, that these spreadsheets would be used
in connection with the calculations for all shippers. If
UPS believed the spreadsheets were unreliable or
were being relied upon in an inappropriate manner, it
could have called a witness to explain why. It did not
do so.
As discussed further below, the Court views UPS
as having made deliberate, tactical choices as to how
it would approach plaintiffs’ damages case: It drew

321a
careful lines to position this preclusion argument as
best it could. In the end, the Court is not convinced
that UPS lacked adequate pre-trial notice to counter
plaintiffs’ damages claim, nor is it convinced that UPS
suffered any real prejudice. Defendant’s motion to
preclude based on inadequate Rule 26 damages disclosure is therefore DENIED.
B. Legal Principles Regarding Damages
Plaintiffs seek compensatory damages in connection with their CCTA and PACT Act claims, as well as
penalties for violations of the AOD, the PACT Act, and
PHL § 1399-ll.
1. Compensatory Damages
Plaintiffs seek compensatory damages under the
Pact Act and CCTA for lost tax revenues associated
with non-tribal members’ receipt of unstamped cigarettes. The facts make it clear that unstamped cigarettes were delivered to such consumers. However,
how much lost tax revenues is properly associated
with such shipments is open to serious debate.
Defendants argue that to prove entitlement to
such damages, plaintiffs bear the burden of proving a
causal connection between UPS’s transport of cigarettes and lost tax revenues. Plaintiffs argue that
such a causal connection is not required but that, in
any event, they have shown one.
Plaintiffs are incorrect; a causal connection is required. As described above, lost tax revenues are a
type of compensatory damages. Compensatory damages are intended to put a plaintiff back into “a position substantially equivalent to the one that he or she

322a
would have enjoyed had no tort been committed.” Anderson Grp., LLC v. City of Saratoga Springs, 805
F.3d 34, 52 (2d Cir. 2015). Plaintiffs “bear[] the burden of proving damages with reasonable certainty[.]”
Raishevich v. Foster, 9 F. Supp. 2d 415, 417 (S.D.N.Y.
1998); see also Norcia v. Dieber’s Castle Tavern, Ltd.,
980 F. Supp. 2d 492, 500 (S.D.N.Y. 2013). Courts “will
not permit recovery when the connection between the
claimed loss and the tortious act is speculative or uncertain.” Anderson, 805 F.3d at 52. This means plaintiffs “bear[] the burden of showing that the[ir] claimed
damages are the ‘certain result of the wrong.’” Id. at
52-53. That said, when uncertainty in proving damages is caused by the defendant’s own wrongful act,
“justice and sound public policy alike require” that the
defendant “bear the risk of the uncertainty thus produced.” Story Parchment Co. v. Paterson Parchment
Paper Co., 282 U.S. 555, 565 (1931); see also Whitney
v. Citibank, N.A., 782 F.2d 1106, 1118 (2d Cir. 1986)
(“When a difficulty faced in calculating damages is attributable to the defendant’s misconduct, some uncertainty may be tolerated.”).
As discussed above, this Court has found that
UPS is responsible for transporting cigarettes to unauthorized recipients. But the determination of compensatory damages is complex: Had UPS not transported such cigarettes, would the recipients of such
shipments have purchased stamped cigarettes in New
York City and New York State? In other words, have
plaintiffs demonstrated that UPS’s transport of unstamped cigarettes more likely than not led to a quantifiable loss in tax revenues?
As an initial matter, the evidence strongly supports consumer motivation to purchase unstamped

323a
cigarettes as a method of acquiring lower-cost cigarettes. However, the evidence supports that when
prices of cigarettes increase, a nontrivial number of
consumers switch to lower-cost tobacco products (such
as little cigars); the evidence also supports consumers
seeking lower-cost cigarettes going to other states
with lower tax rates; and the evidence further supports some consumers faced with higher-cost cigarettes ceasing use altogether.140

140
Dr. Nevo opined that—in a “but-for world” where the untaxed cigarettes allegedly shipped by UPS were not available—
very few purchasers of unstamped cigarettes would instead have
purchased New York-tax-paid cigarettes. (Nevo Decl., DX 613
¶¶ 11, 12.) Dr. Nevo concluded that the purchasers would have
diverted to other untaxed cigarettes and non-cigarette alternatives (such as little cigars, cigars, and smokeless tobacco) while
some would also have simply quit altogether. (Id. ¶¶ 38-40.) Dr.
Nevo concluded that buyers of the cigarettes at issue have revealed that they are less brand loyal and more price sensitive,
and, therefore, are far more likely to purchase untaxed or lowtaxed cigarettes or other, lower-cost non-cigarette tobacco products and nicotine products than an average consumer. (Id. ¶ 39.)
Dr. Nevo’s testimony relied, in part, on the New York Adult Tobacco Survey. This survey was not representative of the consumer base at issue, and the Court considers it to be weak evidence. However, based on this flawed survey, Dr. Nevo opined
that mail-order purchasers of cigarettes, such as those here, are
76% more likely than all other smokers to make a special effort
to obtain low-priced cigarettes, 308% more likely to report that
cigarette prices influenced their use of other non-cigarette tobacco products, 132% more likely to purchase cigarettes from an
out-of-state or out-of-country supplier, and 28% more likely to
purchase cigarettes from a Native American reservation. (Id.
¶ 55 Table 5.)

Dr. Nevo ultimately estimated that diversion in the but-for
world from the untaxed cigarettes at issue to NY-tax-paid cigarettes would be between zero and 5.4%. (Id. ¶ 63.)

324a
On the other hand, even Dr. Nevo agrees that up
to 5.4% of package recipients might have purchased
stamped/taxed cigarettes instead. This percentage is
unduly low. First, it ignores that seizures of packages
occur without prior notice—thus, consumers relying
on the delivery of unstamped cigarettes to satisfy
their addiction would not be able to quickly take the
various actions necessary to immediately replace
them (for instance, driving to another state or placing
an order with another company using a different courier). Dr. Nevo does not consider this issue. Nor does
he consider the transportation limitations of New
York City dwellers in accessing cars to drive out of
state. These timing and location issues are two serious flaws with Dr. Nevo’s 5.4% number.
On balance, the Court cannot arrive at a precise
number of cigarette cartons consumers would have
purchased, but 50% is a reasonable number based on
the totality of facts. The Court therefore finds plaintiffs are entitled to compensatory damages in the
amount of 50% of Cartons (defined below) shipped by
the Liability Shippers. Plaintiffs shall submit to the
Court for its review separate compensatory damages
calculations for plaintiffs successful claims under the
PACT Act and CCTA, in accordance with the findings
and timeframes detailed by the Court in this Opinion.
2. Penalties
The AOD and each of the statutory schemes provide for the assessment of penalties. In general, civil
penalties are designed in some measure “to punish
culpable individuals” and not “simply to extract compensation or restore the status quo.” Tull v. United
States, 481 U.S. 412, 422 (1987); accord Johnson v.

325a
SEC, 87 F.3d 484, 492 (D.C. Cir. 1996) (“[T]he ordinary, contemporary, common meaning of the word
‘penalty,’ [is] a sanction imposed by the government
for unlawful or proscribed conduct which goes beyond
remedying the damage caused to the harmed party.”).
Penalties are also designed to “deter future violations”
and “prevent[] [the conduct’s] recurrence.” Friends of
the Earth, Inc. v. Laidlaw Envtl. Servs., Inc., 528 U.S.
167, 185-86, 188 (2000); see also id. (explaining that
remedies, such as civil penalties, encourage defendants to discontinue violations that were ongoing at the
time of the complaint and to deter defendants from
committing future violations even if they can afford to
compensate injured plaintiffs).
There is an “enormous range of penalties available to the district court in the usual civil penalty case.”
United States v. J.B. Williams Co., Inc., 498 F.2d 414,
439 (2d Cir. 1974); see also id. at 438 (A district court
may properly consider “a number of factors” in determining the size of a civil penalty, “including the good
or bad faith of the defendants, the injury to the public,
and the defendants’ ability to pay.”) The Second Circuit has articulated the factors a court should consider
as follows: (1) the level of the defendant’s culpability,
(2) the public harm caused by the violations, (3) the
defendant’s profits from the violations, and (4) the defendant’s ability to pay a fine. Advance Pharm., Inc. v.
United States, 391 F.3d 377, 399 (2d Cir. 2004).141 In
141

Courts also have recognized that it is appropriate to consider
the actions of plaintiffs when assessing penalties. See Milhelm
Attea, 2012 WL 3579568, at *33 (“[T]he Court believes that a
penalty award in this case should take some account of the fact
that state tax authorities actively acquiesced in the defendants’

326a
Advance Pharmaceuticals, the United States brought
a civil enforcement action for statutory violations
against defendants, a pharmaceutical manufacturer
of pseudoephedrine tablets, and its principals, for failure to report shipments as required by statute. Failure to comply carried a statutory fine of up to $10,000
per violation. Id. at 383. The alleged violations related to nine customers and 159 shipments. Id. at 385.
Testimony at trial supported gross profits on such
shipments in the amount of between $2,918,361 and
$5,076,000. Id. at 389, 400. The district court imposed a monetary penalty of $2 million; this exceeded
the amount sought by the government by $250,000.
The Second Circuit noted that the evidence supported
a fine (based on the number of proven violations and
the maximum per penalty amount) of $2,490,000. Id.
at 399. The Second Circuit considered the four factors

business model for years, despite actual knowledge that large
amounts of untaxed cigarettes were being sold and distributed to
non-Native Americans as a result of the forbearance regime.”);
United States v. White-Sun Cleaners Corp., No. 09-cv-2484, 2011
WL 1322266, at *9 (E.D.N.Y. Mar. 9, 2011) (one of the factors a
court looks at when determining the amount of damages under
the Resource Conservation and Recovery Act is “the government’s conduct”); United States ex rel. Bunk v. Birkart Globistics
GMBH & Co., Nos. 02-cv-1168, 07-cv-1198, 2010 WL 4688977, at
*8 n.14 (E.D. Va. Nov. 10, 2010) (“[T]he extent of the government’s knowledge and its conduct in light of what it knew remains relevant considerations to the Court in considering an appropriate civil penalty.”). The Court takes plaintiffs’ conduct into
account when assessing appropriate penalties here. However,
the Court notes that UPS is not in the position of the plaintiffs
in Milhelm Attea. UPS is a carriage service that should never
have expected forbearance to apply to its actions.

327a
discussed above and affirmed the award despite defendants’ argument that the business could not support the amount. Id. at 400.
In Tull, the defendant was accused of violating the
Clean Water Act. 481 U.S. at 414-15. Violations of
that statute carried penalties of up to $10,000 per day
during the period of violation. Id. at 414. Despite the
fact that the defendant demonstrated that he had realized no profits from his actions, the district court imposed a fine of $35,000. Id. at 415. The district court
stated that the purpose of such a penalty was not
simply disgorgement of profits, but also punishment.
Id. at 423. Tull argued on appeal that the district
court had inappropriately denied him the right to a
jury trial on liability as well as the amount of penalty.
The U.S. Supreme Court found that while he was entitled to a jury trial on liability, Congress had fixed
the amount of penalty and delegated that determination to trial judges. Id. at 426. “In this case,” the Court
explained, “highly discretionary calculations that take
into account multiple factors are necessary in order to
set civil penalties under the Clean Water Act. These
are the kind of calculations traditionally performed by
judges.” Id. (citing Albermarle Paper Co. v. Moody,
422 U.S. 405, 44243 (1975) (Rehnquist, J., concurring)).
In Laidlaw, the Supreme Court reiterated the
basic principle that the district court has wide discretion to fashion appropriate relief. See 528 U.S. at 192.
It further stated that when choosing an appropriate
penalty—whether a fine, injunctive relief, both, or
neither—a court “should aim to ensure ‘the framing of
relief no broader than required by the precise facts.’”

328a
Id. at 193 (citing Schlesinger v. Reservists Comm. to
Stop the War, 418 U.S. 208, 222 (1974)).
The facts before this Court indicate that significant penalties are appropriate. While the precise
amount shall be calculated and considered against
constitutional principles (as discussed below) in a separate order, the Court discusses the basic factors supporting the imposition of penalties here.
First, the Court considers the facts above to
demonstrate a high level of culpability by UPS. Numerous separate acts by numerous UPS employees allowed vast quantities of unstamped cigarette shipments to be delivered to unauthorized recipients in
New York. The New York Executive Branch and legislature, along with Congress, had specifically attempted to prevent this with the AOD, the PACT Act
(which should have incented compliance with the
AOD), the CCTA, and PHL § 1399-ll. UPS largely relied on its size and weak internal procedures to excuse
blatantly culpable conduct. But there were many,
many people within UPS who consciously avoided the
truth, for years. Even so, the Court also recognizes
that UPS has now—since the lawsuit was filed—regained its footing. UPS now approaches compliance
with the AOD and the various statutory schemes with
renewed vigor and additional processes and procedures.
The second factor is the public harm caused by the
conduct. The State and federal legislatures have
deemed transport of cigarettes as a public health issue, and the effects of cigarette usage are well known.
However, it is also the case that UPS is not the cigarette manufacturer or seller—it is a transporter.

329a
Thus, it bears a lower level of culpability for the impact on public health than other entities. In addition,
it is unclear whether, in the absence of UPS’s
transport of cigarettes, the same public health effects
would still be felt. The Court cannot speculate as to
this. The Court focuses UPS’s unlawful enablement
of a public health impact that the political branches
have proscribed and the costs of which New Yorkers
must bear.
The third factor—defendant’s profits from the violations—suggests a low amount of penalties. UPS
has focused on its limited revenues and profits from
its transport of the shipments at issue. But these are
not the only relevant metrics. It is also the case that
maintaining customers helps UPS’s overall competitive position; if there are many UPS routes in an area,
it is reasonable to infer that this assists with the acquisition of business through network effects and
economies of scale.
Finally, the Court weighs UPS’s ability to pay a
fine. UPS is a large company with significant assets.
Its financial statements are public record. Not only
can it handle a hefty fine, only a hefty fine will have
the impact on such a large entity to capture the attention of the highest executives in the company—executives who then, in a rational economic move, will
cause changes in practice and procedures to be strictly
maintained. A fine that is in line with only the profits
and revenues associated with the conduct would not
have this deterrent impact.

330a
C. Constitutional/Conscionability Issues with
Penalties
One of UPS’s principal arguments against the
penalties plaintiffs seek concerns the aggregate
amount. According to UPS, the total amount in penalties sought by plaintiffs—amounting to some $800
million—significantly exceeds revenue from the shipments at issue and, therefore, its imposition would violate constitutional prohibitions on excessive fines as
well as case law limiting civil penalties. UPS cites
United States v. Bajakajian, 524 U.S. 321, 334 (1998),
and BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 574,
581-83 (1996), for its arguments that the Eighth
Amendment’s requirement of proportionality and the
Fifth Amendment’s due process guarantee prohibit
this Court from imposing the amount plaintiffs seek.
However, neither these nor other cases regarding penalties impose per se limits on the amount a court may
impose.
The Eighth Amendment provides, in relevant
part, that “[e]xcessive bail shall not be required, nor
excessive fines imposed[.]” U.S. Const. amend. VIII;
Bajakajian, 524 U.S. at 327. In Bajakajian, the Supreme Court observed that it had never before applied
the Excessive Fines Clause. Id. It had, however, previously determined that the word “fine” as used in this
clause means “‘payment to a sovereign as punishment
for some offense.’” Id. at 327-28 (quoting BrowningFerris Indus. of Vt., Inc. v. Kelco Disposal, Inc., 492
U.S. 257, 265 (1989)). “The Excessive Fines Clause
thus ‘limits the government’s power to extract payments, whether in cash or in kind, as punishment for
some offense.” Id. at 328 (quoting Austin v. United
States, 509 U.S. 602, 609-10 (1993)). The “touchstone”

331a
of the constitutional inquiry is proportionality. Id. at
335. “The amount of the [fine] must bear some relationship to the gravity of the offense that it is designed
to punish.” Id. at 334. The Court held that a punitive
fine “violates the Excessive Fines Clause if it is grossly
disproportional to the gravity of a defendant’s offense.” Id.
In Bajakajian, the defendant was charged with
transporting more than $10,000 in currency and violating a reporting requirement when the defendant
attempted to board a flight with $357,144. Id. at 324.
The defendant pleaded guilty, and the government
sought forfeiture of the entire amount. At sentencing,
the district court found that while the entire amount
was subject to forfeiture under the applicable statute,
to impose forfeiture would constitute an excessive fine
(it was important to the court’s decision in this regard
that the amounts at issue were not alleged to be proceeds of criminal activity). The court imposed forfeiture in the amount of $15,000, the government appealed, and the Ninth Circuit affirmed. Id. at 326.
The U.S. Supreme Court first reasoned that forfeitures were a penalty and constituted a fine, bringing them under the Excessive Fine Clause of the
Eighth Amendment. It then turned to the analysis of
proportionality. The Court held that a proportional
fine is one that bears “some relationship to the gravity
of the offense that it is designed to punish.” Id. at 354.
The Court set forth the standard courts should apply
to fines to determine proportionality. It determined
that “[e]xcessive means surpassing the usual, the
proper, or a normal measure of proportion.” Id. at 335.

332a
The Court further held that to determine whether
a fine is proper or normal, courts should look first to
any legislative pronouncement on the issue because
“judgments about the appropriate punishment for an
offense belong in the first instance to the legislature.”
Id. at 336 (citing Solem v. Helm, 463 U.S. 277, 290
(1983) (“Reviewing courts . . . should grant substantial
deference to the broad authority that legislatures necessarily possess in determining the types and limits of
punishments for crimes.”), and Gore v. United States,
357 U.S. 386, 393 (1958) (“Whatever views may be entertained regarding severity of punishment, . . . these
are peculiarly questions of legislative policy.”)). Second, the Court held that judicial determinations regarding the gravity of a particular offense will be “inherently imprecise.” Bajakajian, 524 U.S. at 336. In
light of these two principles, the Court cautioned
“against requiring strict proportionality between the
amount of the punitive [fine] and the gravity of a criminal offense[.]” Id. The Court therefore “adopt[ed] the
standard of gross disproportionality articulated in
[its] Cruel and Unusual Punishment clause precedents.” Id. (citing Solem, 463 U.S. at 288, and Rummel v. Estelle, 445 U.S. 263, 271 (1980)).
Precedent therefore instructs courts to look at the
amount of the fine compared to the gravity of the offense, a deeply factual question. In Bajakajian, the
Supreme Court found that forfeiture of the entire
$357,144 would violate the Excessive Fines Clause because the defendant’s crime was solely a reporting offense and unrelated to any other illegal activities. Bajakajian, 524 U.S. at 337. The Court further noted
that under the Sentencing Guidelines, the maximum
fine for such an offense was $5,000. Id. at 338. The

333a
Court next examined the harm caused by the offense
and found that in the case before it, the harm was
minimal. Id. at 339. Finally, the Court turned to
whether any applicable statutes provided guidance; it
traced the history of early forfeiture statutes for similar crimes and determined that their original remedial purpose was reimbursement of the government’s
losses due to evasion of custom duties. Id. at 341-43.
In the end, the Supreme Court agreed that forfeiture
of the entire amount was unwarranted and affirmed
forfeiture in the lower amount. Id. at 344.
Bajakajian guides this Court’s analysis. The Supreme Court instructs that the aggregate penalties
imposed by the various statutory schemes are
properly analyzed according to the Eighth Amendment proportionality standard. In this regard, the
Court observes the following here: (1) The AOD as
well as each of the statutory schemes at issue are directed to maintaining and furthering important social
interests, namely the health of the public and preventing the costs associated with cigarette-related disease;
and (2) taxation schemes are designed to further these
interests and to raise revenue to offset associated
costs. Thus, the basic rationale underpinning the
AOD and statutes points to serious and important
public interests. The Court further observes that, as
discussed in more detail below, the AOD and statutory
schemes anticipated the possibility of imposing multiple layers of penalties. For instance, the PACT Act
provides an exemption that is contingent: If the AOD
is not honored, then the exemption is eliminated. It
was understood by Congress that this would expose
an entity to AOD penalties, PACT Act penalties, and

334a
PHL § 1399-ll penalties. This was a legislative judgment. See Bajakajian, 524 U.S. at 335. Thus, layering penalties reflects congressional intent regarding
appropriate punishment. Bajakajian dictates serious
consideration of this fact.
Nonetheless, the Court must examine whether, in
the aggregate, the penalties become grossly disproportionate to remediation or deterrence under the Eighth
Amendment. In this regard, the Court turns to the
record evidence regarding the societal interests in preventing contraband cigarette trafficking, and the associated health costs of cigarette use. The trial declaration and testimony of Dr. Angell is instructive. As
discussed above, Dr. Angell testified that tobacco use
kills approximately 28,200 New Yorkers each year,
which exceeds the number of deaths caused by alcohol, motor vehicle accidents, firearms, toxic agents,
and unsafe sexual behaviors combined. (Angell Aff.,
PX 628 ¶ 5.) Dr. Angell also testified that each year,
tobacco-related healthcare costs New Yorkers $10.4
billion. (Id. ¶ 7.) Dr. Angell further testified that “tobacco users are price sensitive, and higher taxes on
tobacco products decrease the demand for the affected
products.” (Id. ¶ 10.)
Thus far, the Court has focused on the defendant’s
Eighth Amendment argument. As mentioned, defendant also relies on BMW for the proposition that imposition of the amount of penalties plaintiffs seek would
violate their rights under the Fifth Amendment.
BMW involved punitive damages—it did not concern
the imposition of contractually agreed-upon or statutory penalties. 517 U.S. at 562. This ground alone distinguishes the case from that before this Court. But
the facts of BMW are also instructive. In that case,

335a
the plaintiff—Gore—had purchased what he believed
to be a new BMW; he later learned that it had been
repainted. Id. at 563. At trial, BMW acknowledged
that it did not advise its dealers (and hence their customers) of pre-delivery damage to new cars when the
cost of repairs was less than 3% of the suggested retail
price. Id. at 563-64. The jury awarded $4,000 in compensatory damages and $4 million in punitive damages. Id. at 565. Defendant challenged the punitive
damage award as grossly excessive and in violation of
the Due Process Clause. Id. The state supreme court
reduced the award to $2 million but found no due process violation. Id. at 567. The Supreme Court granted
certiorari to review if and when a punitive damages
award could violate constitutional due process. BMW
of N. Am., Inc. v. Gore, 513 U.S. 1125 (1995).
The Supreme Court based its analysis on the
“[e]lementary notion[] of fairness enshrined in our
constitutional jurisprudence” that a defendant must
receive fair notice “not only of conduct that will subject him to punishment, but also of the severity of the
penalty that a State may impose.” BMW, 517 U.S. at
574 (footnote omitted). Three factors led the Court to
conclude that the award was grossly excessive and violated due process: the degree of reprehensibility of
nondisclosure; the ratio of the punitive damage award
to the harm or potential harm suffered by the plaintiff; and the difference between the punitive damage
award and the civil penalties authorized or imposed
in comparable cases. Id. at 575-85. The Court noted
that the “most important indicium of the reasonableness of a punitive damages award is the degree of reprehensibility of a defendant’s conduct.” Id. at 575.
The Court cited its statement in an 1852 decision that

336a
“exemplary damages imposed on a defendant should
reflect ‘the enormity of his offense.’” Id. (quoting Day
v. Woodworth, 13 How. 363, 371 (1852)). “This principle reflects the accepted view that some wrongs are
more blameworthy than others.” Id. In analyzing this
factor, the Court found that “none of the aggravating
factors associated with particularly reprehensible
conduct is present.” Id. at 576.
The Court then turned to the most commonly cited
“indicium of an unreasonable excessive punitive damages award:” its ratio to the actual harm inflicted on
the plaintiff. Id. at 580. Based on its determination
regarding the degree of harm suffered, the Court
noted that the award of $2 million was more than 500
times the amount of compensatory damages determined by the jury. Id. at 582. The Court stated that
“we have consistently rejected the notion that the constitutional line is marked by a simple mathematical
formula[.]” Id. Finally, the Court turned to statutory
schemes that provided for civil penalties for comparable conduct. Id. at 585. The Court noted that the
equivalent statutory violation would be for a deceptive
trade practice, carrying a maximum fine of $2,000 in
the state in which the action was commenced—and
penalties ranging from maximums of $5,000 to
$10,000 in other states. Based on the totality of specific facts before the Court, it held that the award was
in fact constitutionally excessive, and it reversed and
remanded the case.
The BMW case is distinguishable from the case
before this Court on a number of bases. First, unlike
BMW, this case does not present any real notice issues. While defendant has asserted a lack of notice by
virtue of a failure to comply with Rule 26, as discussed

337a
above the Court has found that argument unpersuasive. Here, the face of the AOD and the statutes themselves set forth quite clearly the penalties that may be
imposed for violations. But in addition, the harm in
BMW was of a very different nature. BMW was not a
class action; it was a single suit by a single plaintiff.
The harm that he suffered does not compare to the
public interests harmed by assisting in transporting
contraband cigarettes on the scale at issue here. See
BMW, 517 U.S. at 585-86. In short, while the principles of BMW are useful to bear in mind, the outcome
of that case does not dictate the Court’s determination
as to the appropriate amount of penalties here.
As discussed below, the Court will see the quantum of penalties once it receives the information it directs at the conclusion of this Opinion.
D. The Penalty Provisions at Issue Here
As stated, each of the AOD, the PACT Act, PHL
§ 1399-ll, and the CCTA provide for the imposition of
penalties. In this regard, ¶ 42 of the AOD provides for
a $1,000 penalty per violation; and the PACT Act provides that a common carrier that violates the statute
is subject to a penalty not to exceed $2,500 for a “first
violation,” and $5,000 for “any violation within 1 year
of a prior violation.” 15 U.S.C. § 377(b)(1)(B). The
PACT Act explicitly provides for the imposition of a
civil penalty that is “in addition to . . . any other damages, equitable relief, or injunctive relief awarded by
the court . . . .” Id. § 377(b)(2).
PHL § 1399-ll provides for penalties in an amount
not to exceed the greater of (a) $5,000 for “each such
violation;” or $100 for “each pack of cigarettes

338a
shipped, caused to be shipped or transported in violation[.]” PHL § 1399-ll(5).142 While both the State and
the City may recover civil penalties under this provision, “no person shall be required to pay civil penalties
to both the state and a political subdivision with respect to the same violation of this section.” Id. § 1399ll(6). That is, PHL § 1399-ll prohibits duplicative
damages.
The CCTA provides that a State or local government may bring an action to obtain appropriate relief,
including civil penalties. The CCTA does not specify
the amount of penalties, nor whether they are to be
assessed on a per-violation basis or otherwise. The
CCTA does, however, provide that such remedy is in
addition to those also available under federal, State or
local law. 18 U.S.C. § 2346(b)(1)-(3).143
E. Calculation of Penalties144
The Court turns to the complicated question of determining the appropriate penalties to be imposed for
142

The State and City seek penalties only at the rate provided
for prior to the amendment of the statute in 2013. See New York
v. United Parcel Serv., No. 15-cv-1136, 2016 WL 4094707, at *2
n.2. (S.D.N.Y. June 10, 2016).
143

Certain cases have suggested that that the Court may look
to the analogous penalty provisions of the PACT Act. See, e.g.,
Cnty. of Suffolk v. Golden Feather Smoke Shop, Inc., No. 09-cv162, 2016 U.S. Dist. LEXIS 109176 (E.D.N.Y. Aug. 16, 2016);
City of New York v. Golden Feather Smoke Shop, Inc., No. 08-cv3966, 2013 WL 5502954 (E.D.N.Y. Oct. 1, 2013).
144

UPS has vigorously argued that the Court should not consider what has been marked for identification as “Court Ex. 1.”
That exhibit was presented by plaintiffs during opening arguments and sets forth a calculation by claim of penalties sought.

339a
the violations of the AOD and various statutory
schemes. The facts and case law indicate a number of
considerations.
1. Defining a Package
With respect to the AOD and each of the statutes,
plaintiffs seek the imposition of penalties on a “per
package” basis. To determine what packages are
counted with regard to each shipper, plaintiffs referred at trial—as they did in their March 3, 2016 disclosure—to UPS’s delivery spreadsheets: They sort
these spreadsheets by account number and add up the
packages shipped. Neither the plaintiffs nor UPS presented witness testimony with regard to the delivery
spreadsheets. Rather, they each seek to have the
Court draw inferences from information on the face of
the spreadsheets themselves. For plaintiffs, the exercise is straightforward: All packages are summed and
duplications are eliminated. The Court views this approach as generally sensible, with the caveats described below.
For its part, UPS argues that simply counting
packages captures many categories of packages that
should be excluded. According to UPS, because plaintiffs are only entitled to count packages containing
cigarettes, counting letter-sized envelopes makes no
sense (Native Wholesale, for instance, shipped a number of these). Similarly, according to UPS, since the
The Court has not relied on Court Ex. 1. Therefore, the arguments made to preclude its admission into evidence are irrelevant. As discussed herein, the Court ultimately determines that
the appropriate methodology is to simply add up the packages at
issue consistent with the instructions provided by the Court
herein.

340a
evidence at trial supports a carton (of cigarettes or little cigars) as weighing approximately one pound,
packages weighing less than a pound should also not
be included. The Court agrees with both of these arguments. The spreadsheets are in Excel format and
are searchable, and it is straightforward to exclude
both of these categories from the penalties assessed
below (along with duplicative entries).
UPS further argues that packages billed to third
parties or billed “collect” should be excluded. The
Court disagrees. There is no evidence in the record
that the identity of the billed party made it less likely
that cigarettes would be included in the package. Indeed, in certain instances involving Seneca Promotions and Native Wholesale Supply, for instance, the
billed third party made it more likely that cigarettes
would contain cigarettes. The Court does not require
such packages to be excluded.
UPS also argues that plaintiffs have included
packages that have been shipped “to” the shipper, rather than those tendered by the shipper. From the
Court’s review of the spreadsheets, it appears that
there may be instances of this. As the penalties in this
matter are assessed based on what shippers tendered
to UPS, only packages tendered by the Liability Shippers should be included.
UPS next argues that plaintiffs have inappropriately included packages returned to the shipper as undeliverable; the Court does not view that fact as reducing UPS’s liability for having transported the
package in the first instance. Once a package containing cigarettes is on its way to an unauthorized recipient—and UPS knows that—UPS has violated the

341a
AOD and statutes at issue. Whether that package is
ultimately returned or not is irrelevant. Finally, UPS
argues that “voided” packages should also be excluded. There is no evidence in the record as to what
a “voided” package is—it could be a package tendered
for shipment and sent out for delivery, or not. Plaintiffs have proffered the spreadsheets as evidence of
shipments, and certainly the weight of the evidence
supports that the packages contained on such spreadsheets were tendered for delivery. UPS has not countered this with specific evidence. Accordingly, the
Court finds that the reasonable inference to be drawn
from the “voided” packages is that they were tendered
for delivery and therefore are countable.
The Court’s determinations above define what
constitutes a “Package” for purposes of the imposition
of penalties. Having determined what constitutes a
Package, the Court now turns to its method for determining the contents therein.
2. Package Contents
The Court next turns to the rather thorny question regarding package contents. Throughout this
matter, UPS has argued that neither it—nor plaintiffs—can know the contents of a shipper’s package.
The Court makes its findings based on a reasonable
approximation based on the preponderance of the evidence. There is ample evidence as to each Liability
Shipper—either direct or circumstantial—to support
the fact that packages contained cigarettes. The
Court has further set forth the reasonable approximation as to the particular percentage of its shipments

342a
that contained cigarettes versus something else. Additionally, the Court has set forth its factual and legal
findings regarding UPS’s knowledge above.
The Court has considered what constitutes a reasonable percentage of package contents that included
cigarettes separately for each shipper, based on the
facts and circumstances relevant to that shipper.
3. Reasonable Approximation of Contents
It is well established that once the existence of
damages is determined, a fact-finder may make a reasonable approximation of their amount. Tractebel Energy Mktg. v. AEP Power Mktg., Inc., 487 F3d 89, 110
(2d Cir. 2007). The reasonable approximation of package contents here is done for this purpose.
Under New York law, “when it is certain that
damages have been caused by a breach of contract,
and the only uncertainty is as to their amount, there
can rarely be good reason for refusing, on account of
such uncertainty, any damages whatever for the
breach.” Id. While a fact-finder “may not base its
award on speculation or guesswork,” Raishevich v.
Foster, 247 F.3d 337, 343 (2d Cir. 2001), a plaintiff
“need only show a stable foundation for a reasonable
estimate of the damage incurred as a result of the
breach,” Tractebel, 487 F.3d at 110 (internal quotation marks omitted).
A reasonable approximation of uncertain data assisting in calculating damages is especially appropriate when a defendant’s wrongdoing contributed significantly to that uncertainty. “‘Any other rule would enable the wrongdoer to profit by his wrongdoing . . . . It
would be an inducement to make wrongdoing so effec-

343a
tive and complete in every case as to preclude any recovery, by rendering the measure of damages uncertain.’” J. Truett Payne Co. v. Chrysler Motor Corp.,
451 U.S. 557, 566 (1981) (quoting Bigelow v. RKO Radio Pictures, Inc., 327 U.S. 251, 264-65 (1946)). In
these circumstances, a plaintiff has “no obligation to
offer a mathematically precise formula as to the
amount of damages.” Raishevich, 247 F.3d at 343.
Rather, the fact-finder may determine the amount of
damages “within a certain range,” and when damages
are “at some ascertainable amount below an upper
limit,” that upper limit “will be taken as the proper
amount.” Id. (citing Gratz v. Claughton, 187 F.2d 46,
51-52 (2d Cir. 1951)).
UPS’s failure to conduct audits in compliance with
its AOD obligations prevents precise knowledge of the
proportion of packages containing cigarettes and, as a
result, precludes a more certain quantification of
damages. The Court’s existing authority to make a
reasonable approximation of damages is therefore bolstered by the fact that UPS’s own wrongdoing contributed substantially to any uncertainty regarding the
specific amount of damages in this case. Thus, the
Court relies upon, inter alia, evidence of tracer inquiries, driver reports, witness testimony, and the audits
that were conducted to make reasonable approximations of damages arising from UPS’s violations as to
each Liability Shipper.
4. Defining a Carton
In order to determine compensatory damages under the PACT Act and CCTA, this Court must determine how many cartons of unstamped cigarettes UPS
delivered. The Court has already found that 50% of

344a
this number, multiplied by State and City taxes, constitutes the amount of lost tax revenues.
Based upon the evidence, the Court defines the
term “Cartons” as follows: A carton of cigarettes
weighs approximately one pound. The Court may infer the actual weight of a Package based on information evident from the face of the delivery spreadsheets—under the column “actual weight.” In the instances where UPS did not provide “actual weight” information, one pound should be subtracted from a
Package’s “billed weight.”145 As the Court has noted, a
Package’s “billed weight” was typically the Package’s
actual weight rounded up to the nearest whole number. Any Packages weighing less than a pound should
not be included because, according to the Court’s factual determinations, such Packages could not have included cigarettes and therefore could not constitute
lost tax revenues.
The total actual weight for all Packages should be
summed and divided by one (based on the Court’s
finding that a Carton of cigarettes weights approximately one pound). The resulting number is the number of Cartons. The assessment of 50% of lost tax revenues should be based on this number.
5. The AOD
The violations of the AOD for which plaintiffs seek
the imposition of penalties are different from the violations of the statutory schemes. The AOD violations

145

Subtracting a pound from the Package’s “billed weight” eliminates the effect of rounding up, and provides a close (and, if anything, underestimated) approximation of the Package’s “actual
weight.”

345a
at issue with regard to penalties concern the failure to
audit (while plaintiffs have proven other violations, as
mentioned above, they seek penalties only for violations of the audit obligation). This necessarily means
that the amount imposed with respect to the AOD violations is not duplicative of other penalties.
In terms of the AOD audit violations, the Court
relies on its findings of fact. As to each shipper, the
Court has found the date not later than which there
was a reasonable basis to believe that a shipper was
tendering cigarettes. This is the “start date” for the
imposition of penalties. The next issue relates to
whether the violations are as to each package tendered for transport that was not audited, or something
else. As the Court has also indicated above, it is reasonable to interpret a violation of the audit obligation
as each instance in which a Package (as the Court has
defined that term above) was tendered to UPS following the specified start date.
The AOD provides for an assessment of $1,000 per
violation; this is referred to in the AOD as a “stipulated” penalty. The aggregate penalty for which UPS
is liable under the AOD is the total number of Packages tendered. The parties shall jointly confer on the
number of such Packages based on the date ranges set
forth in the Court’s findings.
6. The PACT Act and PHL § 1399-ll
Plaintiffs also seek the imposition of penalties for
violations of the PACT Act and PHL § 1399-ll. The
Court has already determined as a factual matter that
as of December 1, 2010, UPS was no longer exempt
from the PACT Act, and therefore no longer exempt

346a
from PHL § 1399-ll; this lasted until February 18,
2015.
Both the PACT Act and PHL § 1399-ll limit penalties to amounts “[n]ot to exceed” specified “per violation” amounts. For the PACT Act, that amount is
$2,500 for the first violation and $5,000 for any violation within a year of another violation; for PHL
§ 1399-ll, the amount shall not exceed $5,000 for each
violation or $100 per pack of cigarettes. Thus, while
the statutes plainly allow for the imposition of penalties on a per-violation basis, penalties need not be assessed on such a basis. The Court may not impose
more than such a calculation allows, but it is not required to simply mechanically apply such a methodology. This is sensible, as the principles outlined above
require the Court to assess whether the aggregate
penalty imposed on a defendant appropriately balances the various punitive, remedial, deterrence, and
proportionality concerns. Such balancing cannot be
done simply by taking the appropriate number of
Packages and multiplying them by the possible number.
Using the Court’s definition of Package above, as
well as the applicable date range, the Court directs
the parties to determine the number of Packages that
fall within those parameters. The Court shall then, in
a separate order, assess what the amount of an appropriate penalty is (using that calculation as the outside

347a
parameters allowed by statute and considering any
constitutional concerns).146
7. The CCTA
The CCTA is a separate statutory scheme from
those discussed above. It contains a mandatory provision that one who knowingly transports contraband
cigarettes “shall be fined.”147 18 U.S.C. § 2344. The
statute does not define the amount of any such fine,
but in assessing the amount of any fine, the Court is
mindful of the proportionality limitations set forth in
Bajakajian as well as the other penalties already imposed. The Court has already stated its intention to
impose penalties on a per-violation basis pursuant the
PACT Act and PHL § 1399-ll. The amount of such
penalties shall be determined once the parties have
provided the Court with the directed information. Under these circumstances, there does not seem to be any
particular advantage to assessing a CCTA penalty
based on the same “per Package metric.” Certainly,
the number of Packages plays a role in the assessment
of any penalties. But in connection with the CCTA,
146

PHL § 1399-ll refers to “to ship[ping] or caus[ing] to be
shipped any cigarettes . . . .” See § 1399-ll(1), (2). The AOD defines “Prohibited Shipment” as “any package containing Cigarettes tendered to UPS where the shipment, delivery or packaging of such Cigarettes would violate Public Health Law § 1399ll.” (AOD, DX 23 ¶ 16(H)).
147

The term “contraband cigarettes” is defined to include a
quantity in excess of 10,000 cigarettes which bear no evidence of
the payment of applicable taxes. 18 U.S.C. § 2341(2). In its findings of fact above, the Court has found that UPS transported
more than 10,000 cigarettes. This occurred in single shipments
transported on behalf of Jacob Manufacturing/Tobacco, as well
as through aggregation of the thousands of packages shipped
that contained cigarettes.

348a
the Court balances the mandatory requirement that
some penalty be imposed (the statute dictates that a
violator “shall be fined,” 18 U.S.C. § 2344), against the
purpose of an additional penalty.
There are, of course, statutory differences. The
CCTA is its own statutory scheme with its own history
and purpose. It is the statute that would allow for
compensatory damages. That leaves the Court with
the question of whether an additional fine would serve
any additional and separate remedial purpose. If not,
it would be hard to justify its imposition. The fact that
a statute allows for a fine, and indeed requires one,
does not dictate that it need be as large as the others.
The CCTA more or less seeks to punish the same conduct, for the same reasons, as the other statutes.
The Court has directed the parties to provide certain information in order to issue its order on penalties. When that information is provided, the Court
will be able to assess the appropriate amount of a separate fine, if any, for violations of the CCTA.
XXI. INJUNCTIVE RELIEF
In addition to compensatory damages and penalties, plaintiffs seek the imposition of injunctive relief.
Injunctive relief is available for violations of the
CCTA, the PACT Act, and PHL § 1399-ll (and N.Y.
Exec. Law § 63(12)).
The PACT Act provides that “[a] State, through its
attorney general, or a local government or Indian tribe
that levies a tax subject to [15 U.S.C.] § 376a(a)(3)[,]
through its chief law enforcement officer, may bring
an action in a United States district court to prevent
and restrain violations of this chapter [15 USCS
§§ 375 et seq.] by any person or to obtain any other

349a
appropriate relief from any person for violations of
this chapter, including civil penalties, money damages, and injunctive or other equitable relief.” 15
U.S.C. § 378(c).
PHL § 1399-ll(6) provides that “[t]he attorney
general [and corporation counsel of a locality imposing
a cigarette tax] may bring an action to recover the civil
penalties provided by subdivision five of this section
and for such other relief as may be deemed necessary.”
N.Y. Exec. Law § 63(12) provides that the State
Attorney General may seek to hold accountable any
person engaging in “repeated fraudulent or illegal
acts” or who “otherwise demonstrate[s] persistent
fraud or illegality in the carrying on, conducting or
transaction of business[.]” Upon finding a violation of
§ 63(12), the Attorney General may seek, inter alia, an
“order enjoining the continuance of such business activity or of any fraudulent or illegal acts, directing restitution and damages[.]” Id.
The CCTA provides that a State or local government may bring an action “to prevent and restrain violations of this chapter by any person (or by any person controlling such person)” and may obtain “any
other appropriate relief for violations of this chapter .
. . including . . . injunctive or other equitable relief.”
18 U.S.C. § 2346(b). These remedies provide State
and local governments with “broad remedial provisions.” Golden Feather, 2013 WL 318709 at *22.
An injunction prohibiting a statutory violation is
warranted only when there is a likelihood that, unless
enjoined, the violations will continue. S.E.C. v. First
Jersey Sec., Inc., 101 F.3d 1450, 1477 (2d Cir. 1996);
United States v. Carson, 52 F.3d 1173, 1184 (2d Cir.

350a
1995) (A permanent injunction requires a “reasonable
likelihood that the wrong will be repeated.”).
Plaintiffs have persuasively shown that UPS engaged in repeated violations of the AOD and various
statutes by failing to audit and knowingly transporting cigarettes. However, there was significant evidence presented by UPS that, in particular, over the
past two years, UPS has implemented oversight processes that should prevent repetition. UPS has
demonstrated that it is more likely than not that it is
far more capable today of affirmatively working to
identify and take action to ensure it honors the AOD,
and with regard to non-compliant shippers. It has
shown by a preponderance of the evidence that a sufficient number of future violations are unlikely to support the rather harsh imposition of injunctive relief or
a monitor. In addition, it is likely that this lawsuit,
including the resulting reputational and financial
costs, provide standalone economic motivation for
UPS to proceed more carefully in the future.
On the facts before the Court, injunctive relief and
appointment of a monitor are unwarranted.148
XXII. CONCLUSION
For the reasons set forth above, the Court finds
liability on each of plaintiffs’ causes of action. The
Court requires the parties to submit the numbers of
148

The Court notes that this is not a situation in which a private
plaintiff would remain in the dark regarding future violations.
Plaintiffs here are armed with various enforcement powers that
allow them to obtain information from UPS and others to identify
compliance issues. Should UPS be found to have again violated
the AOD and various statutory schemes, imposition of injunctive
relief could be imposed at that time.

351a
Packages and Cartons as defined above and according
to the Court’s findings and rulings. Following receipt
of such information, the Court shall issue a final order
as to damages and penalty. The parties shall submit
the above information not later than two weeks from
the date of this Opinion & Order, i.e., Friday, April
7, 2017.
SO ORDERED.
Dated:

New York, New York
May 25, 2017
/s/ Katherine B. Forrest_____
KATHERINE B. FORREST
United States District Judge
* * *

352a

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------

X

THE STATE OF NEW
YORK and THE CITY OF
NEW YORK,

15-cv-1136 (KBF)

Plaintiffs,

OPINION &
ORDER

-vUNITED PARCEL
SERVICE, INC.,
Defendant.
------------------------------------

X

KATHERINE B. FORREST, District Judge:
This case was tried to the bench on September 19,
2016, through September 29, 2016. Following the
trial, on March 24, 2017, the Court issued a preliminary Opinion & Order setting forth, inter alia, its findings of fact and conclusions of law, and on May 25,
2017, the Court issued a Corrected Opinion & Order
(the “Liability Opinion”). (See ECF Nos. 526, 534.) The
Court found defendant United Parcel Service, Inc.
(“UPS”) liable on each claim asserted against it.
Plaintiffs New York State and New York City are entitled to compensatory damages and penalties. The

353a
sole remaining question is the quantum to be
awarded.
The preliminary Opinion & Order ordered the
parties to submit certain information to the Court not
later than April 7, 2017. (Id.) Having received submissions from the parties, (see ECF Nos. 530, 531), the
Court now sets forth its determination of compensatory damages and penalties awarded, as discussed below, and directs that final judgment be entered
against defendant UPS.
In this case, significant penalties are appropriate
given the public harm specifically sought to be addressed by the statutes at issue and given the egregious and prolonged nature of UPS’s conduct. The
Court is also troubled by UPS’s consistent unwillingness to acknowledge its errors; UPS has persisted in
claiming it did nothing wrong. While it is of course
UPS’s right to take this position, the Court appropriately considers this in determining what quantum of
damages and penalties are appropriate.
Furthermore, in light of all the relevant facts, significant penalties are needed to deter future conduct.
The Court finds that only significant penalties will
have a sufficient impact such that the highest levels
of executives at UPS will understand the cost of UPS’s
conduct and take effective action to prevent such conduct in the future. The Court is convinced that modest penalties would not make a sufficient corporate
impact on UPS as a whole. Given what this case has
demonstrated about UPS’s size, complexity, and lack
of willingness to change unless compelled to do so, a
very significant award is necessary. Deterrence is a
significant consideration here.

354a
In making its damages and penalties determination, the Court is mindful of the constitutional principles requiring proportionality, as discussed in the Liability Opinion. The Court carefully considered
whether, in the aggregate, the damages and penalties
awarded are grossly disproportionate to remediation
or deterrence under the Eighth Amendment. The
Court concludes that the measure of damages and
penalties awarded is fair and appropriate and comports with all applicable constitutional requirements,
as discussed below.
I.

INTRODUCTION

As detailed in the Liability Opinion, the Court has
found that plaintiffs have proven UPS’s liability under the Assurance of Discontinuance (“AOD”) and
each statutory scheme at issue with respect to eighteen entities;1 have proven UPS’s liability under the
AOD only with respect to three entities;2 and have not
proven any liability with respect to one entity.3 The
preliminary Opinion & Order thus directed the parties to submit specific information—information regarding the numbers of “Packages” and “Cartons,” as
defined by the Court and according to the Court’s findings and rulings—before the Court issued a final order

1
These entities are: Elliot Enterprises; EExpress; Bearclaw;
AFIA; Shipping Services; Seneca Ojibwas; Morningstar Crafts &
Gifts; Indian Smokes; Smokes & Spirits; Arrowhawk; Seneva Cigars; Hillview Cigars; Two Pine Enterprises; Mohawk Spring
Water; Jacobs Tobacco Group; Action Race Parts; Native Wholesale Supply; and Seneca Promotions.
2

These entities are: Native Outlet; A.J.’s Cigars; and RJESS.

3

This entity is Sweet Seneca Smokes.

355a
as to damages and penalties. The parties were required to submit such information not later than April
7, 2017.
Plaintiffs filed their submission on April 7, 2017.
(See ECF No. 530.) Per the Court’s order, plaintiffs
provided their view of the number of Packages and
Cartons for each of plaintiffs’ respective claims
brought under the (1) AOD; (2) Prevent All Cigarette
Trafficking Act (“PACT Act”); (3) New York Public
Health Law Section 1399-ll (“PHL § 1399-ll”); and
(4) Contraband Cigarette Trafficking Act (“CCTA”).
Plaintiffs explained that their reported numbers
of Packages and Cartons were the result of applying
the relevant dates, definitions, and findings provided
by the Court.4 Plaintiffs further detailed—for each
shipper as to which they had proven liability—the
specific exhibits admitted during trial that plaintiffs
used to identify the Packages and Cartons figures that
they submitted to the Court. (ECF No. 530 at 3-4.)
Defendant also filed its submission on April 7,
2017. (See ECF No. 531.) In sharp contrast to plaintiffs’ submission, defendant’s submission demonstrates a lack of cooperation and, frankly, odd abra-

4

Plaintiffs also explained that in instances where only billed
weight information was provided, they subtracted one pound
from the billed weight of each Package to reach a conservative
approximation of the Package’s actual weight. (ECF No. 520 at
2.) The Court finds that this methodology is reasonable and appropriate. As the Court explained in its Liability Opinion,
“Billed weight was typically a number rounded up from actual
weight. Based upon UPS records, rounding occurred when any
increment of a package’s weight was above a whole number.” (Liability Opinion at 47-48.)

356a
siveness. In an apparent reaction to this Court’s liability decision against it, defendant refused to include
a majority of the information requested by the Court.
Specifically, defendant provided its Packages count
with regards to only three entities: Smokes & Spirits;
Seneca Cigars; and Jacobs Tobacco. (Id.) Thus, this
Court deems defendant to have waived arguments relating to the calculations submitted by plaintiffs.
Defendant made clear why it chose to provide information with regards to these three entities only:
Defendant explained that it did so not because it was
incapable of providing the information for the other
entities as ordered by the Court—and as plaintiffs
did—but because, according to defendant, these three
entities were the only entities “that could potentially
be considered in assessing damages or penalties because they are the only ones for which plaintiffs introduced evidence of shipments that UPS had an opportunity to test at trial.” (Id. at 1-2.) In other words, UPS
intentionally chose to ignore the Court’s order and instead chose to reargue a point the Court already decided, as set forth in the Liability Opinion.5 Accordingly, because defendant failed to comply with the
Court’s order, the Court calculates its determination
of damages and penalties using the uncontested numbers of Packages and Cartons supplied by plaintiffs

5
Defendant’s further explained that UPS also objects to being
ordered to provide information that potentially will be used
against it in assessing damages and penalties . . . .” (ECF No. 531
at 1.)

357a
where appropriate.6 This Court finds such conduct
consistent with UPS’s lack of acceptance of responsibility for their actions at issue in this case, as discussed in the Liability Opinion, and such conduct further informs the Court’s views on the need for a significant award to deter future conduct. In all events,
the Court’s determination of penalties and damages is
set forth below.
II. DISCUSSION
A. Legal Principles
In the Liability Opinion, the Court provided a detailed discussion of the relevant legal principles concerning damages and penalties. The Court will not
repeat those principles in full here. Nevertheless, the
Court reiterates a few important considerations.
In general, civil penalties are designed in some
measure “to punish culpable individuals” and not
“simply to extract compensation or restore the status
quo.” Tull v. United States, 481 U.S. 412, 422 (1987);
accord Johnson v. SEC, 87 F.3d 484, 492 (D.C. Cir.
1996). Penalties are also designed to “deter future violations” and to “prevent[] [the conduct’s] recurrence.”
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.,
Inc., 528 U.S. 167, 185-86, 188 (2000).
Furthermore, there is an “enormous range of penalties available to the district court in the usual civil
6

As the Court noted, defendant provided information for only
three entities. Even with regards to these entities, however, defendant (unlike plaintiffs) did not provide any explanation of how
it calculated the figures provided. Therefore, the Court considers
the figures provided by plaintiffs— even regarding these three
entities—to be uncontested.

358a
penalty case.” United States v. J.B. Williams Co.,
Inc., 498 F.2d 414, 439 (2d Cir. 1974); see also id. at
438 (noting that a district court may properly consider
“a number of factors” in determining the size of a civil
penalty, “including the good or bad faith of the defendants, the injury to the public, and the defendants’ ability to pay.”). In Laidlaw, the Supreme Court reiterated the basic principle that a district court has wide
discretion to fashion appropriate relief. See 528 U.S.
at 192. It further stated that when choosing an appropriate penalty, a court “should aim to ensure ‘the
framing of relief no broader than required by the precise facts.’” Id. at 193 (citing Schlesinger v. Reservists
Comm. to Stop the War, 418 U.S. 208, 222 (1974)).
The Second Circuit has articulated the factors a court
should consider as follows: (1) the level of the defendant’s culpability, (2) the public harm caused by the violations, (3) the defendant’s profits from the violations, and (4) the defendant’s ability to pay a fine. Advance Pharm., Inc. v. United States, 391 F.3d 377, 399
(2d Cir. 2004).7
In addition to the principles noted above, the
Court is mindful of the Eighth Amendment’s requirement of proportionality. Supreme Court precedent instructs courts, in determining whether a fine is proper
or normal, to look to any legislative pronouncement on
the issue and to consider the amount of the fine compared to the gravity of the offense, a deeply factual
7

Courts also have recognized that it is appropriate to consider
the actions of plaintiffs when assessing penalties. See City of
New York v. Milhelm Attea & Bros., Inc., No. 06-cv-3620, 2012
WL 3579568, at *33 (E.D.N.Y. Aug. 17, 2012); United States v.
White-Sun Cleaners Corp., No. 09-cv-2484, 2011 WL 1322266, at
*9 (E.D.N.Y. Mar. 9, 2011).

359a
question. See United States v. Bajakajian, 524 U.S.
321, 334-38 (1998). The Court must examine whether,
in the aggregate, the penalties become grossly disproportionate to remediation or deterrence under the
Eighth Amendment. (Id.)
In this case, the facts before this Court indicate
that significant penalties are appropriate. First, the
facts demonstrate a high level of culpability by UPS.
Numerous separate acts by numerous UPS employees
allowed vast quantities of unstamped cigarette shipments to be delivered to unauthorized recipients in
New York. The New York Executive Branch and legislature, along with Congress, had specifically attempted to prevent this with the AOD, the PACT Act
(which should have incented compliance with the
AOD), the CCTA, and PHL § 1399-ll. UPS largely relied on its size and weak internal procedures to excuse
blatantly culpable conduct. As the Court found in its
Liability Opinion, there were many, many people
within UPS who consciously avoided the truth, for
years. Even so, the Court also recognizes that UPS
has now—since this lawsuit was filed—regained its
footing. UPS now approaches compliance with the
AOD and the various statutory schemes with renewed
vigor and additional processes and procedures.
The second factor is the public harm caused by the
conduct. The state and federal legislatures have
deemed transport of cigarettes to be a public health
issue, and the effects of cigarette usage are well
known. However, it is also the case that UPS is not
the cigarette manufacturer or seller—it is a transporter. Thus, it bears a lower level of culpability for
the impact on public health than other entities. In
addition, it is unclear whether, in the absence of

360a
UPS’s transport of cigarettes, the same public health
effects would still be felt. The Court cannot speculate
as to this. The Court focuses UPS’s unlawful enablement of a public health impact that the political
branches have proscribed and the costs of which New
Yorkers must bear.
The third factor—defendant’s profits from the violations—suggests a low amount of penalties. UPS
has focused on its limited revenues and profits from
its transport of the shipments at issue. But these are
not the only relevant metrics. It is also the case that
maintaining customers helps UPS’s overall competitive position; if there are many UPS routes in an area,
it is reasonable to infer that this assists the acquisition of business through network effects and economies of scale.
Finally, the Court weighs UPS’s ability to pay a
fine. UPS is a large company with significant assets.
Its financial statements are a matter of public record.
Not only can it handle a hefty fine, only a hefty fine
will impact such a large entity sufficiently to capture
the attention of the highest executives in the company—executives who then, in a rational economic
move, will cause changes in practice and procedures
to be strictly maintained. A fine in line with only the
profits and revenues associated with the conduct at
issue would not have this deterrent impact.
B. Measure of Aggregate Damages and Penalties
Appropriately Awarded
In accordance with the legal principles described
above and in the Liability Opinion, the Court sets
forth below its final determination as to the measure
of aggregate damages and penalties appropriately

361a
awarded to plaintiffs New York State and New York
City under the AOD and under each statutory scheme
at issue. First, however, the Court sets forth a few
additional points that have guided its analysis.
As they acknowledge, plaintiffs cannot receive
double compensatory damages. Accordingly, the
Court awards plaintiffs compensatory damages under
the CCTA—and not the PACT Act—because plaintiffs
are entitled to a greater amount of compensatory
damages under the CCTA. With regards to penalties,
plaintiff New York State is entitled to a stipulated
amount of AOD penalties; the Court’s calculation of
the AOD penalties awarded is therefore straightforward.
Importantly, and in contrast with the AOD, the
penalties provided by the PACT Act and PHL § 1399ll are the maximum penalties that the Court may
award. In addition, while the CCTA provides for penalties, it does so in an unspecified amount. As discussed in further detail below, the Court has decided
to award plaintiffs 50% of the maximum PACT Act
penalties to which they are entitled and 50% of the
PHL § 1399-ll penalties to which they are entitled.
The Court also awards plaintiffs nominal CCTA penalties.
The Court has thought long and hard about what
measure of penalties is appropriate. The statutes at
issue all undeniably seek to address the public harms
caused by cigarette use and seek to regulate the unlawful transport of cigarettes that contributes to those
harms. As the Court explained in the Liability Opinion, while the statutes have similar purposes, they are

362a
not entirely duplicative and target somewhat different (even if partially overlapping) conduct.
For example, the PACT Act seeks to prohibit shipments to those sellers that the Government has identified as sellers who have not registered with the Attorney General or are otherwise not in compliance
with the PACT Act (i.e., those sellers on the Pact Act
Non-Compliant Lists (“NCLs”)). In enacting PHL
1399-ll, the state legislature “declare[d] the shipment
of cigarettes sold via the internet or by telephone or
by mail order to residents of [New York] state to be a
serious threat to public health, safety, and welfare, to
the funding of health care . . . , and to the economy of
the state.” 2000 Sess. Laws of N.Y., Ch. 262 (S.8177)
§ 1. Thus, PHL § 1399-ll prohibits shipments of cigarettes to a broad group of “unauthorized” recipients
and places the responsibility on carriers to determine
whether a recipient is authorized to receive cigarettes.
It is clearly not coextensive with the PACT Act.
Given the overlapping purposes of the statutes at
issue—while also recognizing that they are different
and independent statutory schemes—the Court has
decided to award plaintiffs 50% of the maximum
PACT Act penalties to which they are entitled; 50% of
the PHL § 1399-ll penalties to which they are entitled;
and nominal CCTA damages. The Court believes that
awarding penalties in these proportions gives effect to
each statute while also ensuring that the award in
this case is not greater than necessary to punish UPS
and deter future conduct. The Court emphasizes that
it has the statutory authority and could have awarded
plaintiffs the maximum amounts provided by the
PACT Act and PHL § 1399-ll (as well as a greater than

363a
nominal amount under the CCTA); the Court has chosen not to award the maximum amounts given all of
the facts and circumstances.
1. AOD
As explained in the Liability Opinion, plaintiff
New York State is entitled to a stipulated penalty of
$1,000 for each UPS violation of the AOD because
UPS failed—as required by the AOD—to audit shipments where there was “a reasonable basis to believe”
that shippers “may be tendering cigarettes for delivery to Individual Consumers.” (Liability Opinion at
120-144, 213.) As the Court noted in the Liability
Opinion, plaintiffs sought the imposition of AOD penalties on a “per package” basis. (Id. at 207.) Furthermore, the Court did find that violations of the AOD
are measured by each instance in which a Package (as
the Court has defined that term) was tendered to UPS
following the start date specified by the Court. (Id. at
213.) The Court defined a Package as follows:
To determine what Packages are counted with regard to each shipper, the Court instructed the parties
to utilize UPS’s delivery spreadsheets, which were admitted into evidence. (Id. at 207-09.) These spreadsheets were to be sorted by account number, duplications were to be eliminated, and packages were to be
summed. (Id.) Furthermore, the Court instructed the
parties to apply a few additional important qualifications. First, letter-sized envelopes were to be excluded; second, packages weighing less than a pound
were also to be excluded. (Id.) Lastly, only packages
tendered by a shipper (as opposed to those that were
shipped “to” the shipper), were to be included. (Id.)

364a
In its findings of fact in the Liability Opinion, the
Court specified, as to each shipper for which the Court
found AOD liability, the date not later than which
there was a reasonable basis to believe that the shipper was tendering cigarettes. The Court explained
that this is the “start date” for the imposition of penalties. (Id. at 213.) The Court also specified that UPS
remained under an audit obligation until an audit occurred or UPS terminated the account, i.e., the end
date for AOD penalties.8 Accordingly, the Court ordered the parties to “jointly confer on the number of
such Packages based on the date ranges set forth in
the Court’s findings” and to submit such information
to the Court not later than April 7, 2017. (Id. at 213,
219.)
In their April 7, 2017, submission plaintiffs complied with the Court’s instructions. Specifically,
plaintiffs submitted to the Court a tally of Packages
for each shipper liable under the AOD and specified
the applicable start date plaintiffs used to calculated
the tally (and provided page citations to the Liability
Opinion from which the start date was taken).9 (ECF
No. 530 at 5.) As the Court has already noted, defendant failed to comply with the Court’s Liability Opinion
and did not submit the relevant Packages information
ordered by the Court.
Accordingly, based on the Court’s findings and the
number of Packages supplied to the Court, the Court
8

The Court provided the applicable dates in the Liability
Opinion.
9

As previously noted, plaintiffs’ April 7, 2017, submission also
listed the account number and admitted-exhibit number from
which plaintiffs compiled the data in their submission.

365a
hereby finds that plaintiff New York State is entitled
to AOD penalties in the amount of $80,468,000. The
Liability Opinion explained that penalties imposed
under the AOD are not duplicative of other penalties.
(Id. at 211.) Therefore, the Court awards plaintiff
New York State AOD penalties in the amount of
$80,468,000.
2. PACT Act
As detailed in the Liability Opinion, plaintiffs
New York State and New York City are entitled to
compensatory damages for UPS’s violations of the
PACT Act, which UPS violated by knowingly shipping
for entities identified on the NCLs. (Liability Opinion
at 159-63; 190-93.) The Court explained that these
compensatory damages are measured by plaintiffs’
lost tax revenue attributable to the number of
packs/cartons of cigarettes delivered by UPS on behalf
of those “Liability Shippers” identified on the PACT
Act NCLs, using a 50% diversion rate—the Court
found that 50% is a reasonable percentage of unstamped cigarette cartons consumers would have purchased. (Id. at 193.) The Court noted that during the
relevant time period, the New York State tax rate was
$4.35 per pack of cigarettes ($43.5 per carton) and the
New York City tax rate was $1.5 per pack of cigarettes
($15 per carton). (Id. at 169.) In addition, the Liability
Opinion laid out the Court’s findings regarding the
reasonable approximation of Packages that contained
cigarettes for each shipper, where applicable.
The Court provided its definition of a Carton of
cigarettes as follows: A carton of cigarettes weighs approximately one pound. (Id. at 212.) The Court instructed that the parties calculate the actual weight

366a
of a Package based on information evident from the
face of the delivery spreadsheets under the column
“actual weight.”10 (Id.) The Court explained that any
Packages weighing less than a pound should not be
included because, according to the Court’s factual determinations, such Packages could not have included
cigarettes.11 (Id.)
The Liability Opinion specified the dates on which
the applicable Liability Shippers appeared on the
PACT Act NCLs as well as the dates on which UPS’s
PACT Act obligations began for each applicable shipper (i.e. the start date for UPS’s PACT Act compensatory damages and penalties). (See id. at 160-63.) The
Court further noted that UPS regained its PACT Act
exemption on February 19, 2015 (i.e. the end date for
any PACT Act compensatory damages or penalties).
(Id. at 144.)
In accordance with the Court’s findings and rulings (summarized above), the Court ordered the parties to submit the applicable numbers of Packages and
Cartons of cigarettes. (Id. at 9, 192.)

10
As the Court has already noted in this Opinion & Order, it
accepts plaintiffs’ proposal to use the “billed weight” minus one
pound in each instance in which UPS did not produce an “actual
weight” figure. This is also explained in the Court’s Corrected
Opinion & Order.
11

The Court’s original opinion contained an incorrect instruction to divide the total weight of all Packages by the total number
of Packages. The Court has corrected this in its Corrected Opinion & Order. The figures that plaintiffs submitted to the Court
in their April 7, 2017, submission were based on the correct formula.

367a
In their April 7, 2017, submission, plaintiffs complied with the Court’s instructions. Specifically,
plaintiffs submitted to the Court a tally of Packages
and Cartons of cigarettes (based on the percentages
specified by the Court) for each shipper for which the
Court found PACT Act liability attached. (ECF No.
530 at 6, 9.) Plaintiffs also specified the applicable
start date from which they calculated their tally
(based on the dates stated by the Court in the Liability
Opinion).12 As the Court has already noted, defendants failed to comply with the Court’s order and did
not submit the information ordered by the Court.
Based on the Court’s findings and the number of
Packages and Cartons supplied to the Court, the
Court hereby finds that plaintiff New York State is
entitled to PACT Act compensatory damages in the
amount of $2,767,600.50 and plaintiff New York City
is entitled to PACT Act compensatory damages in the
amount of $546,937.50.
However, as discussed below, plaintiffs New York
State and New York City are also entitled to compensatory damages under the CCTA.
Plaintiffs
acknowledge that they “cannot recover compensatory
damages for the same shippers under both [the PACT
Act and CCTA].” (ECF No. 530 at 3 n.2.) Based on the
Court’s findings and the number of Cartons submitted
to the Court, plaintiffs are entitled to a greater
amount of CCTA compensatory damages than PACT
Act compensatory damages (the Court discusses
CCTA compensatory damages below).
12

As previously noted, plaintiffs’ April 7, 2017, submission also
listed the account number and admitted-exhibit number from
which plaintiffs compiled the data in their submission.

368a
Therefore, in order to avoid double counting, the
Court does not award plaintiffs compensatory damages under the PACT Act, because the Court awards
plaintiffs compensatory damages under the CCTA, as
described below.
Nevertheless, plaintiffs New York State and New
York City are entitled to penalties under the PACT
Act because the Court found that UPS violated the
PACT Act by knowingly delivering packages from
sellers identified on the NCLs, which UPS received.
(Liability Opinion at 159-63.) As the Court explained
in the Liability Opinion, penalties under the PACT
Act are “not to exceed” $2,500 for the first violation
and $5,000 per subsequent violation. (Id. at 214.) Violations are measured by each Package UPS delivered
to a Liability Shipper that UPS knew was identified
on the NCLs. (Id. at 159-163.) As the Court has stated,
however, while the PACT Act allows for the imposition of penalties on a per-violation basis, penalties
need not be assessed on such a basis.
Based on the Court’s findings and the number of
Packages supplied to the Court—as PACT Act penalties may be imposed on a per-violation basis, but need
not be—the Court finds that plaintiff New York State
is entitled to receive a maximum of $70,517,500 in
PACT Act penalties and plaintiff New York City is entitled to receive a maximum of $86,182,500 in PACT
Act penalties. Again, these amounts are maximums;
the Court need not, and does not, award plaintiffs
PACT Act penalties in these amounts.
Having considered the totality of the facts and circumstances in this case and all of the relevant legal

369a
principles concerning damages and penalties, as detailed in the Liability Opinion and in this Opinion &
Order, the Court awards plaintiffs 50% of the maximum PACT Act penalties to which they are entitled.
Accordingly, the Court hereby awards plaintiff
New York State $35,258,750 in PACT Act penalties and awards plaintiff New York City
$43,091,250 in PACT Act penalties. The Court
finds that these amounts are fair and not greater than
necessary.
3. PHL § 1399-ll
As explained in the Liability Opinion, plaintiffs
New York State and New York City are entitled to
penalties under PHL § 1399-ll because of UPS’s knowing shipment of cigarettes in violation of that statute
(as well as UPS’s separate contractual obligation in
the AOD to comply with PHL § 1399-ll). (Liability
Opinion at 163-66.) As the Court detailed, penalties
under PHL § 1399-ll are “not to exceed” the greater of
$5,000 per violation or $100 per pack of cigarettes
shipped. (Id. at 214.) Violations are measured by each
Package containing unstamped cigarettes that UPS
knowingly shipped on behalf of the Liability Shippers.
(Id. at 163-66.)
The Liability Opinion provided the applicable definition of Packages and Cartons, as the Court has explained above in this Opinion & Order. In addition,
the Liability Opinion laid out the Court’s findings regarding the reasonable approximation of Packages
that contained cigarettes for each Liability Shipper.
The Liability Opinion explained that the start date for
UPS’s liability under PHL § 1399-ll was no earlier
than September 18, 2011, (id. at 158); where a later

370a
start date applied for a particular shipper, the Court
specified such date. The Court also noted that UPS is
not required to pay PHL § 1399-ll penalties to both
New York State and New York City for the same violation. (Id. at 206.)
Accordingly, the Court ordered the parties to submit, using the Court’s definition of Packages and Cartons as well as the applicable date ranges, the number
of Packages that fall within those parameters. (Id. at
9, 214.)
In their April 7, 2017, submission, plaintiffs complied with the Court’s instructions. Specifically,
plaintiffs submitted to the Court a tally of Packages
and Cartons of cigarettes (based on the percentages
specified by the Court) for each shipper to which the
Court found PHL § 1399-ll liability attached. (ECF
No. 530 at 7, 10-11.) Plaintiffs also specified the applicable start date from which they calculated the tally
(as provided in the Liability Opinion).13 As the Court
has already noted, defendants failed to comply with
the Court’s order and did not submit the relevant information ordered by the Court.
Based on the Court’s findings and the number of
Packages and Cartons of cigarettes supplied to the
Court, the Court finds that plaintiff New York State
is entitled to receive a maximum of $82,820,000 in
PHL § 1399-ll penalties and plaintiff New York City
is entitled to receive a maximum of $74,690,000 in
PHL § 1399-ll penalties. Again, these amounts are

13

As previously noted, plaintiffs’ April 7, 2017, submission also
listed the account number and admitted-exhibit number from
which plaintiffs compiled the data in their submission.

371a
maximums, as PHL § 1399-ll penalties are “not to exceed” these amounts. The Court need not, and does
not, award plaintiffs PACT Act penalties in these
amounts, as discussed below.
Having considered the totality of the facts and circumstances in this case and all of the relevant legal
principles concerning damages and penalties, as detailed in the Liability Opinion and in this Opinion &
Order, the Court awards plaintiffs 50% of the maximum PHL § 1399-ll penalties to which they are entitled. Accordingly, the Court hereby awards
plaintiff New York State $41,410,000 in PHL §
1399-ll penalties and awards plaintiff New York
City $37,345,000 in PHL § 1399-ll penalties. The
Court finds that these amounts are fair and not
greater than necessary.
4. CCTA
As explained in the Liability Opinion, plaintiffs
New York State and New York City are entitled to
compensatory damages for UPS’s violations of the
CCTA because UPS knowingly shipped “contraband
cigarettes.” (Liability Opinion at 166-72, 190-93.)
These compensatory damages are measured by plaintiffs’ lost tax revenue attributable to the number of
packs/cartons of cigarettes UPS knowingly shipped to
the Liability Shippers, using a 50% diversion rate—
the Court found that 50% is a reasonable percentage
of unstamped cigarette cartons consumers would have
purchased. (Id. at 193.) Above, the Court has already
reiterated how it defined a Carton of cigarettes in the
Liability Opinion.

372a
The Liability Opinion specified the date ranges
during which the Court found UPS knowingly shipping cigarettes on behalf of the Liability Shippers. In
addition, as explained above, the Liability Opinion
laid out the Court’s findings regarding the reasonable
approximation of Packages that contained cigarettes
for each Liability Shipper. The Court further noted
that during the relevant time period, the New York
State tax rate was $4.35 per pack of cigarettes ($43.50
per carton) and the New York City tax rate was $1.50
per pack of cigarettes ($15 per carton). (Id. at 169.)
Accordingly, the Court ordered that the parties
submit to the Court the applicable numbers of Packages and Cartons of cigarettes in accordance with the
findings and timeframes provided by the Court. (Id. at
9, 192.)
In their April 7, 2017, submission plaintiffs complied with the Court’s instructions. Specifically,
plaintiffs submitted to the Court a tally of Packages
and Cartons of cigarettes (based on the percentages
specified by the Court) for each shipper for which the
Court found CCTA liability attached. (ECF No. 530 at
7-8, 11-12.) Plaintiffs also specified the applicable
start date from which they calculated their tally (using the dates provided by the Court in the Liability
Opinion).14 As the Court has already noted, defendants failed to comply with the Court’s order and did
not submit the relevant information ordered by the
Court.

14

As previously noted, plaintiffs’ April 7, 2017, submission also
listed the account number and admitted-exhibit number from
which plaintiffs compiled the data in their submission.

373a
Based on the Court’s findings and the number of
Cartons submitted to the Court, the Court finds that
plaintiff New York State is entitled to receive CCTA
compensatory damages in the amount of $8,679,729,
and plaintiff New York City is entitled to receive
CCTA compensatory damages in the amount of
$720,885.
Accordingly, and because the Court does not
award plaintiffs PACT Act compensatory damages (as
noted above), the Court hereby awards plaintiff
New York State $8,679,729 in CCTA compensatory damages and awards plaintiff New York
City $720,885 in CCTA compensatory damages.
As explained in the Liability Opinion, plaintiffs
New York State and New York City are also entitled
to penalties under the CCTA. (Liability Opinion at
166-72, 214-16.) Penalties are mandatory under the
statute, as violators “shall be fined,” and are to be imposed for UPS’s shipment of “contraband cigarettes.”
(Id. at 166-72, 214-16.) The Court explained in the Liability Opinion, however, that the CCTA does not define the amount of any such fines.15 (Id. at 215.)
The Court further explained that there does not
seem to be any particular advantage to assessing a
CCTA penalty based on a “per Package metric.” (Id.)
The Court noted that the number of Packages plays a
role in the assessment of any penalties, but in connection with the CCTA, the Court considers both the

15

The Liability Opinion nonetheless provided the applicable
definitions of Packages and Cartons, as well as the applicable
date ranges, as noted above regarding CCTA compensatory damages.

374a
mandatory requirement that some penalty be imposed, as well as the purpose of an additional penalty.
(Id. at 215-16) The Court stated that when the parties
submitted the requested information concerning the
number of Packages and Cartons at issue under the
AOD and various statutes, the Court would be able to
assess the appropriate amount of a separate fine, if
any, for UPS’s violations of the CCTA. (Id. at 216.)
Again, in their April 7, 2017, submission, plaintiffs submitted to the Court information that the
Court could potentially use in its calculation of any
CCTA penalties, i.e., the number of Packages and Cartons of cigarettes shipped by UPS during the
timeframes specified by the Court. Again, defendant
did not submit any such information to the Court.
Having considered the totality of the facts and circumstances in this case and all of the relevant legal
principles concerning damages and penalties, as detailed in the Liability Opinion and in this Opinion &
Order, the Court awards plaintiffs New York
State and New York City $1,000 each in nominal
penalties under the CCTA. The Court explained in
the Liability Opinion that “[t]he CCTA more or less
seeks to punish the same conduct, for the same reasons, as the other statutes.” (Id. at 216.) The Court determines that, given the measure of damages and penalties awarded under the AOD and other statutes at
issue, further penalties under the CCTA would not
serve a sufficient purpose (such as further deterrence).

375a
III. CONCLUSION
The Court has set forth its determination of damages and penalties above. In total, plaintiff New York
State is awarded $165,817,479 and plaintiff New
York City is awarded $81,158,135.16 The Clerk of
Court is directed to enter final judgment against defendant UPS.
SO ORDERED.
Dated: New York, New York
May 25, 2017
/s/ Katherine B. Forrest_
KATHERINE B. FORREST
United States District Judge

16

The Court notes that these amounts combined are less than
three times the amount that plaintiffs disclosed on March 3,
2017—well before trial—that they were seeking with regards to
the “Arrowhawk Group” of shippers alone. (See ECF No. 534 at
186-87.)

376a
APPENDIX D

UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT OF
NEW YORK
------------------------------------------------------------- X

THE STATE OF NEW YORK and
THE CITY OF NEW YORK,
Plaintiffs,
v.
UNITED PARCEL SERVICE, INC.,
Defendant.

:
:
:
: 15-cv-1136
(KBF)
:
:
OPINION &
:
ORDER
:
:
:

------------------------------------------------------------- X

KATHERINE B. FORREST, District Judge:
In this action, the State and City of New York (the
“State” and “City,” respectively) allege various federal
and state law claims against defendant United Parcel
Service, Inc. (“UPS”) relating to UPS’s alleged shipping of contraband cigarettes. (Third Am. Compl.
(“TAC”), ECF No. 189.) Pending before the Court is
UPS’s motion for partial summary judgment seeking
dismissal of the seventh through twelfth claims alleged in plaintiffs’ Third Amended Complaint arising
under the Prevent All Cigarette Trafficking Act
(“PACT Act”), 15 U.S.C. § 375 et seq., and New York
Public Health Law § 1399-ll (“PHL § 1399-ll”). (ECF
No. 172.) The motion primarily concerns a question of

377a
statutory interpretation initially raised in UPS’s motion to dismiss an earlier complaint pursuant to Rule
12(b)(6), and which the Court now must consider more
fully based on the record developed by the parties in
light of the Court’s prior interpretation.
Specifically, UPS’s motion turns on whether it has
established its entitlement to judgment as a matter of
law with respect to plaintiffs’ PACT Act claims on the
basis that it is exempt from liability pursuant to 15
U.S.C. §376a(e)(3); UPS’s entitlement to judgment as
a matter of law with respect to plaintiffs’ PHL § 1399ll claims similarly flows from that determination. The
particular exemption upon which UPS primarily relies states that UPS is exempt based on the Assurance
of Discontinuance (“AOD”) that it entered into with
the New York State Attorney General (“NYAG”) on
October 21, 2005 “if [that] agreement[ ] is honored
throughout the United States to block illegal deliveries of cigarettes or smokeless tobacco to consumers.”
15 U.S.C. § 376a(e)(3)(B)(ii)(I).
As set forth more fully below, in initially dismissing plaintiffs’ PACT Act claims as those claims were
alleged in the then-operative Amended Complaint,
the Court interpreted § 376a(e)(3)(B)(ii)(I) to mean
that UPS is exempt if the AOD has appropriate
breadth (i.e. nationwide effect), explaining that Congress merely sought to codify the status quo with respect to UPS and other common carriers who had already agreed to curb illegal cigarette deliveries by instituting nationwide policies. New York v. United
Parcel Service, Inc. (“UPS I”), No. 15-cv-1136 (KBF),
2015 WL 5474067, at *7-9 (S.D.N.Y. Sept. 16, 2015).
In the absence of any allegations suggesting that any
state did not honor the AOD, the Court left open the

378a
question of how a state may honor the AOD such that
it has nationwide effect. Id. at *8. Now that plaintiffs
have come forward with new allegations and supporting evidence that they argue is sufficient to show that
the AOD is not honored nationwide, the issue that the
Court previously left unresolved is ripe for determination. It is also necessary for the Court to further elaborate on its interpretation of the exemption.
The pertinent language in § 376a(e)(3)(B)(ii)(I)
that is the subject of the parties’ dispute is not a model
of clarity. The clause conditioning UPS’s qualification
for exemption on whether the AOD “is honored
throughout the United States” does not clearly indicate what that phrase is supposed to connote, or who
must do the “honoring.” The parties’ positions in their
motion papers diverge significantly with respect to
these questions.
UPS primarily argues that
§ 376a(e)(3)(B)(ii)(I), which explicitly lists the AOD
(and two analogous agreements respectively entered
into by DHL Holdings USA, Inc. (“DHL”) and Federal
Express Corporation (“FedEx”) and certain of their affiliates with the NYAG), rendered it and the other carriers exempt from the PACT Act’s requirements as of
the date of the statute’s enactment. UPS further argues that while it could lose its exemption if it no
longer gives the AOD nationwide effect or the AOD’s
existence is no longer recognized by states nationwide,
plaintiffs have failed to create a genuine issue of fact
that either of those conditions is met.
Plaintiffs,
in
contrast,
contend
that
§ 376a(e)(3)(B)(ii)(I) did not exempt UPS when enacted, but rather provided only for the possibility of
future exemption upon all fifty states affirmatively assenting to the AOD, a condition that plaintiffs assert

379a
UPS has never fulfilled. Relying on evidence that
UPS has shipped cigarettes to consumers despite a
policy not to do so, and declarations from seven state
attorneys general and a representative of the National Association of Attorneys General (“NAAG”),
plaintiffs argue that UPS is not entitled to the exemption because the AOD has never been honored or recognized by all states in the nation. In relation to
UPS’s motion to dismiss (in other words, before the
Court rendered its initial interpretation of
§ 376a(e)(3)(B)(ii)(I)), plaintiffs had argued that the
“is honored” language refers to whether UPS has itself
complied with the terms of the AOD (e.g. interpreting
the language as “UPS has honored”) and that its mere
allegation in the Amended Complaint of non-compliance was sufficient to defeat the exemption at the
Rule 12(b)(6) stage.
The legislative history and overall structure of the
statutory scheme support that Congress intended that
UPS be exempt from PACT Act claims as of the date
of statutory enactment and based on facts then in existence; the Court also determines that with respect
to this motion, plaintiffs would need to raise a triable
issue on the question of whether the factual basis for
the exemption has changed, thereby altering UPS’s
entitlement to the exemption. Plaintiffs’ alternative
readings would render § 376a(e)(3)-(B)(ii)(I) essentially meaningless by imposing requirements that
could never plausibly be fulfilled even if UPS was fully
effective in preventing the shipment of contraband
cigarettes.
In the factual materials that plaintiffs submitted
in opposition to the pending motion, plaintiffs have

380a
not raised a triable issue of fact as to whether the basis for UPS’s exemption has changed. In other words,
on the record currently presented to it, the Court
would grant UPS’s motion. However, the Court understands that plaintiffs have set forth only a portion
of their evidence supporting the claim that UPS does
not actually maintain nationwide policies as required
by the AOD. In light of the fact that the Court has
modified its interpretation of § 376a(e)(3)(B)(ii)(I) at
this more advanced stage, the Court believes that
plaintiffs should not be faulted to the extent they provided only exemplar evidence of UPS’s non-compliance with the nationwide policies it adopted pursuant
to the AOD. Therefore, the Court will allow plaintiffs
to make a further submission of evidentiary support—
with limited additional argument by the parties relating solely to those submissions—as further set forth
below before definitively resolving UPS’s motion.
BACKGROUND1

I.

A.

Factual Background
1.

Background on the AOD

In 2004, the NYAG began investigating residential deliveries made by UPS, FedEx, and DHL in relation to alleged violations of N.Y. PHL § 1399-ll.
1

The Court here recounts only that background which is relevant to resolving UPS’s pending motion. The Court also incorporates its prior decisions in this action, including UPS’s motion to
dismiss and plaintiffs’ motion to strike certain affirmative defenses, for further background on this litigation. See UPS I, 2015
WL 5474067; State of New York v. United Parcel Serv., Inc.
(“UPS II”), No. 15-cv-1136 (KBF), 2016 WL 502042 (S.D.N.Y.
Feb. 8, 2016).

381a
(UPS’s 56.1 ¶ 1.)2 PHL § 1399-ll, which was first enacted in 2000, prohibits carriers from knowingly
transporting cigarettes to any person in New York
reasonably believed by such carrier to not be an authorized consignee. UPS cooperated with the NYAG’s
investigation. (UPS’s 56.1 ¶ 1.)
On February 23, 2005, NAAG3 sent UPS a letter
requesting that the company take appropriate steps
to ensure that it does not facilitate violations of federal and state laws by means of the shipment and delivery of contraband tobacco products sold via the internet. (UPS’s 56.1 ¶ 2; McPherson Decl., Ex. 8, ECF
No. 175-8.) The letter, which was signed by 41 states

2

The notation “UPS’s 56.1” refers to UPS’s statement of undisputed material facts, submitted under Local Rule 56.1. (ECF
No. 176.) This decision relies only on those facts that plaintiffs
did not dispute with citations to admissible evidence in their
Rule 56.1 counterstatement (ECF No. 195) (referred to herein as
“Pls.’ 56.1 Cstmt.”). See Local Rule 56.1(d) (“Each statement by
the movant or opponent pursuant to Rule 56.1(a) and (b), including each statement controverting any statement of material fact,
must be followed by citation to evidence which would be admissible, set forth as required by Fed. R. Civ. P. 56(c).”).
3

The National Association of Attorneys General is an organization whose members are the attorneys general of each of the
fifty states, five territories and the District of Columbia that facilitates interaction among its members and assists them in fulfilling the responsibilities of their offices and delivering high
quality legal services. (Proshansky Decl., Ex. 8 (“Hering Decl.”)
¶¶ 2, 4, ECF No. 194-8.) “NAAG has no authority to in any manner legally bind its member attorneys general [as] it is a voluntary association of representatives of sovereign states and takes
no actions that purport to represent the policies or legal positions
of its members unless expressly authorized to do so.” (Hering
Decl. ¶ 5.)

382a
and U.S. territories,4 requested that UPS (along with
other carriers and major credit card companies) attend a meeting scheduled for March 17, 2005 with attorneys general and their staff. (UPS’s 56.1 ¶ 2.) UPS
attended the March 17 meeting with representatives
of other states to discuss the illegal sale of tobacco
products on the internet and related issues. (UPS’s
56.1 ¶ 3.) The NAAG followed up the March 17 meeting with a letter, dated April 12, 2005, listing “Requested Actions for Carriers” that had been presented
and discussed at the meeting (UPS’s 56.1 ¶ 3;
McPherson Decl., Ex. 9, ECF No. 175-9.)
UPS ultimately agreed to alter its policies to prohibit the delivery of cigarettes to consumers nationwide, entering into an Assurance of Discontinuance
(the “AOD”) with the NYAG regarding its transportation of cigarettes on October 21, 2005. (UPS’s 56.1 ¶ 4;
see Cook Decl., Ex. 1 (“AOD”) ¶ 45, ECF No. 174-1.)
All of the procedures that the NAAG sought UPS and
other carriers to implement were included in the
AOD. (UPS’s 56.1 ¶ 5.) The AOD obligated UPS to,
inter alia: (1) implement and adhere to policies restricting the delivery of cigarettes to consumers on a
nationwide basis, (2) investigate shippers that UPS
believed to be cigarette retailers, (3) notify shippers
believed to be cigarette retailers of UPS’s policy restricting the delivery of cigarettes to consumers on a
nationwide basis, (4) conduct audits of shippers upon

4

The signatories to the letter included, inter alia, the NYAG
and the attorneys general of the seven states that have submitted declarations in support of plaintiffs: California, Connecticut,
Idaho, Maryland, New Mexico, Pennsylvania and Utah. (UPS’s
56.1 ¶ 2; McPherson Decl., Ex. 8.)

383a
a reasonable belief that the shippers may be delivering cigarettes to consumers, (5) maintain a database
of shippers suspected of being cigarette retailers,
(6) train employees about its policy of restricting the
delivery of cigarettes to consumers on a nationwide
basis, and (7) submit a report of its compliance with
the terms of the AOD. (UPS’s 56.1 ¶ 5.) UPS submitted the required report to the NYAG regarding its
compliance with the AOD on December 20, 2005.
(UPS’s 56.1 ¶ 6.) The AOD explicitly preserved UPS’s
right to seek a ruling that PHL § 1399-ll is unconstitutional, preempted by federal law or otherwise unenforceable against UPS. (AOD ¶ 45.)
Three days after the execution of the AOD, on October 24, 2005, David Nocenti, then-Counsel to the
NYAG, emailed Laura Kaplan, Deputy Attorney General in the California Attorney General’s Office, stating that “we reached agreement with UPS regarding
their shipments of cigarettes to consumers” and explaining that the “UPS agreement is similar to the
DHL agreement, most notably because UPS has
agreed to stop the direct shipment of cigarettes to consumers nationwide.” (UPS’s 56.1 ¶ 10.) Ms. Kaplan
replied that same day, stating that she had “a few
questions about the effect of the agreement on other
states” and asking whether “UPS agreed to institute
a nationwide policy prohibiting the shipments of cigarettes to consumers[,] even to those states not a party
to the [AOD] and which do not prohibit shipment of
cigarettes to consumers?” (UPS’s 56.1 ¶ 11.) Mr. Nocenti replied that same day, stating “Yes, like DHL,
UPS has agreed to institute a nationwide policy prohibiting the shipment of cigarettes to consumers, even
to those states not a party to the [AOD] and which do

384a
not prohibit shipment of cigarettes to consumers.”
(UPS’s 56.1 ¶ 12.) Approximately three years later,
on October 29, 2008, Ms. Kaplan forwarded Mr. Nocenti’s email to Michael Hering (NAAG Tobacco Center Director and Chief Counsel), Bill Lieblich (NAAG
Tobacco Center Deputy Chief Counsel), and Dana
Biberman (Chief of the NYAG’s Tobacco Compliance
Bureau), stating “I have forwarded an e-mail from David Nocenti at the time the [AOD] was signed on the
applicability of the agreement to the states. Clearly,
it does apply to the states.” (UPS’s 56.1 ¶ 13.)
It is undisputed that, as of the filing of UPS’s motion, no state has notified UPS of a belief that the AOD
does not have nationwide scope or that UPS does not
honor the AOD nationwide. (UPS’s 56.1 ¶ 14.) Beginning in December 2015, plaintiffs provided UPS’s
counsel with declarations from seven assistant attorneys general—including from California,5 Idaho,
Utah, Connecticut, New Mexico, Maryland and Pennsylvania—asserting that their states do not honor
UPS’s AOD. (UPS’s 56.1 ¶ 15; Pls.’ 56.1 Cstmt. ¶ 15.)
Although UPS asserts that, since entering into the
AOD, it has continued to administer and enforce a nationwide policy prohibiting the shipment of cigarettes
to consumers (UPS’s 56.1 ¶ 8; Cook Decl. ¶ 6, ECF No.
174), plaintiffs counter that UPS has and does in fact
deliver contraband cigarettes to customers (Pls.’ 56.1
Cstmt. ¶ 8).6 The evidence that plaintiffs have proffered relating to UPS’s non-adherence to its policies
5

The declarant from the California Attorney General’s Office,
Laura Kaplan, was the other participant in the above exchange
with Mr. Nocenti. (See UPS’s 56.1 ¶ 15(a).)
6

Although not at issue in this motion, the State alleges a claim
against UPS for violation of the AOD. (TAC ¶¶ 187-95.)

385a
includes three declarations, excerpts from two depositions, and one chart produced in discovery showing deliveries that UPS made for one reservation seller to
various states. (Proshansky Decl., Exs. 1-5, 7, ECF
No. 194.) The three declarants—Jamie Harris-Bedell,
Robert L. Oliver, Sr., and Philip D. Christ—owned or
worked at reservation tobacco businesses for whom
the declarants assert UPS employees knowingly and
repeatedly made deliveries of contraband cigarettes.
Plaintiffs’ transcript excerpts are from the depositions
of Christ and Bradley J. Cook, UPS’s Rule 30(b)(6)
witness in this litigation. The Court further describes
these supporting factual materials when addressing
whether plaintiffs’ submissions have raised a genuine
issue of material fact.
2.

Background on the PACT Act

The Prevent All Cigarette Trafficking Act (“PACT
Act”), enacted on March 31, 2010 and effective as of
June 29, 2010, “imposes strict restrictions on the delivery sale of cigarettes and smokeless tobacco.” Red
Earth LLC v. United States, 657 F.3d 138, 141 (2d Cir.
2011) (quotation marks omitted). The PACT Act mandates that delivery sellers comply with shipping and
recordkeeping requirements, 15 U.S.C. § 376a(a)-(d),
and requires the United States Attorney General to
compile a list of delivery sellers of cigarettes or smokeless tobacco that have not registered with it or are otherwise not in compliance with the PACT Act, and
share that list with state attorneys general, carriers
and other delivery services, including the United
States Postal Service (“USPS”), id. § 376a(e)(1)(A).
The PACT Act further provides that “no person who
delivers cigarettes or smokeless tobacco to consumers,
shall knowingly complete, cause to be completed, or

386a
complete its portion of a delivery of any package for
any person whose name and address are on the
[above-referenced non-compliance] list.”
Id.
§ 376a(e)(2)(A). The PACT Act confers standing on
state attorneys general to bring actions against common carriers for civil penalties and other equitable relief for violations of the statute. Id. §§ 377(b)(1)(B),
377(b)(2), 378(c)(1).
The PACT Act contains a number of provisions exempting certain entities from the otherwise applicable
obligations and liabilities. The exemptions for common carriers that are pertinent here state:
(3) Exemptions
(A) In general
Subsection (b)(2) and any requirements or
restrictions placed directly on common carriers under this subsection, including subparagraphs (A) and (B) of paragraph (2),
shall not apply to a common carrier that—
(i) is subject to a settlement agreement described in subparagraph (B);
or
(ii) if a settlement agreement described in subparagraph (B) to which
the common carrier is a party is terminated or otherwise becomes inactive,
is administering and enforcing policies and practices throughout the
United States that are at least as
stringent as the agreement.

387a
(B) Settlement agreement
A settlement agreement described in this
subparagraph—
(i) is a settlement agreement relating
to tobacco product deliveries to consumers; and
(ii) includes—
(I) the Assurance of Discontinuance entered into by the Attorney
General of New York and DHL
Holdings USA, Inc. and DHL Express (USA), Inc. on or about
July 1, 2005, the Assurance of Discontinuance entered into by the
Attorney General of New York
and United Parcel Service, Inc. on
or about October 21, 2005, and the
Assurance of Compliance entered
into by the Attorney General of
New York and Federal Express
Corporation and FedEx Ground
Package Systems, Inc. on or about
February 3, 2006, if each of those
agreements is honored throughout the United States to block illegal deliveries of cigarettes or
smokeless tobacco to consumers;
and
(II) any other active agreement
between a common carrier and a
State that operates throughout
the United States to ensure that
no deliveries of cigarettes or

388a
smokeless tobacco shall be made
to consumers or illegally operating Internet or mail-order sellers
and that any such deliveries to
consumers shall not be made to
minors or without payment to the
States and localities where the
consumers are located of all taxes
on the tobacco products.
15 U.S.C. § 376a(e)(3). Pursuant to these exemptions,
any requirements or restrictions placed directly on
common carriers by the statute do not apply to a common carrier that has entered into a qualifying settlement agreement. UPS’s AOD, which is explicitly
named, qualifies “if [it] is honored throughout the
United States to block illegal deliveries of cigarettes
or smokeless tobacco to consumers.”
Id.
§ 376a(e)(3)(B)(ii)(I). The statute specifically enumerates two other qualifying settlement agreements, the
Assurance of Discontinuance entered into by the
NYAG and DHL on or about July 1, 2005, and the Assurance of Compliance entered into by the NYAG and
FedEx on or about February 3, 2006; all three agreements are subject to the “is honored throughout the
United States” conditional clause. Id.7

7

Although UPS does not rely on it as a basis to claim exemption from the PACT Act, the statute also contains a separate exemption providing that a common carrier is not subject to civil
penalties for violating § 376a(e) if it “has implemented and enforces effective policies and practices for complying with
[§ 376a(e)].” Id. § 377(b)(3)(B)(i) (emphasis added).

389a
The PACT Act also separately deals with the issue
of preemption of state law.8 On the issue of preemption, the PACT Act provides that, except to the extent
set forth in the subsequent clause, “nothing in the
[PACT Act], the amendments made by that Act, or in
any other Federal statute shall be construed to
preempt, supersede, or otherwise limit or restrict
State laws prohibiting the delivery sale, or the shipment or delivery pursuant to a delivery sale, of cigarettes or other tobacco products to individual consumers or personal residences.”
15 U.S.C.
§ 376a(e)(5)(C)(i). That provision is limited by the
clause which follows, which provides that “[n]o State
may enforce against a common carrier a law prohibiting the delivery of cigarettes or other tobacco products
to individual consumers or personal residences without proof that the common carrier is not exempt under
[§ 376a(e)(3)].”
Id. § 376a(e)(5)(C)(ii) (emphasis
added).
B. Procedural History
On February 18, 2015, the State and City commenced this action by filing a complaint against UPS
(ECF No. 1), and filed an Amended Complaint on May
8

In 2008, prior to the enactment of the PACT Act, the Supreme Court struck down a Maine law that (1) required statelicensed tobacco shippers to utilize delivery companies that provide recipient-verification services confirming that the buyer is
of legal age and (2) imposed a presumption of carrier knowledge
that a shipment contains unlicensed tobacco products in certain
circumstances, on the ground that the law was preempted by the
Federal Aviation Administration Authorization Act of 1994
(“FAAAA”), 49 U.S.C. § 14501(c)(1). Rowe v. New Hampshire Motor Transp. Ass’n, 552 U.S. 364, 372-73 (2008). The PACT Act
specifically addresses any potential conflict that any of its provisions may have with the FAAAA. See 15 U.S.C. § 376a(e)(9)(C).

390a
1, 2015 (ECF No. 14). The Amended Complaint alleged fourteen causes of action seeking various forms
of relief under federal and New York law, including,
in relevant part, under the PACT Act and N.Y. PHL
§ 1399-ll.
On May 22, 2015, UPS moved to dismiss the
Amended Complaint pursuant to Rule 12(b)(6). (ECF
No. 21.) Among the arguments advanced in its motion, UPS contended that the claims brought under
the PACT Act were subject to dismissal because that
statute expressly exempts UPS from its requirements
and plaintiffs failed to adequately allege that UPS
was not entitled to the benefit of the exemption due to
violations of the AOD. (UPS’s Mem. of Law in Support
of Mot. to Dismiss the Am. Compl. at 17-18, ECF No.
22.) UPS also argued that, as a result of its PACT Act
exemption, plaintiffs’ claims brought under PHL
§ 1399-ll
were
preempted
by
15
U.S.C.
§ 376a(e)(5)(C)(ii), and therefore also subject to dismissal. In their opposition briefs, plaintiffs countered
that the Amended Complaint adequately alleged that
the AOD was not honored throughout the United
States based on allegations that UPS had breached
the AOD, and therefore UPS was not exempt under
§ 376a(e)(3). (ECF No. 28 at 8-9; ECF No. 29 at 1213.) On July 30, 2015, the Court held oral argument
on plaintiffs’ motion, during which the parties maintained the arguments regarding the PACT Act that
they had raised in their briefing. (Jul 30, 2015 Oral
Arg. Tr. at 11-16, 39-40, ECF No. 33.)
Following oral argument, on August 26, 2015, the
Court issued an Order informing the parties that it
was considering a reading of § 376a(e)(3)(B)(ii)(I) that
had not previously been advanced by either party.

391a
(ECF No. 37.) The Court explained that, under its
proposed alternative reading, § 376a(e)(3)(B) is a definitional provision that merely defines the types of
settlement agreements that qualify for exemption and
does not purport to reach questions of compliance or
noncompliance with obligations assumed under any
particular agreement. Because the parties had not
addressed this statutory reading in their papers or at
oral argument, the Court gave the parties an opportunity to submit supplemental briefing that did so.
The parties each filed supplemental briefs on September 9, 2015. (ECF Nos. 44, 45.) UPS’s supplemental
brief argued that the text and structure of the PACT
Act compelled the Court’s interpretation, and that it
furthered Congressional intent. (ECF No. 44.) Plaintiffs’ supplemental brief continued to advocate for the
reading they had advanced in their earlier moving papers—that UPS is entitled to the exemption only if it
has fully complied with the requirements imposed in
the AOD and that the mere allegation in a complaint
of a failure to comply is sufficient to vitiate the exemption. (ECF No. 45.)
On September 16, 2015, this Court issued a decision that granted in part and denied in part UPS’s motion, in relevant part dismissing plaintiffs’ claims
brought pursuant to the PACT Act and PHL § 1399-ll.
UPS I, 2015 WL 5474067. The Court’s dismissal of
plaintiffs’ PACT Act claims was premised on the interpretation of § 376a(e)(3)(B) that the Court had advanced in its August 26 Order—namely, that
§ 376a(e)(3)(B) “is a definitional provision that merely
defines the types of settlement agreements that qualify for exemption” and “does not purport to reach questions of compliance or noncompliance with obligations

392a
assumed under any particular agreement.” Id. at *7.
The Court concluded that, inter alia, because the
Amended Complaint failed to allege that the AOD has
not been recognized by states nationwide, there was
no need for the Court to “determine the precise procedure by which a state must honor an agreement” to
resolve UPS’s motion. Id. at *8. The Court dismissed
plaintiffs’ PHL § 1399-ll claims on the ground that
they were preempted pursuant to 15 U.S.C.
§ 376a(e)(5)(C)(ii). Id. at *9.
On October 21, 2015, plaintiffs moved for leave to
file a Second Amended Complaint, seeking to add
back the previously dismissed claims brought under
the PACT Act and PHL § 1399-ll. (ECF No. 68.) The
basis for the motion was that plaintiffs had not anticipated the Court’s interpretation of the PACT Act, and
as a result had not previously had an opportunity to
plead these claims in light of that interpretation. On
November 23, 2015, the Court granted plaintiffs’ motion (ECF No. 85), and plaintiffs filed their Second
Amended Complaint on November 30, 2015 (ECF No.
86).
On January 25, 2016, plaintiffs moved for leave to
file a Third Amended Complaint for the purpose of
broadening the allegations supporting certain of their
existing claims based on information that plaintiffs
had obtained during discovery. (ECF No. 149.) On
February 18, 2016, the parties filed a joint stipulation
in which UPS consented to plaintiffs’ motion (ECF No.
183); the Court so ordered the stipulation on February
22, 2016 (ECF No. 185). Plaintiffs filed the Third
Amended Complaint, which is now operative, on February 24, 2016. (TAC, ECF No. 189.) Claims seven,
eight, nine and ten of the Third Amended Complaint

393a
seek civil damages and penalties under the PACT Act;
claims eleven and twelve seek civil penalties pursuant
to PHL § 1399-ll. (Third Am. Compl. ¶¶ 148-86.) UPS
answered the Third Amended Complaint on March
16, 2016. (ECF No. 199.)
On February 2, 2016, UPS filed the pending motion for partial summary judgment, seeking dismissal
of plaintiffs’ claims under the PACT Act and PHL
§ 1399-ll. (ECF No. 172.)9 Plaintiffs opposed the motion on March 2, 2016. (ECF No. 196.) UPS filed its
reply brief, and the motion became fully briefed, on
March 16, 2016. (ECF No. 200.)
II. SUMMARY JUDGMENT STANDARD
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
moving party bears the initial burden of demonstrating “the absence of a genuine issue of material fact.”
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
Once the moving party has discharged its burden, the
opposing party must set out specific facts showing a
genuine issue of material fact for trial. Wright v.
Goord, 554 F.3d 255, 266 (2d Cir. 2009). The nonmoving party “may not rely on mere speculation or conjecture as to the true nature of the facts to overcome a
motion for summary judgment.” Hicks v. Baines, 593
F.3d 159, 166 (2d Cir. 2010) (quoting Fletcher v. Atex,
Inc., 68 F.3d 1451, 1456 (2d Cir. 1995)). “The infer-

9

Although the pending motion was filed prior to plaintiffs’ filing of the Third Amended Complaint, the newly added allegations do not bear on the issues raised in this motion.

394a
ences to be drawn from the underlying affidavits, exhibits, interrogatory answers, and depositions must
be viewed in the light most favorable to the party opposing the motion.” Cronin v. Aetna Life Ins. Co., 46
F.3d 196, 202 (2d Cir. 1995) (citations omitted). However, “[t]he mere existence of a scintilla of evidence in
support of the plaintiff’s position will be insufficient;
there must be evidence on which the jury could reasonably find for the plaintiff.” Jeffreys v. City of New
York, 426 F.3d 549, 554 (2d Cir. 2005) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252 (1986))
(internal quotation mark omitted).
III. DISCUSSION
Resolution of the pending motion turns on
whether UPS has shown its entitlement to rely on the
exemption set forth in 15 U.S.C. § 376a(e)(3)(B)(ii)(I)
as a defense to plaintiffs’ PACT Act and PHL § 1399ll claims.10 To determine whether UPS is entitled to
judgment as a matter of law on these claims, the Court
must first fully set forth its interpretation of the relevant portions of § 376a(e)(3). The Court next addresses whether UPS has met its burden of showing
that plaintiffs have failed to raise a genuine issue of
material fact as to UPS’s qualification for exemption
in light of the Court’s interpretation. For the reasons
set forth below, the Court concludes that UPS has
done so on the current record, but will, as explained
below, allow plaintiffs an opportunity to present additional supporting evidence of UPS’s non-adherence to
10

Plaintiffs do not dispute that, to the extent that UPS is exempt from the PACT Act under § 376a(e)(3), it is also entitled to
dismissal of plaintiffs’ PHL § 1399-ll claims pursuant to
§ 376a(e)(5)(C)(ii).

395a
its nationwide policies to curb the delivery of contraband cigarettes.
A. PACT ACT
1. The Court’s Interpretation of 15 U.S.C.
§ 376a(e)(3)(B)(ii)(I)
Section 376a(e)(3)(B)(ii)(I) explicitly enumerates
the AOD as being one of three agreements that qualify
a carrier for exemption from the PACT Act’s requirements “if [it] is honored throughout the United States
to block illegal deliveries of cigarettes or smokeless tobacco to consumers.” 15 U.S.C. § 376a(e)(3)(B)(ii)(I).
The threshold interpretive dispute between the parties is the role that the phrase “is honored throughout
the United States” plays in the exemption and the
means by which a suing state may provide proof that
a settlement agreement is not honored or how a carrier may show that it is honored.
While the Court’s starting point in interpreting
§ 376a(e)(3)(B) is the plain language of the statute,
United States v. Dauray, 215 F.3d 257, 260 (2d Cir.
2000), as the Court previously explained in its decision on UPS’s motion to dismiss, the phrase “is honored
throughout
the
United
States”
in
§ 376a(e)(3)(B)(ii)(I), standing alone, does not provide
a satisfactory answer as to what is required. While
the Court believes that “is honored” most plausibly
means “is recognized,” see HONOR, Black’s Law Dictionary (10th ed. 2014) (defining honor as “[t]o recognize” among other definitions), “honor” could also
mean, inter alia, to “fulfill (a duty or obligation)” or

396a
“abide by the terms of (an agreement).”11 That is, “is
honored” could mean “is honored [by states nationwide],” or “is honored [by UPS nationwide],” or both.
The immediately surrounding language of this conditional clause does not allow a clear and unambiguous
meaning to jump off the page. The lack of clarity as
to the “is honored” conditional clause is magnified because the provision, which uses the passive voice, does
not identify who must “honor” the settlement agreement or how that fact is communicated. The pivotal
language of this exemption is, in other words, hard to
decipher. Although the Court believes that the interpretation it adopts below is as well-supported by the
plain text of the statute as any proposed alternative,
the Court also relies on “the statutory context, ‘structure, history, and purpose’” of the statute to make a
definitive determination. Abramski v. United States,
134 S. Ct. 2259, 2267 (2014) (quoting Maracich v.
Spears, 133 S. Ct. 2191, 2209 (2013)); see also King v.
Burwell, 135 S. Ct. 2480, 2483 (2015) (Where a word
is susceptible to more than one interpretation, “the
Court must read the words in their context and with
a view to their place in the overall statutory scheme.”
(quotation marks omitted)).
Based on the plain language of the relevant provisions and the statutory context, structure, legislative
history and purpose of the PACT Act (and, specifically, the purpose of § 376a(e)(3)(B)(ii)(I))—which the
Court lays out below—the Court essentially adheres
to the interpretation set forth in its decision in rela-

11

HONOR, Oxford English Dictionary (OED Third Ed., March
2014)
(available
at
http://www.oed.com/view/Entry/88228?rskey=6pwt3c&result=2&isAdvanced= false#eid).

397a
tion of UPS’s motion to dismiss, but with further elaboration made necessary at this later stage on a more
fully developed record. In granting in part UPS’s motion to dismiss, the Court previously stated that UPS
is entitled to the exemption if the AOD has appropriate breadth and that the phrase “is honored” means
“is recognized” by all states in the nation. UPS I, 2015
WL 5474067, at *7. Based on the parties’ more fulsome arguments in relation to the pending motion,
and the evidence that plaintiffs have developed to support their effort to revive their PACT Act claims, the
Court has come to the conclusion that “is honored”
also requires that UPS give the AOD nationwide
breadth. Thus, it is necessary for the Court to further
explain its interpretation of § 376a(e)(3)(B)(ii)(I) and
understanding of how the exemption functions.
The Court now concludes, as it did in its Opinion
& Order of September 16, 2015, that § 376a(e)(3)(B) is
a definitional provision that serves to define the types
of settlement agreements that qualify for exemption.
In defining a sub-category of enumerated qualifying
agreements in § 376a(e)(3)(B)(ii)(I), the PACT Act
sought to preserve the status quo as to UPS and two
other carriers by exempting them from the PACT
Act’s requirements as of the date of enactment. The
Court further continues to believe that § 376a(e)(3)(B)
does not itself reach questions of compliance or noncompliance with obligations assumed under any particular agreement. Put another way, this provision
does not mean that if the AOD is, on a shipment-byshipment (or incident-based) review, not fully and always in fact complied with, that UPS loses its exemption.

398a
Whatever the provision means, it is clear that as
of the date of enactment, UPS was viewed by the
NAAG and Congress as entitled to its protections.
That being said, the fact that UPS (and the other enumerated carriers) was exempt from the date of enactment does not necessarily mean that UPS (or these
other carriers) remains exempt in perpetuity. As
plaintiffs argue, if that was Congress’s intention, the
PACT Act would not have gone to the trouble of imposing any condition on exemption, and instead would
have merely identified UPS and the other carriers as
exempt, plain and simple. The Court is persuaded
that the bargain struck by the statute is, rather, that
the carrier retains its exempt status—that is, it fits
within the definitional provisions of § 376a(e)(3)(B)—
only so long as it continues to give nationwide effect
to the applicable settlement agreement and so long as
there is no material change in states’ recognition of
the existence of the AOD and its nationwide scope.
Those conditions explain how Congress sought to preserve the status quo by granting qualifying carriers
an exemption at the time of passage, but not to grant
an exemption in perpetuity.
As the Court stated in its prior decision,
§ 376a(e)(3)(B)(ii)(I) was intended to—and is properly
interpreted as—codifying the status quo as to UPS
and the other carriers who had entered into agreements of nationwide scope and effect with the NYAG
prior to the PACT Act’s enactment. The statute,
therefore, provided UPS with an exemption from the
time that the PACT Act was enacted. It follows that
the conditions in existence at the time the statute was
passed were sufficient to make UPS exempt; by saying
that “‘is honored throughout the United States’ means

399a
‘is recognized’ by all states in the nation,” UPS I, 2015
WL 5474067, at *7, the Court meant that UPS was
exempt as long as the AOD’s existence was recognized
nationwide and that the obligations imposed in the
AOD are given nationwide effect—a factual predicate
that Congress understood existed at the time of enactment.
As stated above, however, although UPS had met
the requirements to entitle it to exemption at the time
the PACT Act was enacted, the Court expands upon
its interpretation by explaining that the statute does
not provide a necessarily perpetual exemption. Instead, UPS could lose its exemption based on a material change in circumstances, either by UPS no longer
giving nationwide effect to the AOD or states no
longer recognizing its active existence. Thus, the
Court clarifies that it is both UPS and the states that
each, in a general sense, must honor and recognize the
AOD and its nationwide effect. The statute does not,
in contrast, require that all fifty states affirmatively
assent to the settlement agreement as having preclusive effect of its ability to seek remedies under the
PACT Act and/or state law against UPS.12 To hold otherwise would be inconsistent with the Court’s view
that the exemption was meant to preserve the status
12

To the extent that plaintiffs argue that the Court previously
determined that UPS loses its exemption if plaintiffs provide evidence that even one state does not honor the AOD (see Proshansky Decl., Ex. 9, ECF No. 194-9), the Court rejects the notion that
its statement at the January 12, 2016 conference, without the
benefit of briefing on the pending motion, represented the
Court’s definitive interpretation of § 376a(e)(3)(B)(ii)(I). In any
event, as explained below, plaintiffs have failed to show that any
state does not honor the AOD in the sense that the Court deems
relevant.

400a
quo vis-à-vis UPS and the other two carriers who had
already entered into settlement agreements and
would render the enumerated exemptions a nullity,
an outcome that cuts against what indicia exists as to
Congress’s intention. Below, the Court sets forth its
support for the above interpretation.
First, the Court’s interpretation is well-supported
by the plain text. As the Court stated when ruling on
UPS’s motion to dismiss, use of the word “includes” at
the start of § 376a(e)(3)(B)(ii) signals that what follows is a list of that which is encompassed, see Samantar v. Yousuf, 560 U.S. 305, 317 (2010) (“[U]se of the
word ‘include’ can signal that the list that follows is
meant to be illustrative rather than exhaustive.”),
supporting the view that § 376a(e)(3)(B) serves as a
definitional section, rather than as one that imports
questions of compliance. As this Court has observed,
the “concepts of breadth and behavior are quite different.” UPS I, 2015 WL 5474067, at *8. Section
376a(e)(3)(B)(ii)(I), in turn, defines a qualifying “settlement agreement” to include the AOD, as well as the
analogous agreements entered into by DHL and Federal Express, “if each of those agreements is honored
throughout the United States.”
15 U.S.C.
§ 376a(e)(3)(B)(ii)(I). The use of the phrase “is honored”—rather than “becomes honored”—is consistent
with an understanding that the AOD exempted UPS
from the time the PACT Act was enacted, not only
upon the occurrence of some future contingency.
In adopting this reading of § 376a(e)(3)(B)(ii)(I),
the Court observes that it would indeed be odd for
Congress to explicitly identify three settlement agreements that notably had already been in effect for several years at the time of the PACT Act’s enactment

401a
but intend that those settlement agreements only
qualify for exemption if all states—including those
several who had not participated in the March 2005
NAAG meeting—subsequently affirmatively assented
to those agreements by a mechanism or procedure not
explained anywhere in the statute nor mentioned in
the legislative history. Such a requirement makes little sense as Congress undoubtedly would have been
aware that it could pose an insurmountable obstacle
for UPS (or the other carriers) to get every state to affirmatively assent to an agreement between UPS and
the NYAG in lieu of seeking penalties under the PACT
Act or state law. Congress knew that the three enumerated settlement agreements provided no right of
enforcement to any state other than New York. That
plaintiffs have not offered any indication that UPS or
any other carrier sought affirmative assent to their respective agreements by any state after the enactment
of the PACT Act is strong evidence that no such arrangement was ever contemplated.
Second, the Court’s interpretation is also informed and supported by the overall structure of
§ 376a(e)(3) and the text surrounding the exemptions
arising from the enumerated agreements. K Mart
Corp. v. Cartier, Inc., 486 U.S. 281, 291 (1988) (“In ascertaining the plain meaning of the statute, the court
must look to the particular statutory language at issue, as well as the language and design of the statute
as a whole.”). In addition to § 376a(e)(3)(B)(ii)(I),
which enumerates the AOD and the two analogous
settlement agreements entered into by DHL and
FedEx, § 376a(e)(3) separately provides for two other
sets of circumstances that could qualify a carrier for

402a
PACT Act exemption: §§ 376a(e)(3)(B)(ii)(II) and
376a(e)(3)(A)(ii). The Court looks at each in turn.
Section 376a(e)(3)(B)(ii)(II) identifies a category of
unenumerated agreements that qualify for exemption. As the Court explained in its decision on UPS’s
motion to dismiss, that provision is particularly instructive
because
it
acts
in
parallel
to
§ 376a(e)(3)(B)(ii)(I) and is also relevant under the
noscitur a sociis canon of construction. See Gustafson
v. Alloyd Co., 513 U.S. 561, 575 (1995) (“[A] word is
known by the company it keeps.”).
Section
376a(e)(3)(B)(ii)(II) states that a qualifying agreement
includes “any other active agreement between a common carrier and a State that operates throughout the
United States to ensure that no deliveries of cigarettes
or smokeless tobacco shall be made to consumers . . .
without payment to the States . . . where the consumers are located of all taxes on the tobacco products.”
15 U.S.C. § 376a(e)(3)(B)(ii)(II) (emphasis added).
The phrase “that operates throughout the United
States,” even more so than the phrase “is honored
throughout the United States,” suggests that the conditional clause is directed at geographic breadth rather than the signatory’s degree of compliance with
the agreement.
Section 376a(e)(3)(A)(ii) accounts for the circumstance in which a once qualifying agreement (i.e. an
agreement described in § 376a(e)(3)(B)(ii)) is no longer
operative. That provision provides that a carrier
which was a party to a qualifying settlement agreement that is “terminated or otherwise becomes inactive” may retain the exemption if it is “administering
and enforcing policies and practices throughout the
United States that are at least as stringent as the

403a
agreement.” 15 U.S.C. § 376a(e)(3)(A)(ii) (emphasis
added). This provision is supportive of the Court’s interpretation because it shows that the statute contemplates that a carrier may retain the exemption without the acquiescence or consent of all fifty states as
long as it continues to have nationwide policies and
practices that impose obligations on the carrier as
stringent as the settlement agreements—such as the
AOD—of which Congress was aware. Notably, this
exemption does not preface “policies and practices”
with the word “effective.” Again, based on the inference that Congress sought the exemptions to be read
consistently with one another, use of the language
“administering and enforcing policies and practices
throughout the United States” in this exemption supports the view that “is honored throughout the United
States” refers to geographic breadth and means that
the carrier must give the settlement agreement nationwide effect. It would make no sense for a carrier
with an active qualifying settlement agreement with
one state to retain its exemption only if all fifty states
continue to affirmatively assent to the agreement having preclusive effect, but that a carrier whose agreement becomes inactive or is terminated would not
need the continued assent of all fifty states to retain
its exemption. Nat. Res. Def. Council, Inc. v. Muszynski, 268 F.3d 91, 98 (2d Cir. 2001) (“[A]bsurd results
are to be avoided and internal inconsistencies in the
statute must be dealt with.”).13
13

Plaintiffs, citing to draft language and legislative history relating to the 2007 version of the PACT Act, argue that the Court
should essentially import the word “effectively” into the phrase
“administering and enforcing policies and practices.” (Pls.’ Mem.

404a
Third, the context in which the PACT Act—and,
specifically, the exemption provision at issue—was
passed also supports the Court’s interpretation over
plaintiffs’ interpretation. That context entails consideration of the development of regulation of the direct
shipment of cigarettes to consumers, the legislative
history of the PACT Act, and the statute’s purpose
(which is, of course, informed by the legislative history). See Concrete Pipe & Products of California, Inc.
v. Constr. Laborers Pension Trust for S. California,
508 U.S. 602, 627 (1993) (stating that in the “usual
case of textual ambiguity” a court should turn to “the
legislative purpose as revealed by the history of the
statute”); see also Puello v. Bureau of Citizenship &
Immigration Servs., 511 F.3d 324, 327 (2d Cir. 2007)
(when considering legislative history, a court must
“construct an interpretation that comports with the
statute’s primary purpose and does not lead to anomalous or unreasonable results”).
Although just one piece of the legislative puzzle,
the context in which the AOD came about and contemporaneous beliefs as to what it sought to and did accomplish (including those of the NYAG and representatives of other states), inform the Court’s view as to
what the status quo was and what expectations would
have been at the time the PACT Act was enacted. As
recited above, UPS and the NYAG entered into the

of Law in Opp. to UPS’s Mot. for Partial Summ. J. (“Pls.’ Opp.
Br.”) at 15-16, ECF No. 196.) The Court rejects this argument
because plaintiffs’ evidence, relating to a prior version of the bill,
is inapposite. No form of the word “effective” was included in the
adopted version of § 376a(e)(3), but was used in the separate exemption provided for elsewhere in the statute in § 377(b)(3)(B)(i).

405a
AOD a few months after UPS and other carriers participated in a meeting convened by the NAAG regarding, inter alia, the illegal sale of tobacco products on
the internet. (UPS’s 56.1 ¶¶ 3-4.) Although plaintiffs
dispute that other states worked with the NYAG to
reach an agreement with UPS (Pls.’ 56.1 Cstmt. ¶ 2),
the AOD provided for all of the procedures that the
NAAG had sought UPS to implement (UPS’s 56.1 ¶ 5),
suggesting that there was a consensus or at least some
input provided by other states.
The involvement and/or acquiescence of other
states and an understanding that the AOD had nationwide scope and effect is further supported by
events occurring immediately following the parties’
agreement to the AOD. Shortly after executing the
AOD, David Nocenti, counsel to the NYAG, sent
emails to Laura Kaplan, Deputy Attorney General of
California, confirming that in the AOD UPS had
agreed to “stop the direct shipment of cigarettes to
consumers nationwide” and “institute a nationwide
policy prohibiting the shipment of cigarettes to consumers.” (UPS’s 56.1 ¶¶ 10-11.) In an email that Ms.
Kaplan sent three years later to individuals at the
NAAG and NYAG—around when the PACT Act was
under consideration—she expressed the view that
that the AOD “[c]learly . . . does apply to the states.”
(UPS’s 56.1 ¶ 13.) These communications support the
conclusion that the AOD was perceived to have nationwide effect, and to be operating throughout the
United States, from the time it was entered into and
up through the time of the PACT Act’s enactment.
Plaintiffs, in contrast, have presented no communications indicating that anyone perceived the AOD as not

406a
having nationwide effect or being honored throughout
the United States at any point prior to this litigation.
Next, the legislative history of the PACT Act itself
also supports the Court’s interpretation that the
agreements enumerated in § 376a(e)(3)(B)(ii)(I) were
understood to have met the exemption requirements
at the time of the law’s enactment. At the outset, the
evidence before Congress was that UPS, DHL and
FedEx had all already entered into agreements that
the carriers were giving nationwide effect. See, e.g.,
Prevent All Cigarette Trafficking Act of 2007, and the
Smuggled Tobacco Prevention Act of 2008: Hearing
on H.R. 4081 & H.R. 3689 Before the Subcomm. on
Crime, Terrorism, & Homeland Sec. of the H. Comm.
on the Judiciary, 110th Cong. (May 1, 2008) (“2008
Hearing”), at 79 (Statement of David S. Lapp, Chief
Counsel, Tobacco Enforcement Unit, Office of the Attorney Gen. of Md., testifying on behalf of NAAG)
(“Along with other State attorneys general, we have
attained agreements with . . . the major delivery companies, including UPS, FedEx and DHL, all to stop Internet sales of cigarettes.”); 2008 Hearing at 124
(Statement of Eric Proshansky, Deputy Chief, Division of Affirmative Litigation, New York City Law Department) (“The states, acting through the [NAAG],
and with the assistance of the Bureau of Alcohol, Tobacco, Firearms & Explosives, negotiated an unprecedented set of agreements with . . . common carriers in
which members of those industries have pledged to
end any participation in the Internet cigarette business.”).
Furthermore, much of the legislative history identified by UPS, which relates to the final bill that contained the exemption, supports the notion that

407a
§ 376a(e)(3)(B)(ii)(I) was included to prevent the imposition of onerous requirements on carriers who had
already entered into agreements to halt the delivery
of contraband cigarettes and to preserve the status
quo for those carriers. See 155 Cong. Rec. S5822-01,
2009 WL 1423723, at *104 (May 21, 2009) (statement
of Sen. Kohl, sponsor of Senate version of bill) (“It is
important to point out that this bill has been carefully
negotiated with the common carriers, including UPS,
to ensure that it does not place any unreasonable burdens on these businesses. In recognition of UPS and
other common carriers’ agreements to not deliver cigarettes to individual consumers on a nationwide basis,
pursuant to agreements with the State of New York,
we have exempted them from the bill provided this
agreement remains in effect.”). This statement by
Senator Kohl, a sponsor of the PACT Act, is indicative
of Congress’s intent for UPS, DHL and FedEx to obtain the benefit of the exemption from the date of enactment. A 2008 House Report discussing the proposed exemptions also contains additional evidence
that Congress understood that the carriers already
subject to settlement agreements would not have to
fulfill any additional conditions to render the exemption applicable. See H.R. Rep. No. 110-836, at 24
(Sept. 9, 2008) (“Finally, the subsection provides a
limited exception from these requirements for a common carrier with an active settlement agreement with
a State, honored nationwide, to block deliveries of cigarettes and smokeless tobacco or shipments where applicable taxes have not been paid. The three major
common carriers—United Parcel Service, FedEx, and
DHL—all have such agreements with the New York
State Attorney General’s office.” (emphasis added)).

408a
Additional legislative history shows that exempting UPS and the other carriers at the time of enactment does not undermine the statutory purpose, because that history shows that the statute was aimed
primarily at eliminating deliveries of illegal, untaxed
cigarettes by the U.S. Postal Service and making cigarettes non-mailable material, rather than at targeting other carriers. See 2008 Hearing at 79 (statement
of David S. Lapp) (explaining that states “have curbed
deliveries by all the major carriers except one: the
U.S. Postal Service, which asserts it has no legal authority to refuse cigarette shipments”); 156 Cong. Rec.
H1526-01, 2010 WL 956208, at *27 (Mar. 17, 2010)
(statement of Rep. Weiner, House sponsor of the
PACT Act) (“There’s only one common carrier that today still delivers tobacco through the mail—the
United States Postal Service.”); 2008 Hearing at 9
(testimony of Rep. Weiner) (“Right now, the only one
that is carrying [untaxed cigarettes], ironically, is
[USPS]. So the only one who would actually be covered by this in a real practical sense is [USPS]. Everyone else would already be following their status quo
operations.”).14 Plaintiffs’ argument that the Court’s
reading guts the PACT Act and undermines the
scheme it creates is belied by the fact that Congress
was not primarily concerned with UPS and the other
major carriers, but rather with USPS. Although the
14

The record indicates that the NYAG itself understood that
the Postal Service was responsible for the bulk of cigarette deliveries. (See McPherson Decl., Ex. 7, ECF No. 175-7 (October 24,
2005 email from David Nocenti to Laura Kaplan stating “The
vast majority of cigarette deliveries, of course, are made by the
Postal Service, and this simply highlights the need for enactment
of Congressional legislation.”).)

409a
Court does recognize that application of the exemption has the effect of rendering the forty-nine states
other than New York unable to pursue penalties from
UPS for illegal shipment of cigarettes, that is true
only to the extent that UPS continues to honor the
AOD nationwide as set forth above.15
Plaintiffs, for their part, also cite legislative history in their opposition brief that they contend is contrary to the Court’s interpretation. (See Pls.’ Opp. Br.
at 2-7.) When considered in its proper context, however, this legislative history actually supports, rather
than detracts from, the Court’s interpretation. In support of their view that the PACT Act was intended to
significantly broaden the burdens imposed on major
carriers like UPS, plaintiffs cite Congressional reports
addressing an earlier, materially different draft version of the bill, which ultimately was not passed. See,
e.g., Sen. Rep. No. 110-153 (2007).16 Significantly, the
15

Plaintiffs argue that UPS cannot rely on its “unilateral (and
uncommunicated) belief in an exemption from the PACT Act”
from the time of enactment, stating that there is no authority for
the view that “each state should have inferred UPS’s belief in a
purported PACT Act exemption and spontaneously notified UPS
of the state’s contrary belief.” (Pls.’ Opp. Br. at 19.) This argument is inapposite to the Court’s interpretation, which focuses
on Congress’s intent to confer an exemption from the time of enactment, not on UPS’s belief in its entitlement to such an exemption.
16

Plaintiffs recognize that the House Report they primarily
rely on addressed the PACT Act at the session of Congress that
preceded the session in which the PACT Act was passed, but assert that the “statutory language was not substantially unchanged between the two sessions.” (Pls.’ Opp. Br. at 3 n.2.) To
the extent that this statement should be read literally, the Court
agrees that the statute was in fact substantially changed in a

410a
then-operative versions of the legislation did not exempt carriers subject to a settlement agreement from
the PACT Act’s requirements or from state laws prohibiting the delivery of cigarettes to individual consumers. See PACT Act, S. 1027, 110th Cong. (2007)
(as reported by the S. Comm. on the Judiciary, Sept.
11, 2007); PACT Act, H.R. 4081, 110th Cong. (2007)
(as reported by the H. SubComm. on Crime, Terrorism
and Homeland Security of the H. Comm. on the Judiciary, May 1, 2008). The carrier exemptions at issue
were not added until the legislation was subsequently
reintroduced. See PACT Act, S. 1147, 111th Cong. (as
introduced in the Senate on May 21, 2009). Thus, the
legislative history that plaintiffs cite does not reflect
the compromise that was ultimately struck in the enacted version of the legislation and has little bearing
on what Congress intended the subsequently added
exemption provisions to mean. See United States v.
Howe, 736 F.3d 1, 4 (1st Cir. 2013) (placing little
material respect because the original version of the bill did not
contain the exemption provision at issue here. To the extent that
plaintiffs’ brief includes a typographical error such that they actually meant that the statute was substantially the same, the
Court disagrees with their characterization—the statute was
changed in a highly material respect.
Plaintiffs do cite testimony from a House Report addressing a
later version of the PACT Act that included the carrier exemptions at issue here. (Pls.’ Opp. Br. at 6 (citing H.R. Rep. No. 111117, at 26 (2009).) The legislative history they cite, however, is
inapposite because it related to the exemption ultimately codified
at 15 U.S.C. § 377(b)(3)(B)(i). That exemption is in a different
part of the statute, prefaces the phrase “policies and “practices”
with the word “effective,” and is not relied upon by UPS as a basis
for exemption in the pending motion. Congress could have, but
did not, specifically impose a requirement of effective enforcement in § 376a(e)(3).

411a
weight on legislative history that “concerned an earlier draft of the statute with different language than
the version ultimately enacted”). Plaintiffs’ acknowledgment that carriers vigorously objected to the initial version of the PACT Act (Pls.’ Opp. Br. at 7) supports the view that the exemptions were added as a
compromise to the industry to allow carriers who had
already made efforts to reduce the shipment of contraband cigarettes to avoid the burdensome requirements imposed by the PACT Act.
Finally, the Court’s interpretation is consistent
with the need to interpret the statute to promote a
workable and sensible scheme, far more so than any
alternative reading offered by plaintiffs in their opposition papers (or the other alternatives proposed by
UPS). See Yerdon v. Henry, 91 F.3d 370, 376 (2d Cir.
1996) (“Where an examination of the statute as a
whole demonstrates that a party’s interpretation
would lead to ‘absurd or futile results . . . plainly at
variance with the policy of the legislation as a whole,’
that interpretation should be rejected.” (quoting
EEOC v. Commercial Office Prods. Co., 486 U.S. 107,
120 (1988))); Merck v. Treat, 174 F. 388, 390 (2d Cir.
1909) (“[T]he interpretation which we place upon the
statute provides a simple, fair and workable plan
which preserves the rights of both parties.”); United
States v. Mejias, 417 F. Supp. 579, 583 (S.D.N.Y.
1976) (“This Act, like any other statute, must be read
in such a way as to render it a sensible and workable
whole.”). As explained below, plaintiffs have not suggested any alternative interpretation that would provide a reasonable, workable means to accomplish the
end Congress sought to achieve in creating the exemption.

412a
Under plaintiffs’ proposed interpretation, a carrier
may
obtain
an
exemption
under
§ 376a(e)(3)(B)(ii)(I) only if all fifty states affirmatively assent in some unidentified manner to the
AOD, meaning that each state recognizes the agreement as preclusive of the remedies they would otherwise be able to pursue under the PACT Act or state
law.17 This reading is unreasonable and, ultimately,
unworkable for several reasons.
For instance,
§ 376a(e)(3)(B)(ii)(I) does not explain the mechanism
by which a carrier could obtain a state’s affirmative
assent and ensure that each state continues, at any
given point in time, to assent to a settlement agreement for which it is not a signatory and has no right
of enforcement. Plaintiffs’ reading, moreover, would
render it impossible in a practical sense for any carrier to obtain an exemption, and would beg the question why Congress bothered to add these exemptions
in the first place. Plaintiffs’ position that all fifty
states must formally acknowledge not only the existence of the AOD, but also its effect (i.e. that it precludes their ability to pursue remedies against UPS
under the PACT Act and/or state law), creates a burden that is far more stringent than that contemplated
by the other PACT Act exemptions. As plaintiffs
themselves repeatedly point out, no other state was or
is currently a party to the AOD, no other state was or
is bound by the AOD under its terms, and no state

17

The Court’s understanding that plaintiffs believe the exemption essentially requires each state to affirmatively assent to
waiver of its right to utilize the PACT Act is based, in part, on
the facts asserted in the declarations that plaintiffs have offered
from seven other state attorneys general.

413a
other than New York affirmatively and officially endorsed it. (Pls.’ Opp. Br. at 19.) Plaintiffs do not explain why, under such circumstances, any state, much
less all fifty states, would recognize the AOD in the
manner they suggest even if UPS has fully effective,
fool-proof policies and practices. No state—much less
every state—has any incentive to affirmatively act to
restrict its ability to pursue enforcement remedies.
Plaintiffs contend that in spite of these facts—all of
which were in existence at the time of the PACT Act’s
passage and of which Congress undoubtedly was
aware—Congress explicitly enumerated the AOD
(and stated that it was an agreement entered into only
between UPS and the NYAG) as an agreement capable of conferring an exemption. Considered in this
context, plaintiffs present an entirely unworkable
view of the prerequisites necessary to obtain to an exemption, as they would render the exemption a nullity.
As the Court previously explained in relation to
UPS’s motion to dismiss, plaintiffs’ original interpretation of the exemption fares no better in creating a
workable scheme. Plaintiffs previously argued that
the mere allegation in a complaint that a carrier was
not in compliance with its settlement agreement is
sufficient to defeat the carrier’s exemption. Such a
reading is nonsensical because, again, it would render
the exemption a nullity—the PACT Act’s carefully delineated exemptions would be meaningless. Plaintiffs’
reading would gut the exemption by making it exceedingly difficult, if not impossible, for a carrier to successfully invoke the exemption. The statutory language and the legislative history do not indicate that
Congress intended to deprive an otherwise qualifying

414a
carrier of exemption based on an imperfect, but bona
fide, effort to maintain the nationwide policies agreed
to in the AOD.
2.

Application of the Court’s Interpretation

Having concluded that § 376a(e)(3)(B)(ii)(I) conferred an exemption from the PACT Act’s requirements on UPS at the time that the statute was enacted, the Court must determine whether plaintiffs
have created a genuine issue of material fact as to
whether UPS has lost its entitlement to that exemption. As explained below, plaintiffs have not, on the
current record, done so.
In support of the pending motion, UPS states,
based on the declaration of Bradley J. Cook, UPS’s
Rule 30(b)(6) witness and Director of Dangerous
Goods and Head of its Package Solutions Group, that
it “continues to administer and enforce a nationwide
policy prohibiting the shipment of cigarettes to consumers,” listing several specific policies and practices
that it has adopted to achieve that end. (UPS’s 56.1
¶ 8; Cook Decl. ¶ 6.) Mr. Cook further avers that
“UPS has never renounced the AOD or limited its policies and practices designed to curtail cigarette deliveries to consumers by eliminating certain states or jurisdictions from the scope of UPS’s policies and practices.” (UPS’s 56.1 ¶ 9; Cook Decl. ¶ 7.)18 It is also undisputed that no state, as of the filing of the pending
18

Plaintiffs’ evidence purporting to counter this fact—that
UPS renounced its policies by asserting affirmative defenses to
the validity of the AOD (which are no longer live in this case) and
that it has made nationwide deliveries of cigarettes to consumers
for Native Wholesale Supply—does not undermine the relevant
factual assertions advanced by UPS. (See Pls.’ 56.1 Cstmt. ¶ 9.)

415a
motion, notified UPS of a belief that the AOD does not
have nationwide scope or that UPS does not honor the
AOD nationwide. (UPS’s 56.1 ¶ 14.)
Plaintiffs primarily seek to defeat UPS’s motion
with two categories of factual support: (1) declarations from other state attorneys general representing
that their states do not recognize the effect of the
AOD, and (2) evidence that UPS has in fact delivered
contraband cigarettes and therefore failed to adhere
to its nationwide policies to curb such deliveries.19
Plaintiffs thus seek to attack the exemption under two
distinct theories, by showing that neither the states,
nor UPS, honor the AOD. While neither category of
evidence is sufficient to raise a genuine issue of material fact on the record presented here, below the Court
explains why it will allow plaintiffs an opportunity to
supplement their evidence relating to whether UPS
honors the AOD nationwide, and what plaintiffs
would need to show to raise a triable issue.
As to their first category of factual support, plaintiffs seek to raise a genuine issue of material fact by
pointing to declarations of representatives of seven
state attorneys general stating that their states do not

19

Plaintiffs also contend that a genuine issue of material fact
remains at this stage because UPS raised several affirmative defenses in its Answer challenging the validity of the AOD that, if
successful, would undermine the notion that the AOD is or ever
was an active agreement. (Pls.’ Opp. Br. at 25.) This argument
is meritless because the Court has already granted plaintiffs’ motion to strike UPS’s three affirmative defenses challenging the
validity of the AOD at the time of formation. See UPS II, 2016
WL 502042, at *17-19. Whatever inconsistency would otherwise
exist on UPS’s part has been resolved by the Court’s decision on
plaintiffs’ motion to strike those affirmative defenses.

416a
recognize the AOD, as well as a declaration from Michael G. Hering submitted on behalf of the NAAG.
(See McPherson Decl., Exs. 1-5, ECF No. 175;
Proshansky Decl., Exs. 6, 8, ECF No. 194.)
The seven state attorneys general declarations
are from California, Idaho, Utah, Connecticut, New
Mexico, Maryland and Pennsylvania; several are essentially identical (except for the state on whose behalf they were submitted). Below, the Court uses the
declaration of Laura W. Kaplan, Deputy Attorney
General of the State of California, as an illustrative
example of the declarations that plaintiffs have put
forward to support their position. (McPherson Decl.,
Ex. 1 (“Kaplan Decl.”), ECF No. 175-1.)20
Ms. Kaplan states that California’s understanding of the PACT Act is that the AOD is a settlement
agreement “eligible” to make UPS exempt from the
statute’s liability provisions. (Kaplan Decl. ¶ 5.) Ms.
Kaplan further states that “California is not a party
to the AOD” and the “AOD does not appear to grant
California any rights against UPS . . . such as the recovery of penalties, damages or injunctive relief,” but
rather New York is the only state that can do so. (Id.
¶ 6.) Ms. Kaplan states that “[i]t defies common sense
and logic for California to recognize and assent to an

20

The Idaho and Utah declarations are nearly identical to Ms.
Kaplan’s. (See McPherson Decl., Exs. 2-3, ECF Nos. 175-2, 1753.) Although the Court notes that the declarations submitted on
behalf of other state attorneys general contain minor variations
in language, the remaining declarations contain the same facts
in all material respects. The Court does, however, identify particular distinctions in certain of the declarations below.

417a
agreement to which it is not a party and to which California has no legal rights” and, for those reasons,
“California would not utilize the AOD . . . as a means
to block illegal deliveries of cigarettes or smokeless tobacco to consumers.” (Id. ¶ 7 (quotation marks omitted).)21 Ms. Kaplan goes on to say that, instead, “California would use the PACT Act as an enforcement
mechanism against UPS for illegal cigarette deliveries to consumers in California because the PACT Act
provides California with a cause of action for civil penalties and other equitable relief whereas the AOD
does not.” (Id. ¶ 8.)22
As stated above, plaintiffs have also provided a
declaration by Michael G. Hering, Director and Chief
Counsel of the Center for Tobacco and Public Health
21

The New Mexico declaration states that “[b]ecause the AOD
does not provide New Mexico with any enforcement rights or any
relief, New Mexico cannot recognize, ‘honor’ or assent to the
AOD.” (McPherson Decl., Ex. 4 ¶ 7, ECF No. 175-4 (emphasis
added).) The Pennsylvania declaration states that Pennsylvania
“has not, and could not rely on the AOD as a means to ‘block illegal deliveries of cigarettes or smokeless tobacco to consumers’ as
it is not a party to the AOD.” (Proshansky Decl., Ex. 6 ¶ 7, ECF
No. 194-6 (emphasis added).) The assertions that these states
cannot recognize the AOD further supports the Court’s view that
no carrier could ever obtain an exemption under plaintiffs’ proposed reading.
22

Connecticut’s declaration states that Connecticut could use
Conn. Gen. Stat. § 12-285c as an enforcement mechanism
against UPS for illegal cigarette deliveries to consumers, but
that it could not use the AOD because that agreement does not
provide Connecticut with any enforcement capabilities against
UPS. (McPherson Decl., Ex. 3 ¶¶ 10-13, ECF No. 175-3.) Maryland’s declaration similarly states that Maryland would also use
Md. Bus. Reg. § 16-223(b) to block cigarette shipments to consumers, rather than the AOD. (McPherson Decl., Ex. 5 ¶ 6, ECF
No. 175-5.)

418a
at the NAAG. (Hering Decl. ¶ 1.) Mr. Hering states
that “NAAG has no authority to in any manner legally
bind its member attorneys general . . . and takes no
actions that purport to represent the policies or legal
positions of its members unless expressly authorized
to do so.” (Id. ¶ 5.) Mr. Hering further states that “the
NAAG Center for Tobacco and Public Health has no
general authorization from any state to endorse particular programs or initiatives on behalf of that state”
and, “if called upon to do so, NAAG would be unable
to take any position on whether or not [the AOD] is
honored nationwide.” (Id. ¶¶ 6-7.)
Even when viewed in its entirety and construed in
the light most favorable to plaintiffs, this evidence is
insufficient to raise a genuine issue of material fact as
to UPS’s entitlement to exemption from liability under the PACT Act pursuant to § 376a(e)(3)(B)(ii)(I). In
short, the declarations from the state attorneys general do not raise a genuine issue of material fact because none demonstrate that these states do not recognize the existence of the AOD or that UPS no longer
gives nationwide effect to it. The declarations also do
not suggest in any way that between the date that the
AOD was signed and the PACT Act was implemented,
there had been a change in the status quo vis-à-vis
any state’s position with respect to the AOD, or in
UPS’s policy of giving nationwide effect to the obligations imposed by it. Although each state attorney general’s declaration posits that his or her respective
state does not recognize or assent to the AOD because
it provides no right of enforcement, none of the declarants assert that his or her state does not recognize the

419a
AOD’s existence or that UPS does not maintain a policy of giving nationwide effect to the requirements imposed in the AOD.23
As
the
Court
explained
above,
§ 376a(e)(3)(B)(ii)(I) was intended to exempt UPS and
the other two carriers who are parties to enumerated
agreements from the PACT Act’s requirements from
the time of the law’s enactment. The factual predicate
necessary for the AOD to be “honored throughout the
United States” was therefore present at the time of
enactment. As a result, a state’s position that it has
never and could never recognize the AOD because the
state is not a party to it and the agreement provides
no remedies or enforcement mechanism for the state
to pursue is not a sufficient basis to find that the AOD
is not honored or recognized throughout the United
States. All that is required is that the AOD’s existence is recognized throughout the United States and
that UPS continue to give the AOD nationwide effect.
That individual states would rather that UPS not be
exempt such that they can potentially pursue remedies against it pursuant to the PACT Act and state
law is immaterial and inconsistent with the bargain
23

Even if plaintiffs were correct that a carrier’s exemption under § 376a(e)(3)(B)(ii)(I) could be vitiated by a single state’s affirmative statement that it does not recognize the AOD as preclusive of other remedies—a view that upon a full review of the
parties’ arguments and the statutory scheme is, in any event, inconsistent with the Court’s reading of the statute—the Court
notes that legitimate due process concerns are raised by an interpretation that would allow a state to lift the exemption with
respect to alleged violations occurring prior to the state’s expression of non-recognition of an otherwise qualifying settlement
agreement.

420a
that Congress ultimately struck in the final version of
the statute. If the assertions made in these declarations were deemed sufficient to vitiate UPS’s exemption, it is unclear how UPS, DHL or FedEx could ever
obtain an exemption under § 376a(e)(3)(B)(ii)(I). As
discussed above, it is hard to fathom that any state
(much less every state) would ever be willing to forego
the ability to obtain penalties under federal or state
law in favor of a settlement agreement entered into by
another state that provides it no enforcement mechanism.24
Mr. Hering’s declaration on behalf of the NAAG
does not help plaintiffs’ attempt to create a genuine
issue of material fact. That the NAAG may not legally
bind its members through actions taken on their behalf is irrelevant. The information presented to Congress was that UPS had entered into the AOD, that it
was giving the AOD nationwide effect, and that this
was recognized nationally. Nothing in Mr. Hering’s
declaration undermines or alters that understanding.
Because § 376a(e)(3)(B)(ii)(I) does not require each
24

Again, the surrounding statutory language shows that a requirement of affirmative assent by all fifty states to a settlement
agreement in lieu of the possibility of pursuing other penalties is
not what Congress contemplated. Section 376a(e)(3)(B)(ii)(II)
states that an unenumerated agreement “between a common carrier and a State”—in other words, a single state, not all states or
even multiple states—qualifies for exemption if it “operates
throughout the United States.” 15 U.S.C. § 376a(e)(3)(B)(ii)(II).
As explained above, because § 376a(e)(3)(B)(ii)(I) and
§ 376a(e)(3)(B)(ii)(II) should be read in parallel, it makes no
sense to say that an enumerated agreement qualifies a carrier
for exemption only upon the affirmative assent of all fifty states,
whereas an unenumerated agreement needs only the assent of a
single state as long as the agreement has nationwide breadth.

421a
state to affirmatively assent to the AOD, it follows
that the NAAG need not have had the capacity to affirmatively assent on its members’ behalf. The fact
that the NAAG did not and could not provide that assent is thus immaterial. What is significant, however,
is that the record shows that the AOD included all of
the procedures that the NAAG had sought from UPS
and other carriers, and that there was an understanding that, through the AOD, UPS had agreed to stop
directly shipping cigarettes to consumers nationwide.
(UPS’s 56.1 ¶¶ 5, 11-13.) In light of this context, it is
entirely reasonable to believe that Congress viewed
the AOD as having nationwide effect and being the result of a national consensus at the time the PACT Act
was enacted, regardless of any authority that the
NAAG did or did not have to act on behalf of its members.
As to plaintiffs’ second category of factual support
with which they seek to defeat UPS’s motion, plaintiffs have presented a closer question by submitting
evidence that UPS has in fact delivered contraband
cigarettes to consumers. (See Pls.’ 56.1 Cstmt. ¶¶ 78; Proshansky Decl., Exs. 1-5, 7.) As stated above,
plaintiffs’ evidence includes declarations from three
individuals:
(1) Jamie Harris-Bedell—who has
owned, operated and worked at retail convenience
store shops located on the Poospatuck Reservation
that sell unstamped cigarettes, (2) Robert L. Oliver,
Sr.—who was a partner in a reservation tobacco business on the Akwesasne Reservation, and (3) Philip D.
Christ—who was employed by and/or consulted for
various mail order cigarette businesses on the Seneca
Reservation. Plaintiffs’ evidence also includes excerpts from the depositions of Christ, and UPS’s Rule

422a
30(b)(6) witness, Bradley J. Cook (who also submitted
a declaration on behalf of UPS, as discussed above).25
Finally, plaintiffs also provide an excerpt of a chart
showing deliveries that Native Wholesale Supply
made to various states between February 2007 and
June 2007 (in other words, after UPS entered into the
AOD, but prior to the PACT Act’s enactment). Below,
the Court summarizes plaintiffs’ strongest factual
support for their contention that UPS does not in fact
maintain nationwide policies to curb the delivery of
contraband cigarettes.
In his declaration, Harris-Bedell asserts that UPS
made deliveries of packages of contraband cigarettes
to the smoke shop he worked at, that the contents of
these packages were visible to UPS drivers while they
were making deliveries, and that UPS drivers have
purchased cigarettes from his smoke shop. (Proshansky Decl., Ex. 1 (“Harris-Bedell Decl.”) ¶¶ 5-13.) Oliver’s declaration states that when a UPS employee
came to his store to open his UPS account, he told the
employee that the packages to be shipped contained
cigarettes, but the UPS employee responded that he
didn’t want to hear that and proceeded to open the account. (Proshansky Decl., Ex. 2 (“Oliver Decl.”) ¶¶ 525

The Court notes that although plaintiffs cite to various pages
of Mr. Cook’s deposition transcript in their Rule 56.1 counterstatement, the sealed copy submitted to the Court contains only
a limited subset of these pages—namely, pages 67 and 71. (See
Proshansky Decl., Ex. 5.) The Court, therefore, does not rely on
any other pages in considering the pending motion. As to plaintiffs’ excerpt of the chart of deliveries made by Native Wholesale
Supply, the entries appear to pre-date plaintiffs’ claims and the
enactment of the PACT Act. (See Proshansky Decl., Ex. 7.) As a
result, the excerpt is of limited significance in regards to this motion.

423a
6.) Oliver’s declaration further states that UPS drivers who regularly picked up packages at his shop
knew that the packages contained cigarettes because
the packages sometimes had brand names on them.
(Id. ¶¶ 7-8.) Christ’s declaration, in turn, states that
UPS shipped contraband cigarettes for the various
mail order businesses with which he was affiliated,
and that UPS drivers knew the packages contained
cigarettes because they had identifying labels and the
drivers on occasion bought cigarettes from these locations. (Proshansky Decl., Ex. 3 (“Christ Decl.”) ¶¶ 610.) In his deposition, Christ further states that UPS
daily delivered 35 to 75 packages containing cigarettes from the smoke shop at which he was employed.
(Proshansky Decl., Ex. 4 (“Christ Dep. Tr.”) at 30:632:2.)
While plaintiffs’ evidence at least raises questions
regarding the extent of UPS’s compliance with its policies prohibiting the shipment of cigarettes to consumers in practice, and the efficacy of those policies in preventing the shipment of cigarettes to consumers, this
evidence alone is insufficient to create a triable issue
of fact as to whether UPS maintains nationwide policies.
Plaintiffs’ evidence is insufficient because
§ 376a(e)(3)(B)(ii)(I) does not require that a carrier’s
policies be 100% effective at preventing the shipment
of cigarettes to consumers. A view to the contrary
would, as explained above, import a compliance requirement into a definitional section and make it
doubtful that a carrier could ever successfully invoke
the exemption at any stage prior to trial. That being
said, the Court agrees with plaintiffs that UPS may
not retain the exemption simply by maintaining the

424a
requisite policies nationwide in name only. Put otherwise, if plaintiffs could present evidence creating an
inference that the effectiveness of UPS’s policies is so
compromised that these policies are not in fact in
place, that would be sufficient to raise a genuine issue
of fact for trial. Plaintiffs’ limited factual submissions
regarding UPS’s non-adherence to its policies—which
the Court believes represent only a fraction of the supporting evidence that plaintiffs have garnered during
discovery—is insufficient to meet that standard.
Plaintiffs’ evidence does not support the inference
that UPS’s purported non-compliance is so severe that
UPS no longer “honors” the AOD throughout the
United States as that term is used in
§ 376a(e)(3)(B)(ii)(I).
That being said, while plaintiffs made a choice to
not include all of their factual support for UPS’s nonadherence to its policies in opposing UPS’s pending
motion, the Court also believes that, in the interest of
fairness, it is appropriate to allow plaintiffs an opportunity to make a supplemental factual submission in
light of the fact that the Court has modified its interpretation of § 376a(e)(3)(B)(ii)(I). While the Court
cannot determine in the abstract precisely how much
evidence of non-adherence is necessary to raise a genuine issue as to whether UPS maintains a nationwide
policy in name only, the Court believes that plaintiffs
could raise a genuine issue of fact by presenting a combination of two sorts of evidence. First, plaintiffs
could present evidence of a sufficiently large number
of instances of shipments of contraband cigarettes
that it suggests that UPS is, overall, turning a blind
eye towards such unlawful shipments. Second, plain-

425a
tiffs could present a triable issue by submitting evidence showing that UPS policymakers have in fact
turned a blind eye to shipments of contraband cigarettes.
In light of the foregoing, further submissions on
this issue shall be as follows. Plaintiffs may submit a
Rule 56.1 statement regarding UPS’s non-adherence
to its nationwide policies to curb shipments of contraband cigarettes not to exceed ten pages (not including the underlying factual materials, which plaintiffs
should also submit), and a memorandum of law, not
to exceed five pages, explaining why those facts are
sufficient to defeat UPS’s motion not later than May
3, 2016. UPS shall file any opposition memorandum
of law not to exceed five pages not later than May
10, 2016. There shall be no replies. The Court notes
that it does not consider this additional opportunity to
be a matter of right—this allowance is not an invitation to the parties to argue for additional discovery or
an extension of other deadlines. The Court does not
intend to grant such a request. The Court will reach
resolution on UPS’s motion as soon as possible after
reviewing the parties’ submissions.
B. N.Y. PHL § 1399-ll
UPS argues that, to the extent it is entitled to
summary judgment with respect to plaintiffs’ PACT
Act claims, the Court must also grant it summary
judgment as to plaintiffs’ claims brought pursuant to
PHL § 1399-ll because such claims are expressly
preempted by the PACT Act. The Court agrees. However, because the Court’s resolution of UPS’s PACT
Act exemption awaits its receipt of the parties’ further

426a
submissions discussed above, the Court reserves decision on these claims.
IV. CONCLUSION
For the reasons set forth above, the Court concludes that plaintiffs have failed, at this time, to raise
a genuine issue of material fact as to their PACT Act
and PHL § 1399-ll claims. However, in light of the
Court’s further clarification of its interpretation of 15
U.S.C. § 376a(e)(3)(B)(ii)(I), the Court will allow
plaintiffs one further opportunity to present additional evidence of the severity of UPS’s non-adherence
to its nationwide policies to curb the delivery of contraband cigarettes, as further set forth in this Opinion
& Order.
SO ORDERED.
Dated: New York, New York
April 19, 2016

/s/ Katherine B. Forrest____
KATHERINE B. FORREST
United States District Judge

427a
APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -X
:
:
:
:
15-cv-1136
:
Plaintiffs,
(KBF)
:
-v:
OPINION &
:
UNITED PARCEL
ORDER
:
SERVICE, INC.,
:
Defendant.
:
:
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -X
THE STATE OF NEW
YORK and THE CITY OF
NEW YORK,

KATHERINE B. FORREST, District Judge:
In this action, the State of New York (“State”) and
the City of New York (“City”) allege that defendant
United Parcel Service, Inc. (“UPS”), a package delivery company, has delivered and continues to deliver
hundreds of thousands of contraband untaxed packs
of cigarettes to persons within the State and City, in
violation of federal and state law. (Am. Compl., ECF
No. 14.) Plaintiffs’ amended complaint (“Amended
Complaint”) seeks injunctive relief, damages and penalties under the Contraband Cigarette Trafficking
Act, 18 U.S.C. § 2341 et seq. (“CCTA”), and the Prevent All Cigarette Trafficking Act, 15 U.S.C. § 375 et

428a
seq. (“PACT Act”), as well as treble damages and attorneys’ fees under the Racketeer Influenced and Corrupt Organizations Act, 18 U.S.C. § 1961 et seq.
(“RICO”), injunctive relief and penalties under New
York Executive Law § 63(12) (“N.Y. Exec. Law
§ 63(12)”) and New York Public Health Law § 1399-ll
(“N.Y. PHL § 1399-ll”), and penalties under an Assurance of Discontinuance (“AOD”) with the New York
State Attorney General (“NYAG”). (Am. Compl. ¶¶ 2,
89-168.)
Pending before the Court is UPS’s motion to dismiss the Amended Complaint pursuant to Rule
12(b)(6). (ECF No. 21.) UPS raises several arguments
in its motion, including that (1) all claims must be dismissed for failure to plausibly allege that UPS delivered cigarettes or that UPS knew those deliveries contained cigarettes, (2) the CCTA claims fail because
there are no allegations that UPS engaged in any single transaction involving the shipment of more than
10,000 unstamped cigarettes, (3) the PACT Act claims
fail because UPS is exempt from suit based on its
AOD, and (4) the N.Y. PHL § 1399-ll claims fail because that statute is preempted by the PACT Act and
the bulk of plaintiffs’ claims nonetheless fail on retroactivity grounds. For the reasons that follow, UPS’s
motion to dismiss the Amended Complaint is
GRANTED IN PART and DENIED IN PART. The
Court dismisses plaintiffs’ claims brought under the
PACT Act and N.Y. PHL § 1399-ll. All other claims
may proceed.

429a
I.

BACKGROUND
A. Factual Background1
1. New York’s cigarette taxation regime.

Like the federal government, the State and the
City tax the sale and use of tobacco products, such as
cigarettes. (Am. Compl. ¶ 9.) Under New York law,
all cigarettes possessed for sale or use are presumed
to be taxable and therefore must bear a tax stamp, unless an exemption applies. (Id. ¶ 12.) State and City
cigarette excise taxes must be pre-paid by licensed
“stamping agents” who are usually wholesale cigarette dealers licensed by the State and the City to purchase and affix tax stamps to each pack of cigarettes
possessed by the agent for sale within the State and/or
the City. (Id. ¶¶ 13-14.) At all times relevant to this
suit, the State’s excise tax has been either $2.75 or
$4.35 per pack and the City’s excise tax has been $1.50
per pack. (Id. ¶ 16.)
The most common and longstanding form of tax
evasion in the State has been the sale of untaxed cigarettes by Indian reservation retailers to non-tribal
members. (Id. ¶¶ 19-21.) Such reservation sellers
have long refused to participate in the tax stamping
system for the collection of cigarette taxes. (Id. ¶ 19.)
Although courts have upheld application of the State’s
cigarette taxation regime to Indian cigarette sales to
the public, some reservation smoke shops continue to
1

The following facts, which the Court accepts as true for purposes of this motion, are alleged in the Amended Complaint and
documents referenced by and therefore incorporated into the
Amended Complaint. The Court here recounts only those facts
relevant to resolving the pending motion to dismiss, or to providing helpful background information.

430a
sell cigarettes, including through mail, telephone, and
Internet orders, without affixing the tax stamps of any
of the jurisdictions into which the stores make sales.
(Id. ¶ 24.)
2. The NYAG’s first investigation of UPS.
In 2004, the NYAG began investigating residential cigarette deliveries made by UPS in violation of
N.Y. PHL § 1399-ll, which prohibits the delivery of
cigarettes by common carriers to persons who are not
licensed cigarette wholesalers and retailers or government officials. (Id. ¶ 25.) The NYAG’s investigation
found that UPS regularly delivered unstamped and
untaxed cigarettes to New York residential customers
and that such deliveries originated principally from
sellers located on New York State Indian reservations. (Id. ¶ 27.) Many of these sellers advertised
their cigarettes as “tax-free” and accepted orders over
the Internet or by telephone for later delivery by UPS
to residences throughout the State. (Id.)
3. UPS’s Assurance of Discontinuance.
Following the NYAG’s investigation, UPS and the
NYAG entered into an Assurance of Discontinuance
(“AOD”) on October 21, 2005.2 (Am. Compl. ¶ 28; see
McPherson Decl. Ex. 1 (“AOD”), ECF No. 23-1.) Under the AOD, UPS agreed, inter alia, to comply with
N.Y. PHL § 1399-ll by prohibiting cigarette deliveries
to unauthorized recipients in the State and undertaking measures to ensure compliance among its employees. (Am. Compl. ¶ 28.) The AOD subjects UPS to a
2

The
AOD
is
publicly
available
at:
http://www.ag.ny.gov/sites/default/files/pressreleases/archived/
9tiupsaodfinal.oct.pdf (last visited August 3, 2015).

431a
$1,000 stipulated penalty for each violation of its
terms, provided that no penalty would be imposed if:
(a) the violation involved the shipment of cigarettes to
a person, located within the State of New York, who
was not otherwise authorized to possess such unstamped cigarettes, and (b) UPS established to the
reasonable satisfaction of the NYAG that UPS did not
know and had no reason to know that the shipment
was prohibited. (AOD ¶ 42). In the AOD, UPS also
represented that in June 2003 it informed approximately 400 shippers having accounts with UPS that it
would no longer accept packages containing cigarettes
for delivery to unauthorized recipients in the State.
(Id. ¶ 12.) As a result of the AOD, the NYAG declined
to commence a civil action against UPS for its alleged
past violations of § 1399-ll. (Id. ¶ 15.) In a report to
the NYAG dated on or around December 20, 2005,
UPS confirmed that it would give nationwide effect to
the AOD and that it no longer shipped cigarettes to
consumers and would only deliver tobacco products
from licensed entities. (Am. Compl. ¶ 29.)
4. UPS’s alleged ongoing delivery of cigarettes after the AOD.
Plaintiffs allege that despite the assurances UPS
made in the AOD, from at least 2010 through the present, UPS knowingly shipped and delivered thousands of cartons of unstamped cigarettes from manufacturers to unlicensed wholesalers and retailers, and
delivered such cigarettes from smoke shops (including
some shops that have been the subject of federal criminal prosecution for trafficking in contraband cigarettes) to residences in the State and the City. (E.g.,
Am. Compl. ¶¶ 30, 48-49.) In 2012, an undercover

432a
City investigator placed an Internet order for cigarettes from a company located in Bason, New York,
which is located on the Seneca Indian Nation Reservation. (Id. ¶ 31.) UPS delivered the order, which
contained unstamped cigarettes, in a package bearing
the return address of “Seneca Cigars.” (Id.)
UPS records obtained by plaintiffs indicate that
UPS made over 17,000 deliveries to residences for four
smoke shops as recently as February 2014. (Id.) In
November 2014, plaintiffs obtained additional records
showing that between January 2010 and September
2014, UPS made 61,000 additional deliveries to residents throughout the State and the City on behalf of
several other smoke shops and illegal cigarette distributors located on New York State Indian reservations. (Id. ¶ 32.) Plaintiffs allege that based on an
analysis of the weights of the delivered packages, UPS
delivered millions of packs of contraband cigarettes
throughout the State over that time period. (Id. ¶ 34.)
Plaintiffs allege that UPS knew these deliveries
contained unstamped, untaxed cigarettes based on,
inter alia, UPS’s prior experience in connection with
the NYAG investigation and the AOD, numerous
court decisions regarding Indian reservation smoke
shops’ non-compliance with the State’s cigarette tax
regime, widespread media reporting, UPS’s entering
into tobacco delivery contracts with most or all of the
Indian reservation smoke shops that UPS shipped
and delivered cigarettes for, by visiting, observing,
and picking up packages for Indian reservation smoke
shops, and as a result of UPS’s general practice of enmeshing itself deeply in its customers’ businesses.
(E.g., id. ¶¶ 20, 24, 33, 40, 42-44, 47.)

433a
B. Procedural Background
On February 18, 2015, plaintiffs filed their original complaint against UPS (ECF No. 1), and filed the
Amended Complaint on May 1, 2015 (ECF No. 14).
The Amended Complaint alleges fourteen causes of
action seeking various forms of relief under federal
and New York law, including under the CCTA, the
PACT Act, RICO, N.Y. Exec. Law § 63(12), N.Y. PHL
§ 1399-ll, and pursuant to the AOD. On May 22, 2015,
UPS filed a motion to dismiss the Amended Complaint
pursuant to Rule 12(b)(6). (ECF No. 21.) The Court
held oral argument on the motion on July 30, 2015.
On August 26, 2015, the Court issued an Order inviting the parties to file supplemental briefs addressing
an interpretation of the PACT ACT that had not previously been raised by either party. (ECF No. 37.)
The parties submitted supplemental briefs on September 9, 2015. (ECF Nos. 44, 45.)
II. LEGAL STANDARDS
A. Motion to Dismiss
Under Rule 12(b)(6), a defendant may move to dismiss a complaint for “failure to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6).
To survive a Rule 12(b)(6) motion, a plaintiff must provide grounds upon which his claim rests through “factual allegations sufficient ‘to raise a right to relief
above the speculative level.’” ATSI Commc’ns, Inc. v.
Shaar Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)). In other words, the complaint must allege
“enough facts to state a claim to relief that is plausible
on its face.” Starr v. Sony BMG Music Entm’t, 592
F.3d 314, 321 (2d Cir. 2010) (quoting Twombly, 550

434a
U.S. at 570). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009).
In applying this standard, the Court accepts as
true all well-pled factual allegations, but does not
credit “mere conclusory statements” or “[t]hreadbare
recitals of the elements of a cause of action.” Id. The
Court will give “no effect to legal conclusions couched
as factual allegations.” Port Dock & Stone Corp. v.
Oldcastle Ne., Inc., 507 F.3d 117, 121 (2d Cir. 2007)
(citing Twombly, 550 U.S. at 555). Knowledge and
other conditions of a person’s mind may be alleged
generally. Fed. R. Civ. P. 9(b). A plaintiff may plead
facts alleged upon information and belief “where the
facts are peculiarly within the possession and control
of the defendant.” Arista Records, LLC v. Doe 3, 604
F.3d 110, 120 (2d Cir. 2010). But, if the Court can
infer no more than the mere possibility of misconduct
from the factual averments—in other words, if the
well-pled allegations of the complaint have not
“nudged [plaintiff’s] claims across the line from conceivable to plausible”—dismissal is appropriate.
Twombly, 550 U.S. at 570; Starr, 592 F.3d at 321
(quoting Iqbal, 556 U.S. at 679). Where necessary, the
Court may supplement the allegations in the complaint with facts from documents either referenced
therein or relied upon in framing the complaint. See
DiFolco v. MSNBC Cable L.L.C., 622 F.3d 104, 111 (2d
Cir. 2010).

435a
B. CCTA
The CCTA provides that “[i]t shall be unlawful for
any person knowingly to ship, transport, receive, possess, sell, distribute, or purchase contraband cigarettes . . . .” 18 U.S.C. § 2342(a). The CCTA defines
“contraband cigarettes” as “a quantity in excess of
10,000 cigarettes, which bear no evidence of the payment of applicable State or local cigarette taxes in the
State or locality where such cigarettes are found . . .
and which are in the possession of” a non-exempt person. 18 U.S.C. § 2341(2). Thus, a violation of the
CCTA requires the following elements: (1) a person
must knowingly ship, transport, received, possess,
sell, distribute or purchase, (2) more than 10,000 “cigarettes”, (3) that do not bear stamps, (4) under circumstances in which state or local tax law requires that
such cigarettes bear stamps. 18 U.S.C. §§ 2341-42;
see New York v. BB’s Corner, Inc., No. 12 Civ.
1828(KBF), 2012 WL 2402624, at *2 (S.D.N.Y. June
25, 2012).
C. PACT Act
“The PACT Act regulates remote sales of cigarettes, and imposes a variety of requirements on
sellers of cigarettes with the aim of ensuring that
taxes are paid and cigarettes are not sold to children.”
City of New York v. Wolfpack Tobacco, No. 13 Civ.
1889(DLC), 2013 WL 5312542, at *3 (S.D.N.Y. Sept.
9, 2013). The PACT Act provides that “no person who
delivers cigarettes or smokeless tobacco to consumers,
shall knowingly complete, cause to be completed, or
complete its portion of a delivery of any package for
any person whose name and address are on the [ATF
Non-Compliance] list.” 15 U.S.C. § 376a(e)(2)(A).

436a
The PACT Act contains a number of provisions exempting certain entities from suit, including one that
is relevant here. The act provides that “any requirements or restrictions placed directly on common carriers . . . shall not apply to a common carrier that . . .
is subject to a settlement agreement described in subparagraph (B).” 15 U.S.C. § 376a(e)(3)(A). It defines
such settlement agreements to include “the Assurance
of Discontinuance entered into by the Attorney General of New York and United Parcel Service, Inc. on or
about October 21, 2005, . . . if [that agreement] is honored throughout the United States to block illegal deliveries of cigarettes or smokeless tobacco to consumers.” 15 U.S.C. § 376a(e)(3)(B).3 The PACT Act also
states that “[n]o State may enforce against a common
carrier a law prohibiting the delivery of cigarettes or
other tobacco products to individual consumers or personal residences without proof that the common carrier is not exempt under [§ 376a(e)(3)].”
Id.
§ 376a(e)(5)(C)(ii).
D. N.Y. PHL § 1399-ll
N.Y. PHL § 1399-ll makes it unlawful “for any
common or contract carrier to knowingly transport
cigarettes to any person in [New York] reasonably believed by such carrier to be other than a person described in [§ 1399-ll(1)].” N.Y. PHL § 1399-ll(2). Section 1399-ll(1) lists categories of persons to whom cig-

3

Pursuant to another exemption in the PACT Act, a common
carrier is not subject to civil penalties for violating § 376a(e) if
“the common carrier . . . has implemented and enforces effective
policies and practices for complying with [§ 376a(e)].” Id.
§ 377(b)(3)(B)(i).

437a
arettes may lawfully be shipped, including persons licensed as a cigarette tax agent or wholesale dealer,
export warehouse proprietors, and persons who are officers, employees, or agents of the United States government or New York State (or a political subdivision
thereof) acting in accordance with their official duties.
Id. § 1399-ll(1).
As originally enacted in 2000, § 1399-ll authorized
New York’s Commissioner of Health to impose a civil
penalty for each violation of the statute. See N.Y.
PHL § 1399-ll(5) (McKinney 2001). On September 27,
2013, the statute was amended in two significant respects. First, § 1399-ll was amended to increase the
amount of civil penalties recoverable under the statute. Id. § 1399-ll(5). Second, the statute was amended
to explicitly provide that “[t]he attorney general may
bring an action to recover the civil penalties provided
by [§ 1399-ll(5)] and for such other relief as may be
deemed necessary” and that “the corporation counsel
of any political subdivision that imposes a tax on cigarettes may bring an action to recover the civil penalties provided by [§ 1399-ll(5)] and for such other relief
as may be deemed necessary with respect to any cigarettes shipped . . . in violation of this section to any
person located within such political subdivision.” Id.
§ 1399-ll(6).
III. DISCUSSION
A. Sufficiency of Allegations That UPS Delivered
Cigarettes and Knew of Such Deliveries
UPS argues that the Amended Complaint does not
adequately plead that UPS (1) delivered packages
containing cigarettes to unauthorized recipients or (2)
did so knowingly. As to the CCTA and RICO claims,

438a
UPS argues these claims independently fail because
the Amended Complaint does not adequately plead
that the allegedly delivered cigarettes were unstamped. The Court disagrees.
The Amended Complaint alleges that UPS knowingly delivered enormous quantities of unstamped,
untaxed cigarettes to persons throughout the United
States, including the State and the City. (Am. Compl.
¶¶ 1-2, 25-168.) That is sufficient to provide the
grounds upon which plaintiffs’ claims rest and allows
the Court to “draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal,
556 U.S. at 678; see also ATSI Commc’ns, Inc., 493
F.3d at 98 (A plaintiff must provide grounds upon
which his claim rests through “factual allegations sufficient to raise a right to relief above the speculative
level.” (quotation marks omitted)). UPS’s contention
that many of the more than 78,000 deliveries alleged
in the Amended Complaint may have contained tobacco products other than unstamped cigarettes (such
as cigars or little cigars) is a merits-based argument
as to what the evidence will show. UPS raises a factual issue not ripe for determination at this stage. See
Bernheim v. Litt, 79 F.3d 318, 321 (2d Cir. 1996) (On
a Rule 12(b)(6) motion, “the issue is not whether a
plaintiff will ultimately prevail but whether the
claimant is entitled to offer evidence to support the
claims.” (quotation marks and alterations omitted)).
Furthermore, the possibility that some of the 78,000
deliveries alleged in the Amended Complaint contained tobacco products other than unstamped, untaxed cigarettes does not eliminate UPS’s liability for
those deliveries that did include unstamped cigarettes.

439a
UPS also claims that the Amended Complaint
does not sufficiently plead knowledge. Rule 9(b) states
that knowledge and conditions of a person’s mind may
be alleged generally, but “plaintiffs must still plead
the events which they claim give rise to an inference
of knowledge.” In re DDAVP Direct Purchaser Antitrust Litig., 585 F.3d 677, 695 (2d Cir. 2009); see also
Fed. R. Civ. P. 9(b). The Amended Complaint alleges
that UPS knew that packages it was delivering contained unstamped cigarettes because, inter alia, UPS
employees had observed and picked up those packages
from smoke shops located on New York State Indian
reservations, UPS’s policy is to enmesh itself deeply
in its customers’ businesses, and UPS delivered cigarettes for businesses that have been the subject of federal criminal prosecution for trafficking in contraband
cigarettes. (E.g., Am. Compl. ¶¶ 30, 42-49.) These allegations are sufficient to give rise to an inference of
knowledge.
B. CCTA
UPS argues that plaintiffs’ CCTA claims fail because the Amended Complaint does not allege that
UPS participated in any single transaction in which it
shipped more than 10,000 unstamped cigarettes.
That argument conflicts with the plain language of
the CCTA, which imposes no single transaction requirement, and, as UPS acknowledges, with every
court in this district to have taken up the question.
City of New York v. FedEx Ground Package Sys., Inc.,
No. 13 Civ. 9173(ER), 2015 WL 1013386, at *5
(S.D.N.Y. Mar. 9, 2015); City of New York v. Lasership, Inc., 33 F. Supp. 3d 303, 313 (S.D.N.Y. 2014);
City of New York v. Gordon, 1 F. Supp. 3d 94, 105
(S.D.N.Y. 2013); BB’s Corner, Inc., 2012 WL 2402624,

440a
at *5. In fact, no court in the Second Circuit has
adopted the statutory construction for which UPS advocates. Furthermore, UPS has not presented any
compelling reason for this Court to deviate from the
ample and well-reasoned decisions of courts within
this Circuit allowing aggregation of multiple cigarette
shipments to meet the CCTA’s threshold quantity.
This Court declines to do so.4
C. PACT Act
The PACT Act explicitly exempts UPS from suit
based on its AOD with the NYAG. 15 U.S.C.
§ 376a(e)(3)(B). That exemption, however, only applies “if [the AOD] is honored throughout the United
States to block illegal deliveries of cigarettes or
smokeless
tobacco
to
consumers.”
Id.
§ 376a(e)(3)(B)(ii)(I). The Amended Complaint alleges
that UPS is not entitled to the exemption because “[i]t
is self-evident from this complaint that UPS does not
‘honor’ its agreement.” (Am. Compl. ¶ 79.) Plaintiffs
argue that the “is honored” language refers to whether
UPS—a signatory of the AOD—has complied with the
terms of the AOD, and assert that this allegation
means, in essence, that UPS has not “honored” it and
is therefore not exempt.5 The Court disagrees.

4

UPS does not dispute that if separate shipments may be aggregated for purposes of calculating the 10,000 cigarette threshold, the allegations that UPS made more than 78,000 deliveries
of unstamped cigarettes are sufficient at this stage.
5

Initially, UPS similarly assumed that the “is honored” language relates to its compliance with the AOD and contested only
the extent to which plaintiffs were required to prove its failure
to “honor” or comply with the PACT Act before it would lose the

441a
Based on a careful review of the statutory language and structure of § 376a(e)(3), and upon review
of the PACT Act’s legislative history and apparent
purpose, see Abramski v. United States, 134 S. Ct.
2259, 2267 (2014) (stating that courts should look “to
the statutory context, ‘structure, history, and purpose’” when interpreting a statute (quoting Maracich
v. Spears, 133 S. Ct. 2191, 2209 (2013)), the Court concludes that § 376a(e)(3)(B) is a definitional provision
that merely defines the types of settlement agreements that qualify for exemption. In other words, this
provision does not purport to reach questions of compliance or noncompliance with obligations assumed
under any particular agreement. In accordance with
that reading, UPS is deprived of its exemption if plaintiffs show that the AOD is not recognized throughout
the United States. Because the Amended Complaint
fails to include such an allegation, plaintiffs’ PACT
Act claims must be dismissed.
The language and structure of § 376a(e)(3) show
that the provision serves to define the types of agreements intended to confer exemptions of carriers. Use
of the word “includes” at the start of § 376a(e)(3)(B)(ii)
signals that what follows is a list of that which is encompassed. See Samantar v. Yousuf, 560 U.S. 305,
317 (2010) (“[U]se of the word ‘include’ can signal that
the list that follows is meant to be illustrative rather
than exhaustive.”). Section 376a(e)(3)(B)(ii)(I) enumerates three settlement agreements, including
UPS’s AOD with the NYAG, that exempt common
carrier parties to those agreements “if each of those
benefit of the exemption. In its supplemental brief filed in response to this Court’s August 26, 2015 Order, UPS advocates for
the interpretation adopted in this Opinion & Order.

442a
agreements is honored throughout the United States
. . . .” 15 U.S.C. § 376a(e)(3)(B)(ii)(I).
In the Court’s view, § 376a(e)(3)(B)(ii)(I)’s conditional clause “if each of those agreements is honored
throughout the United States” means that UPS is exempt from the PACT Act if the AOD has appropriate
breadth. That is, if and only if the agreement has nationwide effect does a carrier obtain the benefit of the
exemption. In this regard, the phrase “is honored
throughout the United States” means “recognized by”
all states in the nation. Put otherwise, “is honored”
means “is recognized,” and has nothing to do with a
common carrier’s compliance with the specific terms
of any particular settlement agreement. See HONOR,
Black’s Law Dictionary (10th ed. 2014) (defining
honor as “[t]o recognize” among other definitions).
The statute’s use of the passive voice in the conditional clause is consistent with that use of “honored.”6
6

Although there are alternative definitions of “honor” that do
not necessarily support the statutory reading adopted by the
Court, see HONOR, Oxford English Dictionary (OED Third Ed.,
March 2014) (available at http://www.oed.com/view/Entry/88228?rskey=6pwt3c&result=2&isAdvanced=false#eid) (defining honor as”[t]o fulfill (a duty or obligation); to abide by the
terms of (an agreement); to keep (one’s word or promise)”);
HONOR, Merriam Webster Dictionary (available at
http://www.merriam-webster.com/dictionary/honor)
(defining
honor as “to live up to or fulfill the terms of” and “to accept as
valid or conform to the request or demands of (an official document)”), those definitions do not accord with the context, structure or the aims sought to be achieved by the PACT Act. See King
v. Burwell, 135 S. Ct. 2480, 2483 (2015) (Where a word is susceptible to more than one interpretation, “the Court must read the
words in their context and with a view to their place in the overall statutory scheme.” (quotation marks omitted)); see also
Abramski, 134 S. Ct. at 2267.

443a
As UPS points out in its supplemental brief, Congress
has used the term “honored” in this sense before. See
25 U.S.C. § 1041b(b)(5) (providing that cooperative
funding agreements between the Shawnee Tribe and
the Cherokee Nation “shall be honored by Federal
agencies”).
The reading adopted by the Court is, moreover,
supported by the language of § 376a(e)(3)(B)(ii)(II),
which serves to identify the types of unenumerated
agreements that qualify for exemption. That provision is instructive because it acts in parallel to the provision under which UPS claims exemption here and it
is also relevant under the noscitur a sociis canon of
construction. See Gustafson v. Alloyd Co., 513 U.S.
561, 575 (1995) (“[A] word is known by the company it
keeps.”). Section 376a(e)(3)(B)(ii)(II) states that a
qualifying agreement includes “any other active
agreement between a common carrier and a State that
operates throughout the United States to ensure that
no deliveries of cigarettes or smokeless tobacco shall
be made to consumers . . . without payment to the
States . . . where the consumers are located of all taxes
on
the
tobacco
products.”
15
U.S.C.
§ 376a(e)(3)(B)(ii)(II) (emphasis added). The phrase
“that operates throughout the United States,” even
more so than the phrase “is honored throughout the
United States” at issue here, suggests that the language is directed at geographic breadth rather than
the signatory’s degree of compliance with the agreement.
Read in tandem, it seems clear that
§ 376a(e)(3)(B)(ii)(I) & (II) merely define the contours

444a
of a qualifying settlement agreement and that the exemption is not dependent on the extent to which a
common carrier is actually in compliance.7
Plaintiffs’ policy arguments are similarly unconvincing. The Court rejects plaintiffs’ characterization
of a nationwide breadth requirement as “draconian.”
The Court also rejects plaintiffs’ contention that the
Court’s reading is unsupportable because the statute
lacks any description of a procedure or explanation as
to how a state might honor such an agreement. By
requiring nationwide recognition, Congress merely
sought to codify the status quo with respect to carriers
who had already agreed to curb illegal cigarette deliveries. The evidence before Congress was that the
three settlement agreements enumerated in
§ 376a(e)(3)(B)(ii)(I) already had effect across the nation.8 Given that context, Congress need not have
7

Section 376a(e)(3)(A)(ii), which addresses the circumstance
in which a qualifying agreement is no longer operative, does not
support plaintiffs’ interpretation. The fact that a carrier may
keep its exemption by voluntarily adhering to the terms of an
agreement even after that agreement has terminated or has otherwise become inactive does not mean that § 376a(e)(3)(B)(ii)(I)
speaks to the degree of a carrier’s compliance.
8

See, e.g., Prevent All Cigarette Trafficking Act of 2007, and
the Smuggled Tobacco Prevention Act of 2008: Hearing on H.R.
4081 & H.R. 5689 Before the Subcomm. on Crime, Terrorism, &
Homeland Sec. of the H. Comm. on the Judiciary, 110th Cong. 79
(2008) (“2008 Hearing”), at 79 (Statement of David S. Lapp, Chief
Counsel, Tobacco Enforcement Unit, Office of the Attorney Gen.
of Md., testifying on behalf of NAAG) (“Along with other State
attorneys general, we have attained agreements with . . . the major delivery companies, including UPS, FedEx and DHL, all to
stop Internet sales of cigarettes.”); 2008 Hearing at 124 (Statement of Eric Proshansky, Deputy Chief, Division of Affirmative

445a
been concerned as to how a state might hypothetically
“honor” an agreement. Regardless, based on the lack
of any allegation in the Amended Complaint that the
AOD has not been recognized by states nationwide,
the Court need not determine the precise procedure
by which a state must honor an agreement.
Significantly, plaintiffs’ proposed interpretation
fares no better in creating a consistent, workable
scheme. For instance, plaintiffs’ interpretation mixes
both the type of agreement encompassed and a compliance component into the same provision. The Court
doubts that such an interpretation corresponds with
Congressional intent and principles of statutory interpretation. The concepts of breadth and behavior are
quite different. Further, it would place a difficult burden on a carrier seeking to invoke the exemption if
such carrier would always (according to plaintiffs’ argument) be subject to suit under the PACT Act so long
as a plaintiff could include a plausible allegation of
non-compliance in the complaint. This seemingly guts
the exemption, which was created to prevent the imposition of onerous burdens on those common carriers
who had previously agreed to halt the delivery of contraband cigarettes. See 155 Cong. Rec. S5822-01,
2009 WL 1423723, at *104 (May 21, 2009) (statement
of Sen. Kohl, sponsor of Senate version of bill) (“It is
important to point out that this bill has been carefully
negotiated with the common carriers, including UPS,
Litigation, New York City Law Department) (“The states, acting
through the [NAAG], and with the assistance of the Bureau of
Alcohol, Tobacco, Firearms & Explosives, negotiated an unprecedented set of agreements with . . . common carriers in which
members of those industries have pledged to end any participation in the Internet cigarette business.”).

446a
to ensure that it does not place any unreasonable burdens on these businesses. In recognition of UPS and
other common carriers’ agreements to not deliver cigarettes to individual consumers on a nationwide basis,
pursuant to agreements with the State of New York,
we have exempted them from the bill provided this
agreement remains in effect.”).9
Even if the Court were to determine that
§ 376a(e)(3)(B)(ii)(I) is ambiguous as between the interpretations advanced by the parties, the PACT Act’s
legislative history strongly supports the reading
adopted by the Court. The legislative history shows
that in light of the commitments made by UPS, Federal Express and DHL prior to the PACT Act’s enactment, the statute was aimed primarily at eliminating
deliveries of illegal, untaxed cigarettes by the U.S.
Postal Service (“USPS”). See 2008 Hearing at 79
(statement of David S. Lapp) (explaining that states
“have curbed deliveries by all the major carriers except one: the U.S. Postal Service, which asserts it has
no legal authority to refuse cigarette shipments”); 156
9

Section 376a(e)(5)(C)(ii), which precludes a state from enforcing a law prohibiting the delivery of cigarettes to individual consumers “without proof that the common carrier is not exempt under paragraph (3) of this subsection,” 15 U.S.C. § 376a(e)(5)(C)(ii)
(emphasis added), is not inconsistent with the Court’s understanding of the PACT ACT’s chief aim. This “proof” requirement
suggests that Congress intended to confer on qualifying carriers
broad exemption from legal obligations arising from outside of
their
nationwide
settlement
agreements.
Section
376a(e)(5)(C)(ii), which applies to both enumerated and unenumerated agreements as defined in § 376a(e)(3), imposes the burden on a plaintiff to show that the carrier has not entered into a
settlement agreement that qualifies for one of the categories of
exemption in § 376a(e)(3).

447a
Cong. Rec. H1526-01, 2010 WL 956208, at *27 (Mar.
17, 2010) (statement of Rep. Weiner, House sponsor of
the PACT Act) (“There’s only one common carrier that
today still delivers tobacco through the mail—the
United States Postal Service.”); 2008 Hearing at 9
(testimony of Rep. Weiner) (“Right now, the only one
that is carrying [untaxed cigarettes], ironically, is
[USPS]. So the only one who would actually be covered by this in a real practical sense is [USPS]. Everyone else would already be following their status quo
operations.”). Because the ill that Congress was attempting to correct was the USPS’s refusal to halt the
delivery of illegal cigarettes, the purpose of
§ 376a(e)(3) was to exempt from the PACT Act the
common carriers who had already pledged to act in
conformity with the PACT Act’s goals. See 15 U.S.C.
§ 376a(e)(3).
Finally, it is worth noting that the Court’s reading
does not leave state attorneys general without any
remedy to prevent the unlawful delivery of cigarettes
to individual consumers and personal residences. The
AOD contains its own remedies in the event of UPS’s
breach, providing a $1,000 stipulated penalty for each
violation of its terms. (AOD ¶ 42.) The fact that plaintiffs will still be able to pursue remedies under the
AOD means that plaintiffs are only barred from obtaining duplicative recovery.10 In sum, because the
10

The Court finds no unfairness to plaintiffs in this result. It is
worth noting that Representative Anthony Weiner of New York
sponsored the House version of the PACT Act and both of New
York’s Senators, Senators Schumer and Gillibrand, were cosponsors of the Senate version, see 155 Cong. Rec. S6030-03. One
can assume that New York’s Senators sought to promote, rather

448a
Amended Complaint fails to allege that the AOD is not
accepted nationwide, the PACT Act claims must be
dismissed.
D. N.Y. PHL § 1399-ll
As noted above, the PACT Act provides that “[n]o
State may enforce against a common carrier a law prohibiting the delivery of cigarettes or other tobacco
products to individual consumers or personal residences without proof that the common carrier is not
exempt under [15 U.S.C. § 376a(e)(3)].” 15 U.S.C.
§ 376a(e)(5)(C)(ii). UPS argues that because the AOD
qualifies it for exemption from the PACT Act, and
N.Y. PHL § 1399-ll is a state law “prohibiting the delivery of cigarettes . . . to individual consumers or personal residences,” the PACT Act preempts enforcement of § 1399-ll against UPS. The Court agrees. The
PACT Act provision referenced in § 376a(e)(5)(C)(ii) is
the same as that discussed above, pursuant to which
the Court has concluded that UPS is exempt from suit
for violations of the PACT Act. Because plaintiffs
have not raised any argument disputing that N.Y.
PHL § 1399-ll is preempted if UPS qualifies for exemption under the PACT Act, plaintiffs’ § 1399-ll
must be dismissed.11

than inhibit, New York’s interests in supporting the legislation.
See Wesberry v. Sanders, 376 U.S. 1, 13 (1964) (noting that Senators were intended to be considered “state emissaries” under the
Constitutional design).
11

Because the Court holds that the PACT Act exempts UPS
from suit for violations of § 1399-ll, the Court does not address
UPS’s argument that plaintiffs lack standing to enforce § 1399-ll
for the bulk of the time period at issue in the Amended Complaint.

449a
IV. CONCLUSION
For the reasons set forth above, defendant’s motion to dismiss is GRANTED as to plaintiffs’ claims
arising under the PACT Act and N.Y. PHL § 1399-ll
and DENIED as to all other claims.
The Clerk of Court is directed to close the motion
at ECF No. 21.
SO ORDERED.
Dated:

New York, New York
September 16, 2015
/s/ Katherine B. Forrest____
KATHERINE B. FORREST
United States District Judge

450a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 19th day of December,
two thousand nineteen.
The State of New York,
The City of New York,
Plaintiffs – Appellees Cross-Appellants,
v.
United Parcel Service, Inc.,
Defendant – Appellant
- Cross-Appellee.

ORDER
Docket Nos:
17-1993 (L)
17-2107 (XAP)
17-2111 (XAP)

Appellant-Cross-Appellee, United Parcel Service,
filed a petition for panel rehearing, or, in the alternative, for rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have
considered the request for rehearing en banc.

451a
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

452a
APPENDIX G
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -X
THE STATE OF NEW YORK
and THE CITY OF NEW YORK,
Plaintiffs,
-vUNITED PARCEL SERVICE,
INC.,

15 CIVIL 1136
(KBF)
JUDGMENT

Defendant.

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -X
Whereas this action having come before the Court,
and this case was tried to the bench on September 19,
2016, through September 29, 2016. Following the
trial, on March 24, 2017, the Court issued a preliminary Opinion & Order setting forth, inter alia, its findings of fact and conclusions of law, and on May 25,
2017, the Court issued a Corrected Opinion & Order.
The Court found Defendant United Parcel Service,
Inc. (“UPS”) liable on each claim asserted against it.
Plaintiffs New York State and New York City are entitled to compensatory damages and penalties. The
sole remaining question is the quantum to be
awarded. The parties were ordered to submit certain
information to the Court no later than April 7, 2017,
and the matter having come before the Honorable

453a
Katherine B. Forrest, United States District Judge,
and the Court, on May 25, 2017, having rendered its
Opinion and Order stating that the Court has set forth
its determination of damages and penalties. In total,
awarding Plaintiff New York State $165,817,479 and
awarding Plaintiff New York City $81,158,135; and
directing the Clerk of Court to enter final judgment
against defendant UPS, it is,
ORDERED, ADJUDGED AND DECREED:
That for the reasons stated in the Court’s Opinion and
Order dated May 25, 2017, the Court has set forth its
determination of damages and penalties. In total,
Plaintiff New York State is awarded $165,817,479 and
Plaintiff New York City is awarded $81,158,135; final
judgment is entered against defendant UPS.
Dated:

New York, New York
May 26, 2017
RUBY J. KRAJICK
_________________________
Clerk of Court
BY:
/s/ KMA NGO___________
Deputy Clerk

454a
APPENDIX H
STATUTORY PROVISIONS INVOLVED
15 U.S.C. § 376a. Delivery sales
(a) In general
With respect to delivery sales into a specific State
and place, each delivery seller shall comply with—
(1) the shipping requirements set forth in subsection (b);
(2) the recordkeeping requirements set forth
in subsection (c);
(3) all State, local, tribal, and other laws generally applicable to sales of cigarettes or
smokeless tobacco as if the delivery sales
occurred entirely within the specific State
and place, including laws imposing—
(A) excise taxes;
(B) licensing and tax-stamping requirements;
(C) restrictions on sales to minors; and
(D) other payment obligations or legal requirements relating to the sale, distribution,
or delivery of cigarettes or smokeless tobacco;
and
(4) the tax collection requirements set forth in
subsection (d).
(b) Shipping and packaging
(1) Required statement
For any shipping package containing cigarettes
or smokeless tobacco, the delivery seller shall include on the bill of lading, if any, and on the outside

455a
of the shipping package, on the same surface as the
delivery address, a clear and conspicuous statement
providing
as
follows:
“CIGARETTES/SMOKELESS TOBACCO:
FEDERAL
LAW REQUIRES THE PAYMENT OF ALL APPLICABLE EXCISE TAXES, AND COMPLIANCE
WITH APPLICABLE LICENSING AND TAXSTAMPING OBLIGATIONS”.
(2) Failure to label
Any shipping package described in paragraph (1)
that is not labeled in accordance with that paragraph shall be treated as non-deliverable matter by
a common carrier or other delivery service, if the
common carrier or other delivery service knows or
should know the package contains cigarettes or
smokeless tobacco. If a common carrier or other delivery service believes a package is being submitted
for delivery in violation of paragraph (1), it may require the person submitting the package for delivery to establish that it is not being sent in violation
of paragraph (1) before accepting the package for
delivery. Nothing in this paragraph shall require
the common carrier or other delivery service to open
any package to determine its contents.
(3) Weight restriction
A delivery seller shall not sell, offer for sale, deliver, or cause to be delivered in any single sale or
single delivery any cigarettes or smokeless tobacco
weighing more than 10 pounds.
(4) Age verification
(A) In general
A delivery seller who mails or ships tobacco
products—

456a
(i) shall not sell, deliver, or cause to be delivered any tobacco products to a person under the
minimum age required for the legal sale or purchase of tobacco products, as determined by the
applicable law at the place of delivery;
(ii) shall use a method of mailing or shipping
that requires—
(I) the purchaser placing the delivery sale
order, or an adult who is at least the minimum age required for the legal sale or purchase of tobacco products, as determined by
the applicable law at the place of delivery, to
sign to accept delivery of the shipping container at the delivery address; and
(II) the person who signs to accept delivery
of the shipping container to provide proof, in
the form of a valid, government-issued identification bearing a photograph of the individual, that the person is at least the minimum age required for the legal sale or purchase of tobacco products, as determined by
the applicable law at the place of delivery;
and
(iii) shall not accept a delivery sale order
from a person without—
(I) obtaining the full name, birth date, and
residential address of that person; and
(II) verifying the information provided in
subclause (I), through the use of a commercially available database or aggregate of databases, consisting primarily of data from
government sources, that are regularly used
by government and businesses for the purpose of age and identity verification and authentication, to ensure that the purchaser is

457a
at least the minimum age required for the legal sale or purchase of tobacco products, as
determined by the applicable law at the place
of delivery.
(B) Limitation
No database being used for age and identity
verification under subparagraph (A)(iii) shall be
in the possession or under the control of the delivery seller, or be subject to any changes or supplementation by the delivery seller.
(c) Records
(1) In general
Each delivery seller shall keep a record of any
delivery sale, including all of the information described in section 376(a)(2) of this title, organized
by the State, and within the State, by the city or
town and by zip code, into which the delivery sale is
so made.
(2) Record retention
Records of a delivery sale shall be kept as described in paragraph (1) until the end of the 4th full
calendar year that begins after the date of the delivery sale.
(3) Access for officials
Records kept under paragraph (1) shall be made
available to tobacco tax administrators of the
States, to local governments and Indian tribes that
apply local or tribal taxes on cigarettes or smokeless tobacco, to the attorneys general of the States,
to the chief law enforcement officers of the local governments and Indian tribes, and to the Attorney
General of the United States in order to ensure the

458a
compliance of persons making delivery sales with
the requirements of this chapter.
(d) Delivery
(1) In general
Except as provided in paragraph (2), no delivery
seller may sell or deliver to any consumer, or tender
to any common carrier or other delivery service, any
cigarettes or smokeless tobacco pursuant to a delivery sale unless, in advance of the sale, delivery, or
tender—
(A) any cigarette or smokeless tobacco excise
tax that is imposed by the State in which the cigarettes or smokeless tobacco are to be delivered
has been paid to the State;
(B) any cigarette or smokeless tobacco excise
tax that is imposed by the local government of
the place in which the cigarettes or smokeless tobacco are to be delivered has been paid to the local government; and
(C) any required stamps or other indicia that
the excise tax has been paid are properly affixed
or applied to the cigarettes or smokeless tobacco.
(2) Exception
Paragraph (1) does not apply to a delivery sale of
smokeless tobacco if the law of the State or local
government of the place where the smokeless tobacco is to be delivered requires or otherwise provides that delivery sellers collect the excise tax from
the consumer and remit the excise tax to the State
or local government, and the delivery seller complies with the requirement.

459a
(e) List of unregistered or noncompliant delivery sellers
(1) In general
(A) Initial list
Not later than 90 days after this subsection
goes into effect under the Prevent All Cigarette
Trafficking Act of 2009, the Attorney General of
the United States shall compile a list of delivery
sellers of cigarettes or smokeless tobacco that
have not registered with the Attorney General of
the United States pursuant to section 376(a) of
this title, or that are otherwise not in compliance
with this chapter, and—
(i) distribute the list to—
(I) the attorney general and tax administrator of every State;
(II) common carriers and other persons
that deliver small packages to consumers in
interstate commerce, including the United
States Postal Service; and
(III) any other person that the Attorney
General of the United States determines can
promote the effective enforcement of this
chapter; and
(ii) publicize and make the list available to
any other person engaged in the business of
interstate deliveries or who delivers cigarettes or smokeless tobacco in or into any
State.
(B) List contents
To the extent known, the Attorney General of
the United States shall include, for each delivery
seller on the list described in subparagraph (A)—

460a
(i) all names the delivery seller uses or has
used in the transaction of its business or on
packages delivered to customers;
(ii) all addresses from which the delivery
seller does or has done business, or ships or has
shipped cigarettes or smokeless tobacco;
(iii) the website addresses, primary email address, and phone number of the delivery seller;
and
(iv) any other information that the Attorney
General of the United States determines would
facilitate compliance with this subsection by recipients of the list.
(C) Updating
The Attorney General of the United States
shall update and distribute the list described in
subparagraph (A) at least once every 4 months,
and may distribute the list and any updates by
regular mail, electronic mail, or any other reasonable means, or by providing recipients with
access to the list through a nonpublic website
that the Attorney General of the United States
regularly updates.
(D) State, local, or tribal additions
The Attorney General of the United States
shall include in the list described in subparagraph (A) any noncomplying delivery sellers
identified by any State, local, or tribal government under paragraph (6), and shall dis-tribute
the list to the attorney general or chief law enforcement official and the tax administrator of
any government submitting any such information, and to any common carriers or other persons who deliver small packages to consumers

461a
identified by any government pursuant to paragraph (6).
(E) Accuracy and completeness of list of
noncomplying delivery sellers
In preparing and revising the list described in
subparagraph (A), the Attorney General of the
United States shall—
(i) use reasonable procedures to ensure maximum possible accuracy and completeness of
the records and information relied on for the
purpose of determining that a delivery seller is
not in compliance with this chapter;
(ii) not later than 14 days before including a
delivery seller on the list, make a reasonable attempt to send notice to the delivery seller by
letter, electronic mail, or other means that the
delivery seller is being placed on the list, which
shall cite the relevant provisions of this chapter
and the specific reasons for which the delivery
seller is being placed on the list;
(iii) provide an opportunity to the delivery
seller to challenge placement on the list;
(iv) investigate each challenge described in
clause (iii) by contacting the relevant Federal,
State, tribal, and local law enforcement officials, and provide the specific findings and results of the investigation to the delivery seller
not later than 30 days after the date on which
the challenge is made; and
(v) if the Attorney General of the United
States determines that the basis for including a
delivery seller on the list is inaccurate, based
on incomplete information, or cannot be verified, promptly remove the delivery seller from

462a
the list as appropriate and notify each appropriate Federal, State, tribal, and local authority
of the determination.
(F) Confidentiality
The list described in subparagraph (A) shall be
confidential, and any person receiving the list
shall maintain the confidentiality of the list and
may deliver the list, for enforcement purposes, to
any government official or to any common carrier
or other person that delivers tobacco products or
small packages to consumers. Nothing in this
section shall prohibit a common carrier, the
United States Postal Service, or any other person
receiving the list from discussing with a listed delivery seller the inclusion of the delivery seller on
the list and the resulting effects on any services
requested by the listed delivery seller.
(2) Prohibition on delivery
(A) In general
Commencing on the date that is 60 days after
the date of the initial distribution or availability
of the list described in paragraph (1)(A), no person who receives the list under paragraph (1),
and no person who delivers cigarettes or smokeless tobacco to consumers, shall knowingly complete, cause to be completed, or complete its portion of a delivery of any package for any person
whose name and address are on the list, unless—
(i) the person making the delivery knows or
believes in good faith that the item does not include cigarettes or smokeless tobacco;

463a
(ii) the delivery is made to a person lawfully
engaged in the business of manufacturing, distributing, or selling cigarettes or smokeless tobacco; or
(iii) the package being delivered weighs more
than 100 pounds and the person making the delivery does not know or have reasonable cause
to believe that the package contains cigarettes
or smokeless tobacco.
(B) Implementation of updates
Commencing on the date that is 30 days after
the date of the distribution or availability of any
updates or corrections to the list described in paragraph (1)(A), all recipients and all common carriers or other persons that deliver cigarettes or
smokeless tobacco to consumers shall be subject
to subparagraph (A) in regard to the corrections
or updates.
(3) Exemptions
(A) In general
Subsection (b)(2) and any requirements or restrictions placed directly on common carriers under this subsection, including subparagraphs (A)
and (B) of paragraph (2), shall not apply to a common carrier that—
(i) is subject to a settlement agreement described in subparagraph (B); or
(ii) if a settlement agreement described in
subparagraph (B) to which the common carrier
is a party is terminated or otherwise becomes
inactive, is administering and enforcing policies and practices throughout the United States
that are at least as stringent as the agreement.

464a
(B) Settlement agreement
A settlement agreement described in this subparagraph—
(i) is a settlement agreement relating to tobacco product deliveries to consumers; and
(ii) includes—
(I) the Assurance of Discontinuance entered into by the Attorney General of New
York and DHL Holdings USA, Inc. and DHL
Express (USA), Inc. on or about July 1, 2005,
the Assurance of Discontinuance entered
into by the Attorney General of New York
and United Parcel Service, Inc. on or about
October 21, 2005, and the Assurance of Compliance entered into by the Attorney General
of New York and Federal Express Corporation and FedEx Ground Package Systems,
Inc. on or about February 3, 2006, if each of
those agreements is honored throughout the
United States to block illegal deliveries of
cigarettes or smokeless tobacco to consumers; and
(II) any other active agreement between a
common carrier and a State that operates
throughout the United States to ensure that
no deliveries of cigarettes or smokeless tobacco shall be made to consumers or illegally
operating Internet or mail-order sellers and
that any such deliveries to consumers shall
not be made to minors or without payment to
the States and localities where the consumers are located of all taxes on the tobacco
products.

465a
(4) Shipments from persons on list
(A) In general
If a common carrier or other delivery service delays or interrupts the delivery of a package in the
possession of the common carrier or delivery service because the common carrier or delivery service determines or has reason to believe that the
person ordering the delivery is on a list described
in paragraph (1)(A) and that clauses (i), (ii), and
(iii) of paragraph (2)(A) do not apply—
(i) the person ordering the delivery shall be
obligated to pay—
(I) the common carrier or other delivery
service as if the delivery of the package had
been timely completed; and
(II) if the package is not deliverable, any
reasonable additional fee or charge levied by
the common carrier or other delivery service
to cover any extra costs and inconvenience
and to serve as a disincentive against such
noncomplying delivery orders; and
(ii) if the package is determined not to be deliverable, the common carrier or other delivery
service shall offer to provide the package and
its contents to a Federal, State, or local law enforcement agency.
(B) Records
A common carrier or other delivery service
shall maintain, for a period of 5 years, any records kept in the ordinary course of business relating to any delivery interrupted under this paragraph and provide that information, upon request, to the Attorney General of the United

466a
States or to the attorney general or chief law enforcement official or tax administrator of any
State, local, or tribal government.
(C) Confidentiality
Any person receiving records under subparagraph (B) shall—
(i) use the records solely for the purposes of
the enforcement of this chapter and the collection of any taxes owed on related sales of cigarettes and smokeless tobacco; and
(ii) keep confidential any personal information in the records not otherwise required
for such purposes.
(5) Preemption
(A) In general
No State, local, or tribal government, nor any
political authority of 2 or more State, local, or
tribal governments, may enact or enforce any law
or regulation relating to delivery sales that restricts deliveries of cigarettes or smokeless tobacco to consumers by common carriers or other
delivery services on behalf of delivery sellers
by—
(i) requiring that the common carrier or other
delivery service verify the age or identity of the
consumer accepting the delivery by requiring
the person who signs to accept delivery of the
shipping container to provide proof, in the form
of a valid, government-issued identification
bearing a photograph of the individual, that the
person is at least the minimum age required for
the legal sale or purchase of tobacco products,
as determined by either State or local law at the
place of delivery;

467a
(ii) requiring that the common carrier or
other delivery service obtain a signature from
the consumer accepting the delivery;
(iii) requiring that the common carrier or
other delivery service verify that all applicable
taxes have been paid;
(iv) requiring that packages delivered by the
common carrier or other delivery service contain any particular labels, notice, or markings;
or
(v) prohibiting common carriers or other delivery services from making deliveries on the
basis of whether the delivery seller is or is not
identified on any list of delivery sellers maintained and distributed by any entity other than
the Federal Government.
(B) Relationship to other laws
Except as provided in subparagraph (C), nothing in this paragraph shall be construed to nullify, expand, restrict, or otherwise amend or modify—
(i) section 14501(c)(1) or 41713(b)(4) of title
49;
(ii) any other restrictions in Federal law on
the ability of State, local, or tribal governments
to regulate common carriers; or
(iii) any provision of State, local, or tribal law
regulating common carriers that is described in
section 14501(c)(2) or 41713(b)(4)(B) of title 49.
(C) State laws prohibiting delivery sales
(i) In general
Except as provided in clause (ii), nothing in
the Prevent All Cigarette Trafficking Act of
2009, the amendments made by that Act, or in

468a
any other Federal statute shall be construed to
preempt, supersede, or otherwise limit or restrict State laws prohibiting the delivery sale,
or the shipment or delivery pursuant to a delivery sale, of cigarettes or other tobacco products
to individual consumers or personal residences.
(ii) Exemptions
No State may enforce against a common carrier a law prohibiting the delivery of cigarettes
or other tobacco products to individual consumers or personal residences without proof that
the common carrier is not exempt under paragraph (3) of this subsection.
(6) State, local, and tribal additions
(A) In general
Any State, local, or tribal government shall provide the Attorney General of the United States
with—
(i) all known names, addresses, website addresses, and other primary contact in-formation of any delivery seller that—
(I) offers for sale or makes sales of cigarettes or smokeless tobacco in or into the
State, locality, or tribal land; and (II) has
failed to register with or make reports to the
respective tax administrator as required by
this chapter, or that has been found in a legal
proceeding to have otherwise failed to comply
with this chapter; and
(ii) a list of common carriers and other persons who make deliveries of cigarettes or
smokeless tobacco in or into the State, locality,
or tribal land.

469a
(B) Updates
Any government providing a list to the Attorney General of the United States under subparagraph (A) shall also provide updates and corrections every 4 months until such time as the government notifies the Attorney General of the
United States in writing that the government no
longer desires to submit information to supplement the list described in paragraph (1)(A).
(C) Removal after withdrawal
Upon receiving written notice that a government no longer desires to submit information under subparagraph (A), the Attorney General of
the United States shall remove from the list described in paragraph (1)(A) any persons that are
on the list solely because of the prior submissions
of the government of the list of the government of
noncomplying delivery sellers of cigarettes or
smokeless tobacco or a subsequent update or correction by the government.
(7) Deadline to incorporate additions
The Attorney General of the United States
shall—
(A) include any delivery seller identified and
submitted by a State, local, or tribal government
under paragraph (6) in any list or update that is
distributed or made avail-able under paragraph
(1) on or after the date that is 30 days after the
date on which the information is received by the
Attorney General of the United States; and
(B) distribute any list or update described in
subparagraph (A) to any common carrier or other
person who makes deliveries of cigarettes or
smokeless tobacco that has been identified and

470a
submitted by a government pursuant to paragraph (6).
(8) Notice to delivery sellers
Not later than 14 days before including any delivery seller on the initial list described in paragraph (1)(A), or on an update to the list for the first
time, the Attorney General of the United States
shall make a reasonable attempt to send notice to
the delivery seller by letter, electronic mail, or other
means that the delivery seller is being placed on the
list or update, with that notice citing the relevant
provisions of this chapter.
(9) Limitations
(A) In general
Any common carrier or other person making a
delivery subject to this subsection shall not be required or otherwise obligated to—
(i) determine whether any list distributed or
made available under paragraph (1) is complete, accurate, or up-to-date;
(ii) determine whether a person ordering a
delivery is in compliance with this chapter; or
(iii) open or inspect, pursuant to this chapter,
any package being delivered to determine its
contents.
(B) Alternate names
Any common carrier or other person making a
delivery subject to this subsection—
(i) shall not be required to make any inquiries or otherwise determine whether a person ordering a delivery is a delivery seller on the list
described in paragraph (1)(A) who is using a

471a
different name or address in order to evade the
related delivery restrictions; and
(ii) shall not knowingly deliver any packages
to consumers for any delivery seller on the list
described in paragraph (1)(A) who the common
carrier or other delivery service knows is a delivery seller who is on the list and is using a different name or address to evade the delivery restrictions of paragraph (2).
(C) Penalties
Any common carrier or person in the business
of delivering packages on behalf of other persons
shall not be subject to any penalty under section
14101(a) of title 49 or any other provision of law
for—
(i) not making any specific delivery, or any
deliveries at all, on behalf of any person on the
list described in paragraph (1)(A);
(ii) refusing, as a matter of regular practice
and procedure, to make any deliveries, or any
deliveries in certain States, of any cigarettes or
smokeless tobacco for any person or for any person not in the business of manufacturing, distributing, or selling cigarettes or smokeless tobacco; or
(iii) delaying or not making a delivery for any
person because of reasonable efforts to comply
with this chapter.
(D) Other limits
Section 376 of this title and subsections (a), (b),
(c), and (d) of this section shall not be interpreted
to impose any responsibilities, requirements, or
liability on common carriers.

472a
(f) Presumption
For purposes of this chapter, a delivery sale shall
be deemed to have occurred in the State and place
where the buyer obtains personal possession of the
cigarettes or smokeless tobacco, and a delivery pursuant to a delivery sale is deemed to have been initiated
or ordered by the delivery seller.
* * *

473a
15 U.S.C. § 377. Penalties
(a) Criminal penalties
(1) In general
Except as provided in paragraph (2), whoever knowingly violates this chapter shall be
imprisoned for not more than 3 years, fined
under title 18, or both.
(2) Exceptions
(A) Governments
Paragraph (1) shall not apply to a State,
local, or tribal government.
(B) Delivery violations
A common carrier or independent delivery
service, or employee of a common carrier or independent delivery service, shall be subject to
criminal penalties under paragraph (1) for a
violation of section 376a(e) of this title only if
the violation is committed knowingly—
(i) as consideration for the receipt of, or as
consideration for a promise or agreement to
pay, anything of pecuniary value; or
(ii) for the purpose of assisting a delivery
seller to violate, or otherwise evading compliance with, section 376a of this title.
(b) Civil penalties
(1) In general
Except as provided in paragraph (3), whoever
violates this chapter shall be subject to a civil penalty in an amount not to exceed—

474a
(A) in the case of a delivery seller, the greater
of—
(i) $5,000 in the case of the first violation,
or $10,000 for any other violation; or
(ii) for any violation, 2 percent of the gross
sales of cigarettes or smokeless tobacco of the
delivery seller during the 1- year period ending on the date of the violation.
(B) in the case of a common carrier or other
delivery service, $2,500 in the case of a first violation, or $5,000 for any violation within 1 year of a
prior violation.
(2) Relation to other penalties
A civil penalty imposed under paragraph (1)
for a violation of this chapter shall be imposed in
addition to any criminal penalty under subsection
(a) and any other damages, equitable relief, or injunctive relief awarded by the court, including the
payment of any unpaid taxes to the appropriate
Federal, State, local, or tribal governments.
(3) Exceptions
(A) Delivery violations
An employee of a common carrier or independent delivery service shall be subject to
civil penalties under paragraph (1) for a violation of section 376a(e) of this title only if the
violation is committed intentionally—
(i) as consideration for the receipt of, or as
consideration for a promise or agreement to
pay, anything of pecuniary value; or

475a
(ii) for the purpose of assisting a delivery
seller to violate, or otherwise evading compliance with, section 376a of this title.
(B) Other limitations
No common carrier or independent delivery service shall be subject to civil penalties
under paragraph (1) for a violation of section
376a(e) of this title if—
(i) the common carrier or independent delivery service has implemented and enforces
effective policies and practices for complying
with that section; or
(ii) the violation consists of an employee of
the common carrier or independent delivery
service who physically receives and processes
orders, picks up packages, processes packages, or makes deliveries, taking actions that
are outside the scope of employment of the employee, or that violate the implemented and
enforced policies of the common carrier or independent delivery service described in clause
(i).
* * *

476a
18 U.S.C. § 2341. Definitions
As used in this chapter—
(1) the term “cigarette” means—
(A) any roll of tobacco wrapped in paper or in any substance not containing tobacco; and
(B) any roll of tobacco wrapped in any
substance containing tobacco
which, because of its appearance,
the type of tobacco used in the
filler, or its packaging and labeling, is likely to be offered to, or
purchased by, consumers as a cigarette described in subparagraph
(A);
(2) the term “contraband cigarettes” means a quantity in excess of 10,000 cigarettes, which
bear no evidence of the payment of applicable State or local cigarette taxes in the
State or locality where such cigarettes are
found, if the State or local government requires a stamp, impression, or other indication to be placed on packages or other
containers of cigarettes to evidence payment of cigarette taxes, and which are in
the possession of any person other than—
(A) a person holding a permit issued
pursuant to chapter 52 of the Internal Revenue Code of 1986 as a
manufacturer of tobacco products
or as an export warehouse propri-

477a
etor, or a person operating a customs bonded warehouse pursuant
to section 311 or 555 of the Tariff
Act of 1930 (19 U.S.C. 1311 or
1555) or an agent of such person;
(B) a common or contract carrier
transporting the cigarettes involved under a proper bill of lading or freight bill which states the
quantity, source, and destination
of such cigarettes;
(C) a person—
(i) who is licensed or otherwise authorized by the State where the
cigarettes are found to account for
and pay cigarette taxes imposed
by such State; and
(ii) who has complied with the accounting and payment requirements relating to such license or
authorization with respect to the
cigarettes involved; or
(D) an officer, employee, or other
agent of the United States or a
State, or any department, agency,
or instrumentality of the United
States or a State (including any
political
subdivision
of
a
State) having possession of such
cigarettes in connection with the
performance of official duties;

478a
(3) the term “common or contract carrier” means a
carrier holding a certificate of convenience
and necessity, a permit for contract carrier
by motor vehicle, or other valid operating
authority under subtitle IV of title 49, or
under equivalent operating authority from
a regulatory agency of the United States
or of any State;
(4) the term “State” means a State of the United
States, the District of Columbia, the Commonwealth of Puerto Rico, or the Virgin
Islands;
(5) the term “Attorney General” means the Attorney
General of the United States;
(6) the term “smokeless tobacco” means any finely
cut, ground, powdered, or leaf tobacco that
is intended to be placed in the oral or nasal cavity or otherwise consumed without
being combusted;
(7) the term “contraband smokeless tobacco” means a
quantity in excess of 500 single-unit consumer-sized cans or packages of smokeless
tobacco, or their equivalent, that are in
the possession of any person other than—
(A) a person holding a permit issued
pursuant to chapter 52 of the Internal Revenue Code of 1986 as
manufacturer1 of tobacco products
or as an export warehouse proprietor, a person operating a customs

1

So in original. Probably should be “a manufacturer”.

479a
bonded warehouse pursuant to
section 311 or 555 of the Tariff Act
of 1930 (19 U.S.C. 1311, 1555), or
an agent of such person;
(B) a common carrier transporting
such smokeless tobacco under a
proper bill of lading or freight bill
which states the quantity, source,
and designation of such smokeless
tobacco;
(C) a person who—
(i) is licensed or otherwise authorized by the State where such
smokeless tobacco is found to engage in the business of selling or
distributing tobacco products; and
(ii) has complied with the accounting, tax, and payment requirements relating to such license or
authorization with respect to such
smokeless tobacco; or
(D) an officer, employee, or agent of
the United States or a State, or
any department, agency, or instrumentality of the United States
or a State (including any political
subdivision of a State), having
possession of such smokeless tobacco in connection with the performance of official duties;2

2

So in original. The semicolon probably should be a period.

480a
18 U.S.C. § 2342. Unlawful acts
(a) It shall be unlawful for any person knowingly
to ship, transport, receive, possess, sell, distribute, or
purchase contraband cigarettes or contraband smokeless tobacco.
(b) It shall be unlawful for any person knowingly
to make any false statement or representation with
respect to the information required by this chapter to
be kept in the records of any person who ships, sells,
or distributes any quantity of cigarettes in excess of
10,000 in a single transaction.
* * *

481a
18 U.S.C. § 2343. Recordkeeping, reporting, and
inspection
(a) Any person who ships, sells, or distributes any
quantity of cigarettes in excess of 10,000, or any quantity of smokeless tobacco in excess of 500 single-unit
consumer-sized cans or packages, in a single transaction shall maintain such information about the shipment, receipt, sale, and distribution of cigarettes as
the Attorney General may prescribe by rule or regulation. The Attorney General may require such person
to keep such information as the Attorney General considers appropriate for purposes of enforcement of this
chapter, including—
(1) the name, address, destination (including
street address), vehicle license number, driver’s license number, signature of the person receiving
such cigarettes, and the name of the purchaser;
(2) a declaration of the specific purpose of the receipt (personal use, resale, or delivery to another);
and
(3) a declaration of the name and address of the
recipient’s principal in all cases when the recipient
is acting as an agent.
Such information shall be contained on business records kept in the normal course of business.
(b) Any person, except for a tribal government,
who engages in a delivery sale, and who ships, sells,
or distributes any quantity in excess of 10,000 cigarettes, or any quantity in excess of 500 single-unit consumer-sized cans or packages of smokeless tobacco, or
their equivalent, within a single month, shall submit
to the Attorney General, pursuant to rules or regulations prescribed by the Attorney General, a report
that sets forth the following:

482a
(1) The person’s beginning and ending inventory of cigarettes and cans or packages of smokeless tobacco (in total) for such month.
(2) The total quantity of cigarettes and cans or
packages of smokeless tobacco that the person received within such month from each other person
(itemized by name and address).
(3) The total quantity of cigarettes and cans or
packages of smokeless tobacco that the person
distributed within such month to each person
(itemized by name and address) other than a retail purchaser.
(c)(1) Any officer of the Bureau of Alcohol, Tobacco, Firearms, and Explosives may, during normal
business hours, enter the premises of any person described in subsection (a) or (b) for the purposes of inspecting—
(A) any records or information required to be
maintained by the person under this chapter; or
(B) any cigarettes or smokeless tobacco kept or
stored by the person at the premises.
(2) The district courts of the United States shall
have the authority in a civil action under this subsection to compel inspections authorized by paragraph
(1).
(3) Whoever denies access to an officer under paragraph (1), or who fails to comply with an order issued
under paragraph (2), shall be subject to a civil penalty
in an amount not to exceed $10,000.
(d) Any report required to be submitted under this
chapter to the Attorney General shall also be submitted to the Secretary of the Treasury and to the attorneys general and the tax administrators of the States

483a
from where the shipments, deliveries, or distributions
both originated and concluded.
(e) In this section, the term “delivery sale” means
any sale of cigarettes or smokeless tobacco in interstate commerce to a consumer if—
(1) the consumer submits the order for such
sale by means of a telephone or other method of
voice transmission, the mails, or the Internet or
other online service, or by any other means
where the consumer is not in the same physical
location as the seller when the purchase or offer
of sale is made; or
(2) the cigarettes or smokeless tobacco are delivered by use of the mails, common carrier, private delivery service, or any other means where
the consumer is not in the same physical location
as the seller when the consumer obtains physical
possession of the cigarettes or smokeless tobacco.
(f) In this section, the term “interstate commerce”
means commerce between a State and any place outside the State, or commerce between points in the
same State but through any place outside the State.
* * *

484a
New York State Public Health Law § 1399-ll
§ 1399-ll. Unlawful shipment or transport of cigarettes
1. It shall be unlawful for any person engaged in the
business of selling cigarettes to ship or cause to be
shipped any cigarettes to any person in this state who
is not: (a) a person licensed as a cigarette tax agent
or wholesale dealer under article twenty of the tax law
or registered retail dealer under section four hundred
eighty-a of the tax law; (b) an export warehouse proprietor pursuant to chapter 52 of the internal revenue
code or an operator of a customs bonded warehouse
pursuant to section 1311 or 1555 of title 19 of the
United States Code; or (c) a person who is an officer,
employee or agent of the United States government,
this state or a department, agency, instrumentality or
political subdivision of the United States or this state
and presents himself or herself as such, when such
person is acting in accordance with his or her official
duties. For purposes of this subdivision, a person is a
licensed or registered agent or dealer described in paragraph (a) of this subdivision if his or her name appears on a list of licensed or registered agents or dealers published by the department of taxation and finance, or if such person is licensed or registered as an
agent or dealer under article twenty of the tax law.
2. It shall be unlawful for any common or contract
carrier to knowingly transport cigarettes to any person in this state reasonably believed by such carrier
to be other than a person described in paragraph (a),
(b) or (c) of subdivision one of this section. For purposes of the preceding sentence, if cigarettes are

485a
transported to a home or residence, it shall be presumed that the common or contract carrier knew that
such person was not a person described in paragraph
(a), (b) or (c) of subdivision one of this section. It shall
be unlawful for any other person to knowingly
transport cigarettes to any person in this state, other
than to a person described in paragraph (a), (b) or (c)
of subdivision one of this section. Nothing in this subdivision shall be construed to prohibit a person other
than a common or contract carrier from transporting
not more than eight hundred cigarettes at any one
time to any person in this state.
3. When a person engaged in the business of selling
cigarettes ships or causes to be shipped any cigarettes
to any person in this state, other than in the cigarette
manufacturer’s original container or wrapping, the
container or wrapping must be plainly and visibly
marked with the word “cigarettes”.
4. Whenever a police officer designated in section 1.20
of the criminal procedure law or a peace officer designated in subdivision four of section 2.10 of such law,
acting pursuant to his or her special duties, shall discover any cigarettes which have been or which are being shipped or transported in violation of this section,
such person is hereby empowered and authorized to
seize and take possession of such cigarettes, and such
cigarettes shall be subject to a forfeiture action pursuant to the procedures provided for in article thirteenA of the civil practice law and rules, as if such article
specifically provided for forfeiture of cigarettes seized
pursuant to this section as a pre-conviction forfeiture
crime.

486a
5. Any person who violates the provisions of subdivision one or two of this section shall be guilty of a class
A misdemeanor and for a second or subsequent violation shall be guilty of a class E felony. In addition to
the criminal penalty, any person who violates the provisions of subdivision one, two or three of this section
shall be subject to a civil penalty not to exceed the
greater of (a) five thousand dollars for each such violation; or (b) one hundred dollars for each pack of cigarettes shipped, caused to be shipped or transported
in violation of such subdivision.
6. The attorney general may bring an action to recover the civil penalties provided by subdivision five
of this section and for such other relief as may be
deemed necessary. In addition, the corporation counsel of any political subdivision that imposes a tax on
cigarettes may bring an action to recover the civil penalties provided by subdivision five of this section and
for such other relief as may be deemed necessary with
respect to any cigarettes shipped, caused to be shipped
or transported in violation of this section to any person located within such political subdivision. All civil
penalties obtained in any such action shall be retained
by the state or political subdivision bringing such action, provided that no person shall be required to pay
civil penalties to both the state and a political subdivision with respect to the same violation of this section.

487a
APPENDIX I
ATTORNEY GENERAL OF THE STATE OF NEW
YORK HEALTH CARE BUREAU
-------------------------------------------------------------------------In the Matter of
UNITED PARCEL SERVICE, INC.
-------------------------------------------------------------------------ASSURANCE OF DISCONTINUANCE
Pursuant to N.Y. Executive Law (“EL”) § 63(12),
ELIOT SPITZER, Attorney General of the State of
New York, has caused an inquiry to be made into certain business practices of United Parcel Service, Inc.
(“UPS”) related to N.Y. Public Health Law (“PHL”)
§ 1399-ll. As a result of such inquiry, the Attorney
General has made the following findings:
1. UPS is a corporation, organized and existing
under the laws of the State of Delaware, with its principal place of business located at 55 Glenlake Parkway, Atlanta, Georgia 30328.
2. UPS is a package delivery company and provider of specialized transportation and logistics services, and in the regular course of its business delivers
packages to persons located in New York.
3. PHL §1399-ll, entitled “Unlawful Shipment of
Cigarettes,” states that it shall be unlawful for a common carrier like UPS to knowingly transport cigarettes to any person in New York whom it reasonably
believes to be other than a person who is authorized

488a
to receive such shipment. The statute provides in pertinent part:
1. It shall be unlawful for any person engaged in
the business of selling cigarettes to ship or cause
to be shipped any cigarettes to any person in this
state who is not: (a) a person licensed as a cigarette tax agent or wholesale dealer under article
twenty of the tax law or registered retail dealer
under section four hundred eighty-a of the tax
law; (b) an export warehouse proprietor pursuant to chapter 52 of the internal revenue code or
an operator of a customs bonded warehouse pursuant to section 1311 or 1555 of title 19 of the
United States Code; or (c) a person who is an officer, employee or agent of the United States
government, this state or a department, agency,
instrumentality or political subdivision of the
United States or this state, when such person is
acting in accordance with his or her official duties.
2. It shall be unlawful for any common or contract carrier to knowingly transport cigarettes to
any person in this state reasonably believed by
such carrier to be other than a person described
in paragraph (a), (b) or (c) of subdivision one of
this section. For purposes of the preceding sentence, if cigarettes are transported to a home or
residence, it shall be presumed that the common
or contract carrier knew that such person was not
a person described in paragraph (a), (b) or (c) of
subdivision one of this section. It shall be unlawful for any other person to knowingly transport
cigarettes to any person in this state, other than

489a
to a person described in paragraph (a), (b) or (c) of
subdivision one of this section.
4. PHI, § 1399-ll became effective on or about
April 10, 2003 (the “Implementation Date”).
5. EL § 63(12) prohibits repeated illegal acts and
persistent illegality in carrying on, conducting or
transacting business.
6. On or about August 6, 2004, the Attorney
General caused a subpoena to be served on UPS pursuant to EL § 63(12). Schedule C attached to the subpoena identified the names of shippers that sell and
ship cigarettes in the course of their business, and the
subpoena sought information about whether UPS
may have transported cigarettes from such shippers
in violation of PHL § 1399-ll(2) and EL § 63(12). On or
about April 11, 2005, the Attorney General caused a
second subpoena to be served on UPS pursuant to EL
§ 63(12). Among other things, the second subpoena
sought additional information about whether UPS has
transported cigarettes in violation of PHL § I399-ll(2)
and EL § 63(12), as well as information relating to
persons who may be shipping cigarettes via UPS in
violation of PHL § 1399-ll and EL § 63(12).
7. UPS produced information in response to the
subpoenas, and has cooperated with the Attorney
General’s investigation.
8. The Attorney General alleges that since the
Implementation Date, UPS has delivered many packages containing cigarettes to persons who were not authorized to receive them pursuant to PHL § 1399-ll in
violation of PHL § 1399-ll(2) and thereby engaged in
repeated illegal acts and business activities in violation of EL § 63(12) (the “Alleged Past Violations”).

490a
9. UPS disputes the Attorney General’s allegations, and denies that its actions have violated PHL
§ 1399-ll(2) and EL § 63(12) in any manner. UPS also
asserts that even before the Attorney General’s investigation was initiated, UPS adopted revised policies
governing the transportation of tobacco products, and
that the UPS policies, among other things, are meant
to ensure that UPS does not knowingly deliver cigarettes to unauthorized recipients in violation of various state laws, including PHL § 1399-ll(2).
10. UPS represents that, after the Implementation Date, the UPS Tariff and UPS’s Terms and Conditions, which describe the terms and conditions pursuant to which UPS provides package delivery services for shippers, and together form parts of the UPS
shipping contract, were amended to provide in pertinent part: “Shippers are prohibited from shipping,
and no service shall be rendered in the transportation
of, any tobacco products that shippers are not authorized to ship under applicable state law or that are addressed to recipients not authorized to receive such
shipments under applicable law.”
11. UPS represents that, since the Implementation Date, it has provided formal training to its employees regarding PHL § 1399-ll, and it has educated
its New York delivery drivers and pre-loaders about
the statute’s delivery restrictions and instructed New
York drivers and pre-loaders not to load for delivery,
or deliver, packages in violation of PHL § 1399-ll.
12. UPS represents, that on June 13, 2003, it
wrote to approximately 400 shippers who have UPS
accounts to notify them of the provisions of PHL
§ 1399-ll, and advised them that it would no longer

491a
accept packages containing cigarettes for delivery to
unauthorized recipients in New York.
13. UPS represents that, shortly after UPS responded to the Attorney General’s Subpoena, it conducted an unannounced audit of the ten shippers
identified on Schedule C of the Subpoena who had
shipped more than 1,000 packages each to New York
after June 18, 2003.
14. UPS represents that (a) its audit revealed
that two of the shippers were shipping packages that
contained cigarettes in violation of PHL § 1399-ll,
(b) it returned the packages to the shippers, and (c) it
immediately terminated any further pickup service to
these shippers.
15. UPS has made a business decision to adopt a
formal policy expressly prohibiting the shipment of
cigarettes to individual consumers in the United
States while still permitting the lawful shipment of
cigarettes to licensed tobacco businesses and other
persons legally authorized to receive shipments of cigarettes (the “UPS Cigarette Policy”). Specifically, the
UPS Cigarette Policy states as follows:
“1.

UPS does not provide service for shipments of cigarettes to consumers.

2.

UPS only accepts shipments of cigarettes
for delivery to recipients who are licensed or otherwise authorized by applicable federal, state, provincial or local
law or regulation to receive deliveries of
cigarettes.”

WHEREAS, UPS offers this Assurance of Discontinuance in settlement of the Alleged Past Violations

492a
asserted by the Attorney General, and intending that
this Assurance of Discontinuance will promote further
and ongoing cooperation between UPS and the Attorney General concerning UPS’s compliance with PHI,
§ 1399-ll; and
WHEREAS, the Attorney General accepts the following assurances from UPS pursuant to Executive
Law § 63(15) in lieu of commencing a civil action
against UPS for the Alleged Past Violations;
NOW, THEREFORE, IT IS HEREBY UNDERSTOOD AND AGREED AS FOLLOWS:
Definitions
16. In addition to the terms defined throughout
this Assurance of Discontinuance, the following terms
shall have the meanings indicated for purposes of this
Assurance of Discontinuance:
A.

“Authorized Recipient” shall mean tobacco
manufacturers; licensed wholesalers, tax
agents, retailers, and export warehouses; government employees acting in accordance with
their official duties; or any other person or entity
to whom cigarettes may be lawfully transported
pursuant to federal law and the law of the state in
which delivery is made, including those persons
described in PHL §1399-ll(1) with respect to the
State of New York.

B.

“Cigarette” shall have the meaning set forth in
N.Y. Tax Law § 470(1): “any roll for smoking
made wholly or in part of tobacco or of any other
substance, irrespective of size or shape and
whether or not such tobacco or substance is fla-

493a
vored, adulterated or mixed with any other ingredient, the wrapper or cover of which is made
of paper or any other substance or material except tobacco.”
C.

“Cigarette Retailer” shall mean and refer to a
person or entity that sells and ships Cigarettes
to Individual Consumers in the ordinary course
of the person’s or entity’s business.

D.

“Cigarette Website” shall mean and refer to an
Internet website through or at which a person
sells Cigarettes.

E.

“Delivery Services” shall mean and refer to any
outbound delivery services provided to a shipper, when the shipper’s packages are tendered
to UPS for delivery from the shipper’s pickup
address. “Delivery Services” shall also include
outbound delivery services provided to a shipper, when the shipper’s packages are tendered
to UPS for delivery by other means (e.g., drop
box, authorized shipping outlet, UPS customer
counter), except that where this Assurance of
Discontinuance requires UPS to suspend or refuse to provide Delivery Services, UPS shall
only be required to make a reasonable, good
faith effort to suspend or refuse to provide outbound delivery services when the shipper’s
packages are tendered to UPS by means other
than pickup from a shipper’s pickup address.

F.

“Effective Date” shall mean and refer to the
date on which this Assurance of Discontinuance
is fully and completely executed by the parties
hereto.

494a
G.

“Individual Consumer” shall mean and refer to
any person or entity other than an Authorized
Recipient.

H.

“Prohibited Shipment” shall mean and refer to
any package containing Cigarettes tendered to
UPS where the shipment, delivery or packaging
of such Cigarettes would violate Public Health
Law § 1399-ll.

Restrictions
17. UPS shall comply with PHL § 1399-ll(2), and
adhere to the UPS Cigarette Policy described in Paragraph 15 prohibiting the shipment of Cigarettes to Individual Consumers in the United States.
18. Within thirty (30) days of the Effective Date,
UPS shall set forth the UPS Cigarette Policy, using
language that does not deviate in substance from the
language used in Paragraph 15, in UPS’s Terms and
Conditions of Service and UPS’s General Tariff Containing the Classifications, Rules and Practices for the
Transportation
of
Property,
published
at
http://www.ups.com/, and further incorporate the
UPS Cigarette Policy into the addendum of contracts
signed by shippers who ship Cigarettes.
19. UPS shall not amend its Tariff, its Terms and
Conditions of Service or the UPS Cigarette Policy in a
manner that is inconsistent with this Assurance of
Discontinuance.
20. UPS shall revise, to the extent it has not yet
done so already, and maintain its delivery policies and
procedures for Cigarettes in accordance with this Assurance of Discontinuance.

495a
Notifications to Cigarette Retailers
21. To the extent it has not already done so,
within thirty (30) days after the Effective Date, UPS
shall identify and compile a list that includes UPS
customers that UPS believes may be Cigarette Retailers. UPS shall use the following sources of information to compile the list: (a) sellers and shippers
identified on Schedule C of the Attorney General’s
subpoena duces tecum dated August 6, 2004, for
which UPS has identified account numbers; (b) sellers
and shippers identified as likely Cigarette Retailers
based on UPS’s search of names in its customer database for words such as “cigarette,” “smoke,” and “tobacco;” (c) sellers and shippers identified as likely Cigarette Retailers based on UPS’s search of codes in its
customer database; and (d) UPS’s knowledge of
known Cigarette Retailers. As part of its production
in response to the Attorney General’s subpoenas, UPS
shall provide a copy of the list to the Attorney General
when completed, as well as copies of updated lists as
may be requested from time to time by the Attorney
General.
22. To the extent it has not already done so,
within thirty (30) days of the Effective Date, and at
ninety (90) day intervals thereafter, UPS shall use an
appropriate Internet search engine to identify additional shippers who list UPS as a carrier for Cigarettes shipped to Individual Consumers. UPS will investigate shippers who use the Cigarette Websites
identified by the search engine to determine whether
these shippers in fact ship Cigarettes to Individual
Consumers via UPS, and conduct audits of such shippers to the extent required by Paragraph 24 of the As-

496a
surance of Discontinuance. In the event UPS’s Internet searches in any consecutive twelve (12) month period do not uncover any shippers identified through
such searches that have tendered Cigarettes to UPS
for delivery to Individual Consumers, UPS’s obligation to conduct such searches pursuant to this Paragraph shall cease.
23. Within thirty (30) business days of identifying
a person as a Cigarette Retailer pursuant to Paragraphs 21 and 22, or becoming aware through some
other means that a person is using or purporting to
use UPS’s Delivery Services to ship Cigarettes to Individual Consumers, UPS shall correspond in writing
with such person, indicating that UPS no longer
transports Cigarettes to Individual Consumers and
does not accept such shipments for delivery.
Audits
24. UPS shall audit shippers where there is a reasonable basis to believe that such shippers may be
tendering Cigarettes for delivery to Individual Consumers, in order to determine whether the shippers
are in fact doing so.
Database: Record Keeping
25. UPS shall develop and maintain a database
that includes information regarding Cigarette Retailers (the “Tobacco Shipper Database”) with the following minimum components:
A.

A record of those shippers UPS has identified as Cigarette Retailers through the
procedures implemented pursuant to Paragraphs 21, 22 and 23. The record shall include the following information, when

497a
available, as to the shipper and the shipment: (i) the shipper’s name, (ii) known
business address(es), (iii) known website
address(es), (iv) known pick-up location(s),
(v) UPS account number(s), (vi) the name
of the contact person for the shipper, and
(vii) the UPS account executive responsible for the shipper, if any (collectively,
“Shipper Information”).
B.

A record of Cigarette Retailers’ non-compliance with the UPS Cigarette Policy, including a list of tracking numbers for shipments of Cigarettes to Individual Consumers intercepted by UPS, available Shipper
Information, and the date of the shipment.

C.

A record of the results of audits of any Cigarette Retailers performed by UPS.

D.

A record of discipline taken against any
Cigarette Retailers by UPS.

Discipline of Shippers
26. If UPS discovers a shipment of Cigarettes to
Individual Consumers, UPS shall make and maintain
a record of the shipper of such package or shipment.
Within thirty (30) days of a written request in the
form of a subpoena, which may be adequately served
by letter or e-mail to the person identified pursuant to
Paragraph 38 of this Assurance of Discontinuance,
UPS shall provide the Office of the Attorney General
with a written record of shipments of Cigarettes to Individual Consumers, if any.
27. If UPS has a reasonable basis to believe that
a shipper has willfully or intentionally violated UPS’s

498a
Cigarette Policy, UPS shall immediately and permanently suspend all Delivery Services for such shipper.
For other violations of UPS’s Cigarette Policy, which
UPS has a reasonable basis to believe are not willful
or intentional, UPS shall apply the discipline procedures established in Paragraphs 28 through 33 of this
Assurance of Discontinuance.
28. In response to a shipper’s first violation of
UPS’s Cigarette Policy, UPS shall give the shipper notice of the violation, in writing, by telephone call, or
by in-person meeting with the shipper, and discuss
the violation with a management-level person at the
shipper. Such contact shall occur no later than five (5)
business days after UPS discovers the violation, and
UPS shall make a written record of each contact. UPS
shall tell the shipper why the shipment was noncompliant, reiterate its policy of not accepting packages
containing Cigarettes for shipment to Individual Consumers, explain UPS’s progressive discipline policy,
and ask the customer to increase its efforts to comply
with UPS’s policy. Within two (2) business days of
such contact, UPS shall suspend Delivery Services for
such shipper for a period of ten (10) days unless and
until a reasonable and verifiable written action plan
for compliance with UPS’s Policies is provided by the
shipper and approved by UPS. UPS shall maintain a
copy of the action plan, and conduct an audit of such
shipper within ninety (90) days after Delivery Services to the shipper are reinstated to determine if the
shipper is complying with UPS’s Policies.
29. In response to a shipper’s second violation of
UPS’s Cigarette Policy within one-hundred eighty
(180) days after the date of contact for the first violation, UPS shall give the shipper notice of the violation

499a
in writing, by telephone call, or by in-person meeting,
and discuss the violation with a management-level
person at the shipper. Such contact shall occur no
later than five (5) business days after UPS discovers
the second violation, and UPS shall make a written
record of each contact. UPS shall tell the shipper why
the shipment was non-compliant, reiterate its policy
of not accepting packages containing Cigarettes for
shipment to Individual Consumers, explain UPS’s
progressive discipline policy, and ask the customer to
increase its efforts to comply with UPS’s policy. UPS
shall also advise the shipper that it has violated UPS’s
restrictions a second time, and that a third non-compliant shipment within one (1) year after the date of
contact for the first violation will result in a three-year
suspension of Delivery Services. Within two (2) business days of such contact, UPS shall suspend Delivery
Services for such shipper for a period of thirty (30)
days. UPS may, however, restore Delivery Services for
products other than Cigarettes after a minimum of
ten (10) days of suspension if UPS receives reasonable
and verified assurances from the shipper that the
shipper no longer ships Cigarettes via UPS. UPS shall
maintain a copy of any assurances received pursuant
to this Paragraph, and conduct an audit of such shipper within ninety (90) days after Delivery Services to
the shipper are reinstated to determine if the shipper
is complying with UPS’s Policies.
30. In response to a shipper’s third violation of
UPS’s Cigarette Policy within one-hundred eighty
(180) days after the date of contact for the second violation, UPS shall give the shipper notice of the violation in writing, by telephone call, or by in-person

500a
meeting, and discuss the violation with a management-level person at the shipper. Such contact shall
occur no later than five (5) business days after UPS
discovers the third violation, and UPS shall make a
written record of each contact. UPS shall tell the shipper why the shipment was non-compliant, reiterate its
policy of not accepting packages containing Cigarettes
for shipment to Individual Consumers, explain UPS’s
progressive discipline policy, and ask the customer to
increase its efforts to comply with UPS’s policy.
Within two (2) days of such contact, UPS shall suspend Delivery Services for the shipper for a period of
three (3) years. UPS may, however, restore Delivery
Services for products other than Cigarettes after a
minimum of six (6) months of suspension if UPS receives reasonable and verified assurances from the
shipper that the shipper no longer ships Cigarettes
via UPS. UPS shall maintain a copy of any assurances
received pursuant to this Paragraph, and conduct an
audit of such shipper within ninety (90) days after Delivery Services to the shipper are reinstated to determine if the shipper is complying with UPS’s Policies.
31. The violations found to have occurred pursuant to this Assurance of Discontinuance, as well as the
periods of suspension that are imposed, shall be applied both to the shipper committing the violation, and
to any other shipper, whether an existing UPS customer or a new UPS customer, that UPS has a reasonable basis to believe is shipping or seeking to ship Cigarettes (a) from the same location as the suspended
shipper, (b) on behalf of a suspended shipper, or (c)
with the same account number as the suspended shipper.

501a
32. In the event of an inadvertent and immaterial
violation of the UPS Cigarette Policy by a shipper who
predominantly ships products other than Cigarettes
(meaning, shippers whose total UPS shipments of
products other than Cigarettes in the previous year
exceed ninety (90) percent of the total UPS shipments
by such shipper in the previous year), UPS shall have
discretion to make reasonable deviations from the discipline procedures established above in Paragraphs 28
through 30 for the limited purpose of affirmatively assisting such shippers to implement safeguards intended to eliminate future inadvertent and immaterial shipments of Cigarettes to Individual Consumers.
In any case in which UPS deviates from the discipline
procedures established above based on this Paragraph, within five (5) business days of its decision to
deviate from the discipline procedures, UPS shall provide the Attorney General with written notice of its
decision to deviate. Such notice shall include the following information: (a) the information described in
Paragraph 25(A)-(D) as to the shipper; (b) the factual
basis for the deviation; and (c) a record of the affirmative assistance UPS has given to the shipper to implement safeguards intended to eliminate future inadvertent and immaterial shipments.
33. The discipline procedures established herein
above in Paragraphs 27 through 32 are minimum
sanctions and shall not prevent UPS from imposing
greater sanctions on any shipper.
Continuing Compliance Training
34. UPS shall continue periodically to train its
drivers and pre-loaders and other relevant UPS em-

502a
ployees about UPS’s Cigarette Policy and the compliance measures agreed to in this Assurance of Discontinuance.
35. Within ninety (90) days after the Effective
Date, and on at least an annual basis thereafter, UPS
shall issue a Pre-work Communication Message
(“PCM”) to UPS drivers, pre-loaders and any other
UPS employees who are involved in the compliance
measures agreed to in this Assurance of Discontinuance to help ensure that these personnel are actively
looking for indications that a package contains Cigarettes being shipped to an Individual Consumer, alerting UPS management of such packages and attempting to intercept such packages.
36. Within ninety (90) days of the Effective Date,
UPS shall issue a PCM to drivers to instruct them not
to deliver packages that contain Cigarettes being
shipped to Individual Consumers, and alerting UPS
management if they know or believe that a business
is engaged in shipping Cigarettes to Individual Consumers.
37. UPS shall continue periodically to train its account executives with tobacco accounts to which UPS
provides Delivery Services about the UPS Cigarette
Policy, PHL § I399-ll, and the compliance measures
agreed to in this Assurance of Discontinuance, including, but not limited to, UPS’s policy of not accepting
packages containing Cigarettes for shipment to Individual Consumers, UPS’s right to conduct unannounced audits of shippers’ packages and UPS’s progressive discipline policy for shippers who tender Cigarettes for shipment to Individual Consumers.

503a
Point of Contact
38. UPS designates Norman M. Brothers, Jr.,
Vice President—Legal, United Parcel Service, Inc., 55
Glenlake Parkway NE, Atlanta, GA 30328, (404) 8286000, nbrothers@ups.com, as the point of contact
within its legal department to whom the Office of the
Attorney General or any other New York State or local
governmental authority can make the notifications
contemplated by this Assurance of Discontinuance or
address any concerns about Cigarette sellers and
shippers using UPS to deliver Cigarettes to persons
located in New York. UPS may change its designated
point of contact within its legal department upon ten
(10) days prior written notice to the Attorney General.
Response to Notice of Potential Violation
39. If the Attorney General or any other governmental authority provides UPS with evidence that a
UPS customer is shipping Cigarettes to Individual
Consumers, UPS shall discipline such shipper pursuant to the process set forth in Paragraphs 27 through
32 of this Assurance of Discontinuance.
40. If the Attorney General or any other governmental authority represents to UPS that a UPS customer is shipping Cigarettes to Individual Consumers, but does not provide evidence of such shipments,
UPS shall conduct an audit of that shipper. UPS shall
discipline, pursuant to the process set forth in Paragraphs 27 through 32 of this Assurance of Discontinuance, shippers found to be shipping Cigarettes to Individual Consumers.

504a
Access to and Retention of Information
41. Within thirty (30) days of service of a subpoena by the Attorney General, which may be adequately served by first class mail or e-mail delivered
to the person identified in Paragraph 38 of this Assurance of Discontinuance, UPS shall provide the Office
of the Attorney General with access to any information relating to compliance with the terms of this
Assurance of Discontinuance. UPS shall retain (a) information required to be collected pursuant to this Assurance of Discontinuance, and (b) information relating to its compliance with this Assurance of Discontinuance, for a period of not less than five (5) years.
ENFORCEMENT, PENALTIES AND COSTS
42. UPS shall pay to the State of New York a stipulated penalty of $1,000 for each and every violation
of this Assurance of Discontinuance occurring after
the Effective Date; provided, however, that no penalty
shall be imposed if (a) the violation involves the shipment of Cigarettes to an Individual Consumer outside
the State of New York, or (b) the violation involves the
shipment of Cigarettes to an Individual Consumer
within the State of New York, but UPS establishes to
the reasonable satisfaction of the Attorney General
that UPS did not know and had no reason to know
that the shipment was a Prohibited Shipment.
43. Pursuant to EL § 63(15), evidence of a violation of this Assurance of Discontinuance that involves
the shipment of Cigarettes to an Individual Consumer
within the State of New York shall also constitute
prima facie proof of a violation of PHL § 1399-ll(2) in

505a
any civil action or proceeding that the Attorney General hereafter commences against UPS for violation of PHL § 1399-ll(2).
EFFECT OF SETTLEMENT
44. This Assurance of Discontinuance represents
a voluntary agreement, and is a settlement of the parties’ claims and defenses, subject to the qualifications
and limitations discussed in Paragraph 45.
45. Nothing about this Assurance of Discontinuance, including its existence or terms, shall in any way
limit, impair or constrain UPS’s ability to seek a court
ruling that PHL § 1399-ll(2) is unconstitutional,
preempted by federal law, or otherwise unenforceable
as applied against UPS, including in any action or proceeding brought by the Attorney General against UPS
alleging that UPS has violated PHL § 1399-ll(2). In
entering this Assurance of Discontinuance, UPS expressly reserves, and does not waive, its position that
PHL § 1399-ll(2) is preempted by the Federal Aviation
Administration Authorization Act of 1994.
46. Notwithstanding the foregoing Paragraph 45,
nothing about this Assurance of Discontinuance, including its existence or terms, or any obligation undertaken by UPS pursuant to this Assurance of Discontinuance, shall serve as proof or evidence in support of or in opposition to any claim or contention
made in any action or proceeding, whether the claim
or contention is asserted by UPS or any other person,
alleging, in whole or in part, that PHL § 1399-ll is unconstitutional, preempted by federal law, or otherwise
unenforceable as applied against UPS or any other
carrier.

506a
47. UPS and the Attorney General shall meet to
discuss whether any changes or alterations to this Assurance of Discontinuance are warranted in the event
that: (a) the New York State Legislature repeals or
amends PHL § 1399-ll in a manner that permits common carriers to deliver Cigarettes to Individual Consumers in New York State; or (b) PHL § 1399-ll is determined to be invalid by and/or enforcement of such
law against common carriers is enjoined by a court of
competent jurisdiction, and no further appeal of such
decision is available and no stay of such injunction is
in effect. If no agreement can be reached, then UPS
shall have the right to terminate this Assurance of
Discontinuance upon thirty (30) days written notice
sent to the Attorney General after such meeting. If
such termination is based upon a repeal or amendment to PHL § 1399-ll pursuant to clause (a) above,
then upon such termination the Attorney General
shall have the right to seek any relief for violations of
this Assurance of Discontinuance and/or any applicable laws that occurred during the period in which this
Assurance of Discontinuance was in effect. Notwithstanding any provision of this Assurance of Discontinuance to the contrary, the termination of this Assurance of Discontinuance in accordance with the terms
of this Paragraph 47 shall not constitute a violation of
this Assurance of Discontinuance.
MISCELLANEOUS PROVISIONS
48. All correspondence and payment submitted
by UPS to the State of New York and the Office of Attorney General pursuant to this Assurance of Discontinuance shall be sent to the attention of:

507a
Vincent P. Esposito, Jr.
Assistant Attorney General
Office of the New York State Attorney
General
Health Care Bureau
The Capitol
Albany, NY 12224
49. Within sixty (60) days of the Effective Date, a
UPS management official shall file a report with the
Office of the Attorney General verifying that UPS is
in full compliance with all of the terms of this Assurance of Discontinuance and setting forth the details of
all compliance measures undertaken by UPS pursuant to the terms hereof, with specific reference to the
sections of this Assurance of Discontinuance. Such report shall include as attachments sufficient documents reasonably necessary for the Attorney General
to determine whether UPS has complied with this Assurance of Discontinuance.
50. The acceptance of this Assurance of Discontinuance by the Attorney General shall not be deemed
or construed as an approval by the Attorney General
of any of the activities of UPS, its officers, directors,
employees, assignees and any individual, corporation,
subsidiary, or division through which UPS may now
or hereinafter act, or of any successors in interest; and
none of the parties shall make any representation to
the contrary. UPS may, however, disclose that it has
resolved the Attorney General’s investigation by mutual agreement with the Office of the Attorney General, and that UPS has voluntarily agreed as part of
the resolution to prohibit the shipment of Cigarettes
to Individual Consumers in the United States.
51. The rights and remedies in this Assurance of
Discontinuance are cumulative and in addition to any

508a
other statutory or other rights that the Attorney General may have at law or equity, including but not limited to any rights and remedies under PHL § 1399-ll.
52. This Assurance of Discontinuance shall not
grant any rights or privileges to any person or entity
who is not a party to this Assurance of Discontinuance, nor shall this Assurance of Discontinuance affect or limit in any way the rights of any such third
party.
53. This Assurance of Discontinuance shall be
binding on and apply to UPS, its officers, directors,
employees, affiliates, assignees and any individual,
corporation, subsidiary or division through which
UPS may now or hereinafter act, as well as any successors in interest.
54. This Assurance of Discontinuance may not be
altered, amended, modified or otherwise changed in
any respect or particular whatsoever, except by a writing duly executed by the parties or their authorized
representatives.
55. This Assurance of Discontinuance may be executed in telecopied counterparts, each of which will
constitute an original but all of which taken together
shall constitute one and the same document.
56. The individuals executing this Assurance of
Discontinuance represent that they have full and complete authority to sign this document and to bind their
respective parties to all the terms and conditions set
forth herein.
WHEREFORE, the following signatures are affixed hereto effective this _21st for October, 2005.

509a
ELIOT SPITZER

UNITED PARCEL
SERVICE, INC.

Attorney General of the
State of New York
By:

By:

/s/ Vincent P. Esposito

/s/ Norman M. Brothers

Vincent P. Esposito, Jr.
Assistant Attorney
General

Norman M. Brothers,
Jr.
Vice President - Legal

